U.S. Department of Housing and Urban Development

Office of Inspector General


Semiannual Report
to Congress




April 1, 2009, through September 30, 2009
Profile of Performance
                                        Audit profile of performance
                          for the period April 1, 2009, through September 30, 2009
     Results                                                        This reporting period       FY 09 totals
     Recommendations that funds be put to better use                     $309,937,713         $1,948,438,436
     Recommended questioned costs                                        $260,482,674          $371,368,053
     Collections from audits                                              $21,658,252          $165,766,317
     Administrative sanctions                                                   5                    10



                                    Investigation profile of performance
                          for the period April 1, 2009, through September 30, 2009
     Results                                                        This reporting period       FY 09 totals
     Funds put to better use                                              $43,794,874          $116,438,222
     Recoveries/receivables                                              $128,569,489          $219,778,868
     Indictments/informations                                                 621                   1,182
     Convictions/pleas/pretrial diversions                                    433                    847
     Civil actions                                                             40                    92
     Administrative sanctions                                                 402                   1,018
     Personnel actions1                                                        48                    82
     Arrests2                                                                 783                   1,554
     Search warrants                                                           61                    136
     Subpoenas issued                                                         502                   1,031



                                       Hotline profile of performance
                          for the period April 1, 2009, through September 30, 2009
     Results                                                        This reporting period       FY 09 totals
     Funds put to better use                                              $1,904,439             $4,370,166
     Recoveries/receivables                                                $132,624               $506,649



1
 Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal,
State, or local governments or of Federal contractors and grantees, as the result of Office of Inspector General
(OIG) activities. In addition, this reporting category includes actions by Federal agencies to suspend, debar, or
exclude parties from contracts, grants, loans, and other forms of financial or nonfinancial transactions with the
government, based on findings produced by OIG.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
  Inspector General Message
                                 The U.S. Department of Housing and Urban Development, Office of Inspector
                                 General (HUD OIG), is proud to present its Semiannual Report to the Congress
                                 for the second half of fiscal year 2009. HUD OIG employees–auditors, agents,
                                 attorneys, and support staff–maintain a spirit of commitment in their mission
                                 on behalf of the taxpayers of the United States.

                                 We remain immersed in the operations of the Department, specifically
                                 activities affecting the housing industry. The effective implementation of the
                                 American Recovery and Reinvestment Act (ARRA) and safeguarding these
                                 funds is our daily thrust as demonstrated by more than a score of audits of
                                 communities with a questionable capacity to administer or expend these
                                 funds.

                                 We continue to be leaders in investigating mortgage fraud. We have been
                                 invited to take a leading role in the interagency Financial Fraud Enforcement
                                 Task Force organized by the U.S. Department of Justice.

Our accomplishments have continued unabated. During this reporting period, we had $355.6 million in funds
put to better use, questioned costs of $260.4 million, and $150.4 million in recoveries and receivables, while
closing 564 investigative cases and issuing 130 audits. This exceptional work has had an impact on fraud and
the misuse of taxpayer dollars, and it is with gratitude that I acknowledge the HUD OIG staff who worked so
hard to achieve these results and their associated deterrent effect.

Our high-profile audits and investigations have once again paralleled the Department’s strategic initiatives
with particular concern for the health of the Federal Housing Administration’s (FHA) mortgage insurance
fund. HUD OIG staff continues to work with the Department to improve its effectiveness and as a result, has
developed and implemented better and more effective audit recommendations.

Our audit of the Puerto Rico Public Housing Administration is a good example of our ARRA oversight, shining a
light on its mismanagement of its Capital Fund Financing Program. Two other important audits–of the Housing
Authotity of New Orleans and the Texas Disaster Recovery Plan–demonstrate our continued attentiveness to
the billions appropriated for hurricane disaster relief in the Gulf States. During this period, we also focused on
registered sex offenders receiving Section 8 rent subsidies and recommended that HUD seek legislative and
program rule changes to require denial of continued occupancy and termination of tenancy for all lifetime
registered sex offenders residing in subsidized housing.

We are deeply immersed in fighting fraud and systemic problems within the mortgage industry. I have testified
to Congress about potential fraud, and we are working diligently with congressional staff on legislation to
tighten laws to protect the FHA and borrowers.

None of these important accomplishments would have been possible without the extraordinary staff of HUD
OIG, and for them I am truly thankful.




Kenneth M. Donohue
Inspector General



Inspector General Message                                                                                       v
                                   Audit reports issued by program



                                                                         Single-family housing, 11%
                                                                         Multifamily housing, 7%
                                                                         Public and Indian housing, 36%
                                                                         Community planning and 	
                                                                         development, 35%
                                                                         Other programs, 11%




                                Monetary benefits identified by program



                                                                         Single-family housing, 3%
                                                                         Multifamily housing, 1%
                                                                         Public and Indian housing, 53%
                                                                         Community planning and 	
                                                                         development, 43%
                                                                         Other programs, 0%




                          Monetary benefits identified in millions of dollars


         $350                                       $301.1
         $300                                                       $243.5
         $250
         $200
         $150
         $100
          $50        $18.4            $7.4                                           $0.0
           $0
                Single-family    Multifamily     Public and      Community         Other
                   housing        housing      Indian housing   planning and     programs
                                                                development




Audit Charts                                                                                              vii
         Investigative cases opened by program area (total: 480)



                                                      Single-family housing, 31% (151)
                                                      Public and Indian housing, 40% (191)
                                                      Multifamily housing, 9% (42)
                                                      Community planning and 	
                                                      development, 14% (69)
                                                      Other, 6% (27)




       Investigative recoveries by program area (total: $128,569,489)



                                                      Single-family housing, 85%
                                                      ($108,835,794)
                                                      Public and Indian housing, 8%
                                                      ($10,416,272)
                                                      Multifamily housing, 1% ($1,709,466)
                                                      Community planning and 	
                                                      development, 6% ($7,585,696)
                                                      Other, 0% ($22,261)




viii                                                                    Investigation Charts
  Acronyms List
ACA		           Asset Control Area
AFGE		          American Federation of Government Employees
AIGA		          Assistant Inspector General for Audit
AIGI		          Assistant Inspector General for Investigation
ARIGA		         Assistant Regional Inspector General for Audit
ARRA		          American Recovery and Reinvestment Act of 2009
ASAC		          Assistant Special Agent in Charge
CDBG		          Community Development Block Grant
CDBG-R	         Community Development Block Grant Recovery
CPD		           Office of Community Planning and Development
DHAP		          Disaster Housing Assistance Program
DHS		           U.S. Department of Homeland Security
DOJ		           U.S. Department of Justice
DRGR		          Disaster Recovery Grant Reporting system
EIV		           Enterprise Income Verification
FEMA		          Federal Emergency Management Agency
FFI		           Fugitive Felon Initiative
FFMIA		         Federal Financial Management Improvement Act of 1996
FHA		           Federal Housing Administration
FHAP		          Fair Housing Assistance Program
FHEO		          Office of Fair Housing and Equal Opportunity
FISMA		         Federal Information Security Management Act
FERA		          front-end risk assessment
FSS		           Family Self-Sufficiency
FY		            fiscal year
GAO		           U.S. Government Accountability Office
Ginnie Mae	     Government National Mortgage Association
GPRA		          Government Performance Results Act
HECM		          Home equity conversion mortgage
HERA		          Housing and Economic Recovery Act of 2008
HOME		          HOME Investment Partnerships Program
HUD		           U.S. Department of Housing and Urban Development
IAA		           interagency agreement
IDIS		          Integrated Disbursement and Information System
IG		            Inspector General



Acronyms List                                                          ix
IOI		      Identity of interest
IRS		      Internal Revenue Service
IT		       information technology
NAHASDA	   Native American Housing Assistance and Self-Determination Act of 1996
NAHRO	     National Association of Housing and Redevelopment Officials
NCDF		     National Center for Disaster Fraud
NSP		      Neighborhood Stabilization Program
OA		       Office of Audit
OHHLHC	    Office of Healthy Homes and Lead Hazard Control
OI		       Office of Investigation
OIG		      Office of Inspector General
OMB		      Office of Management and Budget
PFCRA		    Program Fraud Civil Remedies Act
PHA		      public housing agency
PIH		      Office of Public and Indian Housing
RAMPS		    Recovery Act Management and Reporting System
REAP		     Resource Estimation and Allocation Process
RESPA		    Real Estate Settlement Procedures Act
RIGA		     Regional Inspector General for Audit
SA		       Special Agent
SAC		      Special Agent in Charge
SBA		      Small Business Administration
SEMAP		    Section Eight Management Assessment Program
SFA		      Senior Forensic Auditor
SHP		      Supportive Housing Program
SSA		      Senior Special Agent
SSA		      Social Security Administration
SSN		      Social Security number
TEAM		     Total Estimation and Allocation Mechanism
U.S.C.		   United States Code
USMS		     United States Marshals Service
USPS		     United States Postal Service
VA		       U.S. Department of Veterans Affairs




x                                                                                  Acronyms List
  Table of Contents
Executive Highlights 											                                                                	 1
Chapter 1 - HUD’s Single Family Housing Programs        		                                       7	
	     Audits        												                                                                 8	
	     Investigations                             							                                         14 	
	     Inspections and Evaluations 									                                                	     23
Chapter 2 - HUD’s Public and Indian Housing Programs 						                                    	 25	
	     Audits       										                               		                                   26	
	     Investigations 									                            			                                    40
Chapter 3 - HUD’s Multifamily Housing Programs 			                                               55	
	     Audits       												                                                                  56	
	     Investigations 												                                                                60
Chapter 4 - HUD’s Community Planning and Development Programs 				                          	 65	
	     Audits       												                                                               66	
	     Investigations                                     						                               76 	
	     Inspections and Evaluations 									                                                	 81
Chapter 5 - American Recovery and Reinvestment Act of 2009 						                                83	
	     Introduction and Background									                                                       84 	
	     Audits 												                                                                      	 85
Chapter 6 - Disaster Relief Oversight 									                                             	 99	
	     Introduction and Background 								                                                  	 100	
	     Audits 												                                                                   	 101	
	     Investigations              								                                          		        105	
	     Inspections and Evaluations 									                                                	 113
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline 				                   	     115	
	     Audits      												                                                                   116	
	     Investigations											                                                            	     119	
	     Inspections and Evaluations										                                                      120	
	     OIG Hotline      											                                                               121
Chapter 8 - Outreach Efforts                 								                                            123
Chapter 9 - Review of Policy Directives 								                                           	     147	
	     Enacted Legislation Related to Single-Family Housing					                            	     148	
	     Proposed Rules              										                                                     148
Chapter 10 - Audit Resolution   										                                                       149	
	     Audit Reports Issued before the Start of the Period with No Management Decision 		         150	
	     Significant Revised Management Decisions        							                                    150	
	     Significant Management Decision with Which OIG Disagrees        				                 	     153	
	     Federal Financial Management Improvement Act of 1996 					                           	     153	
	     Correction Action Verification									                                                    153
Appendix 1 - Audit Reports Issued 									                                                	     155
Appendix 2 - Tables 											                                                            	     165
Appendix 3 - Index 											                                                             	     185
HUD OIG Operations Telephone Listing 								                                              	     189



Table of Contents                                                                                       xi
      Reporting Requirements
The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
Inspector General Act of 1988, are listed below:
Source/Requirement              											
Pages
Section 4(a)(2)-review of existing and proposed legislation and regulations.				                                148
Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to	     	          1-122, 148	
the administration of programs and operations of the Department.
Section 5(a)(2)-description of recommendations for corrective action with respect to			                       7-122	
significant problems, abuses, and deficiencies.
Section 5(a)(3)-identification of each significant recommendation described in Appendix 2, Table B
previous semiannual report on which corrective action has not been completed.		
Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                        	       7-122
prosecutions and convictions that have resulted.
Section 5(a)(5)-summary of reports made on instances in which information or             No Instances	
assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of 				
the Act.
Section 5(a)(6)-listing of each audit report completed during the reporting period and    Appendix 1
for each report, where applicable, the total dollar value of questioned and unsupported 			
costs and the dollar value of recommendations that funds be put to better use.
Section 5(a)(7)-summary of each particularly significant report and the total dollar value             	      7-122 	
of questioned and unsupported costs.
Section 5(a)(8)-statistical tables showing the total number of audit reports and the         Appendix 2, Table C 	
total dollar value of questioned and unsupported costs. 					
Section 5(a)(9)-statistical tables showing the total number of audit reports Appendix 2, Table D
and the dollar value of recommendations that funds be put to better use by 					
management.
Section 5(a)(10)-summary of each audit report issued before the commencement    Appendix 2, Table A 	
of the reporting period for which no management decision had been made by the 		           		
end of the period.
Section 5(a)(11)-a description and explanation of the reasons for any 			                          No Instances	
significant revised management decisions made during the reporting period.
Section 5(a)(12)-information concerning any significant management decision with which the                      153	
Inspector General is in disagreement.
Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                         153	
Federal Financial Management Improvement Act of 1996.




xii                                                                                    Reporting Requirements
    Strategic Initiative 1

    HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the reduction of fraud in single-family insurance programs through
    •	 Audits uncovering single-family and loan origination abuse
    •	 Audits of the U.S. Department of Housing and Urban Development’s (HUD) internal policies to
        determine whether controls are adequate
    •	 Strategy for civil fraud initiatives
    •	 National strategy for single-family mortgage fraud task forces
    •	 Outreach to industry and consumer groups and the Department

    Highlights: Results or impact of significant OIG work
    •	 Federal Housing Administration’s (FHA) lender approval process did not have sufficient            page 9
        controls and procedures to ensure that lenders met all applicable requirements for         		
        approval to participate in the FHA single-family program.                                  	
    •	 Audits of nine FHA single-family mortgage lenders found that lenders did not follow HUD       page 9
        requirements when underwriting loans and performing quality control procedures.            	
    •	 The Government National Mortgage Association (Ginnie Mae) Mortgage Backed Securities             page 11
        program’s contract documents were audited to ensure that mortgages were insured.           	
    •	 Florida mortgage fraud schemes caused HUD and Ginnie Mae losses in excess of $87                 page 15
        million.                                                                                   	
    •	 Worldwide Financial Services was required to pay HUD and others more than $3.4 million           page 20
        after entering into a False Claims Act settlement.                                         	
    •	 Conducted an evaluation of Mortgage Review Board enforcement actions                             page 23
    •	 More than 420 mortgage and real estate professionals attend an FHA modernization                page 125
        conference in Georgia.

    Emerging Issues: Areas of OIG interest
    •	 American Recovery and Reinvestment Act (ARRA)
    •	 Dramatic increase in lenders/brokers/issuers seeking to do business with FHA and Ginnie Mae
    •	 Investigations focusing on Home Equity Conversion Mortgage program
    •	 FHA’s ability and capacity to oversee its expanding market share
    •	 FHA’s refinancing of riskier loans than it has historically had in its portfolio
    •	 Strategy for housing counseling
    •	 Loan limit increases opening new metropolitan areas with unknown risks




2                                                                                         Executive Highlights
  Strategic Initiative 2

 HUD Strategic Goal: Promote Decent Affordable Housing
 OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
 through
 •	 ARRA – to focus on grantee capacity to administer ARRA funds
 •	 Reduce erroneous payments
 •	 Contribute to improving the performance of entities managing rental assistance programs
 •	 Investigative initiatives involving corruption in the management of troubled public housing
     authorities and multifamily developments
 •	 Public and Department-wide outreach initiatives

 Highlights: Results or impact of significant OIG work
 •	 Audits of 24 Section 8 Housing Choice Voucher and leased housing activities found that 	          page 27
     the housing agencies were not following HUD’s requirements for administering the             		
     program.                                                                                     	
 •	 An audit of HUD’s requirements prohibiting lifetime registered sex offenders from               page 38
     admission to HUD-subsidized housing found that 2,094 to 3,046 households included       		
     lifetime registered sex offenders.                                                      		
 •	 A former Navajo Housing Authority chief executive officer and developer was indicted for  page 41
    allegedly accepting bribes and fraudulently using about $2.5 million in HUD funds.       		
 •	 A former contract chief financial officer for the Housing Authority of New Orleans pled           page 41
     guilty to stealing more than $900,000 in HUD funds.                                          	
 •	 32 Georgia Section 8 tenants were arrested and charged with fraudulently obtaining                page 44
     $330,000 in housing assistance.                                                              	
 •	 A contractor for a HUD-funded multifamily property manager was charged with allegedly             page 61
     stealing $1.8 million in HUD funds.                                                          	
 •	 The Puerto Rico Housing Administration did not manage the 2003 Financing Program in an            page 87
     economical, efficient, and effective manner. As a result, it disbursed $57.4 million in capital		
     funds to pay for interest charges on unused borrowed capital. The Authority could not          		
     account for more than $18.7 million in program income and inappropriately obligated $32.2		
     million in ARRA funds.                                                                         	
 •	 Rental assistance fraud schemes were highlighted for more than 650 National Association            pages
     of Housing and Redevelopment Officials members across the country.                               129-131
                                                                                                  		
 Emerging Issues: Areas of OIG interest                                                           	
 •	 Rental assistance fraud initiatives targeting public housing agencies in receivership or on the HUD
    troubled list
 •	 Eligibility of grantee expenditures
 •	 Eligibility of grantee ARRA expenditures
 •	 HUD’s oversight of performance-based contract administrators




Executive Highlights                                                                                        3
    Strategic Initiative 3

    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    •	 Promote integrity, efficiency, and effectiveness of programs
    •	 Contribute to the reduction of fraud, waste, and abuse through

    •	 ARRA - focus on capacity audits for Neighborhood Stabilization program (NSP) and Community
       Development Block Grant (CDBG) grantees
    •	 Audits of the CDBG, Supportive Housing, and HOME Investment Partnerships (HOME) Programs
    •	 Audits of disaster activities
    •	 Investigative initiative to fight corruption in the administration of State or local community planning
       and development programs
    •	 Disaster relief fraud in HUD CDBG-funded programs
    •	 Public dissemination of HUD OIG activities and outreach activities with State and local government
       agencies and other community affairs agencies

    Highlights: Results or impact of significant OIG work
    •	 OIG reviewed HUD’s HOME program and found that HUD needs to improve efforts to                   page 70
       require participating jurisdictions to cancel more than $62 million in HOME fund balances
                                                                                              		
       for open activities that were committed more than 5 years ago.                         		
    •	 A payroll supervisor pled guilty to stealing CDBG funds.                                         page 77
    •	 A grant writer pled guilty to making false statements that enabled a nonprofit organization     page 77
       to fraudulently obtain more than $1.1 million in HUD funds.                                		
    •	 OIG conducted capacity reviews of 11 entities to determine whether they had the capacity    page 86
       to manage the ARRA funds they will be receiving.                                           		
    •	 OIG reviewed HUD’s CDBG, Supplemental I and II Disaster Recovery program funds,             page 101
       administered by the Texas Department of Housing and Community Affairs (TDHCA).             		
       OIG found that TDHCA’s plan did not require homeowner’s insurance on properties            		
       reconstructed with Supplemental I funding and required only limited insurance for          		
       properties funded under Supplemental II. Due to a lack of insurance, HUD’s CDBG 	          		
       Disaster Recovery Assistance funds invested in these homes is at risk.                     		
    •	 A former Gulfport, MS, mayor pled guilty to stealing Federal Emergency Management           page 105
       Agency funds.		                                                                      		
    •	 A HUD attorney and her husband were indicted for allegedly making false statements 	  page 105
       and claims and committing theft of government funds.                                 		
    •	 Community development grant fraud was described for 300 HUD Homelessness 	                      page 132
       Prevention and Rapid Re-Housing Program grantees in Chicago, IL.

    Emerging Issues: Areas of OIG interest
    •	 Audits and investigations of the ARRA funding and NSP.




4                                                                                           Executive Highlights
  Strategic Initiative 4

 HUD Strategic Goal: Embrace High Standards of Ethics, Management, and Accountability
 OIG Strategy:
 •	 Be a relevant and problem-solving advisor to the Department
 •	 Contribute to improving HUD’s execution and accountability of fiscal responsibilities through

 •	 Refering audits and investigations to the departmental Mortgagee Review Board and other
     management officials to ensure the accountability of individuals and firms committing fraud
 •	 Audits of HUD’s financial statements
 •	 Audits of HUD’s information systems and security management
 •	 Participating in U.S. Department of Justice Financial Fraud Task Force

 Highlights: Results or impact of significant OIG work
 •	 A real estate broker was debarred for providing downpayment funds and fraudulent                 page 21
     documents used by unqualified borrowers to obtain FHA-insured mortgages.                   	
 •	 A permanent civil injunction was filed against a mortgage company and its owner.                 page 22
 •	 HUD OIG audited the security of HUD’s Web applications. OIG evaluated security 	                page 117
    measures in place that protect HUD information, scanned identified Web applications, 	       		
    and identified vulnerabilities and suspect configurations that place sensitive information 	 		
    at risk.                                                                                     	
 •	 HUD OIG recommended improvements in internal controls over processing personnel                page 117
    actions.                                                                                     	
 •	 HUD OIG conducted an audit to determine whether technical, management, and                     page 118
    operational controls were in place to ensure adequate protection of HUD’s data and
    resources at its third-party business partners’ sites that remotely access or physically
    process and maintain HUD data outside HUD’s secured physical perimeter.

 Emerging Issues: Areas of OIG interest
 •	 Issuer accountability in loan portfolio defaults in the Ginnie Mae Mortgage-Backed Securities
     program
 •	 Continued modernization and enhancement of HUDs information systems
 •	 Mortgage crisis impact on the soundness of the FHA fund




Executive Highlights                                                                                       5
    The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance to
mortgage lenders that, in turn, provide financing to enable individuals and families to purchase, rehabilitate,
or construct homes. In addition to the audits and investigations described in this chapter, the U.S. Department
of Housing and Urban Development, Office of Inspector General (HUD OIG), has conducted numerous
outreach efforts (see chapter 8, page 124).



     Audit
                         Strategic Initiative 1: Contribute to the reduction of fraud
                                    in single-family insurance programs
    Key program results                            Questioned costs                    Funds put to better use
       Audit             15 audits                       $925,000                            $17.4 million
                           Page 9          •	 FHA Title II single-family lender approval process
                           Page 9          •	 Mortgagees, loan correspondents, and direct endorsement lenders
                          Page 11          •	 Review of Government National Mortgage Association mortgage-
       Our         			                        backed securities
      focus         Page 12                •	 HUD’s oversight of the Home Equity Conversion Mortgage program
                          Page 12          •	 Review of the Asset Control Area program
                          Page 13          •	 Real estate-owned properties




                    Chart 1.1: Percentage of OIG single-family housing audit reports
                                      during this reporting period




                                                                                        Region 1 - 14%
                                                                                        Region 2 - 7%
                                                                                        Region 3 - 13%
                                                                                        Washington, DC 7%
                                                                                        Region 4 - 0%
                                                                                        Region 5 - 13%
                                                                                        Region 6 - 13%
                                                                                        Regions 7/8 - 13%
                                                                                        Regions 9/10 - 20%
                                                                                        Region 11 - (N/A)*




    * This does not include disaster relief audits. See chapter 5 for these reviews.



8                                                                          Chapter 1 - Single-Family Housing Programs
Federal Housing Administration Title II Single-Family Lender Approval
Process

     In response to a congressional request, HUD OIG audited the Federal Housing Administration (FHA) Title
II single-family lender approval process to determine whether (1) the application process provided effective
controls and procedures to ensure approval of only those lenders meeting program requirements and (2)
FHA collected application fees, accounted for files that were electronically imaged, and planned to include
new requirements.

     FHA’s lender approval process did not have sufficient controls and procedures to ensure that lenders met
all applicable requirements for approval to participate in the FHA single-family program. In addition, FHA did
not obtain or consider negative information on lenders from other HUD offices, ensure that application fees
were collected, ensure that all supporting documents were obtained, or include adequate certifications on
the lender application form. Further, FHA’s controls over the contractor tasked with imaging lender approval
files did not ensure the proper disposition of those files, which contained personally identifiable information.

    OIG recommended that FHA (1) ensure that lender principals and staff are free of indictment, conviction,
debarment, suspension, limited denials of participation, and unpaid Federal debt before applications are
approved; (2) consult with other HUD offices to determine whether applicants are subject to unresolved
findings and ensure that application fees received are reconciled with the related applications; and (3)
include a stronger lender fraud certification on the application and improve controls over the maintenance
and disposition of electronic lender files. (Audit Report: 2009-SE-0004)

Mortgagees, Loan Correspondents, and Direct Endorsement Lenders

    Audits to uncover loan origination abuses by single-family lenders continued to be a priority during this
semiannual period. Lenders are targeted for audit through the use of data mining techniques, along with
prioritizing audit requests from outside sources. During this period, HUD OIG reviewed nine FHA single-family
mortgage lenders. While the objectives varied by auditee, the majority of the reviews were to determine
whether the auditees originated FHA-insured loans in accordance with HUD requirements. Other lender
audits addressed origination requirements for Home Equity Conversion Mortgages (HECM), commonly known
as reverse mortgages. The following section illustrates some of the audits conducted in the single-family
mortgage lender area.

                                                    

    HUD OIG audited FHA-insured loan processes at two DHI Mortgage Company, LTD, branches in Tucson
and Scottsdale, AZ, and found that DHI Mortgage did not follow HUD requirements for originating, approving,
or closing FHA-insured loans. The review identified 205 loans with prohibited restrictive addendums to the
purchase contracts and 24 loans with significant underwriting deficiencies. In addition, DHI Mortgage’s quality
control processes had weaknesses, including failure to determine that 19 loans were not eligible for FHA
insurance because the loan officer had been debarred from participation in FHA-insured loan transactions.

    OIG recommended that HUD require DHI Mortgage to (1) indemnify HUD more than $38 million for loans
that did not meet FHA insurance requirements, (2) refund or buy down FHA-insured loans for overinsurance
totaling nearly $16,000, and (3) fully implement a quality control plan in compliance with FHA requirements.
(Audit Report: 2009-LA-1018)

                                                    




Chapter 1 - Single-Family Housing Programs                                                                    9
    HUD OIG audited Midwest Mortgage Capital in St. Louis, MO, and found that Midwest did not properly
underwrite 7 of the 29 defaulted loans reviewed. These loans had material underwriting deficiencies that
affected the insurability of the loans. In addition, Midwest’s quality control reviews were inadequate and did
not meet HUD’s requirements.

   OIG recommended that HUD (1) require Midwest to indemnify HUD against future losses for seven
loans with unpaid principal balances totaling more than $1 million and (2) verify that Midwest provides its
underwriters with additional training on FHA requirements and properly performs its quality control function.
(Audit Report: 2009-KC-1007)

                                                     

     HUD OIG audited single-family loan originations at Eagle Home Mortgage in Kirkland, WA, and found that
Eagle Mortgage did not always originate FHA-insured loans in accordance with HUD requirements. Specifically,
it did not follow HUD’s underwriting requirements for 15 of the 36 FHA-insured loans reviewed, three of which
had deficiencies that affected the insurability of the loan. In addition, it did not adequately follow its HUD-
approved quality control plan when reviewing loans with early payment defaults when it failed to review one
loan, which defaulted after only four payments. Further, 4 of 17 quality control reviews performed by Eagle
Mortgage did not find observable deficiencies in the loans. As a result, Eagle Mortgage’s management did not
always have the accurate feedback needed to improve its loan origination process.

    OIG recommended that HUD (1) require Eagle Mortgage to reimburse or indemnify HUD for actual and
potential losses on three loans with underwriting deficiencies, (2) review loans recently underwritten by
Eagle Mortgage to verify that the underwriting deficiencies noted during our review are no longer an issue, (3)
review Eagle Mortgage’s monthly quality control reports to ensure that they include all FHA-insured loans that
defaulted within the first 6 months, and (4) require Eagle Mortgage to conduct training on its quality control
plan. (Audit Report: 2009-SE-1003)

                                                     

     HUD OIG audited the Newark, DE, branch office of J.P. Morgan Chase bank, a supervised direct endorsement
lender approved to originate FHA single-family mortgage loans. OIG found that J.P. Morgan Chase generally
complied with HUD requirements in the origination and quality control review of FHA-insured single-family
loans. However, a review of eight sample loans, valued at approximately $1.3 million, showed that its branch
office did not underwrite one of the loans, originally valued at more than $157,000, in accordance with HUD
requirements. In addition, of five loans that J.P. Morgan Chase reviewed as part of its quality control process,
it did not fully implement quality control procedures as required for one improperly underwritten loan. As a
result, the FHA insurance fund was exposed to an unnecessary increased risk.

     OIG recommended that HUD require J.P. Morgan Chase to indemnify nearly $194,000 for one loan, which
it issued contrary to HUD’s loan origination requirements; reimburse more than $26,000 for a loss from a
claim incurred by HUD on another improperly underwritten loan; and fully enforce its policies, procedures,
and controls to ensure that its staff consistently follows HUD requirements. (Audit Report: 2009-PH-1010)

                                                     

    HUD OIG audited SecurityNational Mortgage Company, in Murray, UT, an FHA-approved direct endorsement
lender, and found that SecurityNational did not follow HUD regulations when underwriting 18 FHA-insured
loans. One of the loans contained significant underwriting deficiencies because the borrower overstated
self-employment income and SecurityNational did not detect the borrower’s misrepresentation. In addition,
SecurityNational did not review all FHA-insured loans that defaulted within the first 6 months, nor did it perform
its monthly quality control reviews in a timely manner.



10                                                                 Chapter 1 - Single-Family Housing Programs
    OIG recommended that HUD (1) require SecurityNational to reimburse it for the loss on the loan that had
underwriting deficiencies and (2) monitor SecurityNational to ensure that it effectively monitors its underwriters’
actions and properly performs its quality control reviews. (Audit Report: 2009-DE-1003)

                                                      

    HUD OIG audited Financial Freedom Senior Funding Corporation in Irvine, CA, to determine whether
Financial Freedom complied with HUD origination requirements for the HECM program, commonly known
as a reverse mortgage.

    Financial Freedom generally followed HUD reverse mortgage requirements for the borrower’s age
and completion of a counseling program for the 10 loans reviewed. However, it did not fully follow other
requirements for five of the loans totaling $753,000. Financial Freedom originated one ineligible loan for a home
that was not the borrower’s primary residence, one loan for a home that the borrower no longer occupied,
and three loans for homes that had issues with repairs.

    OIG recommended that HUD (1) cancel the mortgage insurance on the ineligible loan; (2) require Financial
Freedom to contact the borrower and determine the occupancy status and if the borrower no longer lives in
the property, seek repayment of the ineligible loan; (3) require Financial Freedom to ensure that the repairs
have been completed for two loans; (4) consider administrative action against an inspector if warranted; and
(5) require Financial Freedom to issue guidance to its underwriters on repairs affecting the health and safety
of the occupants or the security and the soundness of the property. (Audit Report: 2009-FW-1012)

                                                      

    HUD OIG audited Bank of America’s HECM servicing division in Seattle, WA, to determine whether the
servicer complied with HUD regulations, specifically, whether it verified that the properties remained the
borrowers’ primary residence, ensured maintenance of the properties, and processed HUD claims or property
foreclosures in a timely manner.

    The servicer did not comply with two HUD requirements in its administration of HECM loans. It did not
maintain annual certifications of residency and did not notify HUD in a timely manner of the due and payable
status of the mortgages of deceased borrowers. Both weaknesses could result in the properties’ remaining
vacant longer, increased property deterioration, the need for additional maintenance, and potential decline
in property value.

    OIG recommended that HUD require the servicer to implement procedures to ensure that it completes
the annual certifications of residency and notifies HUD of the due and payable status of mortgages within 60
days after a borrower’s death. (Audit Report: 2009-FW-1013)

Review of Government National Mortgage Association Mortgage-Backed
Securities
(Report Not Available to the Public)

    HUD OIG audited the Government National Mortgage Association (Ginnie Mae) Mortgage-Backed
Securities (MBS) program’s contract documents and other program-related representations as well as certain
business practices related to ensuring that mortgages were insured. The audit objectives were to determine
whether Ginnie Mae (1) agreements with the issuers sufficiently protected Ginnie Mae against fraud or other
misrepresentation in the MBS program and (2) had implemented sound business practices to ensure that only
insured mortgages remained in Ginnie Mae pools.




Chapter 1 - Single-Family Housing Programs                                                                      11
    While OIG’s audit did not disclose instances in which Ginnie Mae agreements with the issuers were
insufficient to protect the agency against losses, OIG had concerns related to certain Ginnie Mae business
practices. OIG has determined that the contents of this report would not be appropriate for public disclosure
and has limited its distribution to selected HUD officials. (Audit Report: 2009-FO-0005)

HUD’s Oversight of the HECM Program

     HUD OIG audited HUD’s oversight of the FHA-insured HECM program to determine whether HUD had
adequate oversight of the underwriting of HECM loans. With the exception of four loans reviewed, HUD
generally performed adequate reviews of loans insured under the program. For the four loans, HUD did not
identify errors or fully address underwriting deficiencies. Further, HUD did not maintain documentation to fully
determine whether the appropriate parties were checked against the U.S. General Services Administration’s
(GSA) excluded parties list. GSA’s excluded parties list is a system that identifies those parties excluded from
receiving Federal contracts, certain subcontracts, and certain types of Federal financial and nonfinancial
assistance and benefits. HUD could benefit from improvements to its review processes to increase the reliability
of its assurance that lenders complied with the underwriting requirements for program loans.

     OIG recommended that HUD require the lender to reduce payments to the borrower or seek reimbursement
for one case for nearly $12,000 in excess of the borrower’s initial principal limit and provide documentation for
another case with maximum claim amounts totaling $70,000, showing that the borrower’s unacceptable rating
has been resolved. If it is determined that the rating has not been resolved, HUD should seek indemnification
for the life of the loan. The estimated risk to HUD for the second case is more than $37,000.

    OIG also recommend that HUD improve its procedures and controls for performing postendorsement
technical and quality assurance reviews of program loans, to provide reasonable assurance that underwriting
deficiencies will be detected. (Audit Report: 2009-CH-0003)


Review of the Asset Control Area Program

     HUD OIG audited the HUD Asset Control Area (ACA) program to determine whether HUD administered the
program in compliance with program requirements and Federal regulations. The purpose of the ACA program
is to promote the revitalization of designated communities, through expanding homeownership opportunities
as designated revitalization areas.

   Generally HUD’s ACA program has increased homeownership for low- and moderate-income borrowers
and contributed to the revitalization of blighted communities. However, HUD’s administration of the program
was not always in compliance with program requirements and Federal regulations. Specifically, (1) final ACA
regulations need to be issued, (2) existing program requirements need to be adequately enforced, and (3)
HUD’s monitoring needs to improve to ensure compliance with program requirements and Federal regulations.

    OIG recommended that HUD (1) issue final ACA regulations in a timely manner, (2) provide additional
training and technical assistance to program participants and staff to ensure that they are aware of the
regulations, (3) ensure that ACA requirements are adequately enforced, and (4) enhance controls to ensure
that HUD’s monitoring is effective in improving ACA participants’ compliance with program requirements.
(Audit Report: 2009-NY-0002)

                                                     




12                                                                 Chapter 1 - Single-Family Housing Programs
    HUD OIG audited the City of Reading, PA’s ACA program to determine whether the City administered its
program in compliance with HUD requirements. OIG focused the review on whether the City complied with
specific requirements in its ACA agreement with HUD pertaining to repairs for its acquired properties, resale
of the properties, ACA boundaries, and conflicts of interest.

    The City generally administered its ACA program in compliance with HUD requirements. Because it
complied with specific requirements in its agreement with HUD pertaining to repairs for its acquired properties,
resale of the properties, ACA boundaries, and conflicts of interest, it administered the program in a manner
that increased homeownership for low- and moderate-income borrowers and contributed to the revitalization
of blighted communities. (Audit Report: 2009-PH-1008)

Real Estate-Owned Properties

    HUD OIG audited Custom Closing Services, Incorporated, in Farmington Hills, MI, a contractor closing
sales of HUD real estate-owned properties in the State of Michigan, to determine whether Custom complied
with its contract for closing sales of HUD real estate-owned properties.

    Custom did not fully comply with its contract when closing sales of HUD homes. Specifically, it did not
(1) request city presale inspections and contract extensions in a timely manner, (2) always cancel expired
sales contracts and submit requests for payments to the marketing and management contractor for cancelled
contracts in a timely manner, or (3) provide required information to HUD. Custom’s delays in requesting
presale inspections contributed to delays in the closings of HUD homes, which resulted in HUD’s incurring
additional holding costs to maintain properties in its inventory. In addition, HUD lacked assurance that Custom
represented HUD’s best interests and upheld a positive image of HUD as required under the performance
measures of its contract.

    OIG recommended that HUD require Custom to (1) implement the real estate property sale closing
software in accordance with its contract to monitor and track the progress of its closing files, (2) notify the
selling brokers and buyers of the contracts’ expiration dates in accordance with Custom’s contract with HUD,
(3) maintain accurate accounting records to reflect cash receipts for cancelled files in accordance with HUD’s
requirements, (4) implement adequate procedures and controls to ensure that it properly administers requests
for extensions to sales contracts, and (5) coordinate with the marketing and management contractor in regard
to requesting city presale inspections. In addition, OIG recommended that HUD determine whether Custom is
performing satisfactorily under its current contract with HUD. If the same conditions exist as those identified
in this audit, HUD should determine the appropriate course of action regarding the current contract. (Audit
Report: 2009-CH-1021)

                                                    




Chapter 1 - Single-Family Housing Programs                                                                   13
     Investigations
   Some investigations discussed in this report were generated from leads provided by HUD single-family
housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
results of various significant investigations are described below.


                   Strategic Initiative 1: Contribute to the reduction of fraud
                              in single-family insurance programs
 Key program         Cases                  $              Convictions/pleas/             Admin/civil
    results          closed             recovered              pretrials                   actions

 Investigations         62             $108,835,794                 61                        76
                     Page 15      •	 Loan origination fraud
       Our           Page 19      •	 Identity fraud and false Social Security numbers
      focus          Page 20      •	 Civil and administrative actions
                     Page 22      •	 Other single-family fraud




         Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                  during this reporting period



                                                                          Region 1 - 10%
                                                                          Region 2 - 1%
                                                                          Region 3 - 8%
                                                                          Region 13 - 18%
                                                                          Region 4 - 10%
                                                                          Region 14 - 0%
                                                                          Region 5 - 10%
                                                                          Region 15 - 6%
                                                                          Region 6 - 10%
                                                                          Regions 7/8 - 16%
                                                                          Region 9 - 10%
                                                                          Region 10 - 0%
                                                                          Region 11 - 1%




14                                                            Chapter 1 - Single-Family Housing Programs
Loan Origination Fraud

    Corey Brower, a former owner and president of Foundation Funding, doing business as GreatStone Mortgage,
an FHA-approved direct endorsement lender and Ginnie Mae-approved issuer, and former Foundation Funding
officer and underwriter Sandi Brower each pled guilty in U.S. District Court, Tampa, FL, to making false
statements and committing a conspiracy and fraud against HUD. From August 1999 through April 2001, Corey
and Sandi Brower and others altered appraisals and other loan documents used by unqualified borrowers
to obtain FHA-insured mortgages that were eventually packaged and securitized by Ginnie Mae. In addition,
Corey and Sandi Brower and others created and sold 930 bogus loans securitized by Ginnie Mae to investors.
HUD and Ginnie Mae realized losses of $78 million after 3,164 mortgages defaulted.




   Copyright 2009. The Tampa Tribune. Tampa, FL. Reprinted with permission.



                                                          

    Beazer Homes USA (Beazer Homes) entered into a deferred prosecution filed in U.S. District Court,
Charlotte, NC, and agreed to pay FHA $5 million and provide up to $50 million toward a national fund to pay
home-buyer victims. Beazer Homes accepted and acknowledged that it is responsible for the criminal acts
of former employees and the former employees of Beazer Mortgage Corporation as set forth in the criminal
information filed in conjunction with this agreement. Beazer Homes and Beazer Mortgage Corporation
employees allegedly conspired and provided fraudulent statements to HUD. HUD realized losses of $14.7
million after 413 mortgages defaulted.

                                                          

    Robert and Patrick Singletary and Peter Russo, owners of CAL Investments, Universal Title Company, and
Tropical and Sunshine Mortgage Companies, were collectively sentenced in U.S. District Court, Jacksonville,
FL, to 42 months and 2 days incarceration and 9 years supervised release and ordered to pay HUD $1 million
in restitution and forfeit $2.5 million for their earlier guilty pleas to committing a conspiracy to make false
statements to HUD and wire fraud. From 1997 to January 2004, the above defendants and others conspired
and provided fraudulent gift fund checks used by unqualified borrowers to obtain FHA-insured mortgages.
HUD realized losses in excess of $9 million after 139 mortgages defaulted.

                                                          


Chapter 1 - Single-Family Housing Programs                                                                  15
    Keith Lyon, the former vice president for Encore Mortgage, and Mahn Doan, also known as Bruce Doan,
were collectively sentenced in U.S. District Court, Philadelphia, PA, to 151 months and 45 days incarceration,
6 months house arrest, and 6 years supervised release and ordered to pay HUD more than $5.1 million in
restitution for their earlier guilty pleas to making false statements to HUD and committing a conspiracy and wire
and identity fraud. Lyon, Doan, and others provided fraudulent documents used by unqualified borrowers to
obtain FHA-insured mortgages. HUD realized losses in excess of $4.45 million after 183 mortgages defaulted.

                                                              

    Kandy Marriott, the former owner of One Way Home and Land (One Way) and Energy Homes, was
collectively sentenced in Navarro and Kaufman County District Courts, Corsicana and Kaufman, TX, to 40
years incarceration for her earlier guilty pleas to engaging in organized criminal activities. In addition, former
One Way and Energy Homes business associate Karen Hayes was sentenced to 18 years incarceration for
her earlier guilty plea to engaging in an organized criminal activity. From October 2000 to September 2008,
Marriott, Hayes, and others forged signatures or provided fraudulent documents used by unqualified borrowers
to obtain FHA-insured mortgages. HUD realized losses in excess of $4.2 million after 74 mortgages defaulted.




     Copyright 2009. The Star-Telegram. Fort Worth, TX. Reprinted with permission.



                                                              

    Michael McGrath, Jr., the former president and director of U.S. Mortgage Corporation (U.S. Mortgage)
and its subsidiary, CU Nations Mortgage, LLC, pled guilty in U.S. District Court, Newark, NJ, to committing a
conspiracy to commit money laundering and mail and wire fraud. From January 2004 through January 2009,
McGrath conspired with others to fraudulently sell credit union mortgage loans to Fannie Mae and used $139
million in illicit proceeds to fund personal and business investments and U.S. Mortgage operations. In addition,
McGrath and others provided fraudulent documents used by unqualified borrowers to obtain FHA-insured and
conventional mortgages. HUD realized losses of $2.7 million after about 1,700 mortgages defaulted.

                                                              

    Real estate speculator Joseph Greenblatt was sentenced in U.S. District Court, Central Islip, NY, to 46 months
incarceration and 5 years supervised release and ordered to pay HUD more than $2.3 million in restitution and
forfeit $200,000 for his earlier guilty plea to making false statements. Greenblatt inflated property appraisals
and loan information used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses
in excess of $2.3 million after 11 mortgages defaulted.

                                                              



16                                                                            Chapter 1 - Single-Family Housing Programs
    Linda Carnagie was sentenced in U.S. District Court, Denver, CO, to
41 months incarceration and 36 months supervised release and ordered
to pay HUD $206,693 in restitution and forfeit $41,205 for her earlier
conviction of making false statements and committing a conspiracy,
wire fraud, and money laundering. Carnagie and others submitted or
caused the submission of fraudulent documents used by unqualified
borrowers to obtain FHA-insured mortgages. HUD realized losses of
about $1.25 million after 25 mortgages defaulted.

                                    

     Reyes Quintero, a former loan officer for American Residential
Funding, pled guilty in U.S. District Court, Los Angeles, CA, to
committing a conspiracy. Quintero and others caused the submission
of fraudulent loan documents used by unqualified borrowers to obtain
FHA-insured mortgages. HUD realized losses in excess of $1.1 million
after 38 mortgages defaulted.
                                                                              Copyright 2009. The Denver Post, Denver, CO.
                                                                                                Reprinted with permission.

                                                        

    Lynn Ingle, a former loan officer for The Mortgage Group, was indicted in U.S. District Court, Fort Worth, TX,
for allegedly committing a conspiracy to make false entries to HUD, and former Mortgage Group loan officer
Dena Musgraves pled guilty to committing a conspiracy to make false entries to HUD. Ingle allegedly and
                       Musgraves admittedly created or provided fraudulent documents used by unqualified
                       borrowers to obtain FHA-insured mortgages. HUD realized losses of $964,814 after 21
                       mortgages defaulted.

                                                                    

                              Michael O’Keefe, Jr., the president and owner of Citywide Mortgage Company
                          (Citywide), pled guilty in U.S. District Court, New Orleans, LA, to making a false statement
                          to HUD. In addition, former Citywide underwriter Michelle Cochrane and Calvin Davis
                          were collectively sentenced to 52 months and 1 day incarceration and 6 years supervised
                          release for their earlier guilty pleas to making false statements to HUD or committing
                          a conspiracy to make false statements to HUD. O’Keefe, Cochrane, Davis, and others
                          recruited straw buyers, inflated appraisals, or provided fraudulent documents used by
                          unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $686,566
                          after 11 mortgages defaulted.

                                                                    

                              Yolanda Gomez and Omar Alfonso each pled guilty in U.S. District Court, Miami, FL,
                          to committing wire fraud, and Eugenio Garcia was sentenced to 15 months incarceration
                          and 2 years supervised release and ordered to pay HUD $256,497 in restitution for his
                          earlier guilty plea to committing wire fraud. Gomez and Alfonso allegedly and Garcia
                          admittedly provided fraudulent information and loan documents to obtain FHA-insured
                          mortgages. HUD realized losses in excess of $646,497 after three mortgages defaulted.

                                                                    
Copyright 2009. The Times-Picayune,
New Orleans, LA. Reprinted with permission.



Chapter 1 - Single-Family Housing Programs                                                                             17
    Lashawnda Smith was arrested after her indictment in DeKalb County Court, Decatur, GA, for allegedly
committing residential mortgage fraud. Smith allegedly provided fraudulent documents to obtain an FHA-
insured mortgage. HUD realized losses of $183,000 after her mortgage defaulted.

                                                      

    James Fish, a former loan officer for F.C. Chadwick Financial, was sentenced in U.S. District Court, Los
Angeles, CA, to 5 months supervised probation and ordered to pay victims not yet identified $179,692 in
restitution for his earlier guilty plea to committing wire fraud. Fish and others provided fraudulent documents
used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $179,692 after three
mortgages defaulted.

                                                      

    FHA-insured mortgagor Jessica Caplan was convicted in Adams County District Court, Brighton, CO, of
committing forgery; FHA-insured mortgagor Cheri Decker pled guilty to committing theft by receiving; and
former real estate agent and owner of Essien & Co. Realty, Ltd., Uto Essien, former realtor Idara Ekiko, FHA-
insured mortgagor Bradley Decker, and Enoh Etuk were collectively sentenced to 40 years incarceration and
12 years probation, ordered to perform 100 hours of community service and pay victims not yet identified
more than $1.1 million in restitution, and fined $75,000 for their earlier conviction or guilty pleas to committing
forgery, theft, computer crimes, or racketeering or violating the Colorado Organized Crime Control Act. The
above defendants provided fraudulent information or documents used by them or other unqualified borrowers
to obtain FHA-insured and conventional mortgages. HUD realized losses of $153,814 after three mortgages
defaulted.

                                                      

   Laura Cobbins, a Cuyahoga Metropolitan Housing Authority Housing Choice Voucher program participant,
was charged in Cuyahoga County Court of Common Pleas, Cleveland, OH, with allegedly tampering with
records. Cobbins allegedly provided false financial and identification documents to obtain and later default
on an FHA-insured mortgage. HUD realized a loss of $95,890 after her mortgage defaulted.

                                                      

    Former Chicago Housing Authority (Chicago) Section 8 landlord Steven Sturdivant was sentenced in U.S.
District Court, Chicago, IL, to 41 months incarceration and 3 years probation and ordered to pay HUD $37,411
in restitution for his earlier guilty plea to committing wire fraud. Sturdivant provided fraudulent documents to
obtain FHA-insured and conventional mortgages, filed numerous bankruptcies to delay foreclosure proceedings,
and failed to report his Chicago housing assistance payments on bankruptcy petitions.

                                                      

    Real estate closing attorney Daniel Fox pled guilty in U.S. District Court, Newark, NJ, to making false
statements to HUD. From October 2000 to November 2008, Fox and others created and provided fraudulent
documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD losses are not yet determined.

                                                      

    Real estate investor Mark McBride pled guilty in U.S. District Court, Atlanta, GA, to committing bankruptcy
fraud and a conspiracy to commit mail and wire fraud. From September 2001 through August 2008, McBride
and others provided false appraisals and fraudulent documents used by unqualified straw borrowers to obtain




18                                                                  Chapter 1 - Single-Family Housing Programs
FHA-insured and conventional mortgages for 600 Omni National Bank
real estate-owned properties they purchased. The straw borrowers
then placed the fraudulently obtained and mortgaged properties into
the Atlanta Housing Authority Section 8 program but failed to pay their
mortgage loans, caused temporary homelessness for Section 8 tenants,
and contributed to the collapse of the Omni National Bank. HUD losses
are not yet determined.

                                  

    Julie Weaver, a former loan officer for Alliance Guaranty Mortgage
Corporation, pled guilty in Denver County Court, Denver, CO, to
committing theft. Weaver fraudulently used a power of attorney, signed
closing documents for a straw buyer, and stole $24,310 in mortgage loan
proceeds derived from an FHA-insured refinance loan. HUD losses are
not yet determined.

Identity Fraud and False Social Security Numbers

    Karim Rangel, Rigoberto Hernandez, Jose Barraza, and Oscar Ibarra,
also known as Oscar Ortega, were each indicted in Dallas County District
Court, Dallas, TX, for allegedly securing execution of documents by
deception. The above defendants allegedly used false Social Security
numbers (SSN) to obtain FHA-insured mortgages. HUD realized losses               Copyright 2009. The Atlanta Journal
of $181,805 after four mortgages defaulted.                                      Constitution. Atlanta, GA. Reprinted
                                                                                                     with permission.

                                                     

     Antonio Vitale, also known as Tony Vitale, a former loan officer for Sterling Capital Mortgage Company, was
sentenced in Adams County District Court, Brighton, CO, and ordered to pay HUD $59,736 in restitution for
his earlier guilty plea to offering a false instrument for recording and attempting to influence a public servant.
Vitale provided forged documents and a fraudulent SSN used by an unqualified borrower to obtain an FHA-
insured mortgage. In addition, FHA-insured mortgagor Iris Rodriguez was sentenced to 24 months probation
and ordered to perform 24 hours of community service for her earlier guilty plea to offering a false instrument
for recording. Rodriguez fraudulently sold her FHA-insured property to her undocumented immigrant spouse.
HUD realized losses of $137,252 after two mortgages defaulted.

                                                     

    Macarena Villalobos Javalera, a former loan officer for Prestige Capital Funding and an FHA-insured
mortgagor, was charged in Adams County District Court, Brighton, CO, with allegedly offering a false instrument
for recording, attempting to influence a public servant, and committing theft and forgery. Javalera allegedly
provided a fraudulent SSN and documents to obtain her FHA-insured mortgage and assisted undocumented
immigrants, who used fraudulent documents or SSNs to obtain their FHA-insured mortgages. HUD realized
a loss of about $91,000 after one mortgage defaulted.




Chapter 1 - Single-Family Housing Programs                                                                          19
Civil and Administrative Actions

    World Wide Financial Services, Inc. (World Wide), doing business as Loan Giant, entered into a False
Claims Act settlement filed in U.S. District Court, Detroit, MI, and agreed to pay HUD and numerous bankruptcy
creditors more than $3.4 million. World Wide allegedly created and submitted fraudulent documents used by
unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $1.4 million after
10 mortgages defaulted.

                                                     

    Arvin Weiss, a real estate broker and president for Reserve Capital Funds, Inc., who was previously
convicted in U.S. District Court, Denver, CO, of committing mail and wire fraud and tampering with a witness,
was debarred from procurement and nonprocurement transactions with HUD and throughout the Executive
Branch of the Federal Government for 10 years. Weiss and others submitted fraudulent documents or provided
downpayment funds used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses
of about $852,000 after 18 mortgages defaulted.

                                                     

    John Prados and Caridad Paz, straw buyers who previously pled guilty in U.S. District Court, Newark, NJ, to
committing a conspiracy to defraud HUD or bankruptcy fraud and using a false SSN to obtain an FHA-insured
mortgage, were each debarred from procurement and nonprocurement transactions with HUD and throughout
the Executive Branch of the Federal Government for 3 years. Prados, Paz, and others used or supplied fraudulent
documents to obtain FHA-insured mortgages. HUD realized losses of $349,000 after 12 mortgages defaulted.

                                                     

    Madison Home Equities (Madison Home) and Nadine Malone, president of Madison Home, were each
named in a civil consent decree and judgment filed in U.S. District Court, Brooklyn, NY, and issued a permanent
civil injunction and administrative relief that prevents them from submitting claims for FHA insurance on loans
in default. In addition, Madison Home and Malone are prohibited from originating, underwriting, or submitting
loans to be insured by FHA and from participating in any Federal program involving mortgage loans. The
civil consent decree and judgment further indemnifies the United States and its agencies for any losses with
respect to 12 FHA-insured loans named in the civil complaint. Under an administrative agreement, Madison
Home and Malone were permanently debarred, withdrawn from the FHA direct endorsement program, and
ordered to pay HUD $90,000 in civil penalties. Malone and Madison Home allegedly provided false information
or documents used by unqualified borrowers to obtain FHA-insured mortgages.

                                                     

    National City Mortgage Company (National City), Wells Fargo Bank (Wells Fargo), and Wachovia Mortgage
Corporation (Wachovia), each with offices located in Newark, NJ, and First Tennessee Bank, N.A., doing
business as First Horizon Home Loan (First Horizon) located in Boston, MA, entered into Program Fraud Civil
Remedies Act (PFCRA) settlements and agreed to collectively pay HUD $133,752. National City knowingly
certified a fraudulent FHA-insured loan and submitted a false claim for FHA-insurance benefits after the borrower
defaulted; Wells Fargo knowingly certified a defaulted FHA-insured loan and submitted a false certification for
FHA-insurance eligibility; Wachovia knowingly certified a defaulted FHA-insured loan as current and submitted
the loan to HUD for late endorsement; and First Horizon originated and underwrote 41 FHA-insured mortgages
that allegedly contained false employment information.

                                                     



20                                                                 Chapter 1 - Single-Family Housing Programs
    Wayne Puff, the former owner of the now-defunct N.J. Affordable Homes, who previously pled guilty
in U.S. District Court, Newark, NJ, to committing a conspiracy to commit mail fraud; Kenneth Lagonie, the
president of Quality Homes Are Us and doing business as Quality Homes R Us and Quality Land Development
Corporation, who previously pled guilty to committing a conspiracy to commit wire fraud; and Anthony Natale,
Mitchell Fishman, and Sydney Raposo, former real estate attorneys or a paralegal, who previously pled guilty
to committing a conspiracy to commit mail or wire fraud or making false statements to HUD, were each
suspended from procurement and nonprocurement transactions with HUD and throughout the Executive
Branch of the Federal Government pending the outcome of criminal proceedings or any related debarment
action. From March 2003 to September 2005, the above defendants and others created and provided fraudulent
documents, provided to investors or used by unqualified borrowers to obtain FHA-insured and conventional
mortgages. HUD losses are not yet determined.

                                                     

    James Wright, a mortgage processor and HUD-certified direct endorsement underwriter who previously
pled guilty to committing forgery in Utah State Court, Layton, UT, was debarred from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government for
3 years. Wright forged documents and embezzled about $20,000 from his employer.

Other Single-Family Fraud

    Jamen Wood, a registered agent for BK Properties, LLC, was sentenced in U.S. District Court, Salt Lake
City, UT, to 27 months incarceration and 36 months supervised release and ordered to pay HUD $321,000 in
restitution for his earlier guilty plea to committing equity skimming and mail fraud. From July 2002 to January
2005, Wood and others identified properties surrendered to bankruptcy courts in multiple States, posed as
bankruptcy court or financial institution representatives and secured quit claim deeds from the property
owners, and rented about 300 properties and collected rents but failed to remit mortgage loan payments
and used the rents collected for personal expenditures. HUD realized losses of about $1.6 million after 45
mortgages defaulted.

                                                     

    Paul Hariston, doing business as Pro-Fund Property Management, Ltd., Pro-Team Property Management,
or Platinum Lending, was charged in Franklin County Court of Common Pleas, Columbus, OH, with allegedly
committing theft, tampering with records, securing writings by deception, and engaging in a pattern of corrupt
activity. Hariston obtained the deeds to six distressed FHA-insured properties and collected the mortgage
payments from the homeowners but allegedly failed to pay the mortgages and filed fraudulent bankruptcies
in the names of the homeowners to delay foreclosure proceedings. HUD realized losses of about $127,000
after six mortgages defaulted.

                                                     

    Jermaine Spencer, a HUD Officer/Teacher Next Door program participant and former Federal Bureau of
Prisons employee, was sentenced in U.S. District Court, Denver, CO, to 12 months probation for his earlier guilty
plea to making false statements to HUD. Spencer obtained a HUD-owned property and received a $72,500
discount but failed to reside in the property or report his nonresidency on HUD certifications.

                                                     




Chapter 1 - Single-Family Housing Programs                                                                    21
    Ernesto Tellez, a HUD Good Neighbor Next Door program participant and U.S. Department of Homeland
Security Border Patrol agent, was arrested after his indictment in U.S. District Court, El Paso, TX, for allegedly
making false statements to HUD. Tellez obtained a HUD-owned property and received a $38,250 discount but
allegedly failed to report his ownership interest in additional real estate on HUD certifications.

                                                             

    Thomas Ryan was charged in U.S. District Court, Santa Ana, CA, with allegedly committing false advertising
or misuse of names to indicate a Federal agency. Ryan allegedly created several fraudulent computer Web
sites that portrayed a HUD affiliation to solicit customers seeking to modify their mortgage loans and then sold
the customer contact information to alleged loan modification firms.

                                                             

    Lawrence Luckett, the chief executive officer for Home Mortgage, Inc., a HUD-approved lender, was indicted
in U.S. District Court, Chicago, IL, for allegedly committing bank fraud. Luckett allegedly obtained $317,500
from GMAC Bank to fund a fictitious mortgage loan on a property currently occupied and FHA insured.




     Copyright 2009. The Chicago Sun Times. Chicago, IL. Reprinted with permission.


                                                             




22                                                                           Chapter 1 - Single-Family Housing Programs
  Inspections and Evaluations
Evaluation of Mortgagee Review Board Enforcement Actions

    In response to a request from Senator Charles Grassley, Ranking Member, Senate Committee on Finance,
HUD OIG conducted an evaluation of Mortgagee Review Board (MRB) enforcement actions in fiscal year
2008. The objectives of the evaluation were to identify the facts related to the 10 questions asked by the
Senator and provide an independent assessment of the MRB’s effectiveness in deterring abuse in FHA
mortgage lending. The MRB’s annual report indicated that it ruled on 94 single-family lender referrals in
fiscal year 2008, 65 of which were administrative cases of noncompliance with FHA annual recertification
requirements. We reviewed 25 referrals (no administrative cases) to the MRB for rulings on violations of FHA
single-family regulations and policies.

    The statutory mission of the MRB is to protect FHA and its mortgage insurance funds from fraud and
program abuses and to deter noncompliance and mortgage lending irregularities. However, as disclosed by
the evaluation, the MRB ruled on few cases and often after a lengthy referral process. The MRB sanctioned
mostly technical violations of FHA policy; imposed penalties, but most penalties were without substantive
financial consequences to the lenders; and imposed the strongest sanction of withdrawal on mostly routine
cases of failure to recertify. (I&E Report: IED09 003)

                                                  




Chapter 1 - Single-Family Housing Programs                                                               23
    The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 3,496
public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8 programs.
Programs administered by PHAs are designed to enable low-income families, the elderly, and persons with
disabilities to obtain and reside in housing that is safe, decent, sanitary, and in good repair. In addition to the
audits and investigations described in this chapter, the U.S. Department of Housing and Urban Development,
Office of Inspector General (HUD OIG), has conducted numerous outreach efforts (see chapter 8, page 129).




     Audit
                   Strategic Initiative 2: Contribute to the reduction of erroneous
                                     payments in rental assistance
     Key program results                      Questioned costs                    Funds put to better use
       Audit          47 audits1                 $108.4 million                         $109.7 million
                       Page 27         •	 Section 8 Housing Choice Voucher and leased housing program
       Our      			                       activities at public housing agencies
      focus      Page 34               •	 Public housing program activities
                       Page 38         •	 Registered sex offenders’ occupancy of HUD subsidized housing

 1
  The total public and Indian housing audits, questioned costs, and funds put to better use amounts include all
 American Recovery and Reinvestment Act of 2009 (nine audits) and disaster recovery (two audits) type audits
 conducted in the public and Indian housing area. The write-ups for these audits are shown separately in chapters 5
 and 6 of this semiannual report.



               Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                   during this reporting period




                                                                                   Region 1 - 7%
                                                                                   Region 2 - 6%
                                                                                   Region 3 - 6%
                                                                                   Region 4 - 15%
                                                                                   Region 5 - 28%
                                                                                   Region 6 - 9%
                                                                                   Regions 7/8 - 6%
                                                                                   Regions 9/10 - 21%
                                                                                   Region 11 - 2%




26                                                                Chapter 2 - Public and Indian Housing Programs
    During this reporting period, OIG reviewed HUD’s controls over the Section 8 Housing Choice Voucher
program, leased housing program, and public housing activities, and reviewed HUD’s administration of
registered sex offenders in public housing.

Section 8 Housing Choice Voucher and Leased Housing Program Activities
at Public Housing Agencies
    Audits of the Section 8 Housing Choice Voucher program were a priority during this semiannual reporting
period. PHAs were selected for audit based on risk analysis and/or hotline complaints. While OIG’s objectives
varied by auditee, the majority of the reviews were to determine whether the units met housing quality
standards, the PHA managed the program according to HUD requirements, and the eligibility of the tenants
was correctly determined. The following section illustrates the audits conducted in the Section 8 Housing
Choice Voucher program area.

                                                       

   HUD OIG audited the Housing Authority of the City of Long Beach, CA’s Section 8 Housing Choice Voucher
program and found that the Authority did not adequately enforce HUD’s housing quality standards. Of the 66
program units inspected, 56 did not meet minimum housing quality standards, and 29 of those units were in
material noncompliance with the standards.

    OIG recommended that HUD require the Authority to (1) implement adequate procedures and controls
regarding its inspection process to ensure that all units meet HUD’s housing quality standards to prevent $5.9
million in program funds from being spent on units that are in material noncompliance with the standards, (2)
create policies and procedures regarding quality control inspections, and (3) verify that the applicable owners
have taken appropriate corrective action regarding the housing quality standards deficiencies identified or
take enforcement action. (Audit Report: 2009-LA-1014)

                                                       

    HUD OIG audited the Housing Choice Voucher program of the Quincy Housing Authority in Quincy, MA,
and found that the Authority generally administered the program efficiently and effectively and in compliance
with its annual contributions contract and HUD regulations. The Authority’s Section 8 administrative plan
met the requirements of 24 CFR (Code of Federal Regulations) 982.54, and the Authority maintained proper
support for its indirect allocation of administrative expenses. However, it did not (1) properly account for and
report interprogram fund transactions between its Federal and State programs, resulting in nearly $4.6 million
in unsupported transactions being recorded in its program accounts; (2) provide support and justification for
more than $426,000 in contracts to show that the contracts were properly documented; and (3) establish a
reasonable travel policy to ensure that travelers submitted detailed travel expense vouchers.

    OIG recommended that HUD require the Authority to (1) provide support for the interprogram fund
transactions that are out of balance between Federal and State programs and implement procedures for
recording and reconciling interprogram transactions and correcting imbalances; (2) provide support and
justification for its contracts for financial advisory services, a fee accountant, inspection services, legal services,
and payroll and landlord payment services or reimburse its operating funds from non-Federal funds for the
applicable amounts; and (3) revise its travel policy and obtain approval of the policy from the Authority’s board
of commissioners. (Audit Report: 2009-BO-1006)

                                                       




Chapter 2 - Public and Indian Housing Programs                                                                      27
   HUD OIG audited the Section 8 program of the Housing Authority of the County of Los Angeles, Los Angeles,
CA, and found that the Authority did not properly manage its Section 8 funding in fiscal years 2005 and 2006
and overallocated more than $5 million in indirect administrative expenses to its Section 8 assisted housing
program (of which only $2.1 million was charged to an allowable source of reserve funds).

    OIG recommended that HUD require the Authority to repay the Section 8 program from non-Federal funds
$2.9 million in overallocations that were charged to restricted funds. (Audit Report: 2009-LA-1009)

                                                     

    HUD OIG audited the Wilmington Housing Authority in Wilmington, DE, regarding the administration of its
housing quality standards inspection program for its Section 8 Housing Choice Voucher program, and found
that the Authority did not adequately administer its inspection program to ensure that its program units met
HUD’s housing quality standards. Of 60 housing units inspected, 52 units did not meet HUD’s standards, and
37 of the units materially failed to meet the standards. The units had significant health and safety violations
that the Authority’s inspectors did not observe or report during their last inspection. The Authority spent nearly
$67,000 in program and administrative funds for these 37 units.

    OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
audit are repaired to meet HUD’s housing quality standards, (2) reimburse its program from non-Federal
funds for the improper use of program and administrative funds for units that materially failed to meet HUD’s
standards, and (3) implement adequate procedures and controls to ensure that in the future, program units
meet housing quality standards to prevent an estimated $1.9 million from being spent annually on units that
materially fail to meet HUD’s standards. (Audit Report: 2009-PH-1011)

                                                     

    HUD OIG performed two audits of the Section 8 Housing Choice Voucher program at the Chicago Housing
Authority, Chicago, IL, under its Moving to Work Demonstration program. The first audit found that the
Authority’s program administration regarding zero-income households and the recovery of overpayments of
housing assistance and utility allowances for duplicate individuals was inadequate. The Authority failed to
comply with its program administrative plan regarding zero-income household reviews. It did not effectively
use HUD’s Enterprise Income Verification (EIV) system or other third-party verification methods to appropriately
adjust the housing assistance payments or seek repayment of overpaid housing assistance when it became
aware of the unreported income. As a result, it overpaid nearly $60,000 in housing assistance and utility
allowances for the period January 1, 2007, through September 30, 2008.

     The Authority also failed to ensure that its program participants did not receive multiple subsidies. Of the
59 households reviewed, 17 received multiple subsidies totaling more than $16,000 in housing assistance and
utility allowances. OIG recommended that HUD require the Authority to reimburse its program from non-
Federal funds for the improper use of nearly $91,000 in program funds and implement adequate procedures
and controls to address the findings cited. These procedures and controls should help to ensure that over the
next year, more than $578,000 in program funds will be spent on housing assistance that meets HUD’s and
Authority’s requirements. (Audit Report: 2009-CH-1009)

    The second audit found that the Authority’s program administration regarding the effectiveness of its
abatement process, rent reasonableness determinations, and the recovery of overpayments of housing
assistance and utility allowances to multiple owners for a single household was inadequate. Of 98 program
households reviewed, the Authority failed to properly abate program units that failed housing quality standards
inspections. As result, it overpaid more than $49,000 in housing assistance and utility allowances and allowed
tenants to reside in units that were not decent, safe, and sanitary.




28                                                             Chapter 2 - Public and Indian Housing Programs
    The Authority did not properly determine or document the reasonableness of program rents before approving
housing assistance contracts and rent increases. It received more than $63,000 in program administrative
fees related to the 133 households for which contract rents were inadequately determined to be reasonable.
Further, the Authority failed to ensure that owners did not receive multiple housing assistance payments for
a single household. Of the 105 households reviewed, 12 owners received more than $64,000 in improper
housing assistance and utility allowances.

    OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for
the improper use of more than $117,000 in program funds, provide documentation or reimburse its program
more than $63,000, and implement adequate procedures and controls to address the findings cited to prevent
more than $1.4 million in program funds from being spent on units that are not in compliance with HUD’s
housing quality standards. (Audit Report: 2009-CH-1018)

                                                     

    HUD OIG audited the Public Housing Agency of the City of Saint Paul, MN’s Section 8 Project-Based
Voucher program and found that the Agency’s administration of its program was inadequate. It (1) was unable
to provide documentation showing that it conducted initial inspections before executing housing assistance
payments contracts to support more than $1.3 million in housing assistance and utility allowance payments,
(2) did not ensure that duplicate housing assistance payments totaling more than $12,000 were not made to
owners of program projects, and (3) did not obtain subsidy-layering reviews of program projects as required
by HUD’s regulations.

    The Agency substantially complied with HUD’s and its requirements regarding housing assistance payment
calculations. However, it incorrectly calculated households’ payments, resulting in more than $7,000 in
overpayments and more than $9,000 in underpayments for the period January 1, 2007, through December
31, 2008.

   OIG recommended that HUD require the Agency to reimburse its program from non-Federal funds for the
improper use of more than $26,000 in program funds, provide documentation or reimburse its program more
than $1.3 million, and implement adequate procedures and controls to address the findings cited. (Audit
Report: 2009-CH-1015)

                                                     

    HUD OIG performed two audits of the Section 8 Housing Choice Voucher program of the Cincinnati
Metropolitan Housing Authority in Cincinnati, OH. The first audit found that the Authority’s program
administration regarding housing assistance payment calculations, documentation to support households’
eligibility for housing assistance, and Section 8 project-based certificate contract was inadequate. The Authority
incorrectly calculated households’ payments, resulting in more than $44,000 in overpayments and more than
$11,000 in underpayments for the period July 2006 through August 2008.

     The Authority also did not ensure that its households’ files contained the required documentation to support
its housing assistance and utility allowances. Of the 111 files reviewed, 31 did not contain documentation
required by HUD and the Authority’s program administrative plan to support nearly $216,000 in housing
assistance and utility allowance payments.

    In addition, the Authority failed to appropriately manage its Section 8 project-based certificate contract. It
improperly received more than $87,000 in program administrative fees for 51 months while it made housing
assistance payments for units without valid housing assistance payments contracts, including payments for
20 months to an owner that notified the Authority that it did not want to renew its contract.




Chapter 2 - Public and Indian Housing Programs                                                                 29
    OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for the
improper use of more than $135,000 in program funds, provide documentation or reimburse the applicable
program nearly $238,000, and implement adequate procedures and controls to address the finding cited to
prevent more than $925,000 in program funds from being spent on excessive housing assistance and utility
allowances over the next year. (Audit Report: 2009-CH-1010)

   The second audit found that the Authority’s Family Self-Sufficiency program was operated in compliance
with HUD’s and its requirements. The Authority properly funded its participants’ escrow accounts, made
escrow payments when appropriate, and maintained documentation to support its Family Self-Sufficiency
program operations. However, the Authority’s administration regarding housing assistance payments for larger
housing units than its policy permitted, its use of HUD’s EIV system regarding households claiming to have
zero income, and the timeliness of initial housing quality standards inspections were deficient.

    The Authority provided program vouchers to 32 families for units that were larger than its subsidy standards
allowed. As a result, it made excessive housing assistance payments of more than $100,000. By implementing
adequate procedures and controls regarding its housing assistance payments, OIG estimates that more than
$25,000 in payments will be accurately spent over the next year.

    The Authority did not effectively use HUD’s EIV system or other third-party verification methods to determine
that reported zero-income households had unreported income. It made excessive housing assistance payments
of more than $32,000 for 20 of 31 households that had unreported income. OIG estimates that over the next
year, the Authority will overpay more than $11,000 in housing assistance and utility allowances.

   The Authority did not always comply with HUD’s requirements when conducting initial inspections after
receiving a request for tenancy approval.

    OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for
the improper use of more than $136,000 in program funds and implement adequate procedures and controls
to address the findings cited to prevent more than $36,000 in program funds from being spent on excessive
housing assistance over the next year. (Audit Report: 2009-CH-1014)

                                                     

    HUD OIG audited the Section 8 Housing Choice Voucher program of the Lake Metropolitan Housing Authority
in Painesville, OH, based upon a congressional request. OIG found that the Authority’s program administration
regarding housing assistance payment calculations and documentation to support households’ eligibility for
housing assistance was inadequate. Of the 100 files reviewed, 88 did not contain documentation required
by HUD and the Authority’s program administrative plan to support more than $801,000 in housing assistance
and utility allowance payments. The Authority also incorrectly calculated or issued households’ payments in
86 of the files, resulting in more than $30,000 in overpayments and more than $4,200 in underpayments for
January 2007 through July 2008. Further, the Authority improperly received more than $40,000 in program
administrative fees for the households with incorrect and unsupported housing assistance payments.

   OIG recommended that HUD require the Authority to (1) provide documentation or reimburse its program
more than $836,000 from non-Federal funds for the unsupported payments cited, (2) reimburse its program from
non-Federal funds for the improper use of more than $71,000 in program funds, and (3) implement adequate
procedures and controls to address the finding cited to prevent more than $259,000 in program funds from
being spent on excessive housing assistance and utility allowance payments. (Audit Report: 2009-CH-1012)

                                                     




30                                                            Chapter 2 - Public and Indian Housing Programs
    HUD OIG audited the Section 8 Project-Based Voucher program of the Michigan State Housing Development
Authority, in Lansing, MI, and found that the Authority lacked documentation to support its selection and
approval of program projects. As a result, it could not support that any of the five projects it had approved since
January 1, 2007, were eligible for more than $1 million in program assistance and nearly $85,000 in program
administrative fees received by the Authority were appropriate. OIG estimates that over the next 12 months,
the Authority will receive more than $70,000 in program funds for improper administrative fees.

    The Authority’s program units generally met HUD’s housing quality standards. Of 60 program units inspected,
23 did not meet minimum housing quality standards, and four materially failed due to 24-hour exigent health
and safety hazards that predated the Authority’s previous inspections. As a result, nearly $6,000 in program
funds was spent on units that were not decent, safe, and sanitary.

     OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
for the improper use of program funds, (2) provide documentation or reimburse its program from non-Federal
funds for the unsupported payments cited, and (3) implement adequate procedures and controls to address
the findings cited to prevent more than $93,000 in program funds from not being used over the next year to
house needy families. (Audit Report: 2009-CH-1019)

                                                      

    HUD OIG audited the Housing Authority of the City of York, PA’s administration of its housing quality
standards inspection program for its Section 8 Housing Choice Voucher program and found that the Authority
did not ensure that its program units met housing quality standards. Of 61 program units inspected, 44 did not
meet HUD’s housing quality standards, and 23 were in material noncompliance with HUD’s standards. The
Authority spent more than $24,000 in program and administrative funds for these 23 units.

    OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
audit are repaired to meet HUD’s housing quality standards, (2) reimburse its program from non-Federal
funds for the improper use of program and administrative funds for units that materially failed to meet HUD’s
standards, and (3) implement adequate procedures and controls to ensure that in the future, program units
meet housing quality standards to prevent an estimated $587,000 from being spent annually on units that
materially fail to meet HUD’s standards. (Audit Report: 2009-PH-1012)

                                                      

    HUD OIG audited the Section 8 Project-Based Voucher program of the DuPage Housing Authority in Wheaton,
IL, and found that the Authority’s program administration regarding documentation of households’ eligibility
and housing assistance and utility allowance payment calculations was inadequate. The Authority did not
ensure that its household files contained the required documentation to support households’ admission to
and continued assistance on the program. All of the 41 files reviewed were missing support documentation
required by HUD and the Authority’s administrative plan to support more than $400,000 in housing assistance
and utility allowance payments and associated administrative fees.

    In addition, the Authority did not effectively manage its housing assistance calculation and payment
process in accordance with HUD requirements and its administrative plan, resulting in more than $4,000 in
overpayments and nearly $2,000 in underpayments for the period July 1, 2007, through March 31, 2009. Further,
the Authority improperly received more than $6,000 in administrative fees for the households with incorrect and
unsupported housing assistance payments. OIG estimates that over the next year, the Authority will overpay
nearly $6,000 and underpay nearly $1,000 in housing assistance and utility allowances due to calculation errors.

    OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
for the improper use of more than $10,000 in program funds, (2) provide documentation or reimburse its



Chapter 2 - Public and Indian Housing Programs                                                                  31
program more than $400,000, and (3) implement adequate procedures and controls to address the finding
cited. These procedures and controls should help to ensure that more than $8,000 in program funds is spent
on program administration that meets HUD’s requirements over the next year. (Audit Report: 2009-CH-1016)

                                                     

     HUD OIG audited the administration of the Housing Choice Voucher and Family Self-Sufficiency programs
of the North Hempstead Housing Authority in Great Neck, NY, and found that the Authority properly determined
Section 8 tenant eligibility and accurately calculated rental subsidies. However, it improperly selected both
units and tenants for project-based voucher assistance, incorrectly accounted for portable administrative fees,
did not adequately administer its housing quality standards quality control inspection process, and improperly
calculated and funded Family Self-Sufficiency program participants’ escrow accounts.

    OIG recommended that HUD instruct Authority officials to (1) develop an allocation plan to ensure that
project-based vouchers are issued in accordance with regulations and that tenants for project-based voucher
assistance are properly selected; (2) pay portable administrative fees due to receiving authorities and provide
documentation to support fees paid; (3) strengthen controls over its housing quality standards quality control
inspection process; and (4) fund underfunded Family Self-Sufficiency program participant escrow accounts,
reimburse graduated participants for escrow owed, and recoup funds from overfunded accounts. (Audit
Report: 2009-NY-1011)

                                                     

    HUD OIG audited the Section 8 Housing Choice Voucher program of the Springfield Housing Authority in
Springfield, IL, and found that the Authority’s program administration regarding housing assistance payment
calculations and zero-income households was inadequate. The Authority did not effectively manage its housing
assistance calculation and payment process in accordance with HUD requirements, resulting in nearly $57,000
in overpayment, more than $21,000 in unsupported payments, and nearly $22,000 in underpayment for the
period January 1, 2007, through August 31, 2008. In addition, the Authority improperly received more than
$19,000 in program administrative fees for the households with incorrect and unsupported housing assistance
payments.

    Further, the Authority failed to comply with its program administrative plan regarding zero-income household
reviews. It did not effectively use HUD’s EIV system or other third-party verification methods to determine
whether the households reporting zero income had unreported income. As a result, it unnecessarily paid
housing assistance totaling more than $41,000 for households that were required to meet their rental obligations.
The Authority also improperly received more than $6,000 in program administrative fees for the reported zero-
income households with overpaid housing assistance. OIG recommended that HUD require the Authority to
reimburse its program from non-Federal funds for the improper use of more than $123,000 in program funds,
provide documentation or reimburse its program more than $21,000, and implement adequate procedures
and controls to address the findings cited to help ensure that more than $241,000 in program funds is spent
on program administration that meets HUD’s requirements over the next year. (Audit Report: 2009-CH-1007)

                                                     

     HUD OIG audited the State of Connecticut Department of Social Services to determine whether it properly
administered its Housing Choice Voucher program in compliance with its annual contributions contracts and
HUD regulations. OIG found that the agency did not comply with HUD requirements in the administration of
its program. A review of 66 tenant files found that the agency’s contractor did not adequately support tenant
eligibility, properly calculate rent payments, or always perform timely annual reexaminations for 49 of the
tenants. As a result of these errors, the agency paid nearly $195,000 in unsupported rent and nearly $32,000




32                                                            Chapter 2 - Public and Indian Housing Programs
in overpaid rent and underpaid more than $9,000 in rent to landlords and limited-income households. This
amount includes housing assistance payments and utility reimbursements for these 49 tenant files.

    OIG recommended that HUD require the agency to (1) support or reimburse its program for the unsupported
and ineligible rent payments, (2) reimburse rent underpayments to tenants and landlords, and (3) implement
a corrective action plan. (Audit Report: 2009-BO-1005)

                                                    

    HUD OIG audited the Richmond Redevelopment and Housing Authority in Richmond, VA, regarding the
administration of its housing assistance payments for leased housing, and found that the Authority did not
properly maintain documentation to support housing assistance payments and did not always accurately
calculate them for its leased housing. Of the 31 tenant files reviewed, 29 contained errors. The Authority
did not maintain complete documents required by HUD and its own administrative plan and inaccurately
calculated housing assistance payments, resulting in more than $70,000 in unsupported housing assistance
payments, nearly $19,000 in overpayments, and more than $5,000 in underpayments.

   OIG recommended that HUD require the Authority to (1) correct the errors in the tenant files, (2) provide
documentation to support housing assistance payments or reimburse its program for the payments that it
cannot support, (3) reimburse its leased housing program for the housing assistance and utility allowance
overpayments, and (4) reimburse applicable tenants for the housing assistance and utility allowance
underpayments. (Audit Report: 2009-PH-1009)

                                                    

    HUD OIG audited the City of Baldwin Park Housing Authority’s Housing Choice Voucher program in
Baldwin Park, CA, and found that the Authority did not determine housing assistance payments correctly in
29 of the 60 tenant files reviewed, which resulted in overpayments of more than $16,000 in housing assistance.
In addition, it made underpayments of housing assistance of nearly $4,000. Based on the statistical sample,
OIG estimates that over the next year, the Authority will overpay more than $24,000 and underpay more than
$13,000 in housing assistance. In addition, the Authority did not complete annual reexaminations in a timely
manner for 52 of the 60 tenant files reviewed, which resulted in overpayments of more than $3,000 in housing
assistance. Based on the statistical sample, OIG estimates that over the next year, the Authority will overpay
more than $8,000 in housing assistance.

   OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for the
overpayment of housing assistance, reimburse the appropriate tenants for the underpaid housing assistance,
and implement quality control procedures to ensure that more than $49,000 in housing assistance will be
funds put to better use in the future. (Audit Report: 2009-LA-1012)

                                                    

    HUD OIG audited HUD’s oversight of public housing agencies’ unrestricted and restricted Section 8
administrative fee reserves to determine whether HUD had policies, procedures, and controls in place to
ensure that public housing agencies properly accounted for their administrative fees and used them for their
intended purpose.

   HUD lacked the necessary policies, procedures, and controls to ensure that agencies segregated restricted
and unrestricted Section 8 program fees. As a result, HUD could not be assured that administrative fee reserves
were tracked and used properly.




Chapter 2 - Public and Indian Housing Programs                                                              33
    OIG recommended that HUD (1) develop and implement detailed policies, procedures, and controls to
ensure that public housing agencies properly account for their administrative fees and use them in compliance
with HUD rules and regulations; (2) consider requesting that the Real Estate Assessment Center add an extra
line item in the Financial Assessment Subsystem to capture the unrestricted and restricted administrative fee
reserves to better track those balances; and (3) require public housing agencies to perform a reconciliation
of their administrative fee reserves to determine the correct balances in their restricted and unrestricted
accounts. (Audit Report: 2009-LA-0802)

Public Housing Program Activities
   HUD OIG audited the Lackawanna Municipal Housing Authority in Lackawanna, NY, regarding the
administration of its capital fund program, to determine whether the Authority disbursed capital funds and
procured contracts in accordance with HUD requirements.

     The Authority disbursed capital funds for questionable expenditures. Further, it did not follow HUD
requirements, its own procurement policy, and New York State General Municipal Law when awarding
contracts. Specifically, the Authority had no basis for charging management improvement expenditures to
its capital fund program, charged the same expenses for multiple capital fund drawdowns, could not support
the eligibility of charges, and improperly procured contracts and professional services. As a result, it lacked
assurance that expenditures were necessary or reasonable and that the services contracted for were provided
as intended.

    OIG recommended that HUD instruct the Authority to (1) reimburse the capital fund program from non-
Federal funds for nearly $8,000 in excess drawdowns and more than $2.6 million in costs associated with its
lead abatement/modernization contract; (2) provide supporting documentation to justify the eligibility of more
than $676,000 in questionable capital fund expenditures or reimburse the program from non-Federal funds any
amounts not supported; (3) seek legal advice on whether the lead abatement/modernization contract should
be rescinded in the best interest of the Authority; and (4) review and, if appropriate, disapprove any future
change orders associated with the lead abatement/modernization contract. (Audit Report: 2009-NY-1014)

                                                             

   HUD OIG audited the Housing Authority of Travis County in Austin, TX, to determine whether (1) the
Authority and/or its related entities followed HUD procurement regulations for nonprofit development or
procurement activities, if required, and (2) the Authority used Federal funds only for eligible program activities.




     Copyright 2009. Austin American Statesman. Austin, TX. Reprinted with permission.



34                                                                      Chapter 2 - Public and Indian Housing Programs
    In violation of its annual contributions contract and Federal regulations, the Authority could not adequately
account for its use of Federal program funds or support that it used program funds only for eligible program
activities. Specifically, (1) the Authority haphazardly transferred more than $2.5 million between its Federal
and non-Federal programs and activities without proper support or justification, (2) its books and records were
not auditable, and (3) it did not properly allocate costs. In addition, the Authority could not support more than
$600,000 in costs charged to Federal programs, spent more than $3,000 on ineligible costs, and did not always
follow procurement requirements.

    OIG recommended that the Authority (1) correct its books and records; (2) hire an outside accounting
firm to perform a comprehensive review of the transfers; (3) provide support for expenditures or repay the
unsupported costs; (4) repay the ineligible costs; and (5) develop policies, procedures, and controls to ensure
that Federal funds are only used for eligible program activities and that interprogram balances are reconciled
and paid in a timely manner. OIG also recommended that HUD take appropriate administrative actions against
Authority officials as applicable. (Audit Report: 2009-FW-1015)

                                                      

  HUD OIG audited the Housing Authority of the City of Richmond, CA’s procurement activities to determine
whether the Authority followed procurement requirements.

   The Authority could not adequately support that procurement activities were conducted in accordance with
applicable requirements. As a result, it could not demonstrate that contracts were awarded to vendors whose
proposals were most advantageous to the Authority. In addition, the Authority’s written procedures contained
inconsistent instructions, payments were processed and issued without proper supporting documentation
and required approvals, contract limits were ignored, and controls for safeguarding the Authority’s financial
assets were not in place or not effective.

     OIG recommended that HUD require the Authority to (1) terminate the existing contracts and ongoing
purchases for security services, landscaping maintenance, Section 8 housing quality standards annual inspection
services, and Section 8 housing quality standards initial inspection services; (2) conduct new procurements for
these services in accordance with applicable requirements; (3) repay from non-Federal funds nearly $113,000
to its public housing program or Section 8 program, as appropriate, for ineligible costs; (4) support or repay
from non-Federal funds more than $2.4 million to its public housing program or Public Housing Capital Fund
or Section 8 program, as appropriate, for unsupported costs; (5) obtain HUD’s review and approval of all
contracts and amendments totaling more than $100,000, in part or aggregate before execution, for the next 3
years or until HUD is satisfied that procurement actions are appropriate; and (6) provide training to responsible
personnel to ensure that they understand Federal procurement requirements. (Audit Report: 2009-LA-1020)

                                                      

   HUD OIG audited the development activities of the Kansas City, KS, Housing Authority to determine
whether the Authority improperly spent Federal public housing funds when developing and operating non-
Federal developments.

   The Authority inappropriately transferred nearly $1 million of its public housing funds to a nonprofit affiliate,
which used the funds for non-Federal development activities. It also inappropriately spent Federal funds for
payroll costs when its staff worked on non-Federal development activities.

   OIG recommended that HUD require the Authority to (1) repay its public housing program nearly $184,000
from non-Federal sources for Federal funds that were inappropriately used and not yet repaid and (2) provide




Chapter 2 - Public and Indian Housing Programs                                                                   35
documentation to support payroll costs allocated to HUD programs or reimburse its HUD programs from non-
Federal sources for costs that it cannot adequately support. (Audit Report: 2009-KC-1010)

                                                      

    HUD OIG audited the financial operations of the Chattanooga Housing Authority in Chatanooga, TN, to
determine to what extent funds subject to an annual contributions contract were used to benefit non-HUD
activities or were otherwise inappropriately disbursed.

     The Authority generally complied with HUD requirements with respect to its development activities.
However, its deteriorating financial condition led its management to use restricted funds to cover excessive
general operating expenses. In addition, management unnecessarily expended scarce resources during a time
of financial crisis and failed to provide adequate financial reporting to its board. In total, the Authority misused
more than $1 million in funding that could have been used to carry out its mission of providing families with
decent, safe, and sanitary housing. Authority management (1) used more than $788,000 in Section 8 housing
assistance funds for Authority operating expenses, (2) used $1.2 million in restricted Fannie Mae loan proceeds
to cover operating expenses, (3) paid employee bonuses of more than $210,000 and a cost of living adjustment
of more than $180,000, (4) approved more than $193,000 in excessive severance payments during two 2008
reductions in force, (5) used more than $49,000 in public housing operating funds to pay non-HUD expenses,
and (6) liquidated more than $4 million in investments without adequately informing its board.

    OIG recommended that the Authority (1) repay more than $1 million in ineligible costs, (2) support or repay
from non-Federal funds excessive performance-based compensation and cost of living adjustment payments
totaling nearly $403,000, and (3) develop and implement internal controls over the use of HUD funds to ensure
that funds are expended only for eligible expenses. (Audit Report: 2009-AT-1007)

                                                      

     HUD OIG audited the Housing Authority of the City of Milwaukee, WI’s nonprofit development activities
to determine whether the Authority maintained complete and accurate books of record for its funds subject
to its annual contributions contract, other agreements, or HUD regulations.

    The Authority lacked documentation to support that funds, totaling more than $1.4 million, disbursed
from its general fund were not Federal funds. The funds were used to pay non-Federal expenses incurred
by the Redevelopment Authority of the City of Milwaukee (City). Further, the Authority could not provide
documentation to support that it did not use Federal funds to pay more than $38,000 in City expenses.

    OIG recommended that HUD require the Authority to provide documentation to support that the funds
disbursed from its general fund were not Federal funds and the City expenses were not paid with Federal
funds. (Audit Report: 2009-CH-1013)

                                                      

    HUD OIG audited the Housing Authority of the City of Terre Haute, IN’s nonprofit development activities
to determine whether the Authority diverted or pledged resources subject to its annual contributions contract,
other agreements, or regulations for the benefit of non-HUD developments.

    The Authority diverted assets subject to its contract, other agreements, or HUD’s regulations for the benefit
of Terre Haute Housing Authority Development Corporation, the Authority’s nonprofit entity. The Authority’s 21
properties, valued at more than $1 million, were used to support the activities of its nonprofit. In addition, the
Authority violated its contract with HUD when it provided $33,000 to its nonprofit to finance preconstruction
costs for its nonprofit’s housing units and did not maintain complete and accurate books of record. Further,



36                                                              Chapter 2 - Public and Indian Housing Programs
the Authority’s former executive director created a conflict-of-interest relationship as the Authority’s executive
director/resident agent for its nonprofit developments. As a result, HUD lacked assurance that (1) the disposition
of the 21 properties served the best interests of the Authority and its residents; (2) the Authority used HUD funds
in accordance with specific program requirements and not for non-HUD development activities; and (3) the
former executive director performed his official duties for the benefit of HUD, the Authority, and its residents.

     OIG recommended that HUD require the Authority to (1) transfer the 21 properties back to the Authority
and secure deeds of trust or provide documentation to show that HUD funds were not used to acquire and/or
rehabilitate the properties, (2) improve its existing procedures and controls to ensure that Authority assets are
safeguarded against mismanagement, (3) reimburse the applicable HUD program from non-Federal funds for
the improper payments cited or provide documentation to show that HUD funds were not used, (4) implement
adequate procedures and controls to ensure compliance with its contract with HUD regarding the general
fund account, (5) continue restructuring its books of record to adequately identify the source and application
of its funds, and (6) reimburse its low-rent housing program nearly $137,000 from non-Federal funds for the
former executive director’s payments as the resident agent of the nonprofit in addition to his salary. (Audit
Report: 2009-CH-1011)

                                                      

   HUD OIG audited the Housing Authority of the City of Newnan, GA’s activities with its related nonprofit
organization, the Newnan Housing Development Corporation, to determine whether the Authority inappropriately
used funds and assets restricted by its annual contributions contract with HUD to support the operations of its
nonprofit organization and incurred costs for insurance that involved a conflict of interest.

     The Authority inappropriately encumbered nearly $650,000 in HUD-restricted funds in violation of its contract
with HUD and violated an agreement with HUD concerning the sale and disposition of Authority property.
It inappropriately used nearly $222,000 of its public housing program funds for non-Federal development
activities in violation of its annual contributions contract with HUD. In addition, it inappropriately used HUD
funds to make 31 monthly payments on a $150,000 loan on behalf of its nonprofit organization. HUD granted
a waiver for conflict-of-interest provisions and permitted the Authority to purchase insurance from a company
that employed a board member

   OIG recommended that HUD require the Authority to (1) develop a plan to bring it into compliance with
HUD’s requirements and, if necessary, ensure that the lender formally releases nearly $674,000 in HUD-related
funds as collateral; (2) propose a legal solution regarding the ownership structure of the nonprofit organization
and if a legal solution is not possible, repay its public housing program; (3) implement adequate controls
and procedures to ensure that it does not encumber or spend HUD assets on non-Federal activities without
HUD approval; and (4) develop and implement a strategic, comprehensive marketing plan for the nonprofit
organization to ensure that it becomes financially sound. (Audit Report: 2009-AT-1009)

                                                      

    HUD OIG audited the Housing Authority of the City of Terre Haute, IN’s Turnkey III Homeownership program
to determine whether the Authority followed HUD’s requirements regarding the administration of its program.

   The Authority did not comply with HUD’s requirements regarding the use of the proceeds from the sale of its
program units. It did not maintain documentation to support that the sales proceeds were used in accordance
with its approved program plan. As a result, the Authority and HUD lacked assurance that the sales proceeds
benefitted low-income families.

    OIG recommended that HUD require the Authority to maintain accurate books of record to account for
the activities and expenditures under the program and provide adequate supporting documentation for the



Chapter 2 - Public and Indian Housing Programs                                                                  37
use of the proceeds from the sale of its program units. If the Authority cannot account for the activities and
expenditures under the program and/or provide supporting documentation, it should reimburse more than
$579,000 in sales proceeds to the program from non-Federal funds. (Audit Report: 2009-CH-1017)

                                                    

    HUD OIG audited the Housing Authority of the City of Milwaukee, WI’s 5(h) and Section 32 homeownership
programs to determine whether the Authority properly accounted for and used its programs’ proceeds
in accordance with HUD’s requirements and properly administered its programs in accordance with the
Authority’s plans.

    The Authority did not adequately administer its programs with regard to whether program units were
used by purchasers as their residences, were sold to eligible purchasers, were sold at their appraised value,
and met HUD’s recapture requirements. It also did not ensure that outstanding mortgage notes owed to it
were recaptured. It failed to recover more than $68,000 for two units that it sold that were not used by the
purchasers as their residences and failed to recover two outstanding mortgage amounts owed to it totaling
nearly $24,000. In addition, it improperly sold a Section 32 program unit for nearly $115,000 to an individual,
who, 5 months before the sale, had acquired a non-Authority property, and sold six Section 32 program units
for a total of $150,000 below their appraised values. Further, the Authority did not require the appropriate
restrictions and/or covenants for any of its 21 Section 32 program units sold.

   OIG recommended that HUD require the Authority to reimburse its applicable homeownership program
from non-Federal funds for the improper use of more than $356,000 in program funds and implement adequate
procedures and controls to address the findings cited to properly secure its interest in program units. (Audit
Report: 2009-CH-1006)

                                                    

   HUD OIG audited HUD’s Office of Public Housing field office in Phoenix, AZ, to determine whether its
procedures for monitoring the Nogales Housing Authority were effective.

    The office did not always identify and/or properly address significant deficiencies at the Authority and did
not always apply the correct standards when performing its reviews. As a result, problems with the Authority’s
Section 8 and public housing programs persisted for years without appropriate corrective actions. In 14 Section
8 tenant files reviewed, nearly $94,000 in unsupported and nearly $5,000 in ineligible housing assistance
payments were identified. Additionally, the field office failed to appropriately address the Authority’s use of
HUD funds for questionable pension fund expenses totaling nearly $172,000.

    OIG recommended that HUD (1) require the Phoenix field office to implement procedures to improve its
monitoring and follow-up processes, (2) require the Authority to support or reimburse the unsupported and
ineligible housing assistance payments, and (3) review the Authority’s questionable pension plan costs and
require the Authority to reimburse its program if appropriate. (Audit Report: 2009-LA-0001)

Registered Sex Offenders’ Occupancy of HUD-Subsidized Housing
    HUD OIG audited HUD’s requirement prohibiting lifetime registered sex offenders from admission to
HUD-subsidized housing to determine the extent to which HUD-subsidized housing was occupied by lifetime
registered sex offenders.

     Based upon a statistical sample, HUD subsidized an estimated 2,094 to 3,046 households that included
lifetime registered sex offenders. As a result, it did not accomplish the objective of the statute to prevent




38                                                            Chapter 2 - Public and Indian Housing Programs
admission of dangerous sex offenders, and the same offenders who were deemed too dangerous for admission
were allowed to continue living in subsidized housing.

     OIG recommended that HUD seek legislative and program rule changes to require denial of continued
occupancy and termination of tenancy or continued subsidy, as appropriate, for all lifetime registered sex
offenders residing in subsidized housing. If legislative changes are passed, OIG recommended that HUD
develop and implement a plan to detect lifetime registered sex offenders occupying subsidized housing.
Additionally, OIG recommended that HUD require projects and housing authorities to revise their admission,
screening, and recertification procedures and urge them to aggressively pursue termination of assistance for
lifetime sex offenders to the extent allowed by law. (Audit Report: 2009-KC-0001)

                                                  




Chapter 2 - Public and Indian Housing Programs                                                           39
     Investigations
    Some investigations discussed in this report were generated from leads provided by HUD public and
Indian housing program staff or conducted jointly with Federal, State, and local law enforcement agencies.
The results of various significant investigations are described below.


                  Strategic Initiative 2: Contribute to the reduction of erroneous
                                    payments in rental assistance
 Key program          Cases                  $               Convictions/pleas/             Admin/civil
    results           closed             recovered               pretrials                   actions

 Investigations         352              $10,416,272                 277                        299
                      Page 41      •	 Public housing authority theft/embezzlement
                      Page 44      •	 Rental assistance fraud
       Our            Page 48      •	 FedRent initiative
      focus
                      Page 50      •	 Fugitive Felon Intiative
                      Page 51      •	 Other fraud and crimes




      Chart 2.2: Percentage of OIG public and Indian housing closed investigation cases
                                 during this reporting period



                                                                            Region 1 - 9%
                                                                            Region 2 - 7%
                                                                            Region 3 - 2%
                                                                            Region 13 - 8%
                                                                            Region 4 - 6%
                                                                            Region 14 - 3%
                                                                            Region 5 - 10%
                                                                            Region 15 - 4%
                                                                            Region 6 - 12%
                                                                            Regions 7/8 - 7%
                                                                            Region 9 - 8%
                                                                            Region 10 - 9%
                                                                            Region 11 - 15%




40                                                         Chapter 2 - Public and Indian Housing Programs
Public Housing Authority Theft/Embezzlement
    Chester Carl, the former chief executive officer for the Navajo Housing Authority, an organization that
receives HUD public and Indian housing funds, and William Aubrey, doing business as Lodgebuilder, Inc., a
former developer under contract with the Fort Defiance Housing Corporation, an organization that receives
HUD funding through the Navajo Housing Authority, were each indicted in U.S. District Court, Las Vegas, NV,
for allegedly committing a conspiracy, bribery, or embezzlement. From June 2002 through October 2006, Carl
allegedly accepted bribes from Aubrey in exchange for favorable contractor treatment, and Aubrey allegedly
obtained and personally used about $2.5 million in Indian Housing Block Grants.




   Copyright 2009. The Gallup Independent. Gallup, NM. Reprinted with permission.


                                           

    Elias Castellanos, a former Housing Authority of New Orleans (New Orleans)
contract chief financial officer, pled guilty in U.S. District Court, New Orleans, LA,
to committing embezzlement. From September 2006 to June 2009, Castellanos
allegedly submitted false billings for accounting services and fraudulently obtained
$900,927 in New Orleans funds.

                                           

    Rita Gestring, the former executive director for the Steele Housing Authority
(Steele), was indicted in U.S. District Court, Steele, MO, for allegedly committing
embezzlement and forgery. From 2006 to 2009, Gestring allegedly embezzled
$171,749 in Steele rents and other housing program funds and forged authorized
signatures on $52,530 in Steele checks to bypass the Steele board review.

                                           

    Cassandra Ashe, the former East Haven Housing Authority (East Haven) executive
director and New London Housing Authority (New London) Section 8 coordinator,
and former New London employee Jonathan Ashe were collectively sentenced in
U.S. District Court, Hartford, CT, to 58 months and 1 day incarceration, 6 months
home confinement, and 6 years supervised release and ordered to pay East Haven
and New London $397,191 in restitution for their earlier guilty pleas to committing
a conspiracy. From August 2003 through August 2005, Cassandra and Jonathan
                                                                                    Copyright 2009. The Times-Picayune.
                                                                                       New Orleans, LA. Reprinted with
                                                                                                            permission.



Chapter 2 - Public and Indian Housing Programs                                                                      41
                          Ashe conspired and created a fictitious landlord to obtain $204,591 in New London
                          housing contract payments, and from March 2007 through April 2008, Cassandra and
                          Jonathan Ashe stole $192,600 in East Haven housing funds through unauthorized
                          bank withdrawals. HUD realized losses of $397,191.

                                                                    

                              Juanita Montalvo-Cruz, a former Deland Housing Authority (Deland) Section
                          8 case manager, pled guilty in U.S. District Court, Orlando, FL, to committing
                          embezzlement and aggravated identity theft. From November 2003 to September
                          2008, Cruz created a fictitious landlord and used former tenant identities without
                          authorization to fraudulently obtain
                          $292,446 in housing assistance
                          payments. In addition, from May 2002
                          to November 2004, Cruz diverted and
                          personally used $27,798 in Deland
                          housing assistance funds.

                                         

                              Ronnie Fais o n , t h e f o r m e r
                          deputy director for the Englewood
                          Housing Authority (Englewood),
                          and former Englewood bookkeeper
                          Sergio Gonzalez each pled guilty in
 Copyright 2009. New      U.S. District Court, Newark, NJ, to
 Haven Register. New      committing theft of government funds.
 Haven, CT. Reprinted
                          Faison and Gonzalez used Englewood
 with permission.
                          funds for their personal gain. HUD
                          losses are not yet determined.
                                                                    Copyright 2009. The Daytona Beach News-Journal.
                                                                       Daytona Beach, FL. Reprinted with permission.
                                         

    Tracey White-Jenkins, the former Irvington Housing Authority (Irvington) Section 8 director, pled guilty
in U.S. District Court, Newark, NJ, to committing theft of government funds and submitting a false Federal
income tax return. White-Jenkins fraudulently obtained, deposited, and personally used $98,878 in Irvington
housing assistance payments.

                                                   

    Marianne Henry pled guilty in U.S. District Court, New Orleans, LA, to committing a conspiracy to steal
government funds. In addition, Henry Taylor, a former community liaison officer for the Housing Authority
of New Orleans, was sentenced to 12 months incarceration and 36 months supervised release and ordered
to pay HUD $89,795 in restitution for his earlier guilty plea to committing theft of government funds. From
January 2006 to March 2008, Henry conspired with Taylor, who falsified security personnel time sheets and
embezzled $89,795 in HUD funds.

                                                   

   Robert Newell, the former governor for the Passamaquoddy Tribe Indian Township Reservation
(Passamaquoddy), a HUD-funded Indian tribal organization, and former Passamaquoddy financial officer
James Parisi were collectively sentenced in U.S. District Court, Bangor, ME, to 72 months incarceration and



42                                                           Chapter 2 - Public and Indian Housing Programs
6 years probation and ordered to jointly pay Passamaquoddy $59,990 and others more than $1.68 million in
restitution for their earlier convictions of making false statements and claims and committing a conspiracy and
embezzlement. From 2003 to 2006, Newell and Parisi diverted and personally used more than $1.7 million in
Passamaquoddy funds without authorization, including $82,488 in HUD funds.

                                                    

    Joy Holloway, the McAlester Housing Authority executive director, entered into a pretrial diversion filed
in U.S. District Court, McAlester, OK, and agreed to undergo 18 months probation and pay HUD $12,874 in
restitution for allegedly making a false statement. Holloway allegedly used $76,435 in housing authority funds
to provide health insurance for an adult family member not employed with the housing authority.

                                                    

   Earb Kimble, the executive director for the United Ketoowah Band Housing Authority (United Ketoowah),
was indicted in U.S. District Court, Muskogee, OK, for allegedly committing theft from a program receiving
Federal funds. Kimble allegedly failed to disclose his ownership interest in companies under contract with
United Ketoowah and approved and personally deposited $71,220 in United Ketoowah payments without
authorization.

                                                    

    Angelene Gaskins, a former housing manager for the Pinellas County Housing Authority (Pinellas County),
pled guilty in U.S. District Court, Tampa, FL, to committing theft from a program receiving Federal funds. From
August 2004 to February 2006, Gaskins embezzled Pinellas County funds when she altered and forged $44,791
in tenant money orders and deposited them into her personal business account.

                                                    

   LaVina McNeil, the former executive director for the Wolf Creek Community Committee (Wolf Creek), a
Navajo Housing Authority contractor, was sentenced in U.S. District Court, Phoenix, AZ, to 2 years probation
and ordered to pay the Navajo Housing Authority $28,296 in restitution for her earlier guilty plea to committing
embezzlement and theft from an Indian tribal organization. McNeil embezzled Wolf Creek funds when she
prepared, endorsed, and negotiated one $28,296 Wolf Creek check without authorization.

                                                    

    Charles Jones, a former Vicksburg Housing Authority (Vicksburg) maintenance supervisor, was charged
in Mississippi State Court, Jackson, MS, with allegedly committing embezzlement, possession of a controlled
substance, and possession of a controlled substance with the intent to distribute. Jones allegedly stole $24,000
in Vicksburg equipment and supplies and accepted delivery of one kilo of cocaine at the Vicksburg Housing
Authority.

                                                    

    Jeffrey Copley, the former executive director for the Christian County Housing Authority (Christian County),
entered into a pretrial diversion filed in U.S. District Court, Springfield, IL, and agreed to undergo 18 months
probation, perform 100 hours of community service, resign his position, and pay the U.S. District Court $2,500
for his earlier admission to committing embezzlement. Copley used about $19,500 in Christian County funds
to purchase trips and other items for family members, Christian County board members, or himself.

                                                      


Chapter 2 - Public and Indian Housing Programs                                                               43
    Connie Jordan, the former Vanceburg Housing Authority (Vanceburg) office manager, pled guilty in U.S.
District Court, Ashland, KY, to committing embezzlement. From April 2002 through March 2004, Jordan
fraudulently obtained $18,865 in Vanceburg funds when she created, endorsed, and negotiated unauthorized
Vanceburg checks.

                                                     

    Five former San Antonio Housing Authority (San Antonio)
employees were each indicted in U.S. District Court, San Antonio,
TX, for allegedly accepting something of value involving Federal
program funds or making false statements. The above defendants
allegedly accepted cash or other personal enrichment items in
exchange for providing San Antonio repair contracts for a specific
contractor. HUD losses are not yet determined.

                               

    Jeffrey Stanfield, a former Tarkio Housing Authority maintenance
employee, was charged in Atchison County District Court, Tarkio, MO,
with allegedly committing theft of property. Stanfield allegedly stole
tools and other housing authority property during his employment.

                               

    Robert Ratkovich, the former maintenance superintendant
for the Lawrence County Housing Authority (Lawrence County);
previously indicted real estate appraiser Anthony Staph; and Nicholas
DeRosa were each charged in U.S. District Court, Pittsburgh, PA,
with allegedly committing a conspiracy and money laundering or
bank and mail fraud. Ratkovich, Staph, DeRosa, and others allegedly
                                                                            Copyright 2009 San Antonio Express-News,
conspired and obtained kickbacks or provided false documents to
                                                                                            reprinted with permission.
facilitate the fraudulent transfer of Lawrence County properties to
Affordable Housing of Lawrence County, a nonprofit organization
created and funded by Lawrence County.

                                                     

    Teresa Meegan, the former executive director for the Moline Housing Authority, was sentenced in U.S.
District Court, Rock Island, IL, to 2 years probation and fined $2,500 for her earlier guilty plea to making false
statements to HUD. Meegan falsified and altered public housing waiting lists for the benefit of family members
and friends.

Rental Assistance Fraud
    Thirty-two former Georgia Department of Community Affairs Section 8 tenants were each arrested and
charged in Houston, Twiggs, Peach, Baldwin, and Jasper County Courts, located throughout Southeast Georgia,
with allegedly making false statements and committing theft by deception. From 2004 to 2008, the above
defendants allegedly failed to report income or familial relationships to their Section 8 landlords on housing
certifications and collectively obtained about $330,000 in housing assistance they were not entitled to receive.

                                                     



44                                                             Chapter 2 - Public and Indian Housing Programs
     Six New York City Housing Authority (New York City) housing recipients were each arrested and charged
in U.S. District or Manhattan Criminal Courts, Manhattan, NY, with allegedly committing theft of government
funds, Social Security Administration (SSA) fraud, or grand larceny or falsifying business records. In addition,
six former New York City housing recipients were collectively sentenced to 20 months incarceration and 168
months supervised release, ordered to pay New York City $109,805 and the New York City Department of Social
Services $50,000 in restitution, and fined $6,200 for their earlier convictions or guilty pleas to making false
statements to HUD or committing theft of government funds or a conspiracy to steal government funds. The
above defendants allegedly failed to report income, assets, unauthorized residents, or familial relationships
to their Section 8 landlords on housing certifications and collectively obtained $326,722 in housing assistance
and $50,000 in other benefits they were not entitled to receive.

                                                      

    Eight Cuyahoga Metropolitan Housing Authority (Cuyahoga Metropolitan) housing recipients, landlords,
or unauthorized residents were each charged in Cuyahoga County Court of Common Pleas, Cleveland, OH,
with allegedly tampering with records; receiving stolen property; possession of criminal tools or weapons; or
committing theft, money laundering, drug trafficking, or a pattern of corrupt activity. The above defendants
allegedly failed to report income or accurately identity information or familial relationships to their Section 8
landlords on housing certifications. In addition, four former Cuyahoga Metropolitan Section 8 tenants were
collectively sentenced to 45 months incarceration, 2 years community control, 6 years probation, and 3 years
supervised release and ordered to perform 100 hours of community service and pay Cuyahoga $62,508 and SSA
$36,096 in restitution for their earlier guilty pleas to committing theft of public money, making false statements,
or tampering with records. Collectively, the above defendants caused HUD losses of $278,269.

                                                      

    Daisy Cruz, Balbina Almonte, and Catalina Torres, Yonkers Municipal Housing Authority (Yonkers) Section 8
tenants, were each arrested and charged in Westchester County or Yonkers Criminal Courts, Yonkers, NY, with
allegedly committing grand larceny or offering a false instrument for filing. In addition, former Yonkers Section
8 tenant Nancis Sulpeveda, also known as Sonia Luciano, was sentenced to 3 years probation and ordered
to pay Yonkers $11,728 in restitution for her earlier guilty plea to committing petit larceny. Cruz, Almonte,
and Torres allegedly and Sulpeveda admittedly failed to report income, assets, or unauthorized residents on
housing and other certifications and collectively obtained about $156,478 in housing assistance and $58,000
in other benefits they were not entitled to receive.

                                                      

    Linda Perez and Kerry Eccleston, New York City Housing Development Corporation (New York HDC) Section
8 tenants, entered into deferred prosecutions filed in U.S. District Court, Manhattan, NY, and each agreed to
undergo 6 months supervised release and collectively pay HUD $37,240 in restitution. In addition, former New
York HDC housing recipients Antonia Pearson and Betty Hidalgo were collectively sentenced to 48 months
supervised release and ordered to pay HUD $85,786 in restitution for their earlier guilty pleas to committing
theft of government funds. The above defendants admittedly failed to report income on housing certifications
and collectively obtained $123,026 in housing assistance they were not entitled to receive.

                                                      

    Kimberly Simpson, a Palm Beach County Housing Authority (Palm Beach County) Housing Choice Voucher
program participant, was arrested on probable cause for allegedly committing public assistance fraud, an
organized scheme to defraud, and grand theft; Palm Beach County housing recipient Carol Oliver was indicted
in U.S. District Court, Miami, FL, for allegedly making false statements and committing theft of government
funds; and former Palm Beach County housing recipient Kayla Robertson pled guilty to committing theft of



Chapter 2 - Public and Indian Housing Programs                                                                  45
government funds. From 2002 to 2005, Simpson and Oliver allegedly and Robertson admittedly failed to report
income or the criminal history of an authorized resident on housing certifications and collectively obtained
$115,884 in housing assistance they were not entitled to receive.

                                                    

    Frederick Billings, Martha Smith, and Monica Sparkman, Chicago Housing Authority (Chicago) Section 8
landlords, and former Chicago housing recipients Veronica Eason and Hubert Williams were each charged
in U.S. District or Cook County Circuit Courts, Chicago, IL, with allegedly committing embezzlement, theft,
forgery, or financial institution and loan fraud. In addition, former Chicago Section 8 tenants Norma Lara and
Myrtis Burkhart, also known as Myrtis Griffin, were collectively sentenced to 30 days incarceration and 36
months probation and ordered to pay HUD $49,813 and SSA $140,144 in restitution for their earlier guilty pleas
to committing theft of government funds. The above defendants allegedly and Lara and Burkhart admittedly
obtained housing assistance contract payments for properties they did not own or failed to report income or
assets on housing and other certifications and collectively obtained $114,538 in housing assistance they were
not entitled to receive.

                                                    

   Denise Nguyen and Sonny Vo, a former Norwood Housing Authority Section 8 tenant and landlord, were
each indicted in U.S. District Court, Boston, MA, for allegedly committing mail fraud. From August 2001 to
September 2008, Nguyen allegedly failed to report Vo’s residency in her subsidized unit and together they
obtained $104,496 in housing assistance they were not entitled to receive.

                                                    

    Carl Johnson, a Miami-Dade Housing Agency (Miami-Dade) Housing Choice Voucher program participant,
was arrested on probable cause for allegedly committing public assistance fraud, an organized scheme to
defraud, and grand theft. In addition, former Miami-Dade housing recipients Irma Saucedo and Geornika Jones
were collectively sentenced in U.S. District Court, Miami, FL, to 7 months incarceration, 1 year probation, and
2 years supervised release and ordered to perform 100 hours of community service and pay HUD $56,364 in
restitution for their earlier conviction or guilty plea to committing theft of government funds, grand theft, or
public assistance fraud. Johnson allegedly failed to report his criminal history, and Saucedo and Jones failed
to report income or fraudulently used the Social Security number belonging to another. Collectively, the above
defendants obtained $104,299 in housing assistance they were not entitled to receive.

                                                    

    Esther Belardes, a former Santa Clara County Housing Authority (Santa Clara) Section 8 tenant, was charged
in Santa Clara County Superior Court, San Jose, CA, with allegedly committing grand theft. In addition, former
Santa Clara Section 8 landlord Rebecca Marine entered into a Program Fraud Civil Remedies Act (PFCRA)
settlement and agreed to pay HUD $2,000, and former Santa Clara Section 8 tenant Blanca Gomez was sentenced
to 8 months home confinement and 3 years probation and ordered to pay Santa Clara $50,412 in restitution for
her earlier guilty plea to making false statements to HUD. From 2002 to 2005, Belardes and Marine allegedly
and Gomez admittedly failed to report income or an accurate household composition on housing certifications
and collectively obtained $102,571 in housing assistance they were not entitled to receive.

                                                    

    Kisha Parks, a former Rochester Housing Authority (Rochester) Housing Choice Voucher program
participant, pled guilty in U.S. District Court, Rochester, NY, to committing theft of government funds; former
Rochester Section 8 landlord Ismael Cruz, who previously pled guilty to creating false documents, entered



46                                                            Chapter 2 - Public and Indian Housing Programs
into a PFCRA settlement and agreed to pay HUD $17,000; and former Rochester housing recipient Rita Gaston
was sentenced to 5 years probation and ordered to pay Rochester $46,017 in restitution for her earlier guilty
plea to committing theft of government funds. Parks failed to report her concurrent receipt of New York City
Housing Authority housing assistance on Rochester certifications, Cruz fraudulently certified a Section 8 tenant
in his Rochester subsidized property after he leased the property to others, and Gaston failed to report income.
Collectively, the above defendants obtained $94,950 in housing assistance they were not entitled to receive.

                                                           

   Ruth Herman, a former Concord Housing Authority public housing tenant, was indicted in Middlesex County
Superior Court, Woburn, MA, for allegedly making false statements and committing perjury and larceny over
$250. From August 2001 to January 2007, Herman allegedly failed to report an unauthorized resident or his
income on housing certifications and obtained $90,231 in housing assistance she was not entitled to receive.

                                                           

                                                                      Brenda Tillman, a former Mississippi Regional
                                                                  Housing Authority VIII (Mississippi Regional)
                                                                  Section 8 tenant, was indicted in U.S. District Court,
                                                                  Jackson, MS, for allegedly making false statements
                                                                  and claims and committing theft of government
                                                                  funds and mail fraud; Mississippi Regional Section
                                                                  8 tenant Eva Reynolds pled guilty to committing
                                                                  theft of government funds; and Mississippi Regional
                                                                  Section 8 tenant and landlord Kawaina Franklin
                                                                  and Craig Fornett were collectively sentenced to
                                                                  6 months home confinement, 3 years probation,
                                                                  and 5 years supervised release and ordered to
                                                                  perform 70 hours of community service and
                                                                  pay Mississippi Regional $26,476 and the U.S.
                                                                  Department of Agriculture (USDA) $13,608 in
  Copyright 2009. The Sun Herald. Jackson, MS. Reprinted with
                                                                  restitution for their earlier guilty pleas to committing
  permission.                                                    theft of government funds. Tillman allegedly and
                                                                 the remaining defendants admittedly failed to
                                                                 report income, familial relationships to their Section
                                                                 8 landlords, or their unauthorized residency in
                                                                 subsidized units and collectively obtained $89,882
                                                                 in housing assistance and $13,608 in other benefits
                                                                 they were not entitled to receive.

                                                           

    Tammie Terry, a former Pasadena Community Development Commission (Pasadena) Section 8 tenant,
was charged in Los Angeles County Superior Court, Los Angeles, CA, with allegedly committing grand theft.
In addition, former Pasadena Section 8 tenant Debbie Clarke was sentenced to 24 hours incarceration and 36
months supervised probation and ordered to pay Pasadena $63,515 in restitution for her earlier guilty plea to
committing grand theft. Terry allegedly failed to report income, Clarke failed to report her familial relationship
to her Section 8 landlord, and together they obtained $87,725 in housing assistance they were not entitled to
receive.

                                                           



Chapter 2 - Public and Indian Housing Programs                                                                         47
    Sharon Reid and her husband, Willie Herron, a Nassau County Housing Authority Section 8 tenant and
landlord, were each arrested and charged in Nassau County Court, Mineola, NY, with allegedly committing
grand larceny or offering a false instrument for recording. From September 2003 to March 2009, Reid and
Herron allegedly failed to report their joint residency on housing certifications and together obtained $86,715
in housing assistance they were not entitled to receive.

                                                     

    Custom One Properties, LLC (Custom One), an Indianapolis Housing Authority (Indianapolis) Section 8
landlord, was sentenced in Marion County Superior Court, Indianapolis, IN, and ordered to pay Indianapolis
$66,000 in restitution for its earlier guilty plea to committing welfare fraud. Custom One failed to report the
transfer of Custom One ownership or the criminal history of a principal owner and obtained about $76,900 in
housing assistance payments it was not entitled to receive.

                                                     

   Ruthie Christensen, a former Salt Lake County Housing Authority (Salt Lake County) Housing Choice
Voucher program participant, pled guilty in U.S. District Court, Salt Lake City, UT, to committing mail fraud,
and former Salt Lake County housing recipient Patricia Jeffs was sentenced to 60 months supervised probation
and ordered to pay Salt Lake County $29,927 in restitution for her earlier guilty plea of making false statements
and misrepresentations. From August 1997 to January 2008, Christensen and Jeffs failed to report an accurate
household composition or their familial relationship to their Section 8 landlord on housing certifications and
together obtained $76,144 in housing assistance they were not entitled to receive.

                                                     

   Patricia Stroud, a New York City Department of Housing Preservation and Development Housing Choice
Voucher program participant, was arrested and charged in U.S. District Court, Manhattan, NY, with allegedly
committing embezzlement of public money. Stroud allegedly failed to report income on housing certifications
and obtained more than $72,000 in housing assistance she was not entitled to receive.

FedRent Initiative
    Recent studies indicate an estimated 60 percent of all subsidized housing rents are miscalculated, and
approximately $3.2 billion in erroneous and $2 billion in net annual subsidy overpayments are a result of both
errors in program administration and tenants underreporting income.

    In an effort to combat administrative overpayments and tenant fraud, HUD and HUD OIG commenced
“Operation FedRent,” a joint effort to address rental assistance fraud involving Federal employees. Operation
FedRent compares HUD tenant data to current and retired Federal employee information maintained by the
U.S. Office of Personnel Management. After the data comparison, an income eligibility determination is made,
and the Social Security numbers for family members 6 years of age and older are verified. If a discrepancy
exists, an investigation is opened, and appropriate administrative or legal actions are initiated to collect any
overpaid housing assistance. Results of Operation FedRent during this semiannual reporting period are
described below.

                                                     

   Natasha Acoff, Diane Reid, and Karen Isom, former Cook County Housing Authority (Cook County)
Section 8 tenants and Transportation Security Administration (TSA) or U.S. Postal Service (USPS) employees,
were collectively sentenced in U.S. District Court, Chicago, IL, to 90 months probation and 6 months home




48                                                            Chapter 2 - Public and Indian Housing Programs
confinement and ordered to perform 250 hours of community service and pay HUD $84,943 in restitution for
their earlier guilty pleas to committing theft of government funds. In addition, former Cook County Section
8 tenant and U.S. Department of Veterans Affairs (VA) employee Cecilia Smith-Carson entered into a pretrial
diversion and agreed to pay HUD $19,620 in restitution for her earlier admission to making false statements.
The above defendants failed to report income on housing certifications and collectively obtained $104,563 in
housing assistance they were not entitled to receive.

                                                     

    Lakeesha Jefferson, a former San Francisco Housing Authority Section 8 tenant and Federal Emergency
Management Agency (FEMA) employee, was sentenced in U.S. District Court, San Francisco, CA, to 5 years
probation and 6 months home detention and ordered to perform 100 hours of community service and pay
HUD $41,029 and FEMA $16,252 in restitution for her earlier guilty plea to committing theft of government funds.
From October 2004 through October 2006, Jefferson failed to report income or her familial relationship to her
Section 8 landlord on housing certifications, submitted fraudulent FEMA travel vouchers, and obtained $41,029
in housing assistance and $16,252 in travel reimbursements she was not entitled to receive.

                                                     

    Birdie Toomes, a former Housing Authority of the City of Los Angeles Section 8 tenant and current VA
employee, pled guilty in U.S. District Court, Los Angeles, CA, to committing theft. From October 2003 to
December 2007, Toomes failed to report income on housing certifications and obtained $41,022 in housing
assistance she was not entitled to receive.

                                                     

    Doris Smith and Quinchitta Jackson, former Chicago Housing Authority Section 8 tenants and USPS
employees, were collectively sentenced in U.S. District Court, Chicago, IL, to 84 months probation and
ordered to pay HUD $39,499 in restitution for their earlier guilty pleas to committing theft of government funds.
Smith and Jackson failed to report income on housing certifications and together obtained $39,499 in housing
assistance they were not entitled to receive.

                                                     

   Violet Berry-Simmons, a Newark Housing Authority Section 8 tenant and USPS employee, was arrested
and charged in U.S. District Court, Newark, NJ, with allegedly committing theft of government funds. Berry-
Simmons allegedly failed to report income on housing certifications and obtained $32,455 in housing assistance
she was not entitled to receive.

                                                     

    Narissa McMillion, a former Aurora Housing Authority public housing tenant and USPS employee, was
sentenced in U.S. District Court, Chicago, IL, to 2 years probation and ordered to pay HUD $28,495 in restitution
for her earlier guilty plea to committing theft of government funds. McMillion failed to report income on housing
certifications and obtained $28,495 in housing assistance she was not entitled to receive.

                                                     

   Dora Fry, a former Kansas City Housing Authority Housing Choice Voucher program participant and Internal
Revenue Service (IRS) employee, was sentenced in U.S. District Court, Kansas City, MO, to 5 years probation
and ordered to pay HUD $25,424 in restitution for her earlier guilty plea to committing theft of government




Chapter 2 - Public and Indian Housing Programs                                                                49
funds. From 2000 through 2004, Fry failed to report income on housing certifications and obtained $25,424 in
housing assistance she was not entitled to receive.

                                                     

     Cherie Nelson, a former Fresno City and Fresno County Housing Authorities (Fresno) Section 8 tenant and
VA employee, was indicted in U.S. District Court, Fresno, CA, for allegedly committing theft of government
funds. In addition, former Fresno Section 8 tenant and IRS employee Vickie McGrue pled guilty to making
false statements to HUD. Between January 2004 and October 2006, Nelson allegedly and McGrue admittedly
failed to report income on housing certifications and together obtained $21,029 in housing assistance they
were not entitled to receive.

                                                     

    Lekeisha McKinney, a former Memphis Housing Authority Housing Choice Voucher program participant
and USDA and U.S. Department of Treasury employee, was sentenced in U.S. District Court, Memphis, TN, to
3 months home detention and 2 years probation and ordered to pay HUD $9,034 in restitution for her earlier
guilty plea to committing theft of public money. From 2001 to 2005, McKinney failed to report income on
housing certifications and obtained $11,520 in housing assistance she was not entitled to receive.

                                                     

    Aleesha Rosemond, a former Las Vegas Housing Authority Section 8 tenant and current IRS employee, was
charged in U.S. District Court, Las Vegas, NV, with allegedly making false statements and committing theft
of government funds. From May 2004 through October 2006, Rosemond allegedly failed to report income or
an accurate household composition on housing certifications and obtained $9,209 in housing assistance she
was not entitled to receive.

                                                     

   Tara Maxwell, a New York City Housing Authority (New York City) public housing tenant and TSA employee,
entered into a deferred prosecution filed in U.S. District Court, Manhattan, NY, and agreed to undergo 3 months
supervised probation and pay New York City $8,592 in restitution. Maxwell admittedly failed to report income
on housing certifications and obtained $8,592 in housing assistance she was not entitled to receive.

                                                     

    Victoria Walker, a former Charlotte Housing Authority Section 8 tenant and USPS employee, was sentenced
in U.S. District Court, Charlotte, NC, to 2 years probation and ordered to pay HUD $7,542 in restitution for her
earlier guilty plea to committing theft of government funds. From 2003 through 2005, Walker failed to report
income on housing certifications and obtained $7,542 in housing assistance she was not entitled to receive.

Fugitive Felon Initiative
    Enacted into law in 1996, Section 903 of Public Law 104-193, “Elimination of Housing Assistance with
Respect to Fugitive Felons and Probation and Parole Violators,” allows for the termination of housing subsidies
for public or assisted housing tenants who flee to avoid prosecution, avoid confinement after conviction of a
felony, or violate conditions of their parole or probation. The law also authorizes Federal, State, and local law
enforcement agencies to exchange information and perform data matches.




50                                                            Chapter 2 - Public and Indian Housing Programs
    OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with crime
data from the National Crime Information Center, U.S. Marshals Service (Marshals), and other participating
law enforcement data banks. In addition, OIG special agents actively participate in the Marshals’ “Operation
FALCON,” a joint Federal, State, city, and county law enforcement effort to locate and apprehend fugitive felons
wanted for violent crimes. Conducted in most major cities throughout the United States and its territories,
Operation FALCON places a strong emphasis on apprehending fugitive felons involved in gangs, homicides,
sexual assaults, or crimes against the elderly and children. Since the inception of OIG’s FFI, hundreds of cases
have been opened and closed, resulting in more than 8,651 arrests. OIG strongly supports Operation FALCON
in an effort to make HUD public and assisted housing a safe place for families to live. FFI results during this
semiannual reporting period are described below.

                                                      

    HUD OIG participated in “Operation FALCON,” a joint Marshals effort to locate and apprehend fugitive
felons in Hattiesburg, MS. As a result, 122 individuals were arrested on outstanding warrants, and 17 of those
arrested resided in HUD-subsidized housing.

                                                      

    HUD OIG participated in “Operation FALCON,” a joint Marshals effort to locate and apprehend fugitive
felons in New Orleans, LA. As a result, 97 individuals were arrested on outstanding warrants, and 10 of those
arrested resided in HUD-subsidized housing.

                                                      

    HUD OIG participated in “Operation FALCON,” a joint Marshals effort to locate and apprehend fugitive
felons in Cleveland and Columbus, OH. As a result, 59 individuals who resided in HUD-subsidized housing
were arrested on outstanding felony warrants.

                                                      

    HUD OIG participated in “Operation FALCON,” a joint Marshals effort to locate and apprehend fugitive
felons in Miami, FL. As a result, 14 individuals who resided in HUD-subsidized housing were arrested on
outstanding warrants.

                                                      

    Henry Taylor, a Montgomery Housing Authority (Montgomery) public housing applicant, pled guilty in U.S.
District Court, Montgomery, AL, to failing to register as a sex offender. Taylor failed to register as a sex offender
in Alabama or report his criminal history on his Montgomery housing application.

Other Fraud/Crimes
    Orlando Brown, also known as Mike Brown, was indicted in U.S. District Court, New Orleans, LA, for
allegedly committing arson and aiding and abetting. Brown allegedly participated in setting two fires in a St.
John the Baptist Parish Housing Authority apartment building. Damages are estimated to be about $573,400.

                                                      




Chapter 2 - Public and Indian Housing Programs                                                                    51
     Marcelino Salazar-Lopez and 57 members of his organization were each indicted in U.S. District Court, San
Juan, PR, for allegedly committing a conspiracy to interfere with commerce by threats or violence; aiding and
abetting in the interference of commerce by threats or violence; committing a conspiracy to possess firearms
in furtherance of drug trafficking crimes; committing a conspiracy to distribute narcotic controlled substances;
and aiding and abetting in the distribution of heroin, cocaine, cocaine base, and marijuana. From July 2006
through December 2008, Salazar-Lopez and the above defendants allegedly extorted about $118,000 from
North Constructors Group, Inc., a company under contract with the Jardines De Campo Rico public housing
project, and distributed narcotic controlled substances within the public housing units.




          Copyright 2009. Puerto Rico Daily Sun. San Juan, PR. Reprinted with permission.


                                                           

    Roosevelt Nicholson pled guilty in U.S. District Court, St. Louis, MO, to committing a conspiracy to
manufacture counterfeit securities. In addition, Kim Nicholson, Virtis Lewis, and Edlan Jones were collectively
sentenced to 13 years probation and ordered to pay the St. Louis Housing Authority $2,347 and others $122,333
in restitution for their earlier guilty pleas to committing a conspiracy to manufacture counterfeit securities.
The above defendants conspired to manufacture and negotiate $33,261 in fraudulent St. Clair County Housing
Authority, $17,292 in fraudulent St. Louis Housing Authority, and $32,639 in other counterfeit checks.

                                                           

    Angela Moffett was sentenced in Harris County Court, Houston, TX, to 30 days incarceration for her earlier
guilty plea to committing forgery. Moffett caused a $1,152 loss to the Leesville, LA, Housing Authority (Leesville)
when she cashed a counterfeit check and used the Leesville checking account and routing numbers.

                                                           




52                                                                    Chapter 2 - Public and Indian Housing Programs
    Christopher Summers was charged in U.S. District Court, Kansas City, KS, with allegedly producing and
possessing counterfeit securities. Summers and others allegedly conducted a counterfeit check scheme
involving numerous businesses and the Kansas City Housing Authority from a public housing complex. HUD
losses are not yet determined.

                                                    

    Elizabeth Sammut, a Section 8 landlord for the Detroit Housing Commission, the Michigan State Housing
Development Authority, and several additional housing authorities, and Kenderick Foster and Jeffrey Johnson
were each charged in 36th District Court, Detroit, MI, with allegedly conducting a criminal enterprise,
committing public utility fraud and weapons offenses, and malicious destruction of public utilities. The above
defendants allegedly tampered with Detroit Edison Energy electric meters on HUD-subsidized properties and
stole about $706,000 in electric utilities.

                                                    

    Anna Delle Donna, a Guttenberg Housing Authority (Guttenberg) Section 8 landlord previously convicted in
U.S. District Court, Newark, NJ, of committing a conspiracy to commit extortion and filing false Federal income
tax returns, was debarred from procurement and nonprocurement transactions with HUD and throughout
the Executive Branch of the Federal Government for 3 years. Anna Delle Donna failed to report $25,000 in
Guttenberg housing contract payments on her 2004 and 2005 Federal income tax returns.

                                                    

     Mortgage brokers Richard Lisnek and Alex Bulmash; attorney Judy Kien; loan officer Michael Bulmash;
loan processors Allen Bulmash and Anthony Navickas; LaSalle Title Company vice president Lynn Liskiewicz;
appraisers James Heiland, Brandon Bradford, and Vlad Ostromogilsky; K & L Real Estate, Inc., D & J Properties
II, Inc., Investment Group, Inc., and LaSalle Title Company; and five investors were each charged in U.S.
District Court, Chicago, IL, with allegedly committing mail and wire fraud. The above defendants allegedly
obtained HUD real estate-owned and other distressed properties, performed cosmetic rehabilitations, and
resold the properties to investors; provided fraudulent documents and appraisals used by the investors to
obtain conventional mortgages; and assisted with placing some of the properties into the Chicago or Cook
County Housing Authorities Section 8 programs.

                                                    

    Craig Long, a former loan officer for Ries Enterprises and Homesmartz, was sentenced in U.S. District
Court, Kansas City, MO, to 12 months incarceration and 2 years probation and ordered to pay numerous
lenders $441,156 in restitution for his earlier guilty plea to committing a conspiracy, wire fraud, and money
laundering. In addition, former real estate agent and Kansas City Housing Authority (Kansas City) Section 8
landlord Joseph Balano, who was previously sentenced for his earlier guilty plea to committing a conspiracy,
mail fraud, and money laundering, was debarred from procurement and nonprocurement transactions with
HUD and throughout the Executive Branch of the Federal Government for 5 years. Long, Balano, and others
fraudulently used the identities of Federal Housing Administration-approved and other appraisers and submitted
or provided false documents used by unqualified borrowers to obtain conventional mortgages, including a
HUD-subsidized property under contract with Kansas City. HUD realized no losses.

                                                    




Chapter 2 - Public and Indian Housing Programs                                                              53
    Uri Gofman, a Cuyahoga Metropolitan Housing Authority
(Cuyahoga Metropolitan) Section 8 landlord doing business
as Real Asset Fund and Karka, Inc.; 27 additional Cuyahoga
Metropolitan Section 8 landlords; and 17 others were each
charged in Cuyahoga County Court of Common Pleas,
Cleveland, OH, with allegedly engaging in a pattern of corrupt
activity; committing theft, telecommunications fraud, or
money laundering; violating the Mortgage Broker Act; receiving
stolen property; or tampering with records. Gofman and the
remaining defendants allegedly conspired to obtain $44 million
in fraudulent conventional mortgage loans for 453 properties
and then placed 58 of these properties into the Cuyahoga
Metropolitan Section 8 program. HUD realized no losses.

                            

     Joseph Baumeister, the owner of Prophet Development, was
sentenced in U.S. District Court, St. Louis, MO, to 37 months
incarceration and 5 years supervised release and ordered to
pay several financial institutions $364,504 in restitution for
his earlier guilty plea to committing bank fraud. Baumeister
was also suspended from procurement and nonprocurement             Copyright 2009. The Plain Dealer. Cleveland, OH.
                                                                                        Reprinted with permission.
transactions with HUD and throughout the Executive Branch
of the Federal Government pending the outcome of criminal
proceedings or any related debarment action. Baumeister
provided inflated sales documents used by straw borrowers
to fraudulently obtain conventional mortgages. HUD realized
no losses.

                                                   

    Housing recipients Michala Braxton and Sharon Sullivan, Christopher Summers, and 16 others were
each indicted or charged in U.S. District or various State Courts in Kansas City and Overland Park, KS, and
Kansas City, MO, for allegedly producing counterfeit securities. The above defendants allegedly operated or
engaged in a counterfeit check scheme from a Kansas City, KS, public housing unit that involved more than
1,000 counterfeit checks, including 17 counterfeit checks showing bank account information belonging to the
Kansas City and Independence, MO, housing authorities. HUD realized no losses.

                                                   




54                                                          Chapter 2 - Public and Indian Housing Programs
   In addition to multifamily housing developments with U.S. Department of Housing and Urban Development
(HUD)-held or HUD-insured mortgages, the Department owns multifamily projects acquired through defaulted
mortgages, subsidizes rents for low-income households, finances the construction or rehabilitation of rental
housing, and provides support services for the elderly and handicapped.




     Audit
                    Strategic Initiative 2: Contribute to the reduction of erroneous
                                      payments in rental assistance
     Key program results                         Questioned costs                    Funds put to better use
       Audit            9 audits                     $6.4 million                            $138,000
                        Page 57          •	 Review of HUD’s monitoring of performance-based contract
                 			                        adminitrators
       Our        Page 57                •	 Owner and management agent operations
      focus             Page 59          •	 Review of HUD’s approval of commercial rents




                   Chart 3.1: Percentage of OIG multifamily housing audit reports
                                    during this reporting period




                                                                                      Region 1 - 11%
                                                                                      Region 2 - 0%
                                                                                      Region 3 - 11%
                                                                                      Region 4 - 0%
                                                                                      Region 5 - 0%
                                                                                      Region 6 - 22%
                                                                                      Regions 7/8 - 22%
                                                                                      Regions 9/10 - 34%
                                                                                      Region 11 - (N/A)*




  * This does not include disaster relief audits. See chapter 5 for these reviews.




56                                                                          Chapter 3 - Multifamily Housing Programs
Review of HUD’s Monitoring of Performance-Based Contract Administrators
   HUD’s Office of Inspector General (OIG) audited HUD’s monitoring of the performance-based contract
administration contract administrators (PBCA) to determine whether HUD’s monitoring of PBCAs nationwide
was adequate. HUD is authorized to enter into contracts for contract administration services for project-based
Section 8 housing assistance payment contracts. Performance-based service contracting is based on the
development of a performance work statement, which defines the work in measurable, mission related terms
with established performance standards and review methods to ensure quality.

    HUD did not adequately monitor the PBCAs’ performance with respect to the Section 8 performance-based
contract administration initiative, resulting in a lack of assurance that Section 8 rental subsidies were correctly
calculated and paid, project-based Section 8 housing assistance payments contracts were administered
consistently, and HUD received quality work and the best value for more than $28 million spent on administrative
fees paid to the PBCAs monitored by the six HUD offices reviewed.

    OIG recommended that HUD revise the performance-based contract administration initiative guides to (1)
clarify inconsistencies or unclear guidance in monitoring the PBCAs, including clarification of PBCA performance
that requires issuing incentive fees or the assessment of disincentives; (2) ensure that HUD staff follows the
revised guidance when conducting the annual compliance reviews and monthly remote reviews to ensure
that HUD receives quality work and the best value for funds spent on contract administration activities; and
(3) reassess the resources allocated to overseeing the PBCAs to ensure that the resources are sufficient to
monitor their performance. (Audit Report: 2009-SE-0003)

Owner and Management Agent Operations
   In response to requests from HUD and a United States senator, HUD OIG audited the property owner’s
application and the loan processing and underwriting of the HUD-insured mortgage loan to Greystone
Apartments, Inc., for Cypress Ridge Apartments in Oklahoma City, OK. Harry Mortgage Company, the lender,
processed and recommended loan approval under the multifamily accelerated processing (MAP) program.
The audit objective was to determine whether the lender satisfied HUD requirements for processing and
underwriting the $5.87 million mortgage loan to rehabilitate Cypress Ridge Apartments.

    The MAP lender’s underwriting analysis did not assess, as required, the financial wherewithal of the owner
and general contractor, which are related entities, or the construction capabilities of the general contractor.
As a result, the MAP lender did not identify risk and take necessary corrective action before recommending
the loan for approval. Based on the lender’s recommendation, HUD approved the project and general
contractor. The project failed, resulting in a $3.7 million loss on the mortgage loan insured by the Federal
Housing Administration (FHA).

   OIG recommended that HUD request that the Mortgagee Review Board take action against Harry Mortgage
Company for negligence that resulted in a default and a resulting FHA insurance claim on Cypress Ridge
Apartments. (Audit Report: 2009-FW-1010)

                                                      

   HUD OIG audited Cypress Ridge Apartments in Oklahoma City, OK, regarding its use of HUD-insured
mortgage loan proceeds and property operating funds governed by a regulatory agreement, to determine
whether the project’s management agent, William Commercial Property Management, used project and
operating funds consistent with the regulatory agreement and HUD regulations. Specifically, OIG wanted to
determine whether the management agent (1) used loan proceeds for other than reasonable project expenses,




Chapter 3 - Multifamily Housing Programs                                                                        57
(2) used operating funds to pay for other than reasonable operating expenses and necessary repairs, and (3)
paid distributions from other than surplus cash.

    The management agent obtained and used funds contrary to the regulatory agreement. It received loan
proceeds totaling more than $356,000 without construction cost documentation to support the release of
proceeds. From the operating account, it paid related entities and others more than $386,000 without required
justification for payments. As a result, the management agent drew and paid out funds without assurances
that it used the funds for legitimate expenditures. The owner later defaulted on the loan with a resulting loss
of $3.75 million to FHA.

   OIG recommended that HUD (1) require the owner to either support or repay HUD for loan proceeds it
received and funds it paid out of the operating account and (2) take appropriate actions against the owner
and management agent for violating the project’s regulatory agreement. (Audit Report: 2009-FW-1014)

                                                    

  HUD OIG audited the John C. Cannon Retirement and Assisted Living Residence in Seattle, WA, to determine
whether the project owner used project funds in accordance with its regulatory agreement with HUD.

   The project owner failed to get HUD approval for leases costing $189,000, used project funds to obtain
unneeded equipment costing nearly $11,000, and failed to keep adequate documentation to support
expenditures of $317,000.

    OIG recommended that HUD (1) require the owner to repay the amount spent for the unapproved leases
and unnecessary equipment and provide documentation supporting expenses paid for with project funds and
(2) pursue double damage remedies, civil money penalties, and/or administrative sanctions, as appropriate,
against the former administrator and the board of directors. (Audit Report: 2009-SE-1002)

                                                    

   HUD OIG audited Park Lee Apartments in Phoenix, AZ, to determine whether it complied with the HUD’s
regulatory agreement and other Federal requirements.

    Park Lee Apartments did not use its project funds in compliance with HUD and other Federal requirements.
Specifically, the owner and/or management agents violated the regulatory agreement with HUD by paying
nearly $513,000 in questioned costs from the project’s operating account when the project was in a non-surplus-
cash position. The questioned costs included the payment of development expenses from operating funds,
ineligible and unsupported disbursements, and a wire transfer of project revenue to the owner. In addition,
the owner maintained the project in poor physical condition and submitted annual audits of the financial
statements that did not meet HUD requirements.

    OIG recommended that HUD (1) require the project’s owner to repay or support the questioned costs,
(2) pursue double damages remedies, and (3) pursue civil money penalties and administrative sanctions as
appropriate. (Audit Report: 2009-LA-1019)

                                                    

    HUD OIG audited the Casa Otonal multifamily housing project in New Haven, CT, to determine whether
the project owner managed and operated the project in accordance with HUD regulations and the project’s
regulatory agreement. OIG also wanted to (1) determine the extent of unauthorized distributions made while the
project was in a non-surplus-cash position, (2) determine whether goods and services were properly procured,
and (3) ensure that the project’s cost allocation plan adequately prorated staff time and shared office space.



58                                                                  Chapter 3 - Multifamily Housing Programs
     The project owner did not always use project funds in accordance with HUD regulations or the regulatory
agreement. OIG identified questioned costs totaling more than $265,000 while the project was in a non-surplus-
cash position. Specifically, the owner (1) made more than $236,000 in unauthorized loans/distributions to an
affiliate, Casa Otonal, Inc.; (2) did not follow proper procurement procedures; (3) incurred more than $18,000
in ineligible, nearly $9,000 in unsupported, and more than $2,000 in unreasonable costs; and (4) did not prepare
a formal written cost allocation plan to appropriately allocate staff time spent on nonproject activity or the use
of office space by nonproject personnel.

    OIG recommended that HUD (1) require the project owner to (a) reimburse the project for the ineligible
and unreasonable disbursements and (b) provide documentation to support the unsupported disbursements
or reimburse the project; (2) require the project owner to establish a written procurement policy that follows
Federal procurement regulations and an adequate cost allocation plan to appropriately allocate staff time at
the project; and (3) pursue (a) double damages remedies against the responsible parties for the ineligible/
inappropriate, unsupported disbursements that were used in violation of the project’s regulatory agreement
and (b) civil money penalties and administrative sanctions, as appropriate, against the responsible parties for
their part in the regulatory violations. (Audit Report: 2009-BO-1009)

                                                     

   HUD OIG audited Milestone Management Services, Inc., in Topeka, KS, to determine whether Milestone
complied with HUD’s cash management requirements for management agents.

    Milestone’s management controls were not adequate in three respects. Milestone did not (1) adequately
segregate duties of on-site staff or provide proper oversight of these employees, (2) have a system for tracking
significant rehabilitation and related costs for individual units, or (3) practice proper budgetary controls. In
addition, Milestone did not provide its properties with adequate fidelity bond coverage, and it overpaid itself
management fees.

    OIG recommended that HUD (1) ensure that Milestone/property owners implement an adequate system
of management controls and provide technical assistance and guidance as needed, (2) require Milestone/
property owners to implement procedures to periodically assess the adequacy of fidelity bond coverage and
adjust the coverage for each property when needed, (3) ensure that Milestone/property owners use a reliable
process to calculate and pay management fees and that Milestone immediately repays overpaid management
fees to the overcharged properties, and (4) take appropriate administrative actions against Milestone/property
owners if Milestone is unable or unwilling to comply with HUD requirements. (Audit Report: 2009-KC-1009)

Review of HUD’s Approval of Commercial Rents
    HUD OIG audited HUD’s process for reviewing and approving commercial rents for multifamily properties
to determine whether HUD’s review and approval process for commercial rents ensured that multifamily
properties received commercial rents that were comparable to market rate rents. OIG found that HUD did
not have a uniform process to ensure that commercial rent rates were comparable to market rate rents.

   OIG recommended that HUD develop and implement a uniform, written process to ensure that regional
and field office staff fully understands and uniformly complies with requirements to ensure that owners set
commercial rents at appropriate levels. (Audit Report: 2009-KC-0002)

                                                     




Chapter 3 - Multifamily Housing Programs                                                                       59
     Investigations
   Some investigations discussed in this report were generated from leads provided by HUD multifamily
housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
results of various significant investigations are described below.


                  Strategic Initiative 2: Contribute to the reduction of erroneous
                                    payments in rental assistance
 Key program          Cases                 $              Convictions/pleas/            Admin/civil
    results           closed            recovered              pretrials                  actions

 Investigations         40              $1,709,466                 47                        46
                     Page 61      •	 Theft/embezzlement
       Our
                     Page 62      •	 Rental assistance fraud
      focus
                     Page 63      •	 Other fraud/crimes




         Chart 3.2: Percentage of OIG multifamily housing closed investigation cases
                                during this reporting period



                                                                         Region 1 - 7%
                                                                         Region 2 - 15%
                                                                         Region 3 - 2%
                                                                         Region 13 - 30%
                                                                         Region 4 - 7%
                                                                         Region 14 - 5%
                                                                         Region 5 - 2%
                                                                         Region 15 - 3%
                                                                         Region 6 - 5%
                                                                         Regions 7/8 - 8%
                                                                         Region 9 - 3%
                                                                         Region 10 - 3%
                                                                         Region 11 - 10%




60                                                             Chapter 3 - Multifamily Housing Programs
Theft/Embezzlement
    Jesse Turner, the president of Pyramid Construction and a contractor for Desire Community Housing
Corporation, a HUD-funded multifamily property manager, was charged in Louisiana State Court, New Orleans,
LA, with allegedly committing theft and misappropriation of funds. Turner allegedly failed to perform contracted
repairs at Gordon Plaza Apartments, a HUD-owned multifamily housing development, and fraudulently obtained
$1.8 million in HUD funds.




                Copyright 2009. The Times-Picayune. New Orleans, LA. Reprinted with permission.

                                                        

    Debbie Bethany, the owner of Southern Investment Management Company and the management agent
for Hillview Apartments, a HUD-subsidized multifamily housing development, pled guilty in U.S. District Court,
Oxford, MS, to committing theft of government funds. Bethany embezzled and personally used $550,000 in
HUD and other housing funds

                                                        

    Richard Arroyo and Margarita Villegas, the president and director of the South Bronx Community
Corporation Management Corporation (South Bronx), a management agent for two HUD-subsidized multifamily
housing developments, were each charged in U.S. District Court, Manhattan, NY, with allegedly committing
embezzlement from a program receiving Federal funds and mail fraud. Between June 2002 and August 2008,
Arroyo and Villegas allegedly used about $180,000 in South Bronx funds for their personal benefit, and between
May 2005 and April 2009, Arroyo and Villegas allegedly misused about $20,000 in South Bronx funds when they
contributed to the campaign of a New York State Assembly member.

                                                        




Chapter 3 - Multifamily Housing Programs                                                                     61
   Nina Donehue, a former Section 8 tenant and member of the board of directors for Northridge Cooperative
Homes (Northridge), a HUD-subsidized multifamily housing development, was convicted in U.S. District Court,
San Francisco, CA, of committing embezzlement from a program receiving Federal funds. Between January
and February 2006, Donehue embezzled and personally used $34,983 in Northridge funds.

                                                          

    Betty Jefferson, the former president of the St. Stephen Manor, Inc. (St. Stephen), a HUD-subsidized
multifamily housing development; her brother, Mose Jefferson; former St. Stephen manager Angela Coleman;
and former State representative and City of New Orleans councilwoman Renee Pratt were each indicted in
U.S. District Court, New Orleans, LA, for allegedly making false statements and committing a conspiracy, mail
fraud, money laundering, aggravated identity theft, tax evasion, and racketeering activities. From April 1991
to May 2002, the above defendants allegedly embezzled and personally used about $931,224 in Federal and
State funds, including $9,230 in HUD housing assistance payments.




     Copyright 2009. The Times-Picayune. New Orleans, LA. Reprinted with permission.



                                                          

    Diane Mandell, the former associate director of the Forward Housing Corporation, the owner and
management agent for Forward Shady Apartments, a HUD-subsidized multifamily housing development, pled
guilty in U.S. District Court, Pittsburgh, PA, to committing embezzlement. In 2004, Mandell embezzled more
than $5,000 in HUD funds.

                                                          

    Nina Parker-Davis, an occupancy specialist for Pilgrim Baptist Village, a HUD-subsidized multifamily housing
development, pled guilty in U.S. District Court, Newark, NJ, to accepting bribes. Parker-Davis accepted cash
payments from prospective tenants in exchange for immediate placement into subsidized housing units. HUD
losses are not yet determined

Rental Assistance Fraud
   Latasha Greene, Kelly Roberson, Gloria Montalvo, and Brenda Howard, Section 8 tenants in HUD-subsidized
multifamily housing developments, were each arrested and charged in U.S. District or Manhattan Criminal
Courts, Manhattan, NY, with allegedly committing theft of government funds or grand larceny or falsifying
business records. In addition, Section 8 tenant Genevieve Simmons was sentenced to 1 year probation and


62                                                                           Chapter 3 - Multifamily Housing Programs
ordered to pay HUD $40,332 in restitution for her earlier guilty plea to committing theft of government funds.
Greene, Roberson, Montalvo, and Howard allegedly and Simmons admittedly failed to report income or
unauthorized residents on housing certifications and collectively obtained more than $158,053 in housing
assistance they were not entitled to receive.

                                                      

   Six Section 8 tenants in HUD-subsidized multifamily housing developments were each arrested and
charged in U.S. District or Bronx Criminal Courts, Bronx, NY, with allegedly making false statements, falsifying
business records, or committing embezzlement or grand larceny. The above defendants allegedly failed to
report income or used fraudulent identities on housing certifications and collectively obtained $143,024 in
housing assistance they were not entitled to receive.

                                                      

    Nichole Baker and Richard Spears, Section 8 tenants in HUD-subsidized multifamily housing developments,
were each arrested and charged in U.S. District Court, Brooklyn, NY, with allegedly committing theft of
government funds. In addition, former Section 8 tenant Fazia Monroe, also known as Fazia Edwards, was
sentenced to 1 year probation and ordered to pay HUD $59,942 in restitution for her earlier guilty plea to making
false statements to HUD. Baker and Spears allegedly and Monroe admittedly failed to report income on housing
certifications and collectively obtained $142,702 in housing assistance they were not entitled to receive.

                                                      

    Dawn Jackson, a Section 8 tenant at Rolling Hills, a HUD-subsidized multifamily housing development, pled
guilty in Montgomery County Court of Common Pleas, Norristown, PA, to committing false swearings and a
conspiracy. Jackson failed to report income or an accurate household composition on housing certifications
and obtained $70,825 in housing assistance she was not entitled to receive.

Other Fraud/Crimes
   Charles Livecchi, the former owner of Cambridge Court Apartments (Cambridge Court), a HUD-insured
and -subsidized multifamily housing development, was ordered to pay HUD more than $1.1 million in a civil
judgment filed in U.S. District Court, Buffalo, NY. Livecchi allegedly used $481,438 in HUD project funds to
pay his personal debt while the Cambridge Court mortgage was in default and the property was in a non-
surplus-cash position.

                          

    Serena Ruthford-Sylvia, a former accounts receivable
manager for Haven HealthCare Management, LLC,
the owner and management agent for numerous
FHA-insured nursing facilities, was arrested and
charged in U.S. District Court, New Haven, CT, with
allegedly obstructing a Federal investigation, making
false statements, and committing embezzlement
from a health care program. In addition, former
Jewitt City Haven Healthcare facility administrator
Kimberly Boccacio pled guilty to obstructing a Federal
investigation. Ruthford-Sylvia allegedly forged the
signature of a nursing home resident, provided false
                                                                    Copyright 2009. The Hartford Courant. Hartford, CT.
                                                                                           Reprinted with permission.



Chapter 3 - Multifamily Housing Programs                                                                             63
testimony in court, denied her forgery to Federal agents, and embezzled trust account funds belonging to
nursing home residents, and Boccacio mislead Federal agents when questioned during a health care fraud
investigation.

                                                   

     Michael Sorrentino, a former Section 8 tenant at Belmont Shelter, a HUD-subsidized multifamily housing
agency, pled guilty in U.S. District Court, Buffalo, NY, to using the identity of another. Sorrentino diverted
$15,042 in housing assistance payments from his Section 8 landlord to himself and used his landlord’s identity
to fraudulently acquire credit.

                                                   




64                                                                 Chapter 3 - Multifamily Housing Programs
    The Office of Community Planning and Development (CPD) seeks to develop viable communities by
promoting integrated approaches that provide decent housing, suitable living environments, and expanded
economic opportunities for low- and moderate-income persons. The primary means toward this end is the
development of partnerships among all levels of government and the private sector. In addition to the audits
and investigations described in this chapter, the U.S. Department of Housing and Urban Development, Office
of Inspector General (HUD OIG), has conducted numerous outreach efforts (see chapter 8, page 132).



         Audit
                 Strategic Initiative 3: Contribute to the strengthening of communities
     Key program results                          Questioned costs                   Funds put to better use
         Audit          45 audits1                   $58.9 million                          $180.5 million
                         Page 67          •	 Community Development Block Grant programs
                         Page 70          •	 HOME Investment Partnerships program
          Our
         focus           Page 74          •	 Neighborhood Initiative grants
                         Page 74          •	 Neighborhood Stabilization Program
                         Page 74          •	 Housing Opportunities for Persons with AIDS


     1
      The total CPD audits, questioned costs, and funds put to better use amounts include all American Recovery all
     Reinvestment Act of 2009 (13 audits) and disaster recovery (seven audits) type audits conducted in the CPD area.
     The write-ups for these audits are shown separately in chapters 5 and 6 of this semiannual report.


                  Chart 4.1: Percentage of OIG community planning and development
                               audit reports during this reporting period




                                                                                       Region 1 - 9%
                                                                                       Region 2 - 9%
                                                                                       Region 3 - 7%
                                                                                       Washington, DC 2%
                                                                                       Region 4 - 14%
                                                                                       Region 5 - 11%
                                                                                       Region 6 - 11%
                                                                                       Regions 7/8 - 13%
                                                                                       Regions 9/10 - 13%
                                                                                       Region 11 - 11%




66                                                   Chapter 4 - Community Planning and Development Programs
    OIG audited the Community Development Block Grant (CDBG) program, the HOME Investment Partnerships
Program (HOME), Neighborhood Initiative grants, the Neighborhood Stabilization Program (NSP), and Housing
Opportunities for Persons with AIDS (HOPWA). While OIG’s objectives varied by auditee, the majority of the
reviews were to determine whether the grant funds were administered for eligible activities and that the auditee
met program objectives. The following section illustrates the audits conducted in the CPD area.

Community Development Block Grant Programs
    HUD OIG audited the CDBG program administered by the City of Miami, FL, and found that the City did
not administer its CDBG program in accordance with applicable HUD requirements. It did not meet national
objectives for its commercial façade program. As a result, it had no assurance that more than $4.1 million in
expended CDBG funds achieved the intended national objective or met program requirements. In addition,
the City did not properly allocate salary expenditures to its CDBG program or maintain adequate supporting
documentation demonstrating that employees worked in the program. As a result, it improperly allocated
more than $690,000 to the program. The City also did not accurately report CDBG financial information to HUD
in accordance with Federal requirements. It inaccurately reported administrative/planning costs for program
year 2006 and failed to report nearly $266,000 in reprogrammed CDBG funds to HUD. As a result, there was
a lack of assurance that the City reported accurate CDBG financial information to HUD in accordance with
HUD regulations.

    OIG recommended that HUD require the City to (1) provide documentation to support that CDBG program
requirements were followed and the intended national objective was met for two commercial façade
activities or reimburse its program from non-Federal funds, (2) reimburse its program from non-Federal
funds for unsupported salary expenditures, and (3) provide documentation to support the reprogrammed
funds or reimburse its program from non-Federal funds for canceled CDBG activities for which funds were
reprogrammed. (Audit Report: 2009-AT-1011)

                                                      

    HUD OIG audited the CDBG program administered by Miami-Dade County, FL, and found that the County
did not administer its CDBG program in accordance with applicable HUD requirements. It did not comply with
HUD requirements in meeting national objectives and performance goals and failed to recapture CDBG funds
for canceled activities that did not meet a national objective. In addition, the County did not accurately report
CDBG financial and program information to HUD in accordance with Federal requirements. It failed to report
CDBG program income for four activities, inaccurately reported program income for 2007, and inaccurately
reported the status and accomplishments of CDBG activities to HUD.

    OIG recommended that HUD require the County to (1) provide documentation to support that CDBG
program requirements were followed and national objectives and performance goals were met for eight
activities or reimburse its program $4 million from non-Federal funds and (2) recapture more than $649,000
expended for eight activities that had been canceled. In addition, HUD should require the County to (1) ensure
that CDBG program income is properly reported for four activities and (2) implement and enforce written
policies and procedures to ensure effective performance and compliance with HUD regulations for meeting
CDBG national objectives and performance goals and reporting program information and income to HUD.
(Audit Report: 2009-AT-1008)

                                                      

   HUD OIG audited Adams County, CO’s CDBG program administered by its Community and Economic




Chapter 4 - Community Planning and Development Programs                                                       67
Opportunity Department and found that the Department did not have adequate controls over its CDBG funds.
Specifically, it did not (1) have written policies and procedures for the administration of its CDBG funds, (2)
monitor the use of the funds, (3) maintain documentation showing that its activities met national objectives,
(4) compare disbursement requests to existing contracts to ensure that CDBG funds were spent in accordance
with the contract, and (5) have a process in place to eliminate known conflicts of interest. As a result, Adams
County spent more than $1.2 million on ineligible CDBG activities, awarded nearly $308,000 in CDBG funds
without amending its written agreements with the subrecipients, and did not ensure that more than $1.6
million in CDBG activities met a national objective.

    OIG recommended that HUD ensure that Adams County (1) reimburses its CDBG funds from non-Federal
funds for any ineligible expenditures, (2) provides supporting documentation showing that the CDBG funds met
a national objective, (3) implements an acceptable internal control structure by preparing and implementing
effective policies and procedures, and (4) receives technical assistance from HUD to ensure compliance.
(Audit Report: 2009-DE-1005)

                                                       

    HUD OIG audited the City of Rome, NY’s administration of its economic development activity, known as
General Cable, under its CDBG program and found that the City did not always carry out its activities effectively,
efficiently, and economically in compliance with HUD regulations. Further, it expended CDBG funds for an
activity that did not meet a national objective of the program. Specifically, the City failed to (1) develop a plan
to ensure that the required job creation goal would be achieved, (2) adequately address known concerns
about the activity’s progress, and (3) maintain adequate supporting documentation. As a result, no jobs were
created, and there was no assurance that activity costs were necessary, reasonable, and in accordance with
Federal regulations. Consequently, the City did not use CDBG funds to address community needs.

    OIG recommended that HUD instruct the City to (1) implement procedures and controls to ensure that
funded economic development activities are feasible and can be completed in a timely manner to meet a
national objective of the CDBG program, (2) establish a schedule for documenting completion of the activity
and the jobs retained and/or created at the site, and (3) reimburse HUD any portion of the more than $2.95
million in CDBG funds expended on the activity for costs that do not qualify as meeting the job creation
requirement. (Audit Report: 2009-NY-1012)

                                                       

    HUD OIG audited the CDBG program administration of the Union County Consortium in Elizabeth, NJ,
and found that the County did not always disburse CDBG funds in accordance with regulations, maintain a
financial management system that always safeguarded funds, or establish sufficient controls to ensure that
program activities were properly administered and complied with CDBG national objectives. Specifically, the
County (1) drew down CDBG funds instead of first using available program income, (2) transferred program
income and CDBG funds for non-CDBG uses, (3) used program income for unsupported items, (4) inadequately
recorded and reported program income, and (5) inadequately monitored its consultant.

    OIG recommended that HUD instruct the County to (1) establish controls to ensure that available program
income is used before drawing down funds from HUD’s line of credit, (2) reimburse the program income
account nearly $464,000 from non-Federal sources if the County cannot provide supporting documentation,
(3) implement policies and procedures to ensure that program income is accurately recorded and reported,
and (4) instruct its consultant to remit nearly $32,000 to the County to be put back into the County’s line of
credit since the funds were not disbursed. (Audit Report: 2009-NY-1010)

                                                       



68                                               Chapter 4 - Community Planning and Development Programs
    HUD OIG audited the City of Thornton, CO’s CDBG program and found that the City did not maintain
sufficient records demonstrating that each CDBG activity met a national objective. Of the 10 CDBG projects
reviewed, the City sufficiently documented that five of the projects met a national objective. However, for
four projects that the City certified met the national objective based on area benefit, it did not identify the
specific area to be benefited by the activity, document that at least 51 percent of the residents in the area were
low- and moderate-income persons, or document that the area was primarily residential. For the remaining
project, it did not certify what national objective the project would meet or document that a national objective
was ultimately met.

   OIG recommended that HUD require the City to (1) provide documentation supporting that the five
CDBG projects met a national objective and (2) establish and implement effective policies and procedures to
ensure that it maintains adequate documentation to support compliance with the CDBG national objective
requirements. (Audit Report: 2009-DE-1004)

                                                       

     HUD OIG audited the City of Little Falls, NY’s Small Cities CDBG and HOME programs administered by
its Urban Renewal Agency (URA) and found that the City and its URA did not comply with HUD requirements
while administering the programs. Although the City and its URA are attempting to correct deficiencies that
exist within their HUD-funded programs, the City’s books and records could not be relied upon to provide
current or accurate data and were, therefore, not auditable.

     OIG recommended that HUD instruct the State of New York’s Office of Community Renewal and Housing
Trust Corporation to (1) coordinate its efforts to conduct a comprehensive monitoring of the City and its URA
to ensure that they adequately administer the City’s HUD-funded Small Cities CDBG grants and HOME program
in compliance with applicable HUD and State of New York requirements; (2) fully reconcile the sources and
uses of all grant funds for each CDBG and HOME project and cash account that it administers and develop
procedures to ensure that the appropriate cash accounts are used for grant income and expense transactions;
(3) account for, reconcile, and report on all program income transactions; (4) develop administrative control
procedures to ensure compliance with all HOME program disbursement and reporting requirements; and (5)
establish procedures to ensure the proper monitoring and maintenance of CDBG and HOME program activity
files. (Audit Report: 2009-NY-1801)

                                                       

    HUD OIG audited HUD’s monitoring of its CDBG program grantees under the jurisdiction of the Philadelphia,
PA, and Baltimore, MD, CPD field offices and found that the Philadelphia and Baltimore CPD field offices
did not adequately document their monitoring of CDBG program grantees. Specifically, the field offices did
not always maintain documentation to demonstrate that their monitoring was complete and did not always
notify grantees of the findings and concerns identified during on-site monitoring within the required time limit.

    OIG recommended that HUD reemphasize to field office staff the importance of following established
monitoring procedures, specifically to ensure that (1) all correspondence, documentation, and work papers
relating to monitoring and conclusions are maintained in the official monitoring files; (2) monitoring officials
use the required monitoring exhibits; (3) monitoring officials answer all of the questions and fill in all of the
text boxes in the monitoring exhibits; and (4) staffs prepare and send notification of the monitoring results
to the grantees within the required 45-day time limit. In addition, OIG recommended that HUD develop and
implement a written quality assurance procedure and/or mechanism to ensure that monitoring conclusions
are appropriately supported by complete documentation and that monitoring letters are submitted to grantees
within the 45-day requirement. (Audit Report: 2009-PH-0002)




Chapter 4 - Community Planning and Development Programs                                                        69
HOME Investment Partnerships Program
    HUD OIG audited HUD’s HOME program and found that HUD needs to improve efforts to require participating
jurisdictions to cancel more than $62 million in HOME fund balances for open activities that were committed
more than 5 years ago. The prolonged delay or failure to cancel the fund balances caused an overstatement of
commitments in HUD’s Integrated Disbursement and Information System (IDIS), which prevented the accurate
identification of funds that were subject to recapture by HUD or the United States Treasury. In addition to the
excessive fund balances, OIG questioned the eligibility of more than $11.6 million disbursed to participating
jurisdictions for activities that were more than 5 years old, showed evidence of stalled performance, and may
have warranted classification as terminated activities.

    Participating jurisdictions made more than $20.9 million in incorrect commitment entries into IDIS. The
inaccuracies undermined the integrity of IDIS and reports generated from it. HUD did not routinely monitor
the accuracy of commitments that participating jurisdictions entered into IDIS, nor did it require participating
jurisdictions to implement adequate internal controls over commitments that they entered into IDIS. The
significant inaccuracies bring into question the reliability of commitments that other participating jurisdictions
entered into IDIS.

    HUD used a cumulative technique for assessing deadline compliance and a first-in first-out method for HOME
commitments and expenditures that conflicted with statutory requirements to identify HOME commitments and
expenditures by the program funding year to which they relate. These practices contributed to the old activities
remaining open. HUD would have recaptured the funds due to the missed 5-year disbursement requirement
were it not for the cumulative technique. The first-in first-out method contributed to misclassification of funds
in HUD’s financial system that are subject to recapture by HUD or the United States Treasury pursuant to a
separate statutory deadline.

    OIG recommended that HUD (1) identify which of the old open activities have been completed or
terminated, cancel those balances, recapture shortfalls generated by the cancellations, and require repayment
for HOME expenditures on terminated activities; (2) implement procedures to ensure that field offices monitor
the accuracy of future commitments that participating jurisdictions enter into IDIS and provide technical
assistance to participating jurisdictions regarding what constitutes acceptable documentation for commitments;
(3) require participating jurisdictions to close out old HOME activities as appropriate, reallocate remaining
balances for future HOME projects in a timely manner, and establish and implement adequate internal controls
over commitments they enter into IDIS; and (4) obtain a formal legal opinion and revise its regulations to
ensure that its procedures for assessing compliance with commitment and expenditure requirements are
consistent with statutory requirements. (Audit Report: 2009-AT-0001)

                                                       

    HUD OIG audited HUD’s oversight of HOME program income (including recaptured program funds) and
found that HUD did not ensure that participating jurisdictions complied with HUD’s requirements in their use of
program income and properly reported program income in IDIS. At least 29 of the 45 participating jurisdictions
reviewed inappropriately drew down more than $79.4 million in program funds from their HOME trust fund
treasury accounts from January 1, 2007, through December 31, 2008, when they had available program
income. Of the 29 participating jurisdictions, 26 had more than $39.6 million in available program income
as of December 31, 2008, associated with their inappropriate drawdowns of program funds. In addition, at
least 38 of the participating jurisdictions did not report program income in IDIS accurately and/or in a timely
manner from January 1, 2007, through December 31, 2008.

   OIG recommended that HUD ensure that the 26 participating jurisdictions disburse the available program
income as of December 31, 2008, for eligible housing activities and/or administrative costs before drawing




70                                               Chapter 4 - Community Planning and Development Programs
down program funds from their treasury accounts, as appropriate, and implement adequate procedures and
controls to address the findings cited. (Audit Report: 2009-CH-0002)

                                                       

   HUD OIG audited the HOME program administered by the City of Boston, MA’s Department of Neighborhood
Development and found that the Department (1) awarded community housing development organization
(CHDO) set-aside funding totaling more than $4.7 million to 18 organizations that did not meet all legal and
organizational characteristics of CHDOs or did not have the required capacity to operate as CHDOs; (2) provided
more than $2.1 million in CHDO operating funds to the 18 ineligible organizations; and (3) did not ensure that
proper, fair, and equitable procurement practices were followed for more than $5.1 million in HOME funding
expended on construction and development work.

     In addition, the Department (1) could not ensure that payroll costs of more than $1.7 million charged to the
HOME program for fiscal years 2007 and 2008 were accurate and (2) did not maintain a cost allocation plan
and used an allocation method based, for the most part, on estimates or past experience. As a result, some
of its programs may have incurred a disproportionate share of staffing costs, while some local City programs
were not charged.

    OIG recommended that HUD require the Department to (1) cease spending set-aside and operating expense
funding until it can be determined whether the organizations can achieve CHDO status in accordance with
HUD regulations and (2) assist the organizations in achieving CHDO status as deemed necessary. OIG also
recommended that the City (1) deobligate unexpended set-aside funding of more than $3.9 million and provide
funding to organizations that are eligible to receive the funding or reimburse funds to the HOME program,
(2) reimburse approximately $800,000 expended from set-aside funds from non-Federal funds to the HOME
program, (3) deobligate unexpended operating funds of approximately $1 million and reimburse these funds
to the HOME program, and (4) reimburse expended operating funds of more than $1 million from non-Federal
funds to the HOME program.

   In addition, OIG recommended that HUD require the Department to (1) conduct an independent cost
analysis for each of the procurements to ensure that HOME program expenditures were reasonable and
supported and reimburse the HOME program from non-Federal funds for unsupported amounts; (2) monitor
and provide technical assistance to ensure that developers follow HUD procurement regulations; (3)
implement a cost allocation plan that adequately describes the process for personnel who work on multiple
programs; (4) revise its job descriptions so that they are consistent with the allocation plan; and (5) provide
supporting documentation for payroll costs charged to the HOME program in fiscal years 2007 and 2008,
submit documentation to HUD for approval, and reimburse the HOME program from non-Federal funds for
any unsupported costs. (Audit Report: 2009-BO-1011)

                                                       

   HUD OIG audited the City of Los Angeles, CA, Housing Department’s administration of the HOME program
and found that the City improperly allocated HOME funds for the Buckingham Place project to its subrecipient
without adequate controls in place to ensure that program requirements were met.

     OIG recommended that HUD require the City to (1) provide documentation supporting the eligibility of an
$8.5 million investment of HOME funds for its proposal to complete one partially completed building and have
it ready for occupancy within two years or repay the funds from non-Federal sources and (2) establish and
implement written procedures for projects administered by its subrecipients that are not processed through
its Affordable Housing Trust Fund Unit. (Audit Report: 2009-LA-1011)

                                                       


Chapter 4 - Community Planning and Development Programs                                                       71
    HUD OIG audited the City of Atlanta, GA’s HOME program and found that the City did not comply with
HUD requirements for committing HOME funds within the 24-month statutory deadline. The audit identified
more than $6.8 million in incorrect commitment entries that the City made to IDIS. The incorrect entries
masked a shortfall of more than $3.9 million that is subject to recapture by HUD. The recaptures will deprive
City residents of services that the HOME program was intended to provide. The incorrect commitments also
undermined the integrity of IDIS and of reports HUD generated from it to monitor the City’s compliance with
the 24-month statutory commitment requirement.

   OIG recommended that HUD recapture the funds not committed by the 24-month statutory deadline and
require the City to (1) implement controls to ensure that future HOME funds are committed by the required
deadline, (2) monitor commitments entered into IDIS, and (3) take appropriate action to promptly correct
detected violations. (Audit Report: 2009-AT-1013)

                                                      

    HUD OIG audited the City of Flint, MI’s HOME program and found that the City did not effectively commit and
disburse HOME funds. It (1) inappropriately reported in IDIS at least $2.5 million in HOME funds as subgrants,
(2) did not cancel subgrants in IDIS totaling $400,000 in HOME funds, (3) did not reduce a subgrant in IDIS
by nearly $1,000 in HOME funds, and (4) could not provide written agreements supporting nearly $141,000 in
subgrants in IDIS. As a result, the City must commit nearly $870,000 in HOME funds for eligible subgrants and/
or activities by September 30, 2009.

    The City also inappropriately drew down and disbursed more than $1 million in HOME funds that were
not used for eligible costs for more than 15 days after the City drew down the funds from its HOME trust fund
treasury account and/or HUD’s 5-year disbursement deadlines as of July 31, 2007, and June 30, 2008. As a result
of the inappropriate drawdowns and disbursements, the City avoided not meeting HUD’s 5-year disbursement
deadlines and losing more than $499,000 in HOME funds.

    OIG recommended that HUD reduce the City’s line of credit in its treasury account for the HOME funds that
the City did not appropriately commit by HUD’s 24-month commitment deadline and draw down and disburse
by HUD’s 5-year disbursement deadlines and require the City to (1) cancel incorrect subgrants in IDIS totaling
more than $1.5 million in HOME funds, (2) provide written agreements supporting subgrants or decommit the
HOME funds in IDIS, (3) reduce subgrants by more than $30,000 in HOME funds, and (4) implement adequate
procedures and controls to address the findings cited. These procedures and controls should help to ensure
that HOME funds are committed and disbursed in accordance with Federal requirements and the City does
not lose more than $730,000 in HOME funds over the next month. (Audit Report: 2009-CH-1020)

                                                      

    HUD OIG audited the City of Holyoke, MA, Office of Community Development’s award and use of HOME
program set-aside funds for CHDO project activities carried out by Contemporary Apartments and Olde
Holyoke Development Corporation and found that the City awarded more than $1.7 million in HOME program
CHDO set-aside funds to Contemporary Apartments, which was not eligible to receive set-aside funds. The
City certified Contemporary Apartments as a CHDO and provided set-aside funds for three homeownership
projects. As a result, the City significantly overstated the HOME set-aside funds recorded in HUD’s financial
reporting systems for fiscal years 2006, 2007, and 2008. Also, due to the overstatement of reserved and expended
set-aside funds, the City will not meet the statutory 15 percent spending requirement, totaling $501,000, for
set-aside funds unless other qualifying projects can be identified and funded.

    OIG recommended that HUD require the City to (1) deobligate the HOME set-aside funds awarded to
Contemporary Apartments for the three ineligible projects and reduce the amount of set-aside funds reported
in HUD financial systems accordingly; (2) ensure that the Regional Consortium, of which the City of Holyoke



72                                              Chapter 4 - Community Planning and Development Programs
is a member, has designated development projects for fiscal years 2006 through 2008 sufficient to meet the
statutory requirement of nearly $501,000 in HOME set-aside funds for CHDOs; and (3) develop and implement
controls to ensure that only eligible entities are certified as CHDOs and related HOME set-aside spending
amounts are appropriately awarded and reported in the future. (Audit Report: 2009-BO-1008)

                                                         

    HUD OIG audited the City of East Cleveland, OH’s use of HOME and CDBG program funds and found
that the City did not effectively administer its HOME and CDBG programs. It (1) lacked documentation to
support its use of nearly $444,000 in HOME funds for 12 rehabilitation projects and four financing activities, (2)
inappropriately disbursed nearly $60,000 in HOME funds for a rehabilitation project that did not meet HUD’s
property standards requirements and had unused prepurchased construction materials for three organization
projects, (3) and provided nearly $97,000 and committed more than $24,000 in HOME funds for an improper
organization project.

    The City also failed to disburse CDBG funds drawn down from its line of credit within a reasonable number
of days and lacked documentation to support that it used CDBG funds for appropriate expenses. As a result,
HUD lost more than $4,000 in interest on the more than $183,000 in CDBG funds that the City failed to disburse
within a reasonable number of days, and the City was unable to support its use of nearly $5,000 in CDBG funds
for eligible costs.

   OIG recommended that HUD require the City to (1) provide documentation or reimburse its HOME and
CDBG programs from non-Federal funds for the unsupported payments, (2) reimburse its HOME and CDBG
programs from non-Federal funds for the improper use of funds, (3) decommit the HOME funds inappropriately
committed for a CHDO project, (4) disburse or reimburse HUD for the CDBG funds not disbursed, (5) reimburse
HUD from non-Federal funds for the interest HUD lost on the CDBG funds that the City failed to disburse
within a reasonable number of days of being drawn down from its line of credit, and (6) implement adequate
procedures and controls to address the findings cited. (Audit Report: 2009-CH-1008)

                                                         

    HUD OIG reviewed the City of Oakland, CA’s HOME program and found that the City did not always
administer its HOME program in accordance with Federal requirements and its own policies and procedures.
Specifically, it did not follow HUD and Office of Management and Budget requirements and its own policies
for (1) initial cost estimates, (2) rehabilitation standards, (3) income determinations, and (4) IDIS entries. As
a result, the City did not fulfill all of its responsibilities as a HOME participating jurisdiction, more than $286,000
was not available for eligible projects and activities, and more than $118,000 in HOME expenditures was not
supported.

   OIG recommended that HUD require the City to (1) repay HUD more than $286,000 or bring the homeowners’
properties up to all applicable rehabilitation standards, (2) support or repay HUD more than $118,000 in
unsupported costs, (3) follow its own policies and procedures for initial cost estimates, and (4) establish
adequate policies and procedures for income determinations and IDIS entries. (Audit Report: 2009-LA-1013)

                                                         

   HUD OIG audited the HOME program of the City of Kansas City, KS, and found that the City did not obtain
adequate environmental reviews, improperly awarded HOME construction projects, improperly charged
employee costs to the HOME program, and allowed contracts that did not include required provisions. In
addition, the City did not verify the eligibility of CHDOs before awarding them HOME funds, nor did it spend
program income and recaptured funds before drawing down additional funds.




Chapter 4 - Community Planning and Development Programs                                                             73
   OIG recommended that HUD require the City to properly support or repay to its HOME program more than
$400,000 in unsupported costs; repay more than $17,500 in ineligible costs; and obtain environmental review,
procurement, contract content, and CHDO eligibility training. (Audit Report: 2009-KC-1006)

                                                       

    HUD OIG audited the City of Augusta, GA’s HOME program and found that the City did not comply with the
HOME requirements for performing its monitoring and follow-up reviews or have sufficient documentation to
support that required reviews were conducted. In addition, it did not properly monitor the use of its CHDOs’
proceeds. The City did not implement its procedures to ensure that the required monitoring and follow-up
reviews were performed and documented. Also, City officials did not follow and enforce program monitoring
requirements. HUD lacked assurance that HOME funds were spent for activities that were administered in
compliance with program requirements, and CHDOs’ proceeds and more than $105,000 in grant funds were
used for eligible program costs.

   OIG recommended that HUD require the City to (1) properly support or repay more than $105,000 in
questioned costs because of program violations and (2) establish and implement proper controls and
procedures to ensure compliance with all program requirements. (Audit Report: 2009-AT-1005)

Neighborhood Initiative Grants
   HUD OIG audited Grace Hill Neighborhood Health Centers in St Louis, MO, and found that Grace Hill
charged unsupported salary and benefit costs and improperly charged computer support expenses as direct
costs to its grants. As a result, it charged more than $3.2 million in unsupported payroll expenses to the grants
and received nearly $197,000 more than allowable from the grants.

    OIG recommended that HUD require Grace Hill to (1) design and implement a process to track actual
staff hours, base future drawdown requests on actual activity, and provide documentation to support salary
and benefits charged to the grants or reimburse the grants from non-Federal sources for costs that it cannot
adequately support and (2) review the direct and indirect costs, certify that no other duplications have occurred,
and strengthen the review process by training the reviewer on what is included in the indirect cost rate. (Audit
Report: 2009-KC-1008)

Neighborhood Stabilization Program
    HUD OIG audited the State of Washington’s NSP and found that the State’s NSP implementation was
generally compliant with HUD requirements. However, the distribution was not entirely based on greatest
need. As a result, some communities received excessive allocations, while others that had a greater need
did not receive an allocation.

    OIG recommended that HUD ensure that the State (1) awards funds to subrecipients that were not funded
or were underfunded so that these funds will be used for communities that had a greater need than some of
the communities that received funding and (2) fully understands external data before using it to make future
allocations of funds. (Audit Report: 2009-SE-1802)

Housing Opportunities for Persons with AIDS
     HUD OIG audited the HOPWA program of the City of Houston, TX, and found that the City and its project
sponsors generally complied with HOPWA grant requirements and HUD regulations. However, in violation of
its HOPWA grant agreement, the City did not consistently monitor 15 of 18 project sponsors. The City’s failure
to monitor the project sponsors put $7.5 million in HUD funds at risk.



74                                               Chapter 4 - Community Planning and Development Programs
   OIG recommended that HUD require the City to (1) consistently monitor its project sponsors in compliance
with its grant agreements and (2) ensure that project sponsors submit the required monthly and quarterly
reports in a timely manner or enforce its grant agreements, including declaring breach and withholding
funding, if the project sponsors fail to submit them. (Audit Report: 2009-FW-1011)

                                                    




Chapter 4 - Community Planning and Development Programs                                                 75
     Investigations
    Some investigations discussed in this report were generated from leads provided by HUD CPD program
staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
significant investigations are described below.



              Strategic Initiative 3: Contribute to the strengthening of communities
 Key program          Cases                  $               Convictions/pleas/             Admin/civil
    results           closed             recovered               pretrials                   actions

 Investigations         77               $7,585,696                  39                         18

       Our            Page 77      •	 Theft/embezzlement
      focus           Page 79      •	 Other fraud/crimes




              Chart 4.2: Percentage of OIG community planning and development
                    closed investigation cases during this reporting period



                                                                            Region 1 - 4%
                                                                            Region 2 - 5%
                                                                            Region 3 - 1%
                                                                            Region 13 - 5%
                                                                            Region 4 - 5%
                                                                            Region 14 - 1%
                                                                            Region 5 - 4%
                                                                            Region 15 - 3%
                                                                            Region 6 - 0%
                                                                            Regions 7/8 - 4%
                                                                            Region 9 - 4%
                                                                            Region 10 - 2%
                                                                            Region 11 - 62%




76                                           Chapter 4 - Community Planning and Development Programs
Theft/Embezzlement
   Linda Bevins, a former payroll supervisor at the Crotched Mountain Foundation (Crotched Mountain), an
organization that receives HUD CDBG and Supportive Housing Program (SHP) funds, pled guilty in U.S. District
Court, Concord, NH, to committing theft from a program receiving Federal funds. From June 2004 to August
2007, Bevins diverted and personally used about $1.6 million in Crotched Mountain funds without authorization.
New Hampshire civil default judgments in the amount of $1.6 million were also individually awarded against
Bevins and her daughter, Holly Sears.

                                                            

   Gordon Harlin, a former grant writer for Community of Family and Friends, a nonprofit organization that
receives HUD SHP funds, pled guilty in U.S. District Court, Fort Worth, TX, to making false statements to a
Federal agency and aiding and abetting. Harlin provided false documents that enabled Community of Family
and Friends to fraudulently obtain more than $1.1 million in SHP funds..

                                                            

    Joseph Giacalone and Daniel Robin, doing business as OK Industries, an organization that receives
HUD CDBG funds, each pled “nolo contendere” in Seventh Circuit Court, Flint, MI, to committing larceny
by conversion greater than $20,000. Giacalone and Robin applied for and received about $870,000 in CDBG
funds to relocate their manufacturing business to an economically deprived area and expand their operations,
but Giacalone and Robin allegedly failed to comply with HUD stipulations and defaulted on their loan. HUD
recovered the funds by offsetting future City of Flint CDBG funding.

                                                            

    Henry Humphrey and Kevin Harris, the chief executive officer and treasurer of Shiloh Baptist Church
Community Renewal Center, an organization that receives HUD CPD and other funds, were each indicted
in U.S. District Court, Louisville, KY, for allegedly committing a conspiracy, embezzlement, wire fraud, and
aiding and abetting. From 1998 to 2005, Humphrey and Harris allegedly diverted about $500,000 in HUD funds
to themselves.




     Copyright 2009. The Courier-Journal. Louisville, KY. Reprinted with permission.


                                                            




Chapter 4 - Community Planning and Development Programs                                                    77
    Frank Rose, the director of the Linden Neighborhood Preservation program, an organization that receives
HUD CDBG and HOME funds; Anthony Rose, the former director of the Linden Department of Transportation
and Parks; and Walter Zawacki, a partner in Zawacki Construction, were collectively sentenced in U.S. District
Court, Newark, NJ, to 60 months incarceration and 108 months probation and ordered to pay HUD $281,148
in restitution for their earlier guilty pleas to committing mail fraud or filing a false Federal income tax return.
From January 1998 to October 2007, Frank Rose accepted bribes from Zawacki and others in exchange for
more than $5 million in Linden Neighborhood Preservation construction contracts, and Anthony Rose awarded
more than $1.3 million in construction and maintenance contracts to companies he owned.

                                                      

    Barbara Alvarado, a former bookkeeper for the Los Angeles House of Ruth (House of Ruth), a homeless
and domestic violence shelter that receives HUD SHP funds, was sentenced in U.S. District Court, Los Angeles,
CA, to 1 year incarceration, 1 year home detention, and 3 years probation and ordered to pay House of Ruth
$138,370 in restitution for her earlier guilty plea to committing misapplication of property from an organization
receiving Federal funds. Alvarado altered House of Ruth accounting records and victim funding requests and
fraudulently obtained and personally used $238,000 in House of Ruth funds.

                                                      

     Jubilee Restoration, Inc. (Jubilee), a nonprofit organization that receives HUD SHP funds, was sentenced
in U.S. District Court, Oakland, CA, to 5 years probation and ordered to pay HUD $177,381 in restitution for its
earlier guilty plea to submitting fraudulent claims to HUD. From 2002 through 2004, Jubilee submitted $199,476
in fraudulent claims for fictitious or previously paid homeless youth counseling services.

                                                      

    Yvette Crayton, a grant-writing consultant for the Shiloh Community Renewal Center (Shiloh Community),
an organization that receives HUD CPD funds, pled guilty in U.S. District Court, Louisville, KY, to making false
statements and committing embezzlement and a conspiracy. From 2001 to 2005, Crayton and others diverted
about $120,000 in Shiloh Community rehabilitation and construction funds earmarked for a senior living center.

                                                      

    Phyllis Rawley, the former executive director of the El Paso Empowerment Zone, a nonprofit organization
that receives HUD Empowerment Zones and Rural Housing and Economic Development (Rural Housing)
program funds, was indicted in U.S. District Court, El Paso, TX, for allegedly committing theft of HUD funds
and wire fraud. From August 2004 to November 2006, Rawley allegedly embezzled $116,675 in Rural Housing
funds when she received duplicate payments for the same expenses she charged to different grants.

                                                      

    Danny Davis, a former Community Planning and Homeowner Rehabilitation program administrator for
Johnson City, a municipality that receives HUD CDBG funds, was indicted in Washington County District Court,
Johnson City, TN, for allegedly committing theft, money laundering, forgery, and official misconduct. From
March 2003 to June 2007, Davis allegedly created a shell company, awarded housing rehabilitation contracts
to himself, and fraudulently obtained more than $60,000 in HUD funds.

                                                      




78                                               Chapter 4 - Community Planning and Development Programs
   Christine Baker, the former executive director of the South Elyria Neighborhood Development Corporation
(South Elyria), an organization that receives HUD CDBG funds, was indicted in U.S. District Court, Cleveland,
OH, for allegedly making false statements and committing embezzlement, theft of government funds, and
credit card fraud. Baker allegedly embezzled $59,857 in South Elyria funds, failed to report her South Elyria
and other income on U.S. Department of Agriculture (USDA) certifications, and obtained $44,271 in USDA
benefits she was not entitled to receive.

                                                    

   Dawn Monteneri, a former bookkeeper for Support Ministries, Inc., an organization that receives HUD CDBG,
Emergency Shelter Grant, and other funding, was indicted in Albany County Court, Albany, NY, for allegedly
committing grand larceny and filing false business documents. Monteneri allegedly diverted and personally
used $56,000 in Support Ministries’ funds.

                                                    

   William Redden, a former building and construction inspector for the City of Rochester, a municipality that
receives HUD CDBG funds, pled guilty in U.S. District Court, Rochester, NY, to committing bribery. Between
2003 and 2008, Redden accepted between $8,000 and $10,000 from previously indicted Michael Cenzi and
others in exchange for Rochester demolition contracts.

                                                    

    Anthony Saccomanno, the former director of the Cherry Hill Department of Code Enforcement and
Inspections (Cherry Hill), an organization that receives HUD CDBG funds, and Russell McLauglin, Jr., the former
president of Building Inspections Underwriters, Inc. (Building Inspections), each pled guilty in U.S. District
Court, Newark, NJ, to committing mail fraud or giving and offering a bribe. In November 2007, Saccomanno
caused a letter to be mailed when he accepted money from a Building Inspections representative, and
McLauglin paid about $5,000 to Saccomanno in return for $240,000 in Cherry Hill contracts. HUD losses are
not yet determined.

Other Fraud/Crimes
    Neil Goldstein was indicted in New York Superior Court, Manhattan, NY, for allegedly falsifying business
records; Riad Khalil was arrested after his indictment for allegedly falsifying business records and committing
banking violations; and Charles Goldberg, the owner of multiple check cashing companies, pled guilty to
falsifying business records. Goldstein and Khalil allegedly and Goldberg admittedly obtained and negotiated
about $40 million in checks payable to the John Galt Corporation (John Galt), Regional Scaffolding & Hoisting
(Regional Scaffolding), and other organizations to avoid filing New York currency transaction reports. The
checks to John Galt, Regional Scaffolding, and other organizations were payments from the Lower Manhattan
Development Corporation, an organization that received HUD CDBG Disaster Recovery Assistance funds for
demolition of the Deutsche Bank building, a building damaged during the September 11, 2001, terrorist attacks

                                                    

   Janei Walker, a Buffalo Urban Renewal Agency (Urban Renewal) CDBG recipient, pled guilty in U.S. District
Court, Buffalo, NY, to making false statements. Walker failed to report income or an accurate marital status
on her lead abatement application and fraudulently obtained $16,960 in CDBG funds she was not entitled to
receive.

                                                    



Chapter 4 - Community Planning and Development Programs                                                     79
    Heather Little, a former employee of the Columbus House, a homeless shelter that receives HUD CDBG
and Emergency Shelter Grant funds, was sentenced in U.S. District Court, Bridgeport, CT, to 6 months home
confinement and 5 years probation for her earlier guilty plea to possession of stolen mail. Little and others
stole, altered, and negotiated U.S. Treasury checks delivered to the Columbus House.

                                                   




80                                             Chapter 4 - Community Planning and Development Programs
  Inspections and Evaluations
Inspection of Whether Duplicate Rental Assistance Payments Were Made to
HUD Grant Recipient

    HUD OIG completed an inspection to determine whether recipients of rental assistance payments under
HUD’s CPD programs also received rental assistance subsidies from HUD’s Section 8 housing programs. The
inspection was limited to rental assistance payments made under two HUD homeless grant programs—Shelter
Plus Care (S+C) and SHP—during 2008 to grantees/sponsors in the New York downstate area. The five grants
reviewed (two S+C grantees and one SHP grantee) accounted for the disbursement of approximately $660,000
in rental assistance funds on behalf of 123 individuals.

   The inspection disclosed no instances of duplication of rental assistance payments made using both CPD
funds and Section 8 funds. However, CPD grantees administering the programs were not consistent in their
approach to enforcing the prohibition against such duplications. Also, we identified one instance in which
rental assistance payments continued for an individual after the person moved out.

     OIG recommended that CPD provide clear guidance and technical support to its grantees to ensure that they
fully understand their responsibilities to enforce Federal regulations designed to prevent duplicate payment of
rental assistance subsidies. Specifically, CPD should follow up with a grantee, when a potential overpayment
of rental assistance is identified, and direct the grantee to take appropriate measures to recapture the funds.
(I&E Report: IED09 004)

                                                    




Chapter 4 - Community Planning and Development Programs                                                     81
     Introduction and Background
    The United States Department of Housing and Urban Development (HUD) has received $13.61 billion
in funding under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program
areas. Table 1 shows the HUD program areas receiving funding and the amounts appropriated to each
program.


                          Table 1: HUD programs receiving ARRA funding
           Program                                 Area                           Funding amount
 Office of Public and Indian      •	 Public Housing Capital Fund             $4,000,000,000
 Housing                          •	 Native American Housing Block            $510,000,000
 				                                Grant                                 			
 	
 Office of Community              •	 Community Development Block          $1,000,000,000
 Planning and Development            Grant                              			
                                  •	 Neighborhood Stabilization Program   $2,000,000,000
                                  •	 HOME Investment Partnerships         $2,250,000,000
 					                               Program-Tax Credit Assistance      				
 				                                Program                            				
                                  •	 Homelessness Prevention Fund         $1,500,000,000

 Office of Multifamily Housing    •	 Assisted Housing Stability Grant              $2,000,000,000
                                  •	 Green Retrofit Grant                           $250,000,000
 				
 Office of Healthy Homes and      •	 Lead Hazard Reduction                          $100,000,000
 Lead Hazard Control                 Demonstration Program

                                                                   Total          $ 13,610,000,000




   ARRA also provided $15 million to the HUD Office of Inspector General (OIG). This funding will remain
available until September 2013. The purpose of the funding is for “oversight and audit of programs, grants,
and activities funded by this Act and administered by the Department of Housing and Urban Development.”

    Through its audit and investigative programs, HUD OIG will constantly tailor and adjust its short- and
long-term activities for timely and effective oversight of the ARRA funds expended by HUD programs. OIG’s
plan will be adjusted as the HUD programs develop plans and distribute their ARRA funds. OIG will step up
outreach and training efforts for the prevention of fraud, waste, and abuse to the Department and recipients
of ARRA funds.

                                                  




84                                            Chapter 5 - American Recovery and Reinvestment Act of 2009
      Office of Audit Activities
    The Office of Audit has initiated a three-phased approach to conducting related audit work. The actions
it has taken and plans to take will help position it to meet the increased workload under ARRA and protect
the Federal investment over the long term.

      The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine whether

      •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
      •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these
         funds are reported clearly, accurately, and in a timely manner;
      •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are mitigated;
      •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
      •	 Program goals are achieved, including specific program outcomes and improved results on broader
         economic indicators.

    HUD OIG reviewed HUD’s front-end risk assessments (FERA) for eight of the nine program areas. In
addition, OIG audited HUD’s formula allocation dictated in ARRA for the Public Housing Capital Fund,
Community Development Block Grants (CDBG), the Homelessness Prevention Fund, Native American
Housing Block Grants, and the HOME Investment Partnerships Program (HOME). HUD OIG has also audited
the information system HUD is using to consolidate its ARRA reporting, the Recovery Act Management and
Reporting System (RAMPS).

    Another focus of OIG’s reviews to date has been to assess the administrative capacity of selected grantees
to effectively administer ARRA funds. To date, a relatively small portion of HUD’s ARRA funds has been
expended by the grantees. In future periods, OIG’s audit emphasis will shift from these capacity assessments
to audits of grantee expenditures. OIG will also focus on HUD’s oversight activities.

    The following section demonstrates the audit work that has been completed since the initiation of ARRA
in February 2009.

                Strategic Initiative 3: Contribute to the strengthening of communities
  Key program results                          Questioned costs                    Funds put to better use
       Audit          31 audits1                     $481,000                              $36.3 million
                       Page 86        •	 Department-wide audits
                       Page 86        •	 Public Housing Capital Fund audits and reviews
        Our
                       Page 90        •	 Community Development Block Grant audits and reviews
       focus
                       Page 92        •	 Neighborhood Stabilization Program audits and reviews
                       Page 95        •	 Homelessness Prevention Fund audit
                       Page 95        •	 Multifamily Green Retrofit Program audit
                       Page 95        •	 Office of Healthy Homes and Lead Hazard Control audit
                       Page 96        •	 HOME Investment Partnerships Tax Credit Assistance Program audit

  1
   The total ARRA-related audits consist of community planning and development, public and Indian housing, and
  other activity audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.



Chapter 5 - American Recovery and Reinvestment Act of 2009                                                             85
   In addition to the audits described in this chapter, HUD OIG, has conducted numerous outreach efforts
(see chapter 8, page 137).

Department-Wide Audits

   HUD OIG audited HUD’s management procedures, practices, and controls related to RAMPS to assess
HUD’s compliance with reporting requirements under ARRA and to determine whether the RAMPS project
team followed Federal and HUD’s security requirements during the development of RAMPS.

     HUD has taken the following actions to comply with the reporting requirements under ARRA: (1) worked with
program offices and developers to identify and develop a process for meeting ARRA’s National Environmental
Policy Act (NEPA) and recipient reporting requirements, (2) conducted security categorization and vulnerability
scans early in the system development process, and (3) developed business requirements and provided those
requirements to the Office of Information Technology Security for review early in the system development
process. However, HUD’s effort to implement procedures, practices, and controls related to RAMPS did not
fully meet the reporting requirements under ARRA. Specifically, HUD did not (1) meet the NEPA reporting
requirements to ensure that NEPA data were reported to the public in a timely and accurate manner and (2)
complete required security and privacy documents before or during the early phase of system development.

    OIG recommended that HUD ensure that system owners (1) develop the system security plan and risk
assessment early in the development process and (2) complete the privacy impact assessment for a new
system before placing it into development and production. (Audit Report: 2009-DP-0008)

                                                     

     HUD OIG audited HUD’s formula-based allocations related to five programs funded under ARRA to satisfy
the ARRA mandate that “every taxpayer dollar spent on economic recovery be subject to unprecedented levels
of transparency and accountability.” OIG reviewed all five HUD programs with funds that were allocated based
on a statutory formula. The five programs are the (1) Public Housing Capital Fund, (2) Native American Housing
Block Grant, (3) Community Development Fund, (4) HOME program, and (5) Homelessness Prevention Fund.

    HUD allocated the $7.96 billion in formula-based grant funds in accordance with the requirements of
ARRA for each of the five programs reviewed and properly calculated the amounts to be distributed to HUD
recipients. As a result, OIG made no recommendations. (Audit Report: 2009-FO-0006)

Public Housing Capital Fund Audits and Reviews

    HUD OIG reviewed HUD’s FERAs for the Public Housing Capital Fund formula and competitive grant
programs funded under ARRA to determine whether HUD’s FERAs of the programs complied with Office
of Management and Budget (OMB) guidance for implementing ARRA and whether HUD’s risk mitigation
activities were adequate in relation to the assessed level of risk.

    HUD’s final FERAs for the Public Housing Capital Fund competitive and formula grant programs were in
general compliance with OMB’s guidance. The risk mitigation activities in the final FERAs were adequate in
relation to the assessed level of risk, and OIG concerns regarding specific risk factors contained in the initial
draft FERAs had been adequately addressed. As a result, no recommendations were made. (Audit Report:
2009-NY-0803)

                                                     




86                                              Chapter 5 - American Recovery and Reinvestment Act of 2009
   HUD OIG audited the Capital Fund Financing Program of the Puerto Rico Public Housing Administration in
San Juan, PR, to determine whether (1) the authority obligated and expended the 2003 Financing Program
funds in accordance with HUD requirements, (2) the authority’s financial management system complied
with program requirements, (3) the authority completed the proposed modernization activities under its 2003
Financing Program, and (4) the authority had the capacity to administer additional funds under ARRA.

    The authority did not manage the 2003 Financing Program in an economical, efficient, and effective
manner. It did not complete all of the proposed rehabilitation activities and did not expend all of the borrowed
private capital. As a result, it did not meet its rehabilitation goals. In addition, the authority disbursed more
than $57.4 million in capital funds to pay for interest charges on unused borrowed capital that did not provide
the intended benefits to the public housing program or its residents.

    The authority also could not account for more than $18.7 million in program income and did not use $50.3
million in program income to defray program costs. In addition, it did not maintain accurate and current
accounting records and provided HUD inaccurate information on its Financing Program activities. As a result,
it could not safeguard assets or ensure that funds were used in accordance with applicable requirements,
and HUD lacked assurance regarding program accomplishments.

   The authority inappropriately obligated $32.12 million in ARRA funds to supplant expenditures from other
non-Federal funds in violation of its annual contributions contract with HUD. As a result, it will use ARRA
funds to pay for expenditures that were the responsibility of non-Federal sources.

    OIG recommended that HUD require the authority to reimburse the unallocable and ineligible Financing
Program expenses, account for the unrecorded program income, and develop and implement an action plan
to use program income to defray program costs. OIG also recommended that the authority establish better
controls to ensure that the Financing Program has (1) a financial management system that complies with HUD
requirements and (2) procedures to ensure that program goals are achieved in a timely and efficient manner
and avoid unreasonable/unnecessary expenses. In addition, HUD should require the authority to (1) properly
account for its 2003 Financing Program receipts and disbursements and (2) deobligate more than $31 million
in ARRA funds that were contracted before the authorized obligation start date and implement adequate
procedures and controls to ensure that ARRA funds are used effectively, efficiently, and in accordance with
applicable requirements. (Audit Report: 2009-AT-1015)

                                                     

    HUD OIG audited the Housing Authority of the City of Eloy, AZ, to determine whether the Authority had
sufficient capacity to administer a nearly $114,000 ARRA Public Housing Capital Fund grant in accordance
with applicable rules and regulations.

   The Authority did not, by itself, have the capacity to administer its ARRA Public Housing Capital Fund
grant in accordance with applicable rules and regulations. HUD had rated the Authority as troubled for
years, and despite intensive technical assistance from HUD, the Authority had been unable to establish sound
operational and financial management. As a result, the management of the Authority was in transition as
HUD sought to establish an agreement for management assistance between the Authority and another public
housing agency.

   OIG recommended that HUD (1) seek to establish a management agreement with another housing agency
or management entity as soon as possible and (2) require a partnership agreement or contract that would
provide additional capacity to manage the ARRA grant and HUD monitoring of all ARRA expenditures and




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                    87
deadlines. Without the proposed additional capacity that would be provided by a management agreement
and a partnership to administer the ARRA projects, the ARRA grant would be at risk for waste, fraud, and
abuse. (Audit Report: 2009-LA-1021)

                                                      

    HUD OIG audited the City of New London Housing Authority in New London, CT, to determine whether
the Authority (1) properly administered its Public Housing Capital Fund program and (2) had the capacity to
administer ARRA capital funds in accordance with HUD requirements and ARRA.

    The Authority did not properly administer its Public Housing Capital Fund program and lacked adequate
capacity to ensure that ARRA funding for the program would be administered in accordance with HUD
requirements and ARRA. The Authority (1) improperly awarded contracts without the capital funds to cover
the costs and failed to openly compete procurements and establish formal written contracts with required
contract provisions to protect the Authority’s interests, (2) did not ensure that contractors paid workers the
minimum wage required by law or always ensure that contractors maintained adequate performance bonds
and liability insurance, and (3) did not complete cost or price estimates to ensure that prices paid were
reasonable.

   The Authority lacked formal accounting procedures and had not had an effective financial or capital fund
manager since February of 2008. Its capital funds were not monitored on a regular basis, and its accounting
records were not accurate or updated in a timely manner. In addition, it did not accurately report obligations
and expenditures to HUD and could not support more than $91,000 in capital funds used to administer the
program. The Authority was allocated nearly $382,000 in capital funds under ARRA.

    OIG recommended that HUD (1) determine the statutory remedies required under section 6(j) of the
U.S. Housing Act of 1937, (2) fully implement its strategy for troubled public housing authorities and ensure
that the Authority properly expends and accounts for its capital funds received under ARRA, (3) require the
Authority to implement adequate procurement and accounting controls over capital funds, and (4) require
the Authority to support or repay the unsupported administrative fees. (Audit Report: 2009-BO-1010)

                                                      

   HUD OIG reviewed the Lackawanna Municipal Housing Authority in Lackawanna, NY, regarding the
administration of its Public Housing Capital Fund program, to determine whether the Authority disbursed
capital funds and procured contracts in accordance with HUD requirements.

     The review raised an issue of concern related to the Authority’s capacity to administer its Public Housing
Capital Fund program. Specifically, the Authority had not established the operational procedures to implement
its procurement policy to ensure compliance with all applicable regulations. As a result, it lacked assurance
that capital fund expenditures were necessary or reasonable and that services contracted for were provided
as intended. This lack of oversight by the Authority is a major concern in light of the Authority’s having received
an additional $1.5 million in capital funds under ARRA. The Authority has budgeted $600,000 in Recovery Act
funds to complete change orders to its lead-based paint abatement and modernization contract.

    OIG recommended that HUD (1) review the content of the change order and, if appropriate, prohibit the
Authority from using ARRA funds for change orders associated with the lead abatement and modernization
contract and (2) certify that the Authority’s new procedures meet the Federal procurement requirements in
24 CFR (Code of Federal Regulations) Part 85.




88                                               Chapter 5 - American Recovery and Reinvestment Act of 2009
    OIG recommended that HUD instruct the Authority to (1) establish and implement operational procedures
to ensure compliance with all applicable Federal, State, and local procurement policies and regulations
for all future procurement activities when obtaining goods and services; (2) obtain HUD approval for all
procurement activities; (3) establish and implement a training program on procurement procedures for
all Authority staff and board members involved in the contracting process; and (4) establish performance
measures as a method for determining that the requirements of the procurement process have been met.
(Audit Report: 2009-NY-0802)

                                                   

    HUD OIG issued a memorandum on the capacity of the Travis County Housing Authority in Austin, TX,
to administer ARRA funds. The memorandum reported that the Authority lacked capacity to administer
ARRA public housing capital funds. OIG recommended that HUD increase monitoring and oversight of the
Authority’s financial and program activities and either recover ARRA funding from the Authority or place the
Authority’s ARRA funding on a cost reimbursement basis. (Audit Report: 2009-FW-1801)

                                                   

   HUD OIG reviewed the East St. Louis Housing Authority in East St. Louis, IL, to evaluate the Authority’s
capacity to administer its ARRA funds. The Authority will receive $4.9 million in ARRA funding to carry out
capital and management activities at its public housing developments. OIG found several weaknesses that
could adversely affect the Authority’s capacity to administer these funds and recommended that HUD require
corrective action on the deficiencies. (Audit Report: 2009-KC-1801)

                                                   

   HUD OIG reviewed the operations of the Warm Springs Housing Authority in Warm Springs, OR, to
determine whether the Authority had the capacity to adequately administer ARRA funding.

    OIG found no evidence indicating that the Authority lacked the capacity to administer its ARRA funding.
However, there was concern that the Authority’s accomplishments will not be sustained without a commitment
to future management and to the continued improvement of its internal control environment. A qualified
executive director and a functional board of commissioners are necessary to establish the organization’s
internal control environment; integrity and ethical values; commitment to competence; and framework for
planning, directing, and controlling operations.

    OIG recommended that HUD provide technical assistance to and monitor the progress of the Authority’s
activities and ask the tribal council to hire an executive director and appoint qualified members to the board
of commissioners. (Audit Report: 2009-SE-1803)

                                                   

   HUD OIG reviewed the Miami-Dade Public Housing Agency in Miami, FL, to evaluate its capacity to
administer its ARRA funds. The Agency was awarded a $19.3 million Public Housing Capital Fund formula
grant under ARRA.

    The Agency’s procurement procedures had weaknesses, staffing levels may be inadequate, and the
Agency had not properly prioritized its ARRA-funded activities. The weaknesses could adversely affect the
Agency’s capacity to administer these funds, and OIG recommended that HUD require corrective action on
the deficiencies. (Audit Report: 2009-AT-1801)

                                                   



Chapter 5 - American Recovery and Reinvestment Act of 2009                                                 89
   HUD OIG audited the Housing Authority of the City of Winston-Salem, NC, to evaluate its capacity to
administer $3.9 million in formula-based capital funds awarded to the Authority under ARRA.

    The Authority generally had the capacity to administer these funds but needed to improve some financial
controls. Although the Authority had properly procured and completed its previous capital fund grants for
several years, it failed to adequately document about $2 million in expenditures and incurred nearly $82,000
in ineligible costs.

    OIG recommended that HUD increase oversight of the Authority’s administration of ARRA funds and
require it to implement appropriate financial policies, procedures, and controls. In addition, the Authority
must provide support for the unsupported capital fund reimbursements or repay the funds and repay the
ineligible capital fund expense reimbursements. (Audit Report: 2009-AT-1014)

Community Development Block Grant Audits and Reviews
    HUD OIG reviewed the FERA for the Community Development Block Grant Recovery (CDBG-R) grant
to determine whether the FERA complied with OMB’s updated guidance for ARRA, as well as HUD’s
streamlined assessment process. OIG’s review of the final FERA for the program determined that except for
one noncompliance issue and some minor inconsistency errors, HUD’s final FERA for CDBG-R adequately
identified program risk, identified in-place and planned risk mitigation techniques, and adequately described
the rationale for the final risk ratings for the 11 factors assessed. Further, the FERA adequately emphasized
the major program objectives of timeliness, clear and measurable objectives, transparency, monitoring, and
reporting. As a result, OIG made no recommendations. (Audit Report: 2009-FW-0802)

                                                    

    HUD OIG reviewed the City of Bethlehem, PA’s community planning and development program. On
March 6, 2009, HUD awarded the City $1.1 million under ARRA for its community planning and development
program. OMB directed inspectors general to perform audits to ensure that funds provided under ARRA
are used for their intended purposes. The objective was to determine whether the City had the capacity to
effectively administer its community planning and development funds provided under ARRA according to
applicable requirements.

    The City had the capacity to effectively administer community planning and development funds provided
to it under ARRA according to the applicable requirements. It had adequate internal control procedures
pertaining to accounting controls, staffing levels, personnel operating policies, monitoring of subrecipients,
procurement of goods and services, and establishment of program guidelines that complied with HUD
requirements. A recent HUD OIG audit and other reviews disclosed no major problems with the City’s
program. The City is planning to use its ARRA funds on eligible activities that meet the objectives of the
programs and ARRA.

   Since OIG did not identify any deficiencies, there are no recommendations. (Audit Report:
2009-PH-1801)

                                                    

  The City of Fort Worth, TX, is scheduled to receive $10.85 million in ARRA funding. HUD OIG issued a
memorandum on the City’s capacity to administer these funds.

    The City had a history of failing to meet regulatory requirements in an efficient or timely manner. It needs
to strengthen its capacity to adequately administer recovery funding to include improving its procurement
activities and undertaking only prudent projects.



90                                              Chapter 5 - American Recovery and Reinvestment Act of 2009
    OIG recommended that HUD place special conditions on the City’s grants, requiring the correction of past
deficiencies and including plans to monitor the additional funding, thereby ensuring better use of more than
$4.5 million. (Audit Report: 2009-FW-1802)

                                                           

   HUD OIG reviewed Adams County, CO, to evaluate the County’s capacity to administer its ARRA funds.
The County will receive more than $1.3 million in ARRA funding to carry out its Homelessness Prevention and
Rapid Re-Housing Program (HPRP) and provide additional funding to its CDBG program.

   OIG found weaknesses that could significantly affect the County’s capacity to administer these funds and
recommended that HUD require corrective action on the deficiencies. (Audit Report: 2009-DE-1801)




  Copyright 2009. The Denver Post. Denver, CO. Reprinted with permission.


                                                           

    HUD OIG audited the Municipality of Rio Grande, PR’s CDBG program to determine whether the
Municipality complied with HUD regulations, procedures, and instructions related to the administration of
the CDBG program and whether the Municipality had the capacity to administer additional funds allocated
under ARRA.

    The Municipality awarded 110 contracts totaling more than $1 million without following HUD and local
procurement requirements. As a result, it could not ensure that quality goods and services were obtained at
the most advantageous terms. In addition, it did not support the reasonableness of more than $1 million in
CDBG contracts.

     The Municipality’s financial management system did not fully comply with applicable HUD requirements.
It (1) did not support the allowability of more than $57,000 in program disbursements; (2) could not support
the allocability of more than $218,000 in administrative costs charged to the CDBG program; and (3) did not
maintain accurate, current, and complete accounting records.

   The Municipality’s management controls over its housing rehabilitation activities were inadequate. The
Municipality (1) improperly used CDBG funds for deficient housing rehabilitation work and new housing
construction and (2) did not provide assistance to correct health and safety hazards. Therefore, the related
program funds of more than $20,000 were ineligible, and more than $7,000 is considered unsupported
pending an eligibility determination by HUD.

    The Municipality lacked sufficient capacity to administer additional funds allocated under ARRA. It had
not developed and implemented adequate controls to ensure compliance with HUD financial management



Chapter 5 - American Recovery and Reinvestment Act of 2009                                               91
systems requirements and the purposes of ARRA. As a result, HUD lacked assurance that ARRA funds would
be adequately accounted for, safeguarded, and used for authorized purposes and in accordance with ARRA
and HUD requirements.

    OIG recommended that HUD require the Municipality to repay the ineligible expenditures. HUD should
also require the Municipality to provide all supporting documentation showing the reasonableness and
eligibility of the CDBG contracts and more than $276,000 in CDBG disbursements. OIG also recommended
that HUD require the Municipality to develop and implement an internal control plan to ensure that the
CDBG program has (1) procurement procedures which ensure that goods and services are obtained at the
most advantageous terms and in a manner providing full and open competition, (2) a financial management
system that complies with HUD requirements, (3) controls and procedures which ensure that the housing
rehabilitation activities meet the program objectives, and (4) policies and procedures to ensure that ARRA
funds are effectively and efficiently used and in accordance with applicable requirements. In addition, OIG
recommended that HUD increase monitoring of the Municipality’s performance in the administration of its
CDBG and ARRA funds. (Audit Report: 2009-AT-1012)

                                                     

   HUD OIG reviewed the City of Altoona, PA, to determine whether the City had adequate capacity and
controls to administer its ARRA funds. The City will receive $1.3 million in ARRA funds to carry out CDBG
and HPRP activities.

     The City needs to strengthen its capacity and controls to effectively administer funds provided to it under
ARRA. OIG recommended that (1) HUD require the City to implement controls to ensure that ARRA activities
are supported and meet eligibility requirements and (2) the City update its written monitoring procedures for
all subrecipients to ensure accountability and transparency of ARRA funds, evaluate its staffing, and consider
hiring additional staff to administer the funds. (Audit Report: 2009-PH-1802)

                                                     

    HUD OIG reviewed the City of Aurora, CO, to evaluate the City’s capacity to administer more than $1.6
million in ARRA funds that it will receive to carry out its HPRP and perform additional activities under its CDBG
program. OIG did not find evidence to indicate that the City lacked the capacity to adequately administer its
ARRA funding and, therefore, made no recommendations. (Audit Report: 2009-DE-1802)

Neighborhood Stabilization Program Audits and Reviews
   HUD OIG reviewed the FERA for the Neighborhood Stabilization Program 2 (NSP2) to determine whether
the FERA complied with OMB’s updated guidance for ARRA, as well as HUD’s streamlined assessment
process.

    Except for one noncompliance issue involving open audit recommendations, HUD’s final assessment
generally complied with OMB’s guidance and HUD’s streamlined process. HUD made general references
to previous audits in its FERA but failed to specifically address certain open recommendations as required
by the guidance. HUD’s final FERA for NSP2 disclosed that for each of the 11 factors assessed, the program
risk was identified, in-place and planned risk mitigation techniques were identified, and the rationale for the
final risk ratings was adequately described. The factors of general control environment, risk assessment,
control activities, information/communication, and monitoring were adequately addressed, and the major
program objectives of timeliness, clear and measurable objectives, transparency, monitoring, and reporting
were adequately emphasized. As a result, OIG made no recommendations. (Audit Report: 2009-AT-0801)

                                                     


92                                              Chapter 5 - American Recovery and Reinvestment Act of 2009
     HUD OIG audited selected controls within the Disaster Recovery Grant Reporting system (DRGR) related
to NSP funding to assess risk assessment updates and whether NSP funds were properly safeguarded by the
access controls related to DRGR. DRGR is an existing system that was modified to track close to $5.9 billion in
NSP funds, the majority of which must be obligated and expended within 2 years. NSP1 funding totaled $3.9
billion. ARRA revised some of the program rules and appropriated an additional $2 billion for the program
to be competitively awarded. Following the initiation of the audit, HUD decided to use DRGR to track the $2
billion in funding allocated to NSP2 in addition to the $3.9 billion allocated to NSP1.

    While OIG did not find misappropriation or misuse of funds, it identified weaknesses that require HUD
actions to obtain reasonable assurance that NSP funds are properly safeguarded. Specifically, (1) access
control policies and procedures for DRGR violated HUD policy, (2) the system authorization to operate was
outdated and based upon inaccurate and untested documentation, (3) HUD did not adequately separate
the DRGR system and security administration functions, and (4) HUD had not sufficiently tested interface
transactions between DRGR and the Line of Credit Control System.

    HUD had identified and initiated actions in an effort to address or mitigate many of the weaknesses
identified. As a result, OIG recommended that HUD (1) formalize the user access request process and
strengthen access controls; (2) update and correct system documentation and resubmit the revised
documentation for security certification and accreditation; (3) separate the duties of system and security
administration and reassign the help desk functionality; and (4) work with its contractors to ensure that
tests of drawdown controls and transaction processing reports are performed as stated in the functional
requirements documentation or, if other controls are used, remove from the system documentation stated
controls that are not in use. (Audit Report: 2009-DP-0007)

                                                    

   HUD OIG audited HUD’s ability to collect DRGR data at the level of detail necessary to adequately monitor
NSP. OIG limited the review to the program established by the Housing and Economic Recovery Act of 2008
(HERA). However, the system will also be used to administer NSP grants awarded under ARRA.

   As designed, DRGR can collect the basic information that HUD needs to monitor the program. HUD is
developing monitoring guidance for field staff that separately addresses on-site monitoring and review of
grantees’ DRGR action plans and quarterly performance reports. HUD needs to ensure that its monitoring
guidance includes critically reviewing grantee reports to identify potential noncompliance issues, including
unreported program income. HUD has an opportunity to do more with data collection and analysis, particularly
with additional recovery programs and the associated transparency and reporting requirements. However,
HUD should not substitute data collection for aggressive monitoring.

    OIG recommended that HUD (1) continue to develop and implement detailed on-site monitoring guidance
that incorporates information into DRGR, (2) continue to develop and implement detailed guidance requiring
field staff to aggressively review grantee quarterly performance reports and drawdown vouchers, (3) require
grantees to include the addresses of properties assisted under the program in quarterly performance reports,
and (4) consider adding data fields to DRGR that require grantees to report compliance-related information.
(Audit Report: 2009-FW-0001)

                                                    

    HUD OIG reviewed the City of Cincinnati, OH’s NSP to determine whether the City had the capacity to
effectively and efficiently administer its program.

   The City did not have sufficient capacity to effectively and efficiently administer its program. It lacked
adequate policies, procedures, and controls to ensure that NSP funds were used effectively and efficiently and



Chapter 5 - American Recovery and Reinvestment Act of 2009                                                  93
in accordance with applicable requirements. Further, it did not have sufficient staff to assist in administering
the program to ensure that it had sufficient capacity to effectively and efficiently administer program funds.
Lastly, HUD did not include special conditions in its NSP grant agreement with the City.

    OIG recommended that HUD require the City to (1) implement adequate policies, procedures, and
controls to ensure that NSP funds are used effectively and efficiently and in accordance with applicable
requirements and (2) hire additional staff and/or contract with another organization to assist in administering
the program to ensure that it has sufficient capacity to effectively and efficiently administer program funds.
OIG also recommended that HUD include special conditions in its NSP grant agreement with the City, including
but not limited to (1) requiring the City to submit documentation describing how past HOME program
performance issues were or are being resolved and explaining whether they will impact the administration of
NSP, (2) performing additional monitoring, and (3) providing technical assistance to the City. (Audit Report:
2009-CH-1801)

                                                     

   HUD OIG audited the NSP of the Los Angeles County Community Development Commission, Los Angeles,
CA, to determine whether the County had sufficient capacity and the necessary controls to manage and
administer its NSP.

   OIG found no evidence indicating that the County lacked the capacity to adequately administer its current
NSP funding. The County has applied for additional funding under ARRA to continue its NSP activities, and its
procedures and controls should be adequate to administer the continuation of the program. As a result, OIG
made no recommendations. (Audit Report: 2009-LA-1017)

                                                     

    HUD OIG reviewed the NSP of Cook County, IL, to determine whether the County had the capacity to
effectively and efficiently administer its program. Congress amended NSP and increased its funding as part
of ARRA. The County, as part of a consortium, submitted an application to HUD, dated July 14, 2009, which
totaled more than $75 million in additional NSP funds under ARRA.

    The County needs to improve its capacity to effectively and efficiently administer its NSP since it had not
established sufficient policies, procedures, and controls for its program as of September 9, 2009. However, it
should have sufficient staff to administer its NSP if it implements the revised staffing plan and budget provided
to OIG on August 5, 2009, hires individuals with experience in the planned activities, and provides adequate
training. Further, HUD did not include special conditions in its NSP grant agreement with the County. (Audit
Report: 2009-CH-1802)

                                                     

   HUD OIG reviewed the City of Boston, MA’s Department of Neighborhood Development to determine
whether the City had the capacity to effectively and efficiently administer its NSP under the provisions of
HERA and ARRA.

    The Department should be able to meet Federal requirements for administering the NSP funds under HERA
and ARRA. Specifically, the Department can develop sufficient capacity to administer its NSP and ensure that
NSP funds are properly administered. However, it must revise its procedures for allocating costs to Federal
programs and ensure that it follows proper, fair, and equitable procurement practices If these discrepancies
are corrected, HUD can generally be assured that the City will accurately account for its use of NSP funding
under HERA and ARRA and use that funding only for eligible program activities. OIG recommended that the
City ensure that corrective action is completed on deficiencies noted in Audit Report 2009-BO-1011 that were



94                                              Chapter 5 - American Recovery and Reinvestment Act of 2009
related to the allocation of payroll costs and to following proper procurement procedures. HUD and the City
agreed with the recommendation. (Audit Report: 2009-BO-1802)

                                                     

    HUD OIG reviewed the operations of the City of Brockton, MA’s grantee, Building a Better Brockton, Inc.
(recipient), which has responsibility for administering the City’s NSP, to determine whether the City and/or its
recipient had the capacity to effectively and efficiently administer its NSP under the provisions of HERA and
ARRA.

    The recipient did not have the capacity to effectively and efficiently administer its NSP. Specifically, it
lacked adequate internal controls over the areas of financial reporting and procurement and adequate staffing
to administer the program effectively. In addition, there were potential conflict-of-interest issues among the
recipient, its board members, and several of the subrecipients that would receive NSP funding.

   OIG questioned the recipient’s ability to administer potential NSP2 funding until it can satisfactorily
address and demonstrate adequate controls over the areas of financial reporting, procurement, and staffing
and the conflicts of interest. (Audit Report: 2009-BO-1803)

Homelessness Prevention Fund Audit
    HUD OIG reviewed HUD’s FERA for HPRP to determine whether the FERA complied with OMB’s guidance
for ARRA; ARRA’s streamlined FERA process; and HUD Handbook 1840.1, REV-3, Departmental Management
Control Program.

    For each factor reviewed, the risks were identified, and mitigation techniques were used to rate each risk
factor. In addition, the factors of general control environment, risk assessment, control activities, information/
communication, and monitoring were adequately addressed; and the major program objectives of timeliness,
clear and measurable objectives, transparency, monitoring, and reporting were adequately emphasized.

   Based on the results of this audit, OIG made no recommendations. (Audit Report: 2009-BO-0801)

Multifamily Green Retrofit Program Audit
    HUD OIG reviewed the FERA of the Green Retrofit Program for Multifamily Housing to determine whether
the FERA complied with OMB’s guidance for ARRA, ARRA’s Updated Implementing Guidance, and HUD’s
streamlined assessment process.

    The FERA generally complied with OMB’s guidance for ARRA, ARRA’s Updated Implementing Guidance,
and HUD’s streamlined assessment process. Of the 11 factors evaluated in the FERA, none was found to
be high risk, four were assessed as medium risk, and seven were assessed as low risk. The FERA’s risk
assessment chart adequately addressed planned actions for the four factors assessed as medium risk.
Overall, the factors identified above had the major program objectives sufficiently emphasized in the FERA.
As a result, OIG made no recommendations. (Audit Report: 2009-CH-0801)

Office of Healthy Homes and Lead Hazard Control Audit
   HUD OIG reviewed the FERA for HUD’s Office of Healthy Homes and Lead Hazard Control (OHHLHC) to
determine whether the FERA complied with OMB’s implementing guidance for ARRA, HUD’s streamlined
FERA process, and HUD’s departmental management control program handbook.




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                     95
   The FERA generally complied with the requirements. However, OHHLHC had not (1) updated its desk
and program guides to incorporate ARRA requirements, (2) published the list of selected grantees in the
Federal Register, or (3) maintained Web hyperlinks for the public to view ARRA and program information.
OHHLHC has implemented OIG’s recommendations. (Audit Report: 2009-HA-0801)

HOME Investment Partnerships Tax Credit Assistance Program Audit
   HUD OIG reviewed HUD’s FERA for the Tax Credit Assistance Program to determine whether it complied
with OMB’s guidance for implementing ARRA and applicable HUD requirements.

    The FERA generally complied with OMB’s guidance for implementing ARRA and applicable HUD
requirements. HUD adequately emphasized the factors of timeliness, clear and measurable objectives,
transparency, monitoring, and reporting and followed the guidance in its streamlined assessment process
and management control program handbook. As a result, OIG made no recommendations. (Audit Report:
2009-PH-0802)

                                                




96                                          Chapter 5 - American Recovery and Reinvestment Act of 2009
                    HUD total obligations by State as of September 30, 2009


            State                 Totals                     State              Totals
 New York                     $1,251,558,733        South Carolina             $130,276,370
 California                   $1,181,065,224        District of Columbia       $128,990,193
 Illinois                      $620,449,726         Mississippi                $106,862,951
 Pennsylvania                  $587,170,590         Arkansas                   $93,456,794
 Texas                         $542,696,177         Oregon                     $92,153,950
 Ohio                          $470,090,341         Alaska                     $91,907,088
 Florida                       $436,695,586         Rhode Island               $82,665,464
 Massachusetts                 $421,044,452         Kansas                     $79,363,823
 New Jersey                    $336,218,540         Iowa                       $76,148,504
 Puerto Rico                   $312,203,435         New Mexico                 $72,814,147
 Michigan                      $284,845,177         Nevada                     $61,208,512
 Georgia                       $281,389,298         West Virginia              $58,867,850
 Washington                    $253,369,870         Hawaii                     $52,649,563
 North Carolina                $244,748,338         Maine                      $47,071,571
 Tennessee                     $216,416,500         Nebraska                   $46,595,981
 Maryland                      $213,300,244         Montana                    $42,158,284
 Alabama                       $211,043,442         Utah                       $41,009,094
 Indiana                       $209,263,949         South Dakota               $38,676,563
 Minnesota                     $207,368,554         Delaware                   $36,907,967
 Connecticut                   $177,449,384         New Hampshire              $33,690,099
 Louisiana                     $176,886,634         Idaho                      $24,747,096
 Missouri                      $176,237,460         North Dakota               $24,277,414
 Virginia                      $174,538,341         Vermont                    $20,983,363
 Wisconsin                     $168,226,725         Wyoming                    $14,678,684
 Oklahoma                      $163,111,730         Virgin Islands             $13,361,285
 Arizona                       $156,082,879         Guam                        $6,057,242
 Kentucky                      $150,882,361         Northern Mariana Islands    $2,068,092
 Colorado                      $138,869,042         American Samoa              $1,376,451




Chapter 5 - American Recovery and Reinvestment Act of 2009                                    97
  Introduction and Background
     The U.S. Department of Housing and Urban Development (HUD) is a designated emergency support
primary agency for long-term recovery of communities following a major disaster. As such, the Department
continues to work with communities devastated by disasters, not only with the influx of Federal dollars, but
also with the technical expertise to put communities back together. As a result, approximately $27 billion has
been appropriated for recent disasters including hurricanes, floods, and wildfires: $20 billion for Hurricanes
Katrina, Rita, and Wilma and $7 billion for disasters occurring during 2008, principally Hurricane Ike. Of the
funds provided to the five Gulf Coast States for the Hurricane Katrina disaster, $12.8 billion has been disbursed
for the period ending September 30, 2009.

    In addition, Congress recently passed the Supplemental Appropriations Act for Fiscal Year 2009 (Public Law
111-32, enacted June 24, 2009). The Act provides an additional $80 million for the Housing Choice Voucher
program to provide additional temporary housing for areas impacted by Hurricanes Katrina and Rita. As the
disaster funds are awarded, The Office of Inspector General (OIG), Offices of Audit and Investigation, continue
to work and serve as a deterrent to fraud, waste, and abuse in these vulnerable programs.

Major Management Challenges for Disaster Areas
    As a result of OIG’s audit efforts, the management challenge that HUD faces in administering the distribution
of disaster funds is a delicate balance of speed of fund distribution versus the need for accountability and
controls. OIG’s work in fiscal year 2009 further demonstrated the following ongoing management challenges:

      •	 Balancing of internal controls versus the timely distribution of funds,

      •	 Up-front program design performed to ensure that major program risks are identified (i.e., homeowner
         insurance requirement), and

      •	 Prevention of the duplication of benefits from the many Federal disaster programs.

                                                      




100                                                                         Chapter 6 - Disaster Relief Oversight
  Audit
    HUD OIG is responsible for conducting a variety of audits and other reviews in all program areas. OIG’s
significant workload is generally divided into four primary categories: performance audits, information system
audits, financial audits, and advisory and assistance services. OIG has continued to work on audits related
to HUD disaster-funded areas: one on the Housing Authority of New Orleans, one on the Lower Manhattan
Development Corporation (9-11 disaster), one on the Texas disaster housing program, one on the Gulf Coast
disaster housing voucher program, and five on various Gulf Coast recovery programs. Of the funds provided
to the five Gulf Coast States for the Hurricane Katrina disaster, $12.8 billion has been disbursed for the period
ending September 30, 2009.

              Strategic Initiative 3: Contribute to the strengthening of communities
  Key program results                         Questioned costs                   Funds put to better use
      Audit          9 audits1                    $3.4 million                           $60.3 million

  1
   The total disaster-related audits consist of community planning and development and public and Indian housing
  activity audits. The questioned costs and funds put to better use amounts relate only to disaster-related costs.

   At the request of two United States senators, HUD OIG audited HUD’s administration of the Housing
Authority of New Orleans, New Orleans, LA, to determine the effect of HUD’s receivership on the Authority’s
performance. Specifically, OIG wanted to determine whether HUD took action to improve the Authority’s
post-Hurricane Katrina performance while under HUD receivership by determining whether HUD had an
adequate recovery plan to return the Authority to local control and adequately monitored the Authority while
under receivership.

    HUD could not demonstrate that its receivership improved the Authority’s performance following
Hurricane Katrina because it did not establish a clear chain of command for the receivership or require
periodic reporting after it took over the Authority in 2002. HUD did not properly monitor the Authority or, until
recently, ensure that the receivers had an adequate recovery plan. Further, it was unclear how HUD intended
to guide the Authority while under receivership after the last formal memorandum of agreement expired in
2003.

    OIG recommended that HUD (1) establish an organizational structure for receivership that outlines
responsible officials and their duties and appoint a monitoring team, independent of the receiver, to ensure
that the Authority progresses toward local control and (2) have the monitoring team consistently review and
verify documentation pertaining to the Authority’s progress and ensure that the Authority meets the target
dates in the strategic improvement plan that it implemented in July 2008. (Audit Report: 2009-AO-0003)

                                                      

   HUD OIG audited HUD Community Development Block Grant (CDBG), Supplemental I and II Disaster
Recovery program funds, administered by the Texas Department of Housing and Community Affairs (TDHCA).
Specifically, OIG wanted to determine whether TDHCA administered the floodplain management program as
required by Federal, State, and local policies and whether it protected HUD’s CDBG investments in properties
reconstructed or rehabilitated with Disaster Recovery program funds against future potential losses.




Chapter 6 - Disaster Relief Oversight                                                                           101
    TDHCA’s plan did not require homeowner’s insurance on properties reconstructed or rehabilitated with
Supplemental I funds, and its grants required only 3 years of homeowner’s insurance for homes reconstructed
or rehabilitated with Supplemental II funds. Due to the lack of or limited insurance, HUD’s CDBG Disaster
Recovery Assistance funds invested in the homes provided to the disaster victims are at risk of loss. Of a
sample of 59 Supplemental I-funded homes tested, 38 were later damaged by another hurricane or storm.
Of the 38 homes, 23 did not have insurance. Based on a projection of the sample results, at least 133 of
453 reconstructed or rehabilitated homes or homes awaiting reconstruction lacked insurance and were
damaged or are at risk of being damaged by another storm. If TDHCA changes and improves its action plan
and policies, an estimated $60.2 million in program funds could be saved.

    OIG recommended that HUD request TDHCA to (1) modify its action plan to provide homeowner’s
insurance for a period equitable to the amount of funds invested, (2) request the homeowner to obtain
homeowner’s insurance as a prerequisite to obtaining assistance for a period equitable to the amount of
funds invested, or (3) prohibit the homeowner from receiving future Disaster Recovery Assistance funds
if an insurance policy is not maintained on a newly reconstructed or rehabilitated home. (Audit Report:
2009-FW-1016)

                                                   

    HUD OIG audited the State of Louisiana’s additional compensation grant component of the Road Home
homeowner assistance program, managed by the State’s contractor, ICF Emergency Management Services,
LLC, in Baton Rouge, LA, to determine whether the State ensured that Road Home employees were eligible
to receive the grant.

    The State did not ensure that all Road Home employees were eligible to receive their additional
compensation grants. Of 34 grants, the State funded five (15 percent) that were ineligible. As a result, the
State misspent nearly $229,000 in Federal funds for five ineligible grants.

   OIG recommended that HUD require the State to repay amounts disbursed for ineligible grants to its Road
Home program, conduct monitoring to ensure that its contractor has implemented adequate controls, and
report the recapture/recovery for all grants deemed ineligible. (Audit Report: 2009-AO-1001)

                                                   

    HUD OIG audited the State of Louisiana’s Road Home homeowner assistance program, managed by the
State’s contractor, ICF Emergency Management Services, LLC, in Baton Rouge, LA, to determine eligibility
for multiple disbursements made to a single damaged residence address.

    OIG identified 69 property addresses that had two or more Road Home grants for a total of 139 grants. Of
the 69 property addresses, 11 received total disbursements that exceeded the overall grant limit of $150,000.
The 11 addresses received a total of 22 grants. Of the 22 grants, the State funded eight (36 percent) grants,
totaling more than $735,000, that were either ineligible or unsupported.

   OIG recommended that HUD require the State to repay amounts disbursed for ineligible grants to its
Road Home program, support or repay amounts disbursed for unsupported grants, and review all of the 117
grants related to multiple disbursements for 58 property addresses to determine eligibility. (Audit Report:
2009-AO-1002)

                                                   




102                                                                     Chapter 6 - Disaster Relief Oversight
    HUD OIG completed the twelfth ongoing audit of the administration by the Lower Manhattan Development
Corporation in New York, NY, of CDBG Disaster Recovery Assistance funds provided to the State of New York
in the aftermath of the September 11, 2001, terrorist attacks on the World Trade Center in New York City.
During the audit period, April 1 through September 30, 2008, the auditee disbursed approximately $103.4
million of the $2.783 billion in funds appropriated. The objectives of this audit were to determine whether
the auditee (1) disbursed Disaster Recovery Assistance funds in accordance with the guidelines established
under HUD-approved partial action plans, (2) expended Disaster Recovery Assistance funds for eligible
administration and planning expenses in accordance with applicable laws and regulations, and (3) had a
financial management system in place that adequately safeguarded funds and prevented misuse.

    The auditee administered the grant funds in accordance with HUD regulations, expended funds for
eligible planning and administrative expenses, and continued to maintain a financial management system
that adequately safeguarded funds and prevented misuse. However, several issues require HUD’s attention.
Specifically, (1) the Chinatown Clean Streets program subrecipient was reimbursed for costs that were not
adequately supported at the time of audit, (2) nearly $20,000 was disbursed for costs related to an auditee
division for which other sources of funding were available, and (3) the Affordable Housing program subrecipient
monitoring procedures to increase assurance of compliance with a 30-year affordability requirement had not
been finalized.

    OIG recommended that HUD direct the auditee to (1) obtain and review documentation substantiating
the more than $508,000 reimbursed to the Chinatown Clean Streets program subrecipient for its nonprofit
contractor’s expenditures and recover any amounts not supported, (2) reimburse nearly $15,000 to the HUD
CDBG Disaster Recovery Assistance fund from other than HUD funds so that these funds can be available
for administration and planning expenses, and (3) ensure that its Affordable Housing program subrecipient
finalizes monitoring procedures to enhance controls over compliance with the 30-year period affordability
requirement. (Audit Report: 2009-NY-1013)

                                                    

   HUD OIG performed a limited review of a random sample of 112 March and April 2009 Disaster Housing
Assistance Program payments for Hurricane Katrina and Hurricane Rita evacuees to verify whether the
authorized tenants lived in the residences in March and April 2009.

    Twenty instances of potentially ineligible payments, totaling more than $9,000, and other matters
warranting HUD’s attention were identified. The payments were potentially ineligible because they were for
tenants who did not live in their assisted units during March and/or April 2009 while their landlords were paid
for those units for those months. Of the 112 samples, there were 14 potentially ineligible payments, totaling
more than $7,000, in March 2009 and six potentially ineligible payments, totaling more than $2,000, in April
2009.

    OIG recommended that HUD (1) work with public housing agencies to determine the eligibility of the
questionable payments and require repayment when appropriate and (2) help the public housing agencies
to develop controls and policies to ensure the accuracy of payments each month and identify when tenants
vacate their units. (Audit Report: 2009-FW-0801)

                                                    

    HUD OIG audited the State of Mississippi’s administration of the $5.058 billion in CDBG Disaster
Recovery Assistance funds provided to the State in the aftermath of Hurricane Katrina. The State allocated
$2.2 billion to help homeowners in southern Mississippi recover from Hurricane Katrina. During an audit on
grant eligibility, OIG identified a few possible duplicate payments when reviewing the State’s disbursement
database. Therefore, OIG expanded the review to address these potential duplicates.



Chapter 6 - Disaster Relief Oversight                                                                      103
     The State’s controls generally functioned properly. However, of 5,928 grants disbursed, the State may
have funded 34 (less than 1 percent) duplicate grants. Testing on six grants showed that three were eligible,
two were ineligible, and one was unsupported. Based on the grants identified as ineligible and unsupported,
it is possible that the State may have funded duplicate grants. Only half of the remaining grants related to
duplicate addresses and duplicate Social Security numbers were possible duplicates, since one may have
been eligible.

    OIG recommended that HUD require the State to coordinate with HUD to recover more than $128,000
for ineligible grants; support or recover nearly $54,000 for the unsupported grant; and review the remaining
grants, of which more than $1.69 million is unsupported, and recover funds for grants that are deemed
ineligible. (Audit Report: 2009-AO-1801)

                                                     

   HUD OIG audited the State of Mississippi’s administration of the $5.058 billion in CDBG Disaster Recovery
Assistance funds, provided to the State in the aftermath of Hurricane Katrina, to determine whether the State
ensured that applicants were eligible to receive disbursements under phase II of its Homeowner Assistance
Program. The State allocated $2.2 billion to help homeowners in southern Mississippi recover from Hurricane
Katrina.

   Except for a few minor issues related to documentation, the State generally ensured that applicants
were eligible to receive disbursements under phase II of the program. Therefore, OIG had no findings or
recommendations. (Audit Report: 2009-AO-1802)

                                                     

    HUD OIG audited the Louisiana Land Trust (LLT), a $29 million CDBG disaster recovery subrecipient of
the State of Louisiana, Office of Community Development, as part of the OIG’s examination of relief efforts
provided by the Federal Government in the aftermath of Hurricanes Katrina and Rita. The audit objective was
to determine whether LLT, as the State’s subrecipient, properly maintained properties received from the State.

    Although LLT ensured that its maintenance contractor generally maintained the lawns of properties, it
did not always ensure that the properties were properly maintained overall. Of 67 properties visited, 23 (34
percent) had maintenance deficiencies, mostly related to security and cleanliness, which violated contract
requirements. This condition occurred because (1) the State did not clearly convey its expectations to LLT
regarding property maintenance, (2) LLT did not ensure that its maintenance contractor complied with the
terms of its contract, (3) the contract between LLT and its maintenance contractor did not specifically detail
the responsibilities of the maintenance contractor, and (4) LLT’s inspectors did not have written policies and
procedures to follow during their inspections. Further, LLT did not take action on some properties, properly
coordinate with other entities when making decisions, or document its decisions in its system. As a result,
some services were not satisfactorily performed, and some properties presented safety risks to the general
public, which could potentially cause LLT to incur financial liabilities.

    OIG recommend that HUD require the State to (1) specify its expectations of LLT, related to property
maintenance, in its cooperative endeavor agreement; (2) continuously monitor LLT to ensure that its
maintenance contractor complies with the terms of its contract; (3) ensure that LLT clearly conveys and
documents the maintenance contractor’s expectations; (4) ensure that LLT develops written policies and
procedures for its inspectors to follow; (5) correct deficiencies identified at the 23 properties; and (6) ensure
that LLT coordinates with the State when making decisions, documents decisions made in its system, and
creates a written policy for prioritizing properties for demolition. (Audit Report: 2009-AO-1003)

                                                     


104                                                                        Chapter 6 - Disaster Relief Oversight
  Investigations
    The HUD OIG Office of Investigation has continued to provide HUD fraud-related training for other law
enforcement agencies including the Louisiana State Inspector General’s Office; the Federal Bureau of
Investigation; and other Federal, State, and local investigative partners. While the majority of OIG prosecutions
during the reporting period involved fraud to obtain individual assistance benefits, OIG is pursuing more
cases involving public corruption and procurement fraud. Working with the Louisiana Recovery Authority
and the Mississippi Development Authority (MDA), HUD OIG has taken a proactive role to prevent payments
on fraudulent disaster-related claims as well as assisting with the recovery of grants that were obtained as a
result of fraud/deception. HUD OIG has been and continues to be a dedicated partner in the National Center
for Disaster Fraud Task Force (previously known as the Hurricane Katrina Fraud Task Force). The Task Force’s
Joint Command Center in Baton Rouge, LA, to which OIG has provided personnel support, has proved to
be a major source of support for disaster-related investigative efforts throughout the country. OIG is making
sound use of the Command Center for the receipt and referral of complaints and timely information sharing
with other relevant law enforcement agencies.

Homeowner Grant Fraud
    Gregory Warr, the former mayor of Gulfport, MS,
was sentenced in U.S. District Court, Gulfport, MS,
to 3 years probation and ordered to pay the Federal
Emergency Management Agency (FEMA) $9,558 in
restitution for his earlier guilty plea to committing theft
of FEMA funds. Warr applied for and received $150,000
in CDBG Disaster Recovery Assistance funds through
the Mississippi Development Authority (MDA), $9,558
in FEMA disaster assistance, and $88,440 in insurance
proceeds for hurricane-damaged residential property,
but the damaged property was not his primar y
residence during Hurricane Katrina..

                         

    Diane Walder, a HUD attorney in Los Angeles,
CA, and her husband James Groomes were each
indicted in U.S. District Court, Jackson, MS, for
allegedly committing theft of government funds and
making false statements and claims. Walder and
Groomes applied for and received $150,000 in CDBG
Disaster Recovery Assistance funds through the MDA
                                                                Copyright 2009. The Times-Picayune. New Orleans, LA.
and $50,000 in Small Business Administration (SBA)
                                                                                           Reprinted with permission.
disaster assistance for hurricane-damaged residential
property, but allegedly the damaged property was not
their primary residence during Hurricane Katrina.

                                                        




Chapter 6 - Disaster Relief Oversight                                                                              105
    Jerome and Catherine Foreman were each convicted in U.S. District Court, Gulfport, MS, of committing
theft of government funds and making false statements and claims. Jerome and Catherine Foreman applied
for and received $150,000 in CDBG Disaster Recovery Assistance funds through the MDA and $8,706 in FEMA
disaster assistance for hurricane-damaged residential property, but the damaged property was not their primary
residence during Hurricane Katrina.

                                                   

    Lionel Perkins was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft of
government funds and wire fraud. Perkins applied for and received $150,000 in CDBG Disaster Recovery
Assistance funds through the Road Home program and caused the Road Home administrator to remit $58,500
in CDBG funds to repay his SBA disaster assistance loan, but allegedly the damaged property was not his
primary residence during Hurricane Katrina.

                                                   

    Pearl DiLeo was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation and fined $30,000.
She remitted $149,925 to the Louisiana Office of Community Development prior to sentencing for her earlier
guilty plea to committing theft of government funds. DiLeo applied for and received $149,925 in CDBG Disaster
Recovery Assistance funds through the Road Home program for hurricane-damaged residential property, but
the damaged property was not her primary residence during Hurricane Katrina.

                                                   

    Jacqueline Foreman-Pottinger was sentenced in U.S. District Court, New
Orleans, LA, to 3 years probation and ordered to pay the Louisiana Office
of Community Development $148,079 in restitution for her earlier guilty plea
to committing theft of government funds. Pottinger applied for and received
$148,079 in CDBG Disaster Recovery Assistance funds through the Road Home
program for hurricane-damaged residential property, but the damaged property
was not her primary residence during Hurricane Katrina.

                                    

   Robert Lombardino pled guilty in U.S. District Court, New Orleans, LA, to
committing theft of government funds. Lombardino applied for and received
$134,000 in CDBG Disaster Recovery Assistance funds through the Road Home
program for hurricane-damaged residential property, but the damaged property
was not his primary residence during Hurricane Katrina.

                                    

    Barbara Dowl was convicted in U.S. District Court, New Orleans, LA, of
making false statements and committing theft of government funds and wire
fraud. Dowl applied for and received $132,000 in CDBG Disaster Recovery
Assistance funds through the Road Home program and $75,000 in SBA disaster
assistance for hurricane-damaged residential property, but Dowl did not own or
reside in the damaged property during Hurricane Katrina.
                                                                               Copyright 2009. The Times-Picayune.
                                                                               New Orleans, LA. Reprinted with
                                                                                                       permission.




106                                                                      Chapter 6 - Disaster Relief Oversight
   Louis Stiglet pled guilty in U.S. District Court, Jackson, MS, to committing theft of government funds. Stiglet
applied for and received $131,021 in CDBG Disaster Recovery Assistance funds through the MDA for hurricane-
damaged property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                     

    Frederick Rabito was charged in U.S. District Court, New Orleans, LA, with allegedly making false
statements. Rabito applied for and received $122,397 in CDBG Disaster Recovery Assistance funds through
the Road Home program for hurricane-damaged residential property, but allegedly the damaged property was
not his primary residence during Hurricane Katrina.

                                                     

   Thomas Steele was charged in U.S. District Court, New Orleans, LA, with allegedly making false statements.
Steele applied for and received $119,935 in CDBG Disaster Recovery Assistance funds through the Road Home
program and $1,070 in FEMA disaster assistance for hurricane-damaged residential property, but allegedly
Steele does not reside in Louisiana as required by the Road Home program.

                                                     

    Eva Baptiste was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation, ordered to
perform 100 hours of community service and pay the Louisiana Office of Community Development $110,420
in restitution, and fined $1,000 for her earlier guilty plea to committing theft of government funds. Baptiste
applied for and received $110,420 in CDBG Disaster Recovery Assistance funds through the Road Home program
for hurricane-damaged residential property, but the damaged property was not her primary residence during
Hurricane Katrina.

                                                     

   Ryant Price was charged in U.S. District Court, New Orleans, LA, with allegedly making false statements
and committing theft of government funds and wire and mail fraud. Price applied for and received $105,000 in
CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
property, but allegedly the damaged property was not his primary residence during Hurricane Katrina.

                                                     

    Billy Lawrence was sentenced in U.S. District Court, New Orleans, LA, to 6 months confinement in a
half-way house and 5 years probations and ordered to pay the Louisiana Office of Community Development
$68,486 in restitution for his earlier guilty plea to committing theft of government funds. Lawrence applied
for and received $98,486 in CDBG Disaster Recovery Assistance funds through the Road Home program for
hurricane-damaged residential property, but the damaged property was not his primary residence during
Hurricane Katrina.

                                                     

    Wayne Rogers and Latanicia McMillan were each charged in U.S. District Court, Jackson, MS, with allegedly
committing a conspiracy, theft of government property, and money laundering. Rogers and McMillan applied
for and received $91,021 in CDBG Disaster Recovery Assistance funds through the MDA, $4,358 in FEMA disaster
assistance, and $152,000 in SBA disaster loan funds for hurricane-damaged residential property, but allegedly
the damaged property was not their primary residence during Hurricane Katrina.

                                                     


Chapter 6 - Disaster Relief Oversight                                                                         107
    Charles Thonn was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft of
government funds. Thonn applied for and received $80,368 in CDBG Disaster Recovery Assistance funds
through the Road Home program for hurricane-damaged residential property, but allegedly the damaged
property was not his primary residence during Hurricane Katrina.

                                                    

    Raymond Cuccia was sentenced in U.S. District Court, New Orleans, LA, to 3 years probation and ordered
to pay the Louisiana Office of Community Development $64,320 in restitution for his earlier guilty plea to
committing theft of government funds. Cuccia applied for and received $64,320 in CDBG Disaster Recovery
Assistance funds through the Road Home program for hurricane-damaged residential property, but the damaged
property was not his primary residence during Hurricane Katrina.

                                                    

   Anita Belaire pled guilty in U.S. District Court, Lake Charles, LA, to committing theft of government funds.
Belaire applied for and received $55,600 in CDBG Disaster Recovery Assistance funds through the Road Home
program for hurricane-damaged residential property that does not exist.

                                                    

    Andrew Ealy III was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years probation and fined $1,500
for his earlier guilty plea to committing wire fraud. Ealy provided false information and fraudulently obtained
$94,000 in SBA disaster loan funds for hurricane-damaged residential property. Ealy then legitimately applied
for and received $101,797 in CDBG Disaster Recovery Assistance funds through the Road Home program but
caused the Road Home administrator to remit $50,000 in CDBG funds to repay his fraudulent SBA loan.

                                                    

   Schewanda Baptiste was sentenced in U.S. District Court, Greenbelt, MD, to 8 months home confinement
with electronic monitoring and 3 years probation and ordered to perform 200 hours of community service and
pay HUD $30,000 and FEMA $19,458 in restitution for her earlier guilty plea to committing theft of government
property. Baptiste applied for and received $30,000 in CDBG Disaster Recovery Assistance funds through the
Road Home program and FEMA disaster assistance after she claimed hurricane-damaged residential property
and evacuee status, but Baptiste resided in Maryland during Hurricane Katrina, and the damaged property
was not her primary residence.

                                                    

    Donelle Humphrey was charged in U.S. District Court, New Orleans, LA, with allegedly making a false
statement. Humphrey applied for and received $22,321 in CDBG Disaster Recovery Assistance funds through
the Road Home program for hurricane-damaged residential property, but allegedly the damaged property was
not her primary residence during Hurricane Katrina.

                                                    

   Shawntell Manuel pled guilty in U.S. District Court, New Orleans, LA, to committing theft of government
funds. Manuel applied for and received $123,800 in SBA disaster loan funds and attempted to obtain $150,000 in
CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
property, but the damaged property does not exist.

                                                    


108                                                                       Chapter 6 - Disaster Relief Oversight
    Clinton Tapper, Jr., was sentenced in U.S. District Court, Gulfport, MS, to 3 years probation and ordered
to perform 100 hours of community service, pay FEMA $14,006 and the SBA $179,400 in restitution, and forfeit
$193,406 for his earlier guilty plea to making false claims. Tapper applied for and received $14,006 in FEMA
disaster assistance and $179,400 in SBA disaster loan funds and attempted to obtain $100,000 in CDBG Disaster
Recovery Assistance funds through the MDA for hurricane-damaged residential property, but the damaged
property was not his primary residence during Hurricane Katrina.

                                                     

    Todd Northrop pled guilty in U.S. District Court, Jackson, MS, to committing mail fraud. Northrop applied for
and received $21,757 in FEMA disaster assistance and attempted to obtain $81,133 in CDBG Disaster Recovery
Assistance funds through the MDA for hurricane-damaged residential property, but the damaged property was
not his primary residence during Hurricane Katrina.

HUD and FEMA Disaster Housing Assistance Fraud
    George Kinsler III, the housing and residential director for NOAH Development Corporation (NOAH), a
HUD-funded organization, and Sheneiris Harris, a former West Palm Beach Housing Authority Section 8 tenant
and Hurricane Wilma Disaster Housing Assistance program participant, were each charged in U.S. District
Court, Pahokee, FL, with allegedly making false statements and committing a conspiracy, theft of government
funds, and theft from a program receiving Federal funds. Kinsler allegedly used his position and fraudulently
provided NOAH housing assistance to family members and friends, Harris allegedly failed to report Kinsler’s
residency in her subsidized unit on housing certifications, and together they allegedly obtained about $24,000
in housing assistance they were not entitled to receive.

                                                     

    Kim Pounds, a former Hurricane Katrina Disaster Housing program participant through the Housing Authority
for the City of Los Angeles, was sentenced in U.S. District Court, Los Angeles, CA, to 12 months and 1 day
incarceration and 60 months supervised release and ordered to pay HUD and FEMA $45,464 in restitution for
her earlier conviction of committing mail fraud and aiding and abetting. From September 2005 to May 2008,
Pounds applied for and received about $18,000 in HUD and $27,464 in FEMA housing assistance after she
claimed Hurricane Katrina evacuee status, but Pounds resided in California during the storm.

                                                     

   George Magee, a Housing Authority of New Orleans Section 8 tenant and Hurricane Katrina Disaster
Housing program participant, was charged in U.S. District Court, New Orleans, LA, with allegedly committing
mail fraud. Magee allegedly submitted false identification documents and obtained $15,474 in FEMA disaster
housing assistance he was not entitled to receive.

                                                     

   Shandrika Smith and Rodney Cordova, a Montgomery County Housing Authority Hurricane Katrina Disaster
Housing program participant and landlord, each pled guilty in Harris County District Court, Houston, TX, to
committing theft. Smith failed to report her familial relationship to Cordova or her ownership interest in her
subsidized property on housing certifications, and together they obtained $8,309 in disaster housing assistance
they were not entitled to receive.

                                                     




Chapter 6 - Disaster Relief Oversight                                                                        109
    Pamela Burdine, a Mississippi Regional Housing Authority VIII (Mississippi Regional) Section 8 tenant
and Hurricane Katrina Disaster Housing program participant, was sentenced in U.S. District Court, Gulfport,
MS, to 2 months home confinement and 3 years probation and ordered to perform 50 hours of community
service and pay HUD $4,838 and FEMA $4,740 in restitution for her earlier guilty plea to committing theft of
government funds. From September 2006 to February 2007, Burdine sublet her subsidized housing unit and
obtained $4,506 in Mississippi Regional and $2,345 in FEMA housing assistance she was not entitled to receive.

                                                         

    Phyllis Taylor, a former New Orleans Housing Authority public housing tenant and Hurricane Katrina Disaster
Housing program participant, was sentenced in U.S. District Court, Houston, TX, to 57 months incarceration
and 3 years supervised release and ordered to pay FEMA and the Wood Forrest National Bank $58,913 in
restitution for her earlier guilty plea to committing mail fraud and aggravated identity theft. Taylor used false
Social Security numbers and Louisiana addresses when she submitted 12 fraudulent claims for FEMA disaster
assistance after Hurricane Katrina.




              Copyright 2009. The Houston Chronicle. Houston, TX. Reprinted with permission.


                                                         

    Darlene Poole, a Hurricane Katrina evacuee and housing assistance recipient through the Houston Housing
and Community Development, an organization that receives HUD HOME Investment Partnerships Program
funds, and Lashona Victor were each indicted in U.S. District Court, Houston, TX, for allegedly committing a
conspiracy to commit mail and wire fraud. Poole applied for and received $13,000 in HUD funding to purchase
a residential property, but after acquiring the property, Poole and Victor allegedly created false documents to
show Victor as the property owner so that Poole could apply for and obtain FEMA disaster housing assistance.




110                                                                               Chapter 6 - Disaster Relief Oversight
FEMA and Other Fraud by HUD Tenants
    Christine Tate-Carter, a New Britain Housing Authority (New Britain) Section
8 tenant, and Rukaiyabanu Shaikh, a New Britain landlord and the managing
agent for Urban Developers, LLC, were each arrested after their indictments in
U.S. District Court, Hartford, CT, for allegedly committing theft of government
property and making false statements. From September 2005 to November
2006, Tate-Carter applied for and received $3,742 in FEMA disaster assistance
after she claimed Hurricane Katrina evacuee status, but Tate-Carter allegedly
resided in Connecticut during the storm. In addition, from December 2005
to November 2006, Shaikh and Urban Developers, LLC, allegedly submitted
false claims relating to Tate-Carter’s subsidized unit and obtained $13,749 in
housing contract payments they were not entitled to receive.



                                    

    Carmen Mack and Moreshia Williams, former San Francisco Housing                Copyright 2009. The Hartford
Authority housing recipients, were each sentenced in U.S. District Court,                Courant. Hartford, CT.
                                                                                    Reprinted with permission.
San Francisco, CA, to 36 months probation and collectively ordered to pay
FEMA $11,716 in restitution for their earlier guilty pleas to committing theft
of government funds or mail fraud. Mack and Williams applied for and
collectively received $11,716 in FEMA disaster assistance after they claimed
Hurricane Katrina evacuee status, but both defendants resided in California
during the storm.

                                                     

    Stacie Ellerson, an East Baton Rouge Housing Authority (East Baton Rouge) public housing tenant, pled
guilty in U.S. District Court, Baton Rouge, LA, to committing wire fraud. Ellerson applied for and received
$2,373 in FEMA disaster assistance after she claimed property damage and Hurricane Katrina evacuee status,
but East Baton Rouge suffered no storm damage, nor were tenants evacuated.

                                                     

   Lawanda Clark, a former Section 8 tenant at Scotland Square Apartments (Scotland), a HUD-subsidized
multifamily housing development, was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years probation
and ordered to perform 25 hours of community service and pay FEMA $2,000 in restitution for her earlier guilty
plea to committing mail fraud. Clark applied for and received FEMA disaster assistance after she claimed
personal property damage from Hurricane Katrina, but Scotland suffered no storm damage, nor were tenants
evacuated.

                                                     

   Rose Cooley, a former Section 8 tenant at Royal Oaks Apartments (Royal Oaks), a HUD-subsidized
multifamily housing development, was sentenced in U.S. District Court, Hattiesburg, MS, to 3 years probation
and ordered to perform 40 hours of community service and pay FEMA $1,584 in restitution for her earlier guilty
plea to making a false statement. Cooley applied for and received FEMA disaster assistance after she claimed
Hurricane Katrina evacuee status, but Royal Oaks suffered no storm damage, nor were tenants evacuated.




Chapter 6 - Disaster Relief Oversight                                                                        111
Other Fraud
    Willie Smith was indicted in U.S. District Court,
New Orleans, LA, for allegedly committing wire
fraud and a conspiracy to steal government funds.
In addition, Shawnzell Venson and former First
American Title Insurance Company employee
Derrick Beaulieu each pled guilty to committing
wire fraud and a conspiracy to steal government
funds. Smith allegedly and Venson and Beaulieu
admittedly attempted to divert $646,947 in CDBG
Disaster Recovery Assistance funds into their
personal bank accounts.

                      

    Stanley Burrell was sentenced in U.S. District
Court, Beaumont, TX, to 16 months incarceration
and 3 years supervised release and ordered to pay             Copyright 2009. The Advocate. Baton Rouge, LA. Reprinted
FEMA $12,750 in restitution for his earlier guilty                                                   with permission.
plea to making false claims. Burrell applied for
and received FEMA disaster assistance after he
claimed to be a Housing Authority of New Orleans
Hurricane Katrina evacuee, but Burrell never
resided in HUD-subsidized housing.

                      

    Steven Gibson pled guilty in U.S. District Court, Houston, TX, to filing a false claim. Gibson applied for
and received about $15,000 in FEMA disaster assistance after he claimed to be a Hurricane Katrina evacuee,
but Gibson resided in Texas during the storm.

                                                        




112                                                                           Chapter 6 - Disaster Relief Oversight
  Inspections and Evaluations
Inspection of HUD’s Recapture of Unspent Pre-2005 Disaster Recovery
Assistance Grant Funds
   HUD OIG completed an inspection to determine whether HUD had appropriately recaptured unspent funds
awarded from the more than $5.3 billion in CDBG Disaster Recovery Assistance funding appropriated before
2005. As of August 2008, HUD’s records showed that a total of 121 pre-2005 Disaster Recovery Assistance grants
had unspent funds totaling more than $17.5 million. OIG selected 11 of the 121 grants for detailed review.

     HUD did recapture and deobligate unspent pre-2005 Disaster Recovery Assistance grant funds from expired
grant contracts as required. However, three observations were noted that warrant management attention:
(1) HUD did not ensure that expired Disaster Recovery Assistance grants were closed out and unspent grant
funds were recaptured or deobligated on a timely basis, (2) the Disaster Recovery Grant Reporting (DRGR)
system did not contain accurate information regarding the closeout status of expired Disaster Recovery
Assistance grants, and (3) closeout documentation was missing from five Disaster Recovery Assistance grant
files reviewed. OIG recommended that HUD improve its oversight of Disaster Recovery Assistance grants
by implementing steps to ensure that (1) closeout of disaster grants and recapture of unspent grant funds is
completed in a timely manner, (2) correct and timely grant status information is entered into the DRGR system,
and (3) formal closeout documents are included in the grant files. (I&E Report: IED08 005)

                                                   




Chapter 6 - Disaster Relief Oversight                                                                     113
   In addition to the audits and investigations described in this chapter, the U.S. Department of Housing and
Urban Development (HUD), Office of Inspector General (OIG), has conducted numerous outreach efforts
(see chapter 8, page 142).




      Audit
                  Strategic Initiative 4: Contribute to improving HUD’s execution
                     and accountability of fiscal responsibilities as a relevant
                    and problem-solving advisor to the Department’s execution
  Key program results                          Questioned costs                   Funds put to better use
      Audit          14 audits1                        ---                                     ---
                      Page 116         •	 HUD’s mnagement of human resources
       Our            Page 117         •	 Review of HUD’s general and application controls of selected
      focus    			                        information technology systems
                Page 117               •	 Review of HUD’s internal controls over processing personnel
               			                        actions
                Page 117               •	 Evaluation of HUD’s security controls over Web applications
                      Page 118         •	 Review of controls over HUD’s data and resources at third-party
                                          business partners

  1
   The total “other” audits include American Recovery and Reinvestment Act of 2009 (nine audits) type audits
  conducted in other areas. The write-ups for these audits are shown separately in chapter 5 of this semiannual
  report.


HUD’s Management of Human Resources
    HUD OIG audited HUD’s management of human resources to determine whether HUD had implemented
a process and methodology to determine when to contract out for services or when to keep the services in
house. The audit did not include reviewing procurement items and/or competitions before December 1, 2004,
and it did not include a review of HUD’s procurement and/or contracting activities to determine whether they
met applicable Federal requirements.

   HUD complied with the Office of Management and Budget’s (OMB) requirements for the competition of
commercial activities (competitive sourcing procedures). All three of the streamline competitions reviewed
contained adequate documentation to support HUD’s assessment of whether government employees should
perform tasks that are readily available in the commercial marketplace or rely on the private sector for the
performance of those tasks.

   Since OIG did not identify any deficiencies, no recommendations were made. (Audit Report:
2009-CH-0001)




116                                         Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
Review of HUD’s General and Application Controls of Selected
Information Technology Systems
(Report Not Available to the Public)

    HUD OIG reviewed general and application controls for selected information systems to assess management
controls over HUD’s computing environments as part of OIG’s audit of HUD’s financial statements for fiscal year
2008 under the Chief Financial Officer’s Act of 1990. The review was based on the Government Accountability
Office’s “Federal Information Systems Controls Audit Manual” and information technology guidelines established
by OMB and the National Institute of Standards and Technology. OIG has determined that the contents of
this report would not be appropriate for public disclosure and has limited its distribution to selected officials.
(Audit Report: 2009-DP-0004)

Review of HUD’s Internal Controls over Processing Personnel Actions
     HUD OIG audited HUD’s internal controls over the processing of personnel actions to determine why
(1) human resource actions were not processed in a timely manner, (2) employee requests to waive the
automatic collection of payroll overpayments were not processed before collection actions began, (3) adequate
documentation to support job vacancy announcements was not maintained, and (4) employees were able to
initiate their own personnel action requests.

    The design and implementation of HUD’s internal controls over collection waivers, new hire paperwork,
processing of awards, promotions, within-grade increases, pending personnel action requests, and job
vacancy announcements were inadequate. There was a lack of internal controls to ensure (1) the timely
processing of collection waiver requests and new hire paperwork, (2) that employees were afforded the
opportunity to request a collection waiver before salary offsets were taken, and (3) that Office of Personnel
Management job announcement policies and procedures and record-keeping standards were followed. Also,
in certain circumstances, the HR Connect system lacked controls to prevent employees from being involved
in the processing of their own personnel action requests, which made HUD vulnerable to the processing of
potentially fraudulent actions.

    OIG recommended that HUD implement a tracking system for (1) monitoring new hire accession paperwork
and (2) processing awards, promotions, within-grade increases, transmittal of application status notification
letters, and collection waiver requests. OIG also recommended that (1) policies and procedures regarding
the processing of collection waiver requests include timeliness standards for the research and review phases
to ensure that decisions are made in a timely manner and that collection actions are not premature and (2)
policies and procedures be established to include supervisory review of pending new hire paperwork actions,
job announcement case files, and checklists upon closeout. In addition OIG recommended that (1) staff be
retrained regarding new hire paperwork policies and procedures, (2) HUD ensure that staff performs the
necessary reviews to certify that each job vacancy case file properly supports the recruitment process and
employees do not participate in the processing of their own personnel action requests, and (3) all employees
be informed that it is not allowable to participate in the processing of their own personnel action requests.
(Audit Report: 2009-FO-0004)

Evaluation of HUD’s Security Controls over Web Applications
(Report Not Available to the Public)

    HUD OIG audited the security of HUD’s Web applications. OIG evaluated security measures in place that
protect HUD information, scanned identified Web applications, and identified vulnerabilities and suspect
configurations that place sensitive information at risk. The audit was conducted as a component of the testing
of general and technical controls for information systems in connection with (1) an audit of HUD’s consolidated




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                           117
financial statements and (2) the annual evaluation of HUD’s information system security program and practices
required by the Federal Information Security Management Act of 2002.

   Security controls implemented on HUD’s Web applications were inadequate. OIG identified security
configuration and technical control deficiencies within HUD’s security controls.

    OIG has determined that the contents of this report would not be appropriate for public disclosure and,
therefore, has limited its distribution to selected HUD officials. (Audit Report: 2009-DP-0006)

Review of Controls over HUD’s Data and Resources at Third-Party
Business Partners
(Report Not Available to the Public)

    HUD OIG conducted an audit to determine whether technical, management, and operational controls were
in place to ensure adequate protection of HUD’s data and resources at its third-party business partners’ sites
that remotely access or physically process and maintain HUD data outside HUD’s secured physical perimeter.
OIG also wanted to determine whether HUD complied with applicable Federal requirements that apply to
planning, establishing, and maintaining interconnections and data sharing among information technology
systems that are owned and operated by the third-party business partners.

   OIG has determined that the contents of this report would not be appropriate for public disclosure and
has limited its distribution to selected officials. (Audit Report: 2009-DP-0005)

                                                   




118                                       Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
  Investigations
                  Strategic Initiative 4: Contribute to improving HUD’s execution
                     and accountability of fiscal responsibilities as a relevant
                    and problem-solving advisor to the Department’s execution
 Key program           Cases                   $               Convictions/pleas/          Admin/civil
    results            closed              recovered               pretrials                actions

 Investigations          33                 $22,261                     9                       3




    Herman Ransom, a director for the HUD Office of Multifamily Housing, was indicted in U.S. District Court,
Kansas City, KS, for allegedly committing theft of government funds and wire fraud. From September 2001
through May 2007, Ransom allegedly played tennis or gambled at local casinos during official work hours.
HUD losses are estimated at $47,332.

                                                   

    HUD employee Paula Stankiewicz was charged in U.S. District Court, Cleveland, OH, with allegedly
making false statements. Stankiewicz obtained $10,500 after she claimed uncompensated overtime hours,
but allegedly Stankiewicz did not work the overtime hours she claimed.

                                                   




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                      119
  Inspections and Evaluations
Evaluation of HUD’s Workers’ Compensation Program
    HUD OIG conducted an evaluation of HUD’s management of its Workers’ Compensation Program to
determine whether the program was managed by the contractor, Lifecare Management Partners, in accordance
with contract terms and to identify opportunities to improve program policy and procedures. OIG also wanted
to determine the level of program noncompliance and potential fraud among HUD’s 371 program beneficiaries.
For the 12-month period ending June 30, 2008, HUD’s cost and participation levels in the program were $5.6
million for 371 program beneficiaries.

    Lifecare Management Partners managed the program in accordance with its services contract. However,
based on tests for indicators of program fraud and discussions with Lifecare, OIG identified 13 of 371 former HUD
employees and program beneficiaries that may be abusing their entitlement. These complainants certified to
the U.S. Department of Labor’s Office of Workers’ Compensation Program that they were not employed outside
HUD and/or involved with a business enterprise. Public records searches and review of case files disclosed
inconsistencies, including potential wage and business income, contrary to the complainants’ certifications.
OIG recommended that HUD modify Lifecare Management Partners’ contract to include fraud detection steps
and a formal referral process to ensure full investigation when warranted. (I&E Report: IED08 004)

                                                     




120                                        Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
  OIG Hotline
    The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30 p.m.
The hotline is staffed by nine full-time OIG employees, who take allegations of waste, fraud, abuse, or serious
mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the public. The
hotline also coordinates reviews with internal audit and investigative units or with HUD program offices.

    During this reporting period, the hotline received and processed 13,194 complaints--68 percent received
by telephone, 13 percent by mail, and 19 percent by e-mail. Every allegation received by the hotline is logged
into a database and tracked.

   Of the complaints received, 480 were related to the mission of OIG and were addressed as hotline cases.
Hotline cases are referred to OIG’s Offices of Audit and Investigation or to HUD program offices for action and
response. The following illustration shows the distribution of hotline case referrals by percentage.



                          Chart 7.1: Hotline cases opened by program area




                                                                            Public and Indian housing, 47%
                                                                            Multifamily housing, 10%
                                                                            Community planning and
                                                                            development, 4%
                                                                            OIG Audit and Investigation, 28%
                                                                            Single-family housing, 4%
                                                                            Other, 7%




    The hotline closed 416 cases this reporting period. The closed hotline cases included 102 substantiated
allegations. The substantiated allegations resulted in 36 administrative sanctions, including action taken
against a subcontractor for making false claims. The Department also took 63 corrective actions that resulted
in $132,624 in recoveries of losses and more than $1.9 million in HUD funding that could be put to better
use. The recoveries included repayments of overpaid rental subsidies. Some of the funds that could be put
to better use were the result of cases in which tenants were terminated from public housing or multifamily
housing programs for improperly reporting their incomes or family composition to qualify for rental assistance.




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                            121
                   Chart 7.2: Hotline dollar impact from program offices


                          $1,722,353

      $2,500,000


      $2,000,000


      $1,500,000


      $1,000,000

                                                                  $182,086
       $500,000                        $39,559
                                                                              $93,065

             $0
                   Public and Indian housing                 Multifamily housing

                         Funds put to better use         Recoveries




                                                   




122                                    Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
    To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission, the
Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
below complement routine coordination with Federal, State, and local law enforcement agencies; various
congressional committees or subcommittees; and other OIGs. During outreach efforts, OIG personnel present
information about HUD OIG’s role and function, provide audit and investigative results, and discuss desired
goals and objectives.

Single-Family Housing Programs
    Special Agent in Charge (SAC) Barry McLaughlin hosted an Illinois Mortgage Fraud Working Group meeting
in Chicago, IL, and moderated a presentation by Freddie Mac investigator Robb Hagberg, who described
the latest mortgage, rescue, and condominium conversion fraud schemes. Approximately 45 real estate
professionals and regulatory and law enforcement personnel attended.

                                                    

    SAC George Dobrovic and Assistant Regional Inspectors General for Audit (ARIGA) Kelly Anderson and
Muhammad Akhtar facilitated a Federal Housing Administration (FHA) single-family training session hosted
by the Michigan Office of Financial and Insurance Regulation in Lansing, MI. Approximately 40 examiners,
investigators, and HUD personnel attended.

                                                    

   SAC Diane DeChellis and ARIGA Mike Motulski provided an overview of HUD OIG’s mission and role and
described OIG’s responsibilities in detecting and investigating FHA mortgage fraud at a New England Mortgage
Banking conference held in Providence, RI. At the conclusion, a question and answer forum was held for
approximately 150 conference participants.

                                                    

    SAC Wayne North, Assistant Special Agent in Charge (ASAC) James Luu, and Regional Inspector General
for Audit (RIGA) Joan Hobbs (in San Francisco only) provided an overview of HUD OIG’s mission and function
and described investigative priorities relating to the FHA, mortgage fraud, and economic stimulus packages
(American Recovery and Reinvestment Act 0f 2009 (ARRA) funds) during two HUD-sponsored congressional
briefings held in Modesto and San Francisco, CA. Approximately 60 congressional representatives and HUD
personnel attended.

                                                    

   SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of the Home Equity Conversion Mortgage
(HECM) and FHA insurance programs and described fraud schemes, the SAFE Act, and OIG’s affirmative civil
enforcement actions and audit expectations for Indiana Mortgage Bankers Association members meeting in
Merrilville, IN. Approximately 65 prosecutors and attorneys, compliance and loan officers, and others attended.

                                                    

    SAC Peter Emerzian, ARIGA Kevin Smullen, and Special Agent (SA) Stephen Tufts provided an overview of
HUD OIG’s mission and role and described mortgage fraud indicators and investigations for Mortgage Bankers
Association members meeting in Portland, ME. At the conclusion, a question and answer forum was held
for about 50 members in attendance.

                                                    

124                                                                               Chapter 8 - Outreach Efforts
   SAC Thomas Luke and ASAC Robert Anderson provided an overview of HUD OIG’s mission and authority
and described current mortgage fraud trends at a meeting held in Hammond, LA, for HUD contractor Cityside
Management Corporation.

                                                   

    SAC Anthony Medici provided an overview of fraud schemes in the HECM program, described the role of
the program counselor, and explained how to report fraud to HUD OIG at a National Home Equity Mortgage
Counselor Network training conference held in Denver, CO. More than 200 counselors attended.

                                                   

    SAC Michael Powell provided an overview of OIG’s role in loan origination fraud investigations and
described mortgage fraud schemes at an FHA modernization conference hosted by HUD in Atlanta, GA. At
the conclusion, a question and answer forum was held for about 420 individuals in attendance.

                                                   

    SAC Barry McLaughlin and ASACs Brad Geary and Ray Espinosa provided an overview of HUD OIG
operations and described mortgage fraud trends, schemes, and “red flag” indicators during a Guaranteed
Rate Loan Company mortgage fraud awareness training seminar held in Chicago, IL. Approximately 50 loan
officers attended.

                                                   

   SAC Anthony Medici participated on a “Fraud, FHA Lenders, and Declining Economy” panel at the
Government Housing and Loan Production conference sponsored by the Mortgage Bankers Association in
Washington, DC. More than 100 mortgage professionals attended.

                                                   

    SAC Barry McLaughlin provided an overview of HUD OIG and its role in relation to various housing recovery
acts for Illinois Mortgage Fraud Working Group members meeting in Chicago, IL. Approximately 30 U.S.
Trustee representatives, State and city regulatory personnel, and others attended.

                                                   

     SAC Barry McLaughlin and RIGA Heath Wolfe described OIG audit expectations, the new Civil Enforcement
Initiative, emerging fraud schemes and trends, and early warning fraud indicators during a meeting held
for Minnesota Mortgage Association members in Minneapolis, MN. Approximately 50 mortgage industry
representatives attended.

                                                   

    ASAC Brad Geary, Assistant U.S. Attorney (AUSA) Brian Netols, and Federal Bureau of Investigation (FBI)
SA John Diwik provided an overview of the Neighborhood Stabilization Program (NSP), HECM, and the FHA
insurance program and described fraud schemes and related criminal statutes for Fidelity National Title Group
employees meeting in Chicago, IL. Approximately 20 attorneys, compliance officers, and others attended.

                                                   




Chapter 8 - Outreach Efforts                                                                             125
    ASAC Suzanne Steigerwald and ARIGA Frederick Smith provided an overview of HUD OIG’s mission
and described the planned oversight of mortgage fraud at a meeting held in Denver, CO. Approximately
50 congressional aides and HUD personnel from Colorado, Utah, Montana, Wyoming, and North and South
Dakota attended.

                                                   

    ASAC Michael Wixted and ARIGA Kevin Smullen provided an overview of HUD OIG’s mission and functions
for Massachusetts congressional staff members meeting in Boston, MA. Approximately 30 congressional
staffers and HUD employees attended.

                                                   

    ASAC Ray Espinosa and ARIGA Kelly Anderson provided an overview of NSP, HECM, and FHA insurance
programs and described fraud schemes and criminal statutes at a meeting held in Indianapolis, IN, for
members of the Indiana Mortgage Bankers Association, the Indiana Land Title Association, the FBI, and the
Indiana Attorney General’s Office. Approximately 65 attorneys, compliance and loan officers, law enforcement
personnel, and others attended.

                                                   

   ASAC Diane DeChellis, ARIGA Kevin Smullen, and SAs Edward Redmond and Stephen Tufts provided an
overview of HUD OIG’s mission and role and described FHA mortgage fraud for New Hampshire Mortgage
Bankers Association members meeting in Bedford, NH. At the conclusion, a question and answer forum was
held for about 30 members in attendance.

                                                   

    ASAC Gene Westerlind provided an overview of HUD OIG’s mission and priorities and described OIG’s
role in mortgage fraud investigations at an Anti-Money Laundering and Bank Secrecy Act conference held in
Kansas City, MO. At the conclusion, a question and answer forum was held for approximately 150 banking
executives and law enforcement personnel in attendance.

                   

   ASAC Michael Gibson and SA Leonard
DeVera provided an over view of the
HECM program and foreclosure rescue
and loan modification fraud schemes at a
Foreclosure Prevention Resource Fair hosted
by Congresswoman Grace Napolitano in
Pomona, CA. At the conclusion, a question
and answer forum was held for about 175
homeowners in attendance.

                   




                                                Special Agent Leonard DeVera responds to questions from the audience
                                                at the Foreclosure Prevention Resource Fair hosted by Congresswoman
                                                                                     Grace Napolitano in Pomona, CA.



126                                                                                  Chapter 8 - Outreach Efforts
    ASAC Kevin Chan, ARIGA John Harrison, and HUD Philadelphia Homeownership Center business analyst
Philip Caulfield provided an overview of FHA trends; OIG’s authority and role in the Offices of Audit and
Investigation; and the process for selecting, conducting, and reporting audits and investigations and described
how HUD OIG can partner with the mortgage industry to root out fraud and refer investigations at a convention
held for New York Association of Mortgage Brokers members in Melville, NY. Approximately 75 mortgage
brokers and financial institution representatives attended, and a question and answer forum was held for
those who remained after the presentation.

                                                    

   ASAC Michael Wixted and SA Jessica Piecuch provided an overview of HUD OIG’s mission and role,
described the FHA mortgage program and mortgage fraud trends, and discussed NSP for Massachusetts Bank
Security Committee members meeting in Boston, MA. At the conclusion, a question and answer forum was
held for approximately 30 members.

                                                    

   ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described predatory lending,
property flipping, equity skimming, appraisal fraud, and the potential for HECM as a panelist for a workshop
sponsored by the Baltimore Housing Coalition in Baltimore, MD. Approximately 40 representatives from State
and local governmental agencies, nonprofit organizations, and mortgage and financial institutions attended.

                                                    

    SAs Brandon Gardner and Walter Zapata provided an overview of HUD OIG’s mission and described
common predatory lending and foreclosure rescue schemes at the National Urban League Economic
Empowerment Tour and Restore Our Homes Housing Rescue Fair held in Dallas, TX. Approximately 1,500
individuals attended this event.

                                                    

    SAs John Raney and Timothy Lishner provided an overview of HUD OIG’s mission and role and described
single-family housing fraud schemes at a training program, entitled “A Day with FHA,” sponsored by the
Denver HUD Homeownership Center and Greeley area realtors in Greeley, CO. Approximately 200 realtors
and mortgage professionals attended.

                                                    

    SA Kelly Popovits and AUSA Brian Netols provided an overview of mortgage fraud trends and the impact on
local recorder offices and described specific investigations for members of the Illinois Association of County
Clerks and Recorders meeting in Bloomington, IL. At the conclusion, a question and answer forum was held
for about 75 individuals in attendance.

                                                    

    SA José Laureano provided a presentation, entitled “FHA and HECM Mortgage Fraud: Jurisdiction and the
Investigative Role of HUD OIG,” and explained HUD OIG’s mission and priorities, mortgage fraud schemes
and indicators, and Federal criminal statutes for individuals attending a mortgage fraud seminar sponsored
by the Puerto Rico Mortgage Bankers Association in San Juan, PR. Approximately 50 mortgage brokers, real
estate attorneys, and lending institution executives attended.

                                                    


Chapter 8 - Outreach Efforts                                                                               127
    SA Karen Gleich and FBI SA Carlos Fernandez provided an overview of single-family and FHA mortgage
fraud at two Kansas Appraisal Board-sponsored fraud seminars held in Manhattan and Junction City, KS.
Approximately 30 real estate agents, appraisers, and title company employees attended.

                                                    

    SA Anthony Troeger provided an overview of mortgage fraud and described “red flag” indicators for attorneys
attending a “Lunch and Learn” session hosted by the law offices of Womble Carlyle in Winston-Salem, NC.
More than 45 attorneys and paralegal staff attended.

                                                    

   SA John Raney provided an overview of HUD OIG’s mission, described “red flag” indicators and fraud
schemes related to reverse mortgages and foreclosure rescue, and discussed predatory lending tactics for
AARP members meeting in Denver, CO. Approximately 30 members attended.

                                                    

    SA James Carrieres provided an overview of HUD OIG’s mission and described successful Arizona mortgage
fraud investigations at a United Brokers Group conference held in Chandler, AZ. Approximately 40 real estate
agents attended.

                                                    

    SAs José Laureano and Hector Mercado provided an overview of the FHA mortgage program and mortgage
fraud indicators and hosted a question and answer forum for members of the Puerto Rico Mortgage Bankers
Association meeting in San Juan, PR. Approximately 25 members attended.

                                                    

    SA Carissa Barnes provided an overview of HUD OIG’s mission and role and described OIG’s involvement
in bankruptcy investigations at meetings held with U.S. District Court bankruptcy judges, U.S. Trustee Office
personnel, and others in Salt Lake City, UT. Approximately 25 judges and staff members attended.

                                                    

    SA Nelson Sanchez provided an overview of foreclosure scams at a foreclosure information fair sponsored
by the Colorado Foreclosure Hotline in Littleton, CO. More than 35 HUD and Freddie Mac representatives
and individuals from Colorado’s Foreclosure Hotline, Assistance Corporation, Housing and Finance Authority,
and Division of Civil Rights attended.

                                                    

    SAs Nicholas Fasciglione and Brock Minnick provided an overview of HUD OIG’s mission and role and
described mortgage fraud indicators and the HECM program at a Property Records Industry Association and
Oklahoma Property Records Education Partners meeting held in Oklahoma City, OK. Approximately 50
individuals representing the banking and mortgage industries, county officials, the U.S. Bankruptcy Court, the
U.S. Attorney’s Office, and Federal law enforcement personnel attended.

                                                    




128                                                                               Chapter 8 - Outreach Efforts
    SA José Laureano provided a presentation, entitled “Mortgage Fraud: One More Way to Launder Money”;
described HUD OIG’s mission and priorities and common mortgage fraud schemes and indicators; and
discussed mortgage fraud money laundering schemes at the 2009 Association of Certified Anti-Money
Laundering Specialists seminar held in San Juan, PR. Approximately 80 compliance officers from local and
international financial institutions and Federal and State law enforcement officers attended.

                                                    

    ARIGA Frederick M. Smith spoke about single-family mortgage fraud to a group of approximately 263
licensed Colorado real estate agents and appraisers at “A Day with FHA,” a seminar conducted by the Denver
Home Ownership Center in Colorado Springs, CO. ARIGA Smith’s presentation included the mission of OIG,
the Inspector General Act of 1978, subpoena power, the definition of mortgage fraud, the role of the Offices of
Investigation and Audit as it pertains to mortgage fraud, fraud for property, and fraud for profit.

Public Housing and Rental Assistance Programs
   SAC Thomas Luke provided an overview of HUD OIG’s mission and priorities and described rental assistance
and contractor fraud at an “Executive Directors and Section 8 Coordinators” conference held in Marksville,
LA. Approximately 125 executive directors and Section 8 coordinators from Louisiana attended.

                                                    

    RIGA John Dvorak, ARIGA Mike Motulski, and SA Edward Redmond provided an overview of HUD OIG’s
mission and role and described tenant fraud indicators and rental assistance fraud investigations for members
of the New England Regional Council of the National Association of Housing and Redevelopment Officials
(NAHRO) meeting in Bretton Woods, NH. At the conclusion, a question and answer forum was held for about
30 members in attendance.

                                                    

    RIGA Ron Hosking and ASAC Suzanne Steigerwald provided an overview of HUD OIG’s mission, described
the functions of the Offices of Audit and Investigation, and discussed fraud detection and enforcement methods
used to successfully prosecute housing investigations at the Colorado NAHRO conference held in Aspen, CO.
Approximately 50 housing professionals attended.

                                                    

    ARIGA Kim Randall and SA Christopher Conn provided an overview of HUD OIG’s mission, described the
functions of the Offices of Audit and Investigation, and held a question and answer forum for approximately
75 housing professionals attending the annual Iowa NAHRO conference in Des Moines, IA.

                                                    

   ARIGA Carrie Gray and SAs Christopher Conn and Francis Novak provided an overview of HUD OIG’s
mission, described investigative and audit functions, and discussed a variety of HUD OIG investigations at the
annual Kansas NAHRO conference held in Wichita, KS. At the conclusion, HUD employee Julie Tudor assisted
with a question and answer forum for approximately 60 NAHRO members in attendance.

                                                    




Chapter 8 - Outreach Efforts                                                                               129
   ARIGA Kim Randall and SA Amy Durso provided an overview of HUD OIG’s mission, described investigative
and audit functions, and discussed public housing fraud investigations and audit findings at the annual Missouri
NAHRO conference held in Osage Beach, MO. Approximately 75 NAHRO members attended.

                                                    

   ASACs Ray Espinosa and Brad Geary provided an overview of HUD OIG, described common fraud schemes
and “red flag” indicators, and discussed housing fraud investigations during a training seminar hosted by the
Chicago and Cook County Housing Authorities in Chicago, IL. More than 90 representatives from various
housing agencies attended.

                                                    

   ASAC Wallace Merriman provided a presentation, entitled “OIG’s Role and Best Practices in Identifying
Criminally Involved Residents,” and discussed multifamily housing fraud prevention, detection, and reporting
methods at a HUD-sponsored Multifamily Housing Crime Prevention Summit held in Baltimore, MD.
Approximately 200 housing agency representatives attended.

                                                    

    ASAC Suzanne Steigerwald and SA Theron Hanes provided an overview of HUD OIG’s role in Indian housing
fraud investigations at a HUD-sponsored United Native American Housing Association training seminar held
in Denver, CO. Approximately 35 executive directors attended.

                                                    

   ASAC Gene Westerlind and ARIGA Carrie Gray provided an overview of HUD OIG’s mission, current HUD
multifamily program initiatives, and common fraud schemes and audit findings at a regional performance-
based contract administrators’ summit held in St. Louis, MO. Approximately 50 HUD and housing finance
agency staff from Missouri, Iowa, Kansas, Nebraska, and Oklahoma attended.

                                                    

    ARIGA Vince Mussetter and ASAC Tony Meeks gave a presentation to Los Angeles, CA, Office of Multifamily
Housing staff on the mission and organization of HUD OIG, along with descriptions of the work performed by
the Offices of Investigation and Audit. They answered questions and provided clarification on a number of
fraud and equity skimming subjects posed by the attendees.

                                                    

    ASAC Wallace Merriman and ARIGA Kimberly Harrison provided an overview of the Offices of Audit and
Investigation and described the audit process and fraud in multifamily housing programs during a “Meet the
OIG” session at the Maryland Association of Housing and Redevelopment Agencies conference held in Ocean
City, MD. Approximately 90 housing representatives from New Jersey, Pennsylvania, Delaware, and Maryland
attended.

                                                    

   ASAC Nadine Gurley provided a workshop, entitled “Developing a Successful Partnership with OIG,”
and described fraud concerns, challenges, and detection methods for members of Alabama Public Housing




130                                                                                Chapter 8 - Outreach Efforts
Authorities Directors Association meeting in Orange Beach, AL. Approximately 50 Alabama housing executives
attended.

                                                  

   SA Juan Juarez provided an overview of HUD OIG’s priorities and initiatives and described common fraud
schemes in HUD public and Indian housing programs during the annual Texas NAHRO conference and trade
show held in Galveston, TX. Approximately 15 housing officials attended.

                                                  

   SA Julien Kubesh and HUD public housing revitalization specialist Dana Kitchen provided tips on
implementing the HUD Enterprise Income Verification system and described fraud prevention, detection, and
prosecutions at the annual Minnesota NAHRO conference held in Duluth, MN. Approximately 75 NAHRO
members attended.

                                                  

   SA Theron Hanes provided an overview of HUD OIG’s mission and authority and described fraud detection
and enforcement methods used to successfully prosecute investigations at the North and South Dakota annual
NAHRO conference held in Fargo, ND. Approximately 50 housing professionals attended.

                                                  

   SA David Smith provided an overview of HUD OIG’s mission and authority and described fraud detection
and enforcement methods used to successfully prosecute investigations at the annual Utah NAHRO conference
held in St. George, UT. Approximately 40 housing professionals attended.

                                                  

    SA Edward Redmond provided an overview of HUD OIG’s mission and role in fraud investigations at a
Tri-State NAHRO conference held in Kennebunkport, ME. At the conclusion, a question and answer forum
was held for about 60 NAHRO members in attendance.

                                                  

    SA Michael White provided an overview of HUD OIG’s mission and described rental assistance fraud for
multifamily management personnel attending the annual Kentucky Housing Management conference held
in Louisville, KY. More than 250 individuals attended.

                                                  

    SA Thomas Neighbors provided an overview of HUD OIG’s mission and authority, described Section 8
housing assistance violations, and discussed possible outcomes for discrepancies found in the HUD Enterprise
Income Verification system for New England Affordable Housing Management Association members meeting
in Boston, MA. Approximately 30 members attended.

                                                  

   SAs Timothy Lishner and John Raney provided an overview of HUD OIG’s mission and role and described
multifamily housing fraud and Federal prosecutions for multifamily property managers attending a training




Chapter 8 - Outreach Efforts                                                                            131
conference hosted by the Colorado Housing Finance Authority in Denver, CO. Approximately 50 property
managers attended.

                                                    

   SA David Smith provided an overview of HUD OIG’s mission, authority, and role and described fraud and
Federal prosecutions involving the HUD Office of Native American Programs at a National American Indian
Housing Counsel conference held in Salt Lake City, UT. Approximately 50 housing authority officials attended.

                                                    

    SA Steve McCool provided an overview of HUD OIG and the criminal court system and discussed housing
assistance fraud investigations and prevention techniques at the West Virginia Assisted Housing Association’s
conference held in Beckley, WV. Approximately 50 housing representatives attended.

                                                    

    RIGA Joan Hobbs and SAC James Todak spoke in Gallup, NM, before 175 tribal members from the Navajo
Reservation. The conference was arranged by the tribe to inform the members about what they could and could
not do with their ARRA funds. In addition to HUD OIG, there were representatives from the U.S. Department
of Justice, the U.S. Department of Health and Human Services OIG, and the U.S. Department of Interior OIG.

                                                    

    Senior Auditors Todd Gagon and Sarah Pon participated in the 2009 Fall NAHRO conference held in Gering,
NE. Topics discussed included the role of HUD Office of Public Housing staff versus that of the HUD OIG Offices
of Audit and Investigation; how OIG identifies public housing authorities to audit; common findings/problem
areas when auditing Section 8 Housing Choice Voucher programs and nonprofit development activities; and
what to do if fraud, waste, or abuse is suspected in HUD-funded programs. They also discussed how HUD OIG
will oversee ARRA funds. The audience included representatives from HUD and 12 public housing authorities.

                                                    

    SAC Joseph Clarke and RIGA John Buck made a presentation at the Delaware NAHRO training conference
in Dover, DE. They provided an overview of HUD OIG’s mission and goals and the functions of the Offices of
Audit and Investigation. Their presentation focused primarily on anticipated and ongoing HUD OIG oversight
of funding received from ARRA. The conference was attended by representatives from various housing
and redevelopment agencies throughout the State of Delaware. Approximately 60 grantees attended the
presentation.

Community Planning and Development
    SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD OIG’s mission and goals,
explained the functions of the Offices of Audit and Investigation, discussed community development grant
fraud and audit findings, and described civil enforcement initiatives and criminal investigations at a meeting
held for HUD Homelessness Prevention and Rapid Re-Housing Program (HPRP) grantees in Chicago, IL.
Approximately 300 grantees attended.

                                                    

    SAC Timothy Mowery and RIGA Jim McKay provided an overview of HUD OIG’s mission and goals; described
the function of the Offices of Audit and Investigation, common community planning and development audit



132                                                                               Chapter 8 - Outreach Efforts
findings and concerns, and potential criminal issues or investigations; and discussed the Program Fraud Civil
Remedies Act and the HUD OIG zero tolerance stance at a meeting held for NSP grantees in Jacksonville, FL.
Approximately 250 grantees attended.

                                                    

   SAC Phyllis Robinson, ASACs Gene Westerlind and Kris Kanakares, and Senior Auditor Danny Tipton
provided an overview of HUD OIG’s mission and priorities and described OIG’s role in community planning
and development investigations and protecting HUD ARRA funding during a HUD-sponsored training session
held for Supportive Housing Program (SHP) grantees in Kansas City, KS. At the conclusion, a question and
answer forum was held for approximately 24 grantees in attendance.

                                                    

    SAC Timothy Mowery provided an overview of HUD OIG’s mission, discussed stimulus funding, and
described fraud indicators and issues in both housing and community planning and development programs
for individuals attending the 2009 “Ryan White” meeting hosted by the Florida Department of Health in
Orlando, FL. Approximately 60 Florida community-based organizations, service providers, and State and
local government officials attended.

                                                    

   SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Stephen Tufts provided fraud
detection training for NSP grantees meeting in Augusta, ME. Approximately 50 grantees attended.

                                                    

    SAC Timothy Mowery and HUD Office of Policy and Management Operations Specialist Jerrie Magruder
provided an overview of HUD OIG’s mission and goals and various HUD programs, including NSP, housing
counseling, and HECM; discussed the Helping Families Save Their Homes Act and ARRA; and described criminal
investigations and concerns and potential issues involving HUD funding at the Florida Attorney General’s
Economic Crimes conference held in Orlando, FL. Approximately 50 Federal and State regulatory personnel
from Florida and elsewhere attended.

                                                    

    RIGA Jim McKay and ASAC Cortez Richardson provided an overview of HUD OIG’s mission and goals;
described the functions of the Offices of Audit and Investigation and criminal activities involving HUD
programs; and explained HOME Investment Partnerships Program (HOME) audit findings, the Program Fraud
Civil Remedies Act, and concerns regarding NSP for HUD HOME and NSP grantees meeting in Atlanta, GA.
Approximately 100 State and local government representatives attended.

                                                    

    RIGA Jim McKay and SA Kyle Myles provided an overview of HUD OIG’s mission and goals; described
the functions of the Offices of Audit and Investigation, common community planning and development audit
findings and concerns, and potential criminal issues and activities associated with HUD programs; and discussed
the Program Fraud Civil Remedies Act, criminal investigations, and the HUD OIG zero tolerance stance at a
meeting held for HPRP grantees in Atlanta, GA. Approximately 300 grantees attended.

                                                    




Chapter 8 - Outreach Efforts                                                                               133
    ASACs Diane DeChellis and Michael Wixted and ARIGA Kevin Smullen provided an overview of HUD OIG’s
mission and role and described the responsibilities related to detecting and investigating fraud in community
planning and development and homelessness programs at a HUD-sponsored regional HPRP training conference
held in Boston, MA. At the conclusion, a question and answer forum was held for about 200 conference
participants.

                                                    

    ASAC Robert Anderson provided an overview of HUD OIG’s mission and goals, described the function
of the Office of Investigation and potential criminal issues and investigations, and discussed the HUD OIG
zero tolerance stance at a HUD-sponsored symposium, entitled “HUD Day 2009,” held in New Orleans, LA.
Approximately 150 faith-based grant recipients attended.

                                                    

    ARIGA Ed Schmidt and SAC Wayne North spoke at the HPRP training seminar in Seattle, WA. HPRRP is a
$1.5 billion grant program, funded with ARRA funds to assist homeless and potentially homeless persons. The
seminar was set up by HUD to disburse information to potential grantees and subgrantees and was attended
by about 150 individuals from State and local governmental agencies and nonprofit groups that specialize in
assisting homeless persons. ARIGA Schmidt and SAC North gave a brief overview of the functions of OIG and
explained OIG’s role in auditing and investigating the distribution and use of the grant funds

                                                    

    ARIGA Jacob Williams and SA Gail Keller provided an overview of HUD OIG’s mission and goals, described
the functions of the Offices of Audit and Investigation, and discussed audit findings and concerns and potential
criminal issues and activities at a HUD-sponsored Grant Writing Training seminar held in Houston, TX.
Approximately 350 individuals attended.

                                                    

   ARIGA Kevin Smullen and SAs Edward Redmond and Stephen Tufts provided an overview of HUD OIG and
described fraud detection methods at a training seminar for New Hampshire NSP grantees meeting in Concord,
NH. At the conclusion, a question and answer forum was held for approximately 50 grantees in attendance.

                                                    

    ARIGA William Nixon, Senior Auditor Lynelle Kunst, and Computer Audit Specialist (CAS) Glen Brock held
a teleconference with U.S. Government Accountability Office (GAO) staff to discuss OIG and GAO audits of
HUD’s Disaster Recovery Grant Reporting system as it relates to NSP. After the meeting, Senior Auditor Kunst
forwarded related OIG work papers to GAO.

                                                    

    SA Malinda Antonik provided a presentation, entitled “Insuring Compliance When Using HUD Funds,” and
described HUD OIG’s mission, investigations involving HUD programs, viable actions to prevent fraud, and the
fraud referral process at an NSP workshop and a meeting held for HUD community planning and development
funding recipients held in Tallahassee and Kissimmee, FL. Approximately 140 individuals representing Fannie
Mae, State and local governments, nonprofit organizations, and financial institutions attended.

                                                    




134                                                                                Chapter 8 - Outreach Efforts
    ARIGA Narcell Stamps made a presentation to attendees at a postaward workshop for SHP grantees
in Jacksonville, FL. ARIGA Stamps presented an overview of HUD OIG’s mission and role and program
vulnerabilities involving HUD community planning and development programs. At the conclusion, a question
and answer forum was held for approximately 120 nonprofit grantees.

                                                     

   At a quarterly meeting hosted by the HUD Office of Community Planning and Development (CPD) in
San Antonio, TX, Senior Auditor Mike Hall and SA Victoria Marquez met with the 19 entitlement community
development directors from the San Antonio area and discussed OIG’s initial plan for oversight of NSP and
ARRA. PIC

                                                     

    RIGA Heath Wolfe made a presentation at HUD’s Chicago Regional Office’s Financial Management Training
for Supportive Housing Program and Shelter + Care grantees conference in Springfield, IL. Discussed at the
conference were the OIG mission, role, and priorities; common audit findings regarding SHP; and the Office
of Audit’s audit process. More than 50 individuals attended.

                                                     

   SAC James Todak and ARIGA Tanya Schulze gave a presentation at CPD’s training on HPRP in Los Angeles,
CA. They provided an overview of OIG’s mission and organization and talked about common community
planning and development grant findings identified in past audits and examples of past grant fraud cases. They
emphasized the importance of establishing proper controls and exercising due diligence in administering the
grant funds. The training was attended by about 250 grantees and HUD staff.

                                                     

   RIGA Heath Wolfe and ARIGA Brent Bowen made presentations at HUD’s Chicago Regional Office’s
Financial Management Training for Supportive Housing Program and Shelter + Care grantees conference in
Chicago, IL. Discussed at the conference were the OIG mission, role, and priorities; common audit findings
regarding SHP; and the Office of Audit’s audit process. There were more than 50 individuals in attendance.

                                                     

    ARIGA Kim Randall spoke at the 2009 Region VII CPD “Spotlight on Excellence” Best Practices conference
in Kansas City, KS. She provided an overview of OIG’s audit functions and its action plan for auditing grantee
activities funded by ARRA. Approximately 75 community planning and development grantees attended.

                                                     

    RIGA Heath Wolfe and SAC Barry McLaughlin gave presentations to HUD’s NSP 2008 Formula Grant
Implementation Training grantees in Chicago, IL. The presentations consisted of an overview of HUD OIG’s
mission and goals and the functions of the Offices of Investigation and Audit. RIGA Wolfe presented information
on the Office of Audit’s plan regarding the program, common community planning and development audit
findings, and the Office of Audit’s affirmative civil enforcement initiative. SAC McLaughlin presented information
on community development grant fraud and potential criminal issues/activities associated with NSP and
provided examples of HUD OIG criminal cases involving government funds. There were approximately 200
individuals in attendance.




Chapter 8 - Outreach Efforts                                                                                  135
Law Enforcement Outreach
    ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described predatory lending,
property flipping, equity skimming, appraisal fraud, and the potential for HECM fraud at a task force meeting
sponsored by the U.S. Secret Service in Washington, DC. Approximately 60 representatives from Federal,
State, and local governmental agencies and mortgage and financial institutions attended.

                                                    

    Senior Special Agent Jeffrey Lowery provided an overview of HUD OIG’s mission and goals, described
the function of the Office of Investigation and information available through HUD databases, and discussed
schemes involving mortgage fraud and specific criminal investigations at a Maryland State Attorney’s Association
Investigators conference held in Ocean City, MD. Approximately 15 investigators and others attended.

                                                    

   SAs Amy Durso and Karen Gleich and Missouri Division of Family Services Legal and Investigations Division
SAC Karen Sweet provided an overview of fraud in Section 8 and multifamily programs at the International
Crime Free conference hosted by the Mid-America Crime Free Housing Officers Association in Kansas City,
MO. Approximately 160 law enforcement personnel and multifamily housing managers attended.

                                                    

    SA Heather Yannello provided an overview of HUD OIG’s mission and described the detection and
investigation of HUD program fraud at a “Federal Toolbox Training” seminar hosted by the New York
State Division of Criminal Justice and the Dewitt Police Department in Syracuse, NY. Approximately 120
representatives from New York State and local law enforcement agencies attended.

                                                    

    In cooperation with the National Center
for Missing and Exploited Children, SA Sharon
Soogrim and special agents from the Federal
Law Enforcement Officers Association
fingerprinted approximately 800 children
during the National Missing Children’s Day
event held at Manning Oaks Elementary
School in Alpharetta, GA.

                   

    In cooperation with the National Center
for Missing and Exploited Children, SA Stacie
Wilson and special agents from the FBI,
the Drug Enforcement Administration, and
the U.S. Secret Service fingerprinted and
photographed approximately 50 children
during the National Missing Children’s Day                    Special Agent Sharon Soogrim (back row left) poses with
event held at the YMCA in West Seneca, NY.                      crime dog “McGruff” and children from Manning Oaks
                                                                                 Elementary School in Alpharetta, GA.
                                                    



136                                                                                  Chapter 8 - Outreach Efforts
    In cooperation with the National Center for Missing and Exploited Children, SAs Toni Zavala, Wyatt Achord,
and Brian Aust assisted with fingerprinting and photographing about 44 students during the National Missing
Children’s Day event held at Walker Elementary School in Walker, LA.

                                                    

   SAs Chris Conn and Greg Moyer and special agents from other Federal agencies participated in a “Fingerprint
Your Kid Day” event held at a Kansas City T-Bones baseball game in Kansas City, KS. During this event,
special agents fingerprinted approximately 15 children, explained the importance of making fingerprints and
DNA available to law enforcement agencies, and provided about 228 fingerprint kits to parents and children.

The American Recovery and Reinvestment and Housing and Economic
Recovery Acts
   Michael Beard, Director of the Office of Audit’s Technical Oversight and Planning Division, briefed the Mid
America Intergovernmental Audit Forum at its spring conference in Kansas City, MO. He told the gathering of
Federal, State, and local auditors how ARRA will direct the audit activities of the inspectors general (IG) and
how the IGs will interact with the Recovery Act Transparency Board.

                                                    

   SAC Rene Febles provided an overview of ARRA and the Housing and Economic Recovery Act of 2008
(HERA) at a New York Mortgage Fraud working group meeting sponsored by the New York State Division of
Banking in Manhattan, NY. Approximately 25 group members attended.

                                                    

    RIGA Heath Wolfe and SAC George Dobrovic gave a presentation in conjunction with HUD’s NSP and
HOME programs’ Creating Affordable Housing, Revitalizing Neighborhoods training in Columbus, OH. The
presentation consisted of an overview of HUD OIG’s mission and goals and the functions of the Offices of
Investigation and Audit. RIGA Wolfe presented information on the above programs, common HOME audit
findings, and OIG’s affirmative civil enforcement initiatives. SAC Dobrovic presented information on community
development grant fraud, potential criminal issues/activities associated with the above programs, and OIG’s
focus on ARRA funding and provided examples of OIG criminal cases involving government funds. There
were more than 60 individuals in attendance.

                                                    

    SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Steven Tufts provided fraud
detection training for Maine’s Department of Economic and Community Development staff and Maine NSP
subgrantees meeting in Augusta, ME. The presentation also included a discussion of audit findings relative
to community planning and development programs recently funded by ARRA and HERA, such as NSP. There
were 50 individuals in attendance.

                                                    

    SAC Joseph Clarke and RIGA John Buck provided an overview of anticipated HUD OIG reviews involving
funding from ARRA at a conference held in Camden County, NJ, for grantees. The presentation consisted of
an overview of HUD OIG’s mission and goals and the functions of the Offices of Audit and Investigation. RIGA
Buck presented information on common community planning and development audit findings, concerns
about the program, and information about the Program Fraud Civil Remedies Act. SAC Clarke described the



Chapter 8 - Outreach Efforts                                                                               137
HUD OIG zero tolerance stance, presented information on potential criminal activities associated with the
program, and provided examples of HUD OIG criminal cases involving government funds. Approximately 80
grantees attended.

                                                        

    SAC George Dobrovic and RIGA Heath Wolfe provided an overview of HUD OIG’s mission, goals, and
priorities; explained the functions of the Offices of Audit and Investigation; and described HUD OIG initiatives
to address HUD funding in both ARRA and HERA at a meeting held for five congressional staff members in
Columbus, OH.

                                                        

   SAC Phyllis Robinson, RIGA Ron Hosking, and ARIGA Frederick Smith provided an overview of HUD
OIG’s mission and accomplishments and described the planned oversight of ARRA for congressional aides
and HUD personnel meeting in Denver, CO. At the conclusion, a question and answer forum was held for
approximately 72 congressional staff members and HUD personnel from Colorado, Utah, Montana, Wyoming,
and North and South Dakota.

                                                        

    SAC Rene Febles and RIGA Heath Wolfe participated in a panel discussion, along with members of the U.S.
Department of Justice and HUD, at HUD’s Office of General Counsel Field Leadership Training Conference
in Chicago, IL. RIGA Wolfe presented information on OIG’s Affirmation Civil Enforcement initiatives. SAC
Febles provided an overview of civil prosecutions involving HUD programs and HUD OIG investigations and
provided information on the planned oversight of ARRA funding. There were approximately100 individuals
in attendance.

                                                        

    RIGA Joan Hobbs, ARIGA Helen Sparks, and
Senior Auditors Fredrick Lee and Holly Swoboda
met with the Governor of Guam, the Honorable
Felix P. Camacho. The purpose of the meeting was
to discuss the audit of capital funds provided to the
Guam Housing and Urban Renewal Agency under
ARRA. The entrance conference for the audit was
held the same day at the housing agency.

                      




                                                     From left to right, Raymond Blas, Deputy Director, Guam Housing and
                                                      Urban Renewal Authority (GHURA); Holly Swoboda, Assistant Senior
                                                    Auditor, CFE, Phoenix HUD OIG, Office of Audit; Fredrick W. Lee, Senior
                                                   Auditor in Charge, San Francisco HUD OIG, Office of Audit; Helen Sparks,
                                               ARIGA, San Francisco HUD OIG, Office of Audit; Felix P. Camacho, Governor
                                               of Guam; Joan Hobbs, RIGA, Region IX HUD OIG, Office of Audit; and Benny
                                                                                       Pinaula, Executive Director, GHURA




138                                                                                       Chapter 8 - Outreach Efforts
    SAC Michael Powell and RIGA Jim McKay provided an overview of HUD OIG’s mission and goals and
described responsibilities relating to ARRA oversight at a meeting held for Georgia congressional staff in
Atlanta, GA. Approximately 25 congressional staff attended.

                                                   

    SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD OIG, described fraud indicators
in the HECM program and the civil enforcement initiative through the Office of Audit, and explained the ARRA
accountability and reporting requirements for Illinois Mortgage Banker Association members meeting in Rolling
Meadows, IL. Approximately 50 members attended.

                                                   

     RIGA Heath Wolfe and ASAC Brad Geary provided an overview of the role and responsibilities of the
Offices of Audit and Investigation; described the audit process and common audit findings, civil enforcement
initiatives, and investigative priorities; and discussed the ARRA funding involving the Public Housing Capital
Fund at the Indiana NAHRO conference held in Merrillville, IN. Approximately 75 NAHRO members attended.

                                                   

    SAC Rene Febles, ASAC Kevin Chan, and SA Heather Yannello provided an overview of ARRA and HERA
and described NSP and HUD OIG’s public housing and mortgage fraud initiatives at a New York State Public
Housing Authority Directors Association meeting held in Syracuse, NY. Approximately 40 association members
attended.

                                                   

    SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Michael Motulski, and SA Alex Rosania provided fraud
detection training and hosted a question and answer forum for Rhode Island NSP recipients meeting in
Providence, RI. The presentation also included discussion of fraud within HUD’s program and HUD-funded
programs in Rhode Island and audit findings relative to community planning and development programs
including those recently funded by ARRA and HERA, such as NSP. Approximately 50 grantees attended.

                                                   

    SAC Joseph Clarke and ARIGA David Kasperowicz provided an overview of anticipated HUD OIG reviews
involving ARRA funding at the Pennsylvania Association of Housing and Redevelopment Agencies’ conference
held in Lancaster, PA. The presentation consisted of an overview of HUD OIG’s mission and goals and the
functions of the Offices of Audit and Investigation. ARIGA Kasperowicz presented information on the Office
of Audit’s plans for auditing ARRA funds, concerns about the risk in ARRA programs, and information about
the Program Fraud Civil Remedies Act. SAC Clarke described HUD OIG’s zero tolerance stance, presented
information on potential criminal activities associated with ARRA programs, and provided examples of HUD
OIG criminal cases involving government funds. Approximately 80 grantees attended the presentation.

                                                   

   As part of OIG’ efforts to coordinate and keep abreast of audit work in Texas, RIGA Gerald Kirkland, ARIGA
William Nixon, and Senior Auditor Danita Wade held a teleconference with GAO representatives to discuss
audit work involving ARRA funds in Texas. This was the second meeting with GAO officials. Another meeting
has been tentatively scheduled for the end of July, which may include other regional IGs.

                                                   


Chapter 8 - Outreach Efforts                                                                              139
   HUD’s Region II held a Regional Directors conference in Absecon, NJ. SACs Rene Febles and Joe Clark
and RIGA Edgar Moore gave speeches on OIG’s role in investigating and auditing ARRA funds. The conference
was attended by 30 regional directors and guests.

                                                      

    SAC Barry McLaughlin and ARIGA Ron Farrell provided an overview of HUD OIG, described public housing
fraud indicators and the Public Housing Capital Fund program, and explained ARRA accountability and
reporting requirements for members of the Illinois Association of Housing Authorities meeting in Decatur, IL.
Approximately 70 members attended.

                                                      

   SACs Rene Febles and Joseph Clarke and RIGA Edgar Moore described current HUD OIG initiatives and
audits and provided an overview of anticipated HUD OIG reviews involving funding from ARRA at a conference
held for HUD program managers in Galloway Township, NJ. Approximately 20 HUD program managers from
New York and New Jersey attended.

                                                      

    RIGA Gerald Kirkland, ARIGA William Nixon, and Senior Auditor Danita Wade met with GAO representatives
in Fort Worth, TX, to discuss audit work in Texas relating to ARRA funds. OIG and GAO agreed to coordinate
audit efforts, share information, and conduct meetings and/or conference calls every few months.

                                                      

    SAC Herschell Harvell and ARIGA William Nixon explained the role of the IG and how the organization
will audit and investigate ARRA and HERA funds to approximately 130 HUD staff and grantees meeting in Fort
Worth, TX.

                                                      

    SAC George Dobrovic and RIGA Heath Wolfe provided an overview of HUD OIG’s mission, goals, and
priorities; explained the functions of the Offices of Audit and Investigation; and described HUD OIG initiatives to
address HUD funding in ARRA and HERA at the Michigan NAHRO fall conference held in Troy, MI. Approximately
60 NAHRO members and others attended.

                                                      

    RIGA Joan Hobbs and ARIGA Helen Sparks met with California State Auditor Elaine Howle and members of
her staff in Sacramento, CA. The purpose of the meeting was to discuss areas of common interest, including
audits of ARRA. The State of California and HUD OIG plan to coordinate their audits to provide the best possible
coverage of ARRA funds.

                                                      

   SAC Joseph Clarke, ASACs Jeanne Daumen and Cary Rubenstein, and ARIGA Joseph Vizer provided
an overview of HUD OIG’s anticipated monitoring efforts relating to Community Development Block Grant
recovery and other funding provided by ARRA at a training conference sponsored by HUD and the New Jersey
Community Development Association held in Lincroft, NJ. Approximately 64 community planning and
development grantees attended.

                                                      

140                                                                                  Chapter 8 - Outreach Efforts
    SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Steven Tufts made a presentation
to Maine’s Mortgage Bankers Association staff meeting in Falmouth, ME. The presentation included a discussion
of fraud within HUD’s programs, including HOME for Homeowners, HECM, and traditional FHA mortgages.
The presentation also included a discussion of audit findings relative to community planning and development
programs recently funded by ARRA and HERA, such as NSP.

                                                    

    SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Steven Tufts made a presentation
to Superintendent Lloyd LaFountain of the Maine Bureau of Financial Institutions in Gardiner ME. The
presentation included a discussion of fraud within HUD’s programs including HOME for Homeowners, HECM,
and traditional FHA mortgages.

                                                    

    RIGA Edgar Moore and ASAC Louis Mancini, Jr., provided and overview of the role and responsibilities of
the Offices of Audit and Investigation involving HPRP, funded by ARRA, at a HUD-sponsored training seminar
held in Manhattan, NY. More than 200 community planning and development grantees and others attended.

                                                    

   SAC George Dobrovic, RIGA Heath Wolfe, and ASAC Michael Catinella provided an overview of HUD OIG’s
mission, goals, and priorities; explained the functions of the Offices of Audit and Investigation; and described
HUD OIG initiatives to address HUD funding in ARRA and HERA at a meeting held for three congressional staff
members in Detroit, MI.

                                                    

    RIGA Gerald Kirkland, SAC Herschell Harvell, and ASAC Michael Wilson accompanied IG Ken Donohue,
who made a presentation in Ft. Worth, TX, to a group of representatives from nonprofit organizations located
throughout Region VI. The presentation provided an overview of the OIG organization and its roles in general
and some of its roles specifically related to HERA and ARRA.

                                                    

   RIGA Ron Hosking presented a briefing at HUD Region VII’s Management Conference in Kansas City, KS.
The conference was attended by about 40 HUD regional managers and supervisors. RIGA Hosking described
OIG’s mission, accomplishments, and action plans for the oversight of ARRA funds.

                                                    

   ARIGA Kimberly Harrison and SA Kylan Dunn provided an overview of HUD OIG’s mission and the planned
oversight involving ARRA and described the functions of the Offices of Audit and Investigation at a HUD-
sponsored regional HPRP training session held in Washington, DC. More than 200 grant recipients attended.

                                                    

   ASAC Lisa Gore conducted a seminar, entitled “Reviewing American Recovery and Reinvestment Act
Monies,” and described HUD OIG’s mission and goals; the functions of the Offices of Investigation and Audit;
and the strategies to meet delivery challenges, mitigate program risks, and oversee the distribution of funds




Chapter 8 - Outreach Efforts                                                                                141
at a convention held in Biloxi, MS, for the Alabama Association of Housing and Redevelopment Authorities.
Approximately 60 public housing authority representatives attended.

                                                   

    ARIGA David Kasperowicz participated in a teleconference with staff from the Philadelphia Office of Public
Housing and representatives from public housing authorities from the Commonwealth of Pennsylvania and
the State of Delaware. The primary purpose of the meeting was to discuss the recently issued information
and procedures for processing the ARRA capital fund formula grants. ARIGA Kasperowicz discussed the role
and responsibilities of HUD OIG in providing critical oversight of the distribution and use of these funds.

                                                   

    ASAC Lou Mancini provided an overview of HUD OIG’s mission and described mortgage fraud indicators,
public corruption, and HERA at an Appraisal Institute meeting held in Long Island, NY. More than 70 appraisers
attended.

                                                   

    ARIGA Jacob Williams, SA Victoria Marquez, FBI Supervisory SA Osvaldo Alaniz, and AUSA Bud Paulissen
briefed 19 community planning and development grantees on NSP and ARRA. The AUSA and the SAs
discussed fraud. ARIGA Williams described audits. ARIGA Williams and SA Marquez also described auditor
and investigator functions as well as NSP and ARRA to 31 San Antonio HUD program staff.

                                                   

    ARIGA William Nixon and Senior Auditor Lynelle Kunst held a teleconference with Kinney Poynter, executive
director of the National Association of State Auditors, Comptrollers, and Treasurers; representatives from the
Texas State Auditor’s Office; and the Arkansas Legislative Auditor to discuss plans to audit and evaluate the
funding for HERA and ARRA given to the States and local communities.

                                                   

    As part of HUD’s training on HOME and NSP, Senior Auditor Danita Wade and Auditor Benson Mathews
presented the Office of Audit’s perspective on ARRA to approximately 50 community planning and development
recipients and staff meeting in Fort Worth, TX.

                                                   

    Senior Auditor Beth Howard held a teleconference with Billy Swindell, the audit manager of the Oklahoma
State Auditor and Inspector’s office, to discuss plans to assess and examine the ARRA funds given to State
agencies. They discussed ways to inform each other of ARRA audits to prevent duplication of effort and share
results.

Other Outreach
   ASAC Eric Bizjak, SA David Fredrick, and seven members of the Ohio Chapter of the Federal Law
Enforcement Officers Association participated in the 2009 Law Enforcement Torch Run for Special Olympics,
an event held in Cleveland, OH, to raise money and awareness for Ohio Special Olympic athletes.

                                                   



142                                                                              Chapter 8 - Outreach Efforts
   ASAC Wallace Merriman provided an overview of Federal law enforcement careers and described HUD
OIG special agent responsibilities during career day events held at Heather Hills and Northview Elementary
Schools in Bowie, MD. Approximately 50 students, educators, and parents attended.

                                                    

   ASAC Eric Bizjak and SA Pam Forgach provided an overview of HUD OIG’s mission, role, and functions;
described special agent duties, qualifications, and training; and demonstrated electronic surveillance equipment
and handcuffing techniques for students attending career day activities at the Eastlake City School in Eastlake,
OH. Approximately 60 students attended.

                                                    

    SA Kyle Myles provided an overview of HUD OIG’s mission and described investigations and the role of
investigators for students attending a career day at Miller Grove Middle School in Decatur, GA. More than 100
students and teachers attended.

                                                    

    SAC Barry McLaughlin and ARIGA Brent Bowen gave presentations at a meeting of Region V’s field office
directors. SAC McLaughlin and ARIGA Bowen presented information on 2009 priority areas for the Offices
of Investigation and Audit. ARIGA Bowen also provided information on the audit process, various ongoing
audits being conducted in the Region, and the Office of Audit’s affirmative civil enforcement actions. There
were 15 individuals in attendance.

                                                    

    RIGA Heath Wolfe and SAC George Dobrovic made presentations at the University of Detroit Mercy’s Call to
Serve Week in Detroit, MI. They spoke to students, faculty, and alumni about the benefits of pursuing student
volunteer and full-time positions with HUD OIG, as well as OIG’s overall mission. Attendees were informed
that OIG has full-time positions available nationwide as well as student volunteer opportunities in Chicago,
IL; Columbus, OH; and Detroit, MI. More than 35 individuals attended the presentations.

                                                    

    ARIGAs Nikita Irons and Ron Farrell participated in the Kelley School of Business Career and Internship
Fair at the Indiana University-Purdue University Indianapolis, IN, campus. Approximately 35 employers
attended the career fair. ARGAS Irons and Farrell spoke with students about OIG’s mission and the benefits
of pursuing student volunteer and career positions with HUD OIG. They accepted resumes from students
interested in the student volunteer program at OIG’s Chicago, IL; Columbus, OH; and Detroit, MI, Offices of
Audit and careers with HUD OIG.

                                                    

    Senior Auditor Todd Gagon gave a presentation at the Denver Area Association of Governmental
Accountants’ annual conference in Denver, CO. The presentation was on HUD OIG’s use of Computer Assisted
Audit Tools in performing audit reviews. Auditor Gagon discussed OIG’s use of Audit Command Language
(ACL) in conducting audits of HUD’s community planning and development programs. He also discussed
OIG’s use of ACL to create relationships between HUD’s Section 8 registry and the FBI’s registered sex offender
database in an effort to locate possible registered sex offenders living in Section 8 housing. The presentation
also contained a brief discussion on ARRA funds.

                                                    

Chapter 8 - Outreach Efforts                                                                                143
    RIGA Joan Hobbs spoke about mortgage fraud at a meeting of the Western Intergovernmental Audit Forum
in Los Angeles, CA. There were 70 people in attendance.

                                                     

    Senior Auditors Sarah Pon and Todd Gagon attended a housing fair hosted by Congressmen Jared Polis and
Ed Perlmutter in Denver, CO. Entities participating in the fair included Chase, Wells Fargo, Freddie Mac, Fannie
Mae, Adams County Housing Authority, Colorado Foreclosure Hotline, and HUD. The housing fair provided
individuals the opportunity to speak with HUD-approved housing counselors and other financial professionals.
Topics discussed at the fair included understanding the foreclosure process and available options and how
ARRA can help first-time home buyers. Auditors Pon and Gagon spoke with participants concerning possible
fraud, waste, and abuse in connection with their FHA mortgages and provided them with HUD OIG hotline
contact information.

                                                     

    ARIGA Tracey Carney and Auditor Teri Smith provided an overview of HUD OIG’s mission, goals, and audit
process during HUD’s disaster recovery team’s retreat in Ocean Springs, MS. They answered questions and
provided clarification on a number subjects presented by the attendees. The retreat was held for 12 members
of HUD’s disaster recovery team.

                                                     

    SACs Joseph Clarke and Kenneth Taylor and RIGA John Buck made a presentation at the HUD Region III
managers meeting held in Shepherdstown, WV. Their presentation covered current and future case and
audit trends in OIG. They also addressed questions and concerns from approximately 30 program and field
office directors from Pennsylvania, Maryland, Delaware, Virginia, West Virginia, and the District of Columbia.

                                                     

    Supervisory Forensic Auditor Muhammad Akhtar and Senior Auditor Zakia Haneef participated in the
Loyola University Chicago Community Service and Part-Time Job Fair in Chicago, IL. They spoke with more
than 50 students, both graduates and undergraduates, about OIG’s mission and the benefits of pursuing a
career and/or student volunteer positions with HUD OIG and accepted resumes from students interested in
part-time positions with HUD OIG.

                                                     

    ARIGA Carrie Gray and Auditor Tina Venker participated in the University of Missouri-St. Louis fall internship
and job fair in St. Louis, MO. They spoke with interested students about HUD OIG’s mission and the benefits
of pursuing a career with HUD OIG and accepted resumes from students interested in the student volunteer
program and careers with HUD OIG.

                                                     

   Senior Auditor Christy Thomas attended the School of Business Career Fair at the University of Kansas in
Lawrence, KS, and provided an overview of HUD OIG operations to participating students. Nearly 90 employers
and more than 300 students participated in the fair.

                                                     




144                                                                                 Chapter 8 - Outreach Efforts
   CAS Glenn Brock participated in the Missouri Society of Certified Public Accountants’ “Kansas City Chapter
Career Night” held in Kansas City, MO. CAS Brock discussed OIG’s mission and career opportunities with
more than 75 students (representing 23 colleges and universities) and accounting professionals in attendance.
He provided accounting students with information related to current auditor and investigator positions within
OIG and a synopsis of OIG’s function as an audit organization within HUD.

                                                   




Chapter 8 - Outreach Efforts                                                                             145
    Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of
the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this 6-month
reporting period, OIG reviewed 154 issuances. This chapter highlights some of OIG’s prior comments on
notices, comments for this reporting period, and other policy directives.

Enacted Legislation
Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress and the
President approved the Housing and Economic Recovery Act of 2008 (HERA) and the American Recovery and
Reinvestment Act of 2009 (ARRA). This legislation contained significant new funding and programs for HUD.
Specifically, the Neighborhood Stabilization Program (NSP) was created under HERA and provided an initial
$3.92 billion in funding to State and local governments for the redevelopment of abandoned and foreclosed-
upon homes and residential properties.

ARRA provided an additional $13.61 billion to existing programs, including an additional $2 billion for NSP.

These programs and their related rules create new challenges and risks for the Department. OIG plans to
closely monitor proposed guidance and regulations and work in cooperation with the Department on this
new funding. To that end, OIG has reviewed and provided comments on the draft and final front-end risk
assessments for these programs. The Department incorporated OIG’s suggestions into its final risk assessments,
and OIG concluded that the assessments met Office of Management and Budget requirements.

In addition, OIG reviewed 16 clearance items specifically related to HERA and ARRA. The most notable
clearance items were the notices of fund availability for the competitive ARRA funding.

OIG also participated in a number of meetings with HUD officials regarding these additional funds and the
programmatic risks of the activities. OIG continues to express concerns about the capacity of many of the
grantees. OIG expressed its concerns in its review comments to clearance items and directly to HUD officials.

In addition, the Helping Families Save Their Homes Act of 2009 provided the Mortgagee Review Board (MRB)
with additional authority to sanction lenders and the principals and staff of the lenders. OIG is encouraged
by the increased authority and is monitoring the MRB’s actions, given the increased authority.

In September, the Federal Housing Commissioner proposed a number of risk management initiatives related to
HUD’s single-family programs. As part of the issuances reviewed, OIG provided comments on the preliminary
rules. Many of the proposed changes required rule making. Therefore, OIG is awaiting publication of the
proposed rules in the Federal Register and subsequent submission of the final rules in the clearance process.
OIG will continue to monitor and review proposed changes related to the Federal Housing Administration.

Proposed Rules
   OIG objected to a number of HUD proposed rules. Working cooperatively with the Department, OIG
was able to resolve all but one of its objections. OIG continues to work corporately with HUD to resolve the
remaining issue

                                                   




148                                                                   Chapter 9 - Reviews of Policy Directives
    In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
Urban Development (HUD) management agree upon the needed actions and timeframes for resolving audit
recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
and operations. The overall responsibility for ensuring that the agreed-upon changes are implemented rests
with HUD managers. This chapter describes significant management decisions with which OIG disagrees. It
also contains a status report on HUD’s implementation of the Federal Financial Management Improvement
Act of 1996 (FFMIA). In addition to this chapter on audit resolution, see appendix 2, table B, “Significant Audit
Reports Described in Previous Semiannual Reports in Which Final Action Had Not Been Completed as of
September 30, 2009.”

Audit Reports Issued before the Start of the Period with No Management
Decision as of September 30, 2009
There are no reports issued before the beginning of the reporting period that currently do not have a
management decision as of September 30, 2009.

Significantly Revised Management Decisions
Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information concerning
the reasons for any significant revised management decisions made during the reporting period. During the
current reporting period, there were significant revised management decisions on six audits.

Uvalde Housing Authority – Uvalde, TX

    Issue Date: December 18, 2000. As requested by the Office of Public Housing, HUD OIG audited the
Section 8 and Low Rent programs of the Uvalde Housing Authority. OIG’s objectives were to (1) identify
the purposes for which the Authority used unearned Section 8 administrative fees; (2) determine whether
the Authority complied with its annual contributions contracts in the use of certain Section 8 and Low Rent
funds; (3) determine whether the Authority used its Low Rent or Comprehensive Improvement Assistance
program funds for other purposes; and (4) determine whether the Authority duplicated payments of certain
travel or other administrative expenses in the Section 8, Low Rent, Comprehensive Improvement Assistance,
or HOME Investment Partnerships programs that may have been paid by the Authority’s affiliate, the Uvalde
Housing Development Corporation.

    The Authority’s former executive director ignored HUD’s instructions and used nearly $564,000 in HUD
program funds to pay for excessive administrative expenses and questionable costs not directly related to
the HUD programs. He violated provisions of the annual contributions contracts by spending Section 8 funds
requisitioned from HUD but not earned and Low Rent funds for non-Low Rent purposes. He manipulated
the requisitioning process of the Section 8 programs. From July 1992 through November 1999, the Authority
incurred nearly $376,000 in excessive administrative expenses in the Section 8 programs and more than
$188,000 in questionable expenses in the Low Rent program. Also, because the former executive director
arranged to receive a rent-free apartment from the affiliate, a conflict of interest appeared to be evident.
The Authority reimbursed more than $224,000 to the Section 8 and Low Rent programs but still owed HUD
nearly $263,000 in unearned Section 8 funds and nearly $77,000 to the Low Rent program for excessive
administrative expenses and questionable costs on the date of the report.

    OIG made several recommendations to HUD’s Office of Public Housing, including (1) require the Authority
to repay HUD nearly $263,000 from non-Federal funds for the Section 8 funds it overrequisitioned and spent
(recommendation 1A); (2) require the Authority to recover more than $49,000 from the Uvalde Housing
Development Corporation for expenses paid on its behalf and reimburse more than $44,000 to the Section




150                                                                               Chapter 10 - Audit Resolution
8 account and nearly $5,000 to the Low Rent account (recommendation 1B); (3) require the Authority to
repay the Low Rent program nearly $59,000 from non-Federal funds for ineligible transfers that had not been
reimbursed by the Section 8 program (recommendation 1C); and (4) require the Authority to provide support
for more than $13,000 in unsupported costs charged to the Low Rent program or repay it from non-Federal
funds (recommendation 1D). There were other recommendations, but they were not affected by the revised
management decisions below.

    HUD and OIG agreed on the original management decisions in April 2001. On September 11, 2009, OIG
agreed with HUD’s request to revise the management decisions for recommendations 1B, 1C, and 1D to
adjust repayment dates. The revised management decision for recommendation 1B allows the Authority to
repay its Low Rent account nearly $5,000 before repaying its Section 8 account nearly $263,000 as required by
the management decision for recommendation 1A. The other revisions allow the Authority to combine the
questioned costs of nearly $59,000 and more than $13,000 in recommendations 1C and 1D, respectively, and
place the combined $72,000 under a 10-year repayment agreement with the first payment on November 30,
2009, and the final payment on November 30, 2019. (Audit Report 2001-FW-1003)

Vesta Corporation Insured Multifamily Projects - Moosup Gardens, Mohegan Commons, and
Windham Heights - Connecticut

    Issue Dates: July 25, 2007; February 4, 2008; and February 5, 2008. HUD OIG audited the HUD-insured
multifamily projects in response to a request from HUD. OIG’s audit objective was to determine whether the
projects’ costs were accurately reported to HUD and in accordance with the regulatory agreement and HUD’s
requirements. OIG identified questioned costs and opportunities for funds to be put to better use totaling
more than $3.6 million. These cost exceptions were due to weak internal controls, lack of policies for related
company transactions, and inadequate accounting procedures. As a result, the owners (1) repaid advances
when the project was in a non-surplus-cash position, charged ineligible costs, and did not adequately support
payments to their related company; (2) paid their related company unreasonable and unsupported relocation
services costs when the project was in a non-surplus-cash position; and (3) included unreasonable and
unsupported expenses in their HUD-insured mortgage cost certifications.

    OIG recommended that the Director of HUD’s Boston Office of Multifamily Housing require the owners
to (1) repay the projects for ineligible use of operating funds while the project was in a non-surplus-cash
position and pay down the project’s mortgage for ineligible and unsupported development costs, (2) repay
the projects for unreasonable and unsupported relocation costs, and (3) make principal payments to pay
down the projects’ mortgages for unreasonable relocation costs and provide support for or make principal
payments to pay down the projects’ mortgages for unsupported operations expenses included in the mortgage
amounts HUD insured. Further, OIG recommended that HUD’s Departmental Enforcement Center pursue
administrative sanctions as appropriate against the responsible parties for the unreasonable and unsupported
disbursements cited in the reports.

    HUD agreed with the recommendations. However, the auditee obtained legal representation and
challenged some of the findings. In addition, the auditee was ultimately able to provide supporting
documentation for some of the questioned costs. HUD legal counsel and the auditee’s legal counsel entered
into settlement discussions and negotiated an agreement whereby the auditee agreed to repay the projects
a total of $1 million from nonproject funds, write off outstanding payables to its related companies, and
remove capitalized relocation services costs from its books. In addition, the Departmental Enforcement
Center required the auditee to pay $228,000 in administrative fees. As a result of these settlements, a revised
management agreement was necessary, and HUD OIG agreed to the revised decision on August 1, 2009.
(Audit Reports: 2007-BO-1006, 2008-BO-1004, and 2008-BO-1005)




Chapter 10 - Audit Resolution                                                                              151
Community Development Corporation of Brownsville, Brownsville, TX

   Issue Date: December 18, 2007. HUD OIG audited the Community Development Corporation of
Brownsville, Inc. (Corporation), at the request of the HUD San Antonio Director of Community Planning and
Development. OIG’s objective was to determine whether the Corporation correctly charged administrative
costs to its various Federal funding sources. OIG expanded its objective to also determine whether the
Corporation used housing counseling grant funds to qualify mortgage applicants instead of counseling
potential home buyers.

     OIG found that the Corporation incorrectly used part of its housing counseling grant funds for qualifying
mortgage applicants. This problem occurred because the Corporation had a prohibited conflict of interest as
it provided housing counseling, mortgage qualifying, and underwriting services. As a result, it charged more
than $177,000 in ineligible salaries and nearly $81,000 in unsupported fringe benefits to its grants. In addition,
the Corporation did not allocate general administrative costs in proportion to the relative benefits received by
the various funding sources or awards, which resulted in unsupported costs of more than $391,000. Further, it
could not support a more than $472,000 increase in its building acquisition cost or the $66,000 value assigned
to the land because it did not follow Federal requirements and generally accepted accounting principles. As a
result, it may have overcharged its Federal funding sources or awards by as much as $67,000 for depreciation.

    OIG’s recommendations included requiring the Corporation to (1) resolve its conflict of interest, (2) repay
to HUD more than $177,000 in ineligible salaries and support or repay nearly $81,000 in fringe benefits, (3)
develop a cost allocation plan for HUD approval that allocates general administrative expenses relative to the
benefits received by its funding sources or awards, (4) reallocate more than $391,000 in general administrative
expenses in accordance with the cost allocation plan, (5) obtain an appraisal that values the building and
land separately as of the date it purchased the building, and (6) reallocate the correct depreciation.

    In April, HUD and OIG reached agreed-upon management decisions on all recommendations. After
working with the Corporation and OIG, HUD requested to revise recommendations 2A, 2B, and 2C to allow
HUD to use an estimated cost allocation method of determining the amount of overcharges as HUD had
determined that the cost allocation plan submitted by the Corporation was not acceptable. Based on the
estimated amount, the Corporation owed HUD programs nearly $274,000, which was repaid in February 2009,
and more than $46,000 to other non-HUD grants. HUD also indicated that the Corporation had submitted a
cost allocation plan to the U.S. Department of Health and Human Services (the Corporation’s Cost Allocation
Branch) for approval. In June 2009, OIG agreed to the revised management decisions. (Audit Report: 2008-
FW-1004)

Indianapolis Housing Agency - Indianapolis, IN

    Issue Date: April 15, 2008. As part of OIG’s strategic plan objective to assist HUD’s efforts to reduce
rental assistance overpayments, HUD OIG audited the Section 8 Housing Choice Voucher program at the
Indianapolis Housing Agency in Indianapolis, IN, and found that the Agency’s program administration
regarding housing unit conditions, housing assistance payment calculations, and adequate documentation
to support the calculation of households’ housing assistance payments was inadequate. Of the 65 housing
units inspected, 52 did not meet HUD’s housing quality standards and the Health and Hospital Corporation of
Marion County, IN’s (Corporation) housing standards, and 38 had 402 violations that existed at the time of the
Agency’s previous inspections.

   The Agency also failed to properly calculate housing assistance payments, ensure that its household files
contained required documentation to support its payment of housing assistance, and consistently use HUD’s
Enterprise Income Verification (EIV) system. Of the 67 files reviewed, the Agency incorrectly calculated
housing assistance payments for 63 (94 percent), and 59 files (88 percent) did not contain the documentation
required by HUD and/or the Agency’s program administrative plan. The Agency overpaid more than $131,000



152                                                                                Chapter 10 - Audit Resolution
and underpaid more than $13,000 in housing assistance and utility allowances and was unable to support
more than $587,000 in housing assistance and utility allowance payments. Further, it did not adequately use
HUD’s EIV system to determine that its reported zero-income households had reported income, resulting in
more than $47,000 in improper housing assistance payments.

    OIG recommended that HUD require the Agency to (recommendations 1A, 2A, 2C, and 3A) reimburse
its program from non-Federal funds for the improper use of more than $291,000 in program funds and
(recommendation 2D) provide documentation or reimburse its program more than $587,000 from non-
Federal funds for the unsupported housing assistance payments.

    HUD agreed with the recommendations in August 2008. The original management decisions required the
Agency to reimburse its program using multiple sources of non-Federal funds as well as in-kind services over
a 2-year period. The majority of the repayments were to be completed by August 31, 2009, with an additional
repayment due in August 2010. HUD became aware of a pending personnel change at the Agency involving
the individual responsible for ensuring that the action plan was completed. HUD requested a revision of the
management decisions on September 24, 2009, so a formal repayment agreement from non-Federal funds
could be executed with the Agency by December 31, 2009. OIG agreed to revise the management decisions
on September 26, 2009. (Audit Report: 2008-CH-1006)

Significant Management Decision with Which OIG Disagrees
   There are no reports in which OIG disagrees with the significant management decision.

Federal Financial Management Improvement Act of 1996
  In fiscal year 2009, HUD did not substantially comply with FFMIA. In this regard, HUD’s financial
management systems did not substantially comply with Federal financial management system requirements.

   During fiscal year 2009, HUD made limited progress in bringing the financial management systems into
compliance with FFMIA. HUD’s financial management systems continued to not meet current requirements.
HUD’s systems were not operated in an integrated fashion and linked electronically to efficiently and effectively
provide agency-wide financial system support necessary to carry out the agency’s mission and support the
agency’s financial management needs.

    HUD’s financial systems, many of which were developed and implemented before the issue date of
current standards, were not designed to provide the range of financial and performance data currently
required. HUD is in the process of modernizing its financial management systems by developing an integrated
financial management system. The modernization development, HUD’s Integrated Financial Improvement
Project (HIFMIP), was launched in fiscal year 2003 but has been plagued by delays. Originally planned for
implementation in 2006, HIFMIP is now slated to be fully integrated in fiscal year 2015.

    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when an
agency has not met the intermediate target dates established in its mediation plan required by FFMIA. At the
end of 2009, the Department reported that 2 of its 40 financial management systems were not in substantial
compliance with FFMIA. These two systems are the HUD Procurement System and Small Purchase System.
The Department plans to acquire a new application, which will bring these systems into compliance with
FFMIA. The acquisition of the new application is anticipated to be complete by June 30, 2010. However, full
funding to complete the project has not been obtained; therefore, it is unclear when the new application will
be fully implemented. Although 38 individual systems had been certified as compliant with Federal financial
management systems requirements, HUD had not performed independent reviews on all of its financial
management systems within the 3-year period required by Office of Management and Budget (OMB) Circular
A-127. Collectively and in the aggregate, deficiencies continued to exist.


Chapter 10 - Audit Resolution                                                                                153
   In addition, OIG audit reports have disclosed that security of financial information was not provided in
accordance with OMB Circular A-130, Management of Federal Information Resources, appendix III, and the
Federal Information Security Management Act.

Corrective Action Verification
    Once final action has taken place and an audit is considered closed, OIG will evaluate the effectiveness
of the corrective action taken by conducting periodic audits and corrective action verifications on selected
recommendations. These reviews are performed to ensure that final action has been completed in
accordance with the management decision and that this action has corrected the problems disclosed. During
this semiannual period, HUD OIG conducted two corrective action verification reviews.

                                                  

    HUD OIG performed a corrective action verification of HUD’s actions in implementing recommendation
1F from its audit of the mixed finance development activities of the Housing Authority of Maricopa County,
Phoenix, AZ (Rose Terrace and Maricopa Revitalization), Audit Report 2005-LA-1002, issued March 14, 2005.
The recommendation required the Authority to prepare and submit to HUD for approval the appropriate
amendments to its Declaration of Trust for the units included in the projects.

    The purpose of the corrective action verification was to determine whether HUD officials appropriately
closed audit recommendation 1F in accordance with the management decision, dated July 12, 2005.

    HUD officials closed recommendation 1F despite concerns by HUD’s Office of General Counsel that the
recorded status of the declaration posed a significant risk to HUD. If HUD program officials determined
that it was appropriate to grant retroactive approval in this manner, they should have requested a revised
management decision to reflect the conditions of HUD’s retroactive approval.

   Based on the results of the review, OIG reopened recommendation 1F from Audit Report 2005-LA-1002.
(Audit Report: 2009-LA-0801)

                                                  

   HUD OIG completed a corrective action verification of HUD’s actions in implementing portions of Audit
Memorandum 98-AO-219-1804, issued September 24, 1998, Upfront Grant for Ridgecrest Heights Apartments,
CEMI-Ridgecrest, Inc. The objective of this corrective action verification review was to determine whether
HUD ensured the repayment of excess proceeds from the sale of townhomes located at Ridgecrest Heights
Apartments in Washington, DC.

    HUD failed to adequately follow the procedures it agreed to in its closeout memorandum with OIG.
Since HUD did not ensure that the grantee submitted the proper documentation to ensure repayment of
the sales proceeds, OIG estimated a preliminary amount of excess sales proceeds due to HUD to be more
than $780,000, subject to additional verification. HUD needs to verify the amount of the sales proceeds and
determine whether any funds remain in the project’s trust fund and then ensure that those funds are returned
to HUD as required by the grant agreement.

   OIG recommended that HUD verify the final amount of sales proceeds, determine whether any amounts
should be returned to HUD, and ensure that such amounts are repaid to HUD under the terms of the grant
agreement. OIG also recommended that, after 10 years from the date of final development has expired, HUD
determine whether any funds remain in the project’s trust fund and ensure that such amounts are repaid to
HUD under the terms of the grant agreement. (Audit Report: 2009-PH-0801)

                                                  

154                                                                           Chapter 10 - Audit Resolution
Internal Reports
33 Audit Reports
Administration (1 Report)
2009-FO-0004		        Review of HUD’s Internal Controls over Processing of Personnel Actions, 04/15/2009.
Chief Financial Officer (2 Reports)
2009-CH-0001		        HUD Complied with the OMB’s Competitive Sourcing Requirements Governing Its 	
			                   Management of Human Capital, 05/22/2009.
2009-FO-0006		        Review of American Recovery and Reinvestment Act Formula Allocations, 09/25/2009.
Chief Information Officer (4 Reports)
2009-DP-0004		        FY 2008 Review of Information Systems Controls in Support of the Financial Statements 	
			                   Audit, 05/29/2009.
2009-DP-0005		        Review of Implementation of Security Controls over HUD’s Business Partners, 06/11/2009.
2009-DP-0006		        Review of HUD’s Web Application Systems, 09/29/2009.
2009-DP-0008		        Review of Recovery Act Management and Reporting System (RAMPS), 09/30/2009.
Community Planning and Development (5 Reports)
2009-AT-0001		        HUD Lacked Adequate Controls to Ensure the Timely Commitment and Expenditure 	
			                   of HOME funds, 09/28/2009. Questioned: $11,634,558; Unsupported: $11,634,558; Better 	
			                   Use: $62,201,487.
2009-CH-0002		        The Office of Affordable Housing Programs’ Oversight of HOME Investment 		
			                   Partnerships Program Income Was Inadequate, 08/28/2009. Better Use: $39,611,376.
2009-DP-0007		        Review of Selected Controls within the Disaster Recovery Grant Reporting System, 	
			                   09/30/2009.
2009-FW-0001		        HUD’s Disaster Recovery Grant Reporting System Can Collect the Basic Information 	
			                   Needed to Monitor the Neighborhood Stabilization Program, 06/25/2009.
2009-PH-0002		        The Philadelphia, PA, and Baltimore, MD, CPD Offices Did Not Adequately Document 	
			                   Their Monitoring of CDBG Program Grantees, 07/09/2009.
Government National Mortgage Association (1 Report)
2009-FO-0005		        Mortgage-Backed Securities Program Document Review, 04/30/2009.
Housing (5 Reports)
2009-CH-0003		        HUD’s Oversight of FHA Lenders Underwriting of Home Equity Conversion Mortgages 	
			                   Was Generally Adequate, 09/30/2009. Questioned: $49,686; Unsupported: $37,294.
2009-KC-0002		        HUD’s Office of Multifamily Housing Needs a Uniform Process to Ensure That 		
			                   Commercial Rent Rates Are Comparable to Market Rate Rents, 09/25/2009.
2009-NY-0002		        HUD’s Administration of the Asset Control Area Program Needs Improvement, 		
			                   09/01/2009.
2009-SE-0003		        HUD’s Monitoring of the Performance-Based Contract Administrators Was 		
			                   Inadequate, 09/01/2009.
2009-SE-0004		        Controls over FHA’s Single-Family Lender Approval Process Need Improvement, 		
			                   09/30/2009.




156                                                                        Appendix 1 - Audit Reports Issued
Public and Indian Housing (3 Reports)
2009-AO-0003		            HUD Could Not Demonstrate That Its Receivership Improved the Housing Authority of 	
			                       New Orleans’ Performance, 04/08/2009.
2009-KC-0001		            HUD Subsidized an Estimated 2,094 to 3,046 Households That Included Lifetime 		
			                       Registered Sex Offenders, 08/14/2009. Better Use: $12,564,000.
2009-LA-0001		            HUD Phoenix Field Office’s Procedures for Monitoring the Nogales Housing Authority 	
			                       Were Not Adequate, 07/13/2009. Questioned: $269,771; Unsupported: $93,578.

Audit-Related Memorandums1
Chief Financial Officer (7 Reports)
2009-AT-0801		            Evaluation of the Front-End Risk Assessment for the Neighborhood Stabilization 		
			                       Program 2, 09/24/2009.
2009-BO-0801		            Evaluation of the Final Front-End Risk Analysis for the Homelessness Prevention and 	
			                       Rapid Re-Housing Program, 08/17/2009.
2009-CH-0801		            Evaluation of the Final Front-End Risk Assessment of the Green Retrofit Program for 	
			                       Multifamily Housing, 09/14/2009.
2009-FW-0802		            Evaluation of the Front-End Risk Assessment for the CDBG Recovery Program, 		
			                       09/24/2009.
2009-HA-0801		            Evaluation of the Final-Front End Risk Assessment for the Office of Healthy Homes 	
			                       and Lead Hazard Control, 09/28/2009.
2009-NY-0803		            Front End Risk Assessments for the American Recovery and Reinvestment Act Capital 	
			                       Fund Program for Formula and Competitive Grants, 09/30/2009.
2009-PH-0802		            Evaluation of the Final Front-End Risk Assessment for the Tax Credit Assistance 		
			                       Program, 09/23/2009.
Housing (1 Report)
2009-PH-0801		            Corrective Action Verification Review, Upfront Grant for Ridgecrest Heights 		
			                       Apartments, CEMI-Ridgecrest, Inc., Washington, DC, Audit Memorandum 		
			                       98-AO-219-1804, 06/19/2009. Questioned: $780,326.
Public and Indian Housing (4 Reports)
2009-FW-0801		            Tenant Confirmation for Disaster Housing Assistance Program for March and April 	
			                       2009, 05/28/2009. Questioned: $9,478.
2009-LA-0801		            Corrective Action Verification, Housing Authority of Maricopa County - Mixed Finance 	
			                       Development Activities, Phoenix, AZ, Audit Report 2005-LA-1002, 06/16/2009.
2009-LA-0802		            HUD Lacks Adequate Oversight to Require Public Housing Agencies to Separately 	
			                       Account for Unrestricted and Restricted Section 8 Program Administrative Fees, 		
			                       08/07/2009.
2009-NY-0802		            Significant Flaws Identified at the Lackawanna Municipal Housing Authority may 	
			                       affect its Capacity to Administer American Recovery and Reinvestment Act Funds, 	
			                       07/24/2009.



1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.



Appendix 1 - Audit Reports Issued                                                                                          157
External Reports
97 Audit Reports
Community Planning and Development (27 Reports)
2009-AO-1001		     State of Louisiana, Road Home Program, Did Not Ensure That Road Home Employees 	
			                Were Eligible to Receive Additional Compensation Grants, Baton Rouge, LA, 		
			                05/05/2009. Questioned: $228,930.
2009-AO-1002		     State of Louisiana, Road Home Program, Did Not Ensure That Multiple Disbursements 	
			                to a Single Damaged Residence Address Were Eligible, Baton Rouge, LA, 05/05/2009. 	
			                Questioned: $735,087; Unsupported: $441,027.
2009-AO-1003		     Louisiana Land Trust, As the State of Louisiana’s Subrecipient, Did Not Always Ensure 	
			                That Properties Were Properly Maintained, Baton Rouge, LA, 09/23/2009.
2009-AT-1005		     The City of Augusta, GA, Did Not Comply with HOME Monitoring Requirements, 		
			                04/01/2009. Questioned: $105,049; Unsupported: $105,049.
2009-AT-1008		     Miami-Dade County Did Not Properly Administer Its CDBG Program, Miami, FL, 		
			                06/19/2009. Questioned: $4,728,807; Unsupported: $4,011,484; Better Use: $291,758.
2009-AT-1011		     The City of Miami Did Not Properly Administer Its CDBG Program, Miami, FL, 		
			                08/18/2009. Questioned: $5,112,415; Unsupported: $5,112,415.
2009-AT-1012		     The Municipality of Río Grande Needs to Improve Administration of Its CDBG Program 	
			                and Its Recovery Act Funds, Rio Grande, PR, 09/25/2009. Questioned: $1,399,549; 	
			                Unsupported: $1,379,241.
2009-AT-1013		     The City of Atlanta Entered Incorrect Commitments into HUD’s Integrated 		
			                Disbursement and Information System for its HOME Program, Atlanta, GA, 09/28/2009. 	
			                Better Use: $3,936,365.
2009-BO-1008		     The Office of Community Development, City of Holyoke, Did Not Award HOME Set-	
			                Aside Funds to a Qualified Community Housing Development Organization, Holyoke, 	
			                MA, 05/14/2009. Questioned: $1,768,071; Better Use: $500,754.
2009-BO-1011		     The City of Boston’s Department of Neighborhood Development in Boston, MA, 		
			                Did Not Administer Its HOME Program in Compliance with HUD Requirements, 		
			                08/19/2009. Questioned: $10,254,827; Unsupported: $7,627,895; Better Use: $4,936,952.
2009-CH-1008		     The City of East Cleveland Did Not Adequately Manage Its HOME Investment 		
			                Partnerships and CDBG Programs, East Cleveland, OH, 05/11/2009. Questioned: 		
			                $611,798; Unsupported: $448,559; Better Use: $55,893.
2009-CH-1020		     The City of Flint Lacked Adequate Controls over Its Commitment and Disbursement 	
			                of HOME Investment Partnerships Program Funds, Flint, MI, 09/30/2009. Questioned: 	
			                $640,122; Unsupported: $140,673; Better Use: $1,714,357.
2009-DE-1004		     The City of Thornton Did Not Sufficiently Document That Its CDBG Projects Met a 	
			                National Objective, Thornton, CO, 08/14/2009.
2009-DE-1005		     Adams County Did Not Have Adequate Controls over Its Block Grant Funds, 		
			                Westminster, CO, 09/17/2009. Questioned: $3,168,141; Unsupported: $1,605,407.
2009-FW-1009		     Tarrant County Generally Administered Its Home Investment Partnerships Program 	
			                Grants in Accordance with Requirements, Fort Worth, TX, 06/09/2009. Questioned: 	
			                $2,066; Unsupported: $119.
2009-FW-1011		     The City of Houston Did Not Adequately Monitor Its HOPWA Project Sponsors, 		
			                Houston, TX, 06/26/2009.



158                                                                     Appendix 1 - Audit Reports Issued
2009-FW-1016		       The Texas Department of Housing and Community Affair’s Disaster Recovery Action 	
			                  Plan Needs Improvement, Austin, TX, 09/30/2009. Better Use: $60,235,000.
2009-KC-1006		       The City of Kansas City Did Not Comply with the Home Investment Partnerships 		
			                  Program Regulations, Kansas City, KS, 06/29/2009. Questioned: $289,492; 			
			                  Unsupported: $271,975.
2009-KC-1008		       Grace Hill Used Neighborhood Initiative Grant Funds to Pay Unsupported Payroll 	
			                  Expenses and Duplicated Computer Support Costs, St. Louis, MO, 07/24/2009. 		
			                  Questioned: $3,424,933; Unsupported: $3,228,243.
2009-LA-1011		       City of Los Angeles Housing Department Did Not Ensure That the Buckingham 		
			                  Place Project Met HOME Program Requirements, Los Angeles, CA, 07/01/2009. 		
			                  Questioned: $8,500,000; Unsupported: $8,500,000.
2009-LA-1013		       City of Oakland Did Not Always Administer Its HOME Investment Partnerships 		
			                  Program in Accordance with Federal Requirements and Its Own Policies and 		
			                  Procedures, Oakland, CA, 07/24/2009. Questioned: $404,316; Unsupported: $118,213.
2009-LA-1015		       Washoe County HOME Consortium Neighborhood Stabilization Program, Reno, NV, 	
			                  08/17/2009.
2009-LA-1016		       State of California’s Department of Housing and Community Development Review of 	
			                  the Allocation Formula for the Neighborhood Stabilization Program, Sacramento, CA, 	
			                  08/21/2009.
2009-LA-1017		       The Los Angeles County Community Development Commission Had Sufficient 		
			                  Capacity and the Necessary Controls to Administer Its Neighborhood Stabilization 	
			                  Program, Los Angeles, CA, 09/02/2009.
2009-NY-1010		       The Union County Consortium Had Administrative Weaknesses in Its CDBG Program, 	
			                  Elizabeth, NJ, 05/15/2009. Questioned: $495,644; Unsupported: $463,793; Better Use: 	
			                  $1,136,141.
2009-NY-1012		       The City of Rome Did Not Administer Its Economic Development Activity in 		
			                  Accordance with HUD Requirements, Rome, NY, 05/20/2009. Questioned: $2,953,754; 	
			                  Unsupported: $2,953,754.
2009-NY-1013		       Lower Manhattan Development Corporation Administered Disaster Recovery 		
			                  Assistance Funds in Accordance with HUD Regulations, New York, NY, 05/27/2009. 	
			                  Questioned: $519,561; Unsupported: $508,361; Better Use: $19,643.
Housing (17 Reports)
2009-BO-1007		       GMAC Mortgage Allowed Borrowers to Receive Cash Back In Excess of Their Cash 	
			                  Investment at Closing on FHA Loans with Secondary Financing from the Connecticut 	
			                  Housing Finance Authority, Fort Washington, PA, 04/30/2009. Questioned: $1,471.
2009-BO-1009		       Casa Otonal Multifamily Housing Project Was Not Properly Managed in Accordance 	
			                  with HUD Regulations, New Haven, CT, 08/04/2009. Questioned: $265,350; 		
			                  Unsupported: $8,748.
2009-BO-1012		       James B. Nutter and Company Complied with HUD’s Regulations, Procedures, and 	
			                  Instructions for the Underwriting and Closing of FHA-Insured HECM Loans Originated 	
			                  by First Call Mortgage Company, Kansas City, MO, 09/29/2009.
2009-CH-1021		       Custom Closing Services, Incorporated, Did Not Always Comply with Its Contract 	
			                  When Closing Sales of HUD Real Estate-Owned Properties, Farmington Hills, MI, 		
			                  09/30/2009.




Appendix 1 - Audit Reports Issued                                                                       159
2009-DE-1003		     Security National Mortgage Company Did Not Follow HUD Requirements in 		
			                Underwriting Insured Loans and Did Not Follow Quality Control Requirements, 		
			                Murray, UT, 04/28/2009. Better Use: $92,693.
2009-FW-1010		     Harry Mortgage Company Overstated the Financial Wherewithal of the Owner and 	
			                General Contractor and Overestimated the Qualifications of the General Contractor 	
			                When Underwriting the Cypress Ridge Apartments’ $5.87 Million Loan under the 	
			                Multifamily Accelerated Processing Program, Oklahoma City, OK, 06/26/2009. 		
			                Questioned: $3,759,333.
2009-FW-1012		     Financial Freedom Senior Funding Corporation Did Not Fully Follow HUD’s Reverse 	
			                Mortgage Requirements for Loans in the San Antonio, Texas Area, Irvine, CA, 		
			                07/14/2009. Questioned: $756,000; Unsupported: $382,500; Better Use: $230,693.
2009-FW-1013		     Bank of America Needs to Improve Its Compliance with HUD Requirements, Seattle, 	
			                WA, 07/29/2009.
2009-FW-1014		     Cypress Ridge Apartments Owner’s Agent Received and Paid More Than $742,000 	
			                Contrary to HUD and Regulatory Requirements, Oklahoma City, OK, 07/30/2009. 		
			                Questioned: $742,407; Unsupported: $742,407.
2009-KC-1007		     Midwest Mortgage Capital Did Not Adequately Underwrite Seven Loans and 		
			                Inadequately Performed Quality Control Reviews, St. Louis, MO, 07/08/2009. Better 	
			                Use: $478,918.
2009-KC-1009		     Milestone Management Systems Inc.’s Management Controls for Managing 		
			                Multifamily Properties Were Not Adequate, Topeka, KS, 08/05/2009. Questioned: 		
			                $7,359.
2009-LA-1018		     DHI Mortgage Company, LTD’s Scottsdale and Tucson, AZ Branches Did Not Always 	
			                Follow FHA-Insured Loan Underwriting and Quality Control Requirements, 		
			                09/10/2009. Better Use: $16,384,123.
2009-LA-1019		     The Owner of Park Lee Apartments Violated Its Regulatory Agreement with HUD, 	
			                Phoenix, AZ, 09/15/2009. Questioned: $512,562; Unsupported: $15,063.
2009-PH-1008		     The City of Reading Generally Administered Its Asset Control Area Program in 		
			                Compliance with HUD Requirements, Reading, PA, 05/29/2009.
2009-PH-1010		     J.P. Morgan Chase Bank Generally Complied with HUD’s Origination and Quality 		
			                Control Requirements for FHA-Insured Single-Family Loans, Newark, DE, 07/28/2009. 	
			                Questioned: $26,352; Better Use: $81,459.
2009-SE-1002		     The John C. Cannon Retirement and Assisted Living Residence Violated Its 		
			                Regulatory Agreement, Seattle, WA, 04/15/2009. Questioned: $378,803; Unsupported: 	
			                $316,778; Better Use: $137,951.
2009-SE-1003		     Eagle Home Mortgage Did Not Always Comply with HUD Guidelines When 		
			                Underwriting FHA-Insured Loans, Kirkland, WA, 07/20/2009. Questioned: $91,280; 	
			                Better Use: $158,492.
Public and Indian Housing (36 Reports)
2009-AT-1006		     The Jonesboro Housing Authority Generally Complied with Housing Quality Standards 	
			                Inspections Requirements although Certain Weaknesses Existed, Jonesboro, GA, 	
			                04/23/2009. Questioned: $6,663.
2009-AT-1007		     The Chattanooga Housing Authority Mismanaged Its Finances, Chattanooga, TN, 	
			                06/11/2009. Questioned: $1,484,118; Unsupported: $402,862.




160                                                                   Appendix 1 - Audit Reports Issued
2009-AT-1009		       The Housing Authority of the City of Newnan Inappropriately Encumbered Assets and 	
			                  Advanced Funds to Support Its Nonprofit Organization, Newnan, GA, 07/20/2009. 	
			                  Questioned: $221,531; Better Use: $673,859.
2009-AT-1010		       The High Point Housing Authority Needs to Improve Internal Controls over Its Section 	
			                  8 Program, High Point, NC, 08/17/2009. Questioned: $9,534.
2009-AT-1014		       The Housing Authority of the City of Winston-Salem Needs to Improve Financial 		
			                  Controls, Winston-Salem, NC, 09/29/2009. Questioned: $2,126,183; Unsupported: 	
			                  $2,044,314.
2009-AT-1015		       The Puerto Rico Public Housing Administration Mismanaged Its Capital Fund 		
			                  Financing Program and Inappropriately Obligated $32 Million in Recovery Act Funds, 	
			                  San Juan, PR, 09/30/2009. Questioned: $76,628,034; Unsupported: $18,701,107; Better 	
			                  Use: $82,014,420.
2009-BO-1005		       The State of Connecticut Department of Social Services Did Not Always Properly 	
			                  Determine or Support Tenant Eligibility and Rent Calculations for the Housing Choice 	
			                  Voucher Program, Hartford, CT, 04/08/2009. Questioned: $226,792; Unsupported: 		
			                  $194,821; Better Use: $9,269.
2009-BO-1006		       Quincy Housing Authority Housing Choice Voucher Program Needs to Improve 		
			                  Controls over Its Interprogram Fund Transactions, Procurement, and Travel, Quincy, 	
			                  MA, 04/09/2009. Questioned: $5,025,212; Unsupported: $5,025,212.
2009-BO-1010		       The City of New London Housing Authority Lacks the Capacity to Properly Administer 	
			                  its Capital Fund Program and Recovery Act Funds, New London, CT, 08/07/2009. 		
			                  Questioned: $91,027; Unsupported: $91,027.
2009-CH-1006		       The Housing Authority of the City of Milwaukee Needs to Improve Its Procedures 	
			                  and Controls Regarding Its Homeownership Programs, Milwaukee, WI, 04/08/2009. 	
			                  Questioned: $356,265; Unsupported: $114,500.
2009-CH-1007		       The Springfield Housing Authority Needs to Improve Its Controls over Its Section 		
			                  8 Housing Assistance Payments, Springfield, IL, 04/28/2009. Questioned: $144,196; 	
			                  Unsupported: $21,121; Better Use: $241,707.
2009-CH-1009		       The Chicago Housing Authority Needs to Improve Its Controls over Its Section 8 		
			                  Housing Assistance Payments, Chicago, IL, 05/19/2009. Questioned: $90,951; Better 	
			                  Use: $578,433.
2009-CH-1010		       The Cincinnati Metropolitan Housing Authority Needs to Improve Its Controls over 	
			                  Section 8 Housing Assistance Payments, Cincinnati, OH, 05/19/2009. Questioned: 	
			                  $372,975; Unsupported: $237,782; Better Use: $936,207.
2009-CH-1011		       The Housing Authority of the City of Terre Haute Failed to Follow Federal 			
			                  Requirements and Its Employment Contract Regarding Nonprofit Development 		
			                  Activities, Terre Haute, IN, 07/31/2009. Questioned: $1,227,300; Unsupported: 		
			                  $1,090,800.
2009-CH-1012		       The Lake Metropolitan Housing Authority Needs to Improve Its Controls over 		
			                  Housing Assistance and Utility Allowance Payments, Painesville, OH, 08/14/2009. 	
			                  Questioned: $906,118; Unsupported: $836,136; Better Use: $259,228.
2009-CH-1013		       The Housing Authority of the City of Milwaukee Did Not Adequately Maintain a 		
			                  Separate Identity for Commingled Funds, Milwaukee, WI, 09/17/2009. Questioned: 	
			                  $1,445,275; Unsupported: $1,445,275.




Appendix 1 - Audit Reports Issued                                                                          161
2009-CH-1014		   The Cincinnati Metropolitan Housing Authority Did Not Effectively Administer Its 		
			              Section 8 Housing Choice Voucher Program, Cincinnati, OH, 09/17/2009. Questioned: 	
			              $136,468; Better Use: $36,248.
2009-CH-1015		   The Public Housing Agency of the City of Saint Paul Needs to Improve Its 			
			              Administration of Its Section 8 Project-Based Voucher Program, Saint Paul, MN, 		
			              09/25/2009. Questioned: $1,391,984; Unsupported: $1,365,359; Better Use: $9,563.
2009-CH-1016		   The DuPage Housing Authority Needs to Improve Its Controls over Housing Assistance 	
			              and Utility Allowance Payments, Wheaton, IL, 09/28/2009. Questioned: $436,846; 	
			              Unsupported: $426,277; Better Use: $8,426.
2009-CH-1017		   The Housing Authority of the City of Terre Haute Failed to Follow Federal 			
			              Requirements Regarding Its Turnkey III Homeownership Program Units’ Sales 		
			              proceeds, Terre Haute, IN, 09/29/2009. Questioned: $579,914; Unsupported: $579,914.
2009-CH-1018		   The Chicago Housing Authority Needs to Improve Its Controls over the Enforcement 	
			              of Housing Quality Standards, Chicago, IL, 09/29/2009. Questioned: $181,241; 		
			              Unsupported: $63,781; Better Use: $1,455,654.
2009-CH-1019		   The Michigan State Housing Development Authority Failed to Operate Its Section 	
			              8 Project-Based Voucher Program According to HUD’s and Its Requirements, Lansing, 	
			              MI, 09/30/2009. Questioned: $1,138,599; Unsupported: $1,132,200.
2009-FW-1008		   Housing Authority of the City of El Paso Administered its Housing Choice Voucher 	
			              Program in Accordance with Requirements, El Paso, TX, 05/20/2009. Questioned: 	
			              $13,014; Unsupported: $3,147.
2009-FW-1015		   The Housing Authority of Travis County Could Not Adequately Account For or Support 	
			              Its Use of Federal Program Funds, Austin, TX, 08/17/2009. Questioned: $3,209,048; 	
			              Unsupported: $3,205,964.
2009-KC-1010		   The Kansas City Housing Authority Inappropriately Spent Federal Funds for 		
			              Nonfederal Development Activities, Kansas City, KS, 09/22/2009. Questioned: 		
			              $1,636,363; Unsupported: $1,452,462; Better Use: $194,079.
2009-LA-1009		   The Housing Authority of the County of Los Angeles Did Not Reasonably and 		
			              Equitably Allocate Costs to Its Section 8 Program, Monterey Park, CA, 04/24/2009. 	
			              Questioned: $2,953,443.
2009-LA-1010		   The Culver City Housing Agency Did Not Administer Its Section 8 Housing Choice 	
			              Voucher Program in Accordance with HUD Requirements, Culver City, CA, 07/01/2009. 	
			              Questioned: $4,230; Better Use: $1,388.
2009-LA-1012		   The City of Baldwin Park Housing Authority Did Not Always Determine Housing 		
			              Assistance Payments Correctly and Did Not Always Complete Reexaminations in a 	
			              Timely Manner, Baldwin Park, CA, 07/23/2009. Questioned: $19,166; Better Use: 		
			              $49,163.
2009-LA-1014		   The Housing Authority of the City of Long Beach Did Not Adequately Conduct 		
			              Housing Quality Standards Inspections, Long Beach, CA, 07/29/2009. Better Use: 		
			              $5,912,852.
2009-LA-1020		   The Housing Authority of the City of Richmond Did Not Follow Procurement 		
			              Requirements and Had Internal Control Weaknesses, Richmond, CA, 09/24/2009. 	
			              Questioned: $2,530,671; Unsupported: $2,417,916.
2009-LA-1021		   The Housing Authority of the City of Eloy Lacked Capacity to Administer Its Recovery 	
			              Act Capital Fund Grant Without Outside Assistance, Eloy, AZ, 09/25/2009. Better Use: 	
			              $113,672.



162                                                                   Appendix 1 - Audit Reports Issued
2009-NY-1011		            North Hempstead Housing Authority Had Weaknesses in Its Housing Choice 		
			                       Voucher and Family Self-Sufficiency Programs, Great Neck, NY, 05/15/2009. 		
			                       Questioned: $71,964; Unsupported: $13,254; Better Use: $345,364.
2009-NY-1014		            The Lackawanna Municipal Housing Authority Needs to Improve Controls and 		
			                       Operational Procedures regarding Its Capital Fund Program, Lackawanna, NY, 		
			                       07/31/2009. Questioned: $3,292,094; Unsupported: $676,301; Better Use: $1,756,914.
2009-PH-1009		            The Richmond Redevelopment and Housing Authority Did Not Adequately Administer 	
			                       Its Housing Assistance Payments for Its Section 8 Housing Choice Voucher Program, 	
			                       Richmond, VA, 07/10/2009. Questioned: $88,807; Unsupported: $70,248; Better Use: 	
			                       $5,452.
2009-PH-1011		            The Wilmington Housing Authority Did Not Ensure That Its Section 8 Housing Choice 	
			                       Voucher Program Units Met Housing Quality Standards, Wilmington, DE, 07/30/2009. 	
			                       Questioned: $66,934; Better Use: $1,928,850.
2009-PH-1012		            The Housing Authority of the City of York Did Not Ensure That Its Section 8 Housing 	
			                       Choice Voucher Program Units Met Housing Quality Standards, York, PA, 08/12/2009. 	
			                       Questioned: $24,357; Better Use: $587,496.

Audit-Related Memorandums1
Community Planning and Development (13 Reports)
2009-AO-1801		            A Few Possible Duplicate Payments May Have Occurred under Phase II of the 		
			                       State of Mississippi’s Homeowner Assistance Program, Jackson, MS, 06/12/2009. 		
			                       Questioned: $1,877,806; Unsupported: $1,749,539.
2009-AO-1802		            The State of Mississippi Generally Ensured That Applicants Were Eligible under Phase 	
			                       II of Its Homeowner Assistance Program, Jackson, MS, 07/31/2009.
2009-BO-1802		            The City of Boston’s Department of Neighborhood Development Can Develop the 	
			                       Capacity to Administer Its Housing and Economic Recovery Act and American 		
			                       Recovery and Reinvestment Act Programs, Boston, MA, 09/23/2009.
2009-BO-1803		            The City of Brockton Recipient, Building a Better Brockton, Inc., Lacked Sufficient 	
			                       Capacity to Effectively Administer Its Neighborhood Stabilization Program, Brockton, 	
			                       MA, 09/28/2009.
2009-CH-1801		            The City of Cincinnati Lacked Sufficient Capacity to Effectively and Efficiently 		
			                       Administer Its Neighborhood Stabilization Program, Cincinnati, OH, 07/29/2009.
2009-CH-1802		            Cook County Needs to Improve Its Capacity to Effectively and Efficiently Administer Its 	
			                       Neighborhood Stabilization Program, Chicago, IL, 09/17/2009.
2009-DE-1801		            Adams County Had Weaknesses That Could Significantly Affect Its Capacity to 		
			                       Administer Its Recovery Act Funding, Commerce City, CO, 09/24/2009.
2009-DE-1802		            City of Aurora, Colorado’s Capacity to Administer Recovery Act Funding, 09/30/2009.
2009-FW-1802		            The City of Fort Worth Needs to Strengthen Its Capacity to Adequately Administer 	
			                       Recovery Funding, Fort Worth, TX, 08/31/2009. Questioned: $17,920; Better Use: 		
			                       $4,543,341.



1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.



Appendix 1 - Audit Reports Issued                                                                                          163
2009-NY-1801		     The City of Little Falls, Urban Renewal Agency, Small Cities CDBG and HOME 		
			                Programs, Complaint No. HL-09-0090, Little Falls, NY, 09/08/2009.
2009-PH-1801		     The City of Bethlehem Had the Capacity to Effectively Administer Community 		
			                Planning and Development Funds Provided under the American Recovery and 		
			                Reinvestment Act of 2009, Bethlehem, PA, 08/28/2009.
2009-PH-1802		     The City of Altoona Needs to Strengthen Its Capacity and Controls to Adequately 		
			                Administer American Recovery and Reinvestment Act of 2009 Funding, Altoona, PA, 	
			                09/23/2009.
2009-SE-1802		     The State of Washington Did Not Always Allocate Its Neighborhood Stabilization 		
			                Program Funds Based on Greatest Need, Olympia, WA, 09/15/2009. Better Use: 		
			                $1,335,314.
Public and Indian Housing (4 Reports)
2009-AT-1801		     Miami-Dade Public Housing Agency Needs to Strengthen Controls over Its American 	
			                Recovery and Reinvestment Act Funds, Miami, FL, 09/25/2009.
2009-FW-1801		     Travis County Housing Authority Lacks Capacity to Administer American Recovery 	
			                and Reinvestment Act of 2009 Public Housing Capital Funds, Austin, TX, 08/17/2009.
2009-KC-1801		     The East St. Louis Housing Authority Had Weaknesses That Could Affect Its Capacity 	
			                to Administer Its Recovery Act Funding, East St. Louis, IL, 09/18/2009.
2009-SE-1803		     Capacity Review of the Warm Springs Housing Authority, Warm Springs, OR, 		
			                09/21/2009.


                                               




164                                                                    Appendix 1 - Audit Reports Issued
                                       Table A
                       Audit reports issued before the start of the period
                      with no management decision at September 30, 2009
             * Significant audit reports described in previous semiannual reports

      Report number             Reason for lack of                  Issue date/target
         and title             management decision              for management decision

                                      Nothing to report.




166                                                                            Appendix 2 - Tables
                                               Table B
                Significant audit reports on which final action had not been completed
                                 within 12 months after the date of the
                                       Inspector General’s report

    Report                      Report title                    Issue       Decision       Final
    number                                                       date        date         action

 1997-AT-1003    Municipality of Mayaguez, CDBG and            07/01/1997   10/29/1997   10/31/2009
                 Section 108 Loan Guarantee Assistance
                 Programs, Mayaguez, PR
                 	
 2002-AT-1002    Housing Authority of the City of Tupelo,      07/03/2002   10/31/2002   07/01/2015
                 Housing Programs Operations, 	
                 Tupelo, MS
 	
 2002-KC-0002    Nationwide Survey of HUD’s Office of          07/31/2002   11/22/2002    Note 2
                 Housing Section 232 Nursing Home
                 Program

 2004-DP-0002    Application Control Review of the Tenant      02/25/2004   07/14/2004    Note 2
                 Rental Assistance Certification System

 2004-PH-1008    Safe Haven Outreach Ministry, 	
                 Incorporated, Washington, DC                  06/03/2004   08/31/2004    Note 2

 2004-CH-1007    A-Pan American Mortgage Group, 		             08/09/2004   08/09/2004    Note 2
                 Non-Supervised Loan Correspondent,
                 Chicago, IL

 2004-PH-1012    Mortgage America Bankers, LLC,                09/10/2004   01/06/2005    Note 2
                 Nonsupervised Loan Correspondent,
                 Kensington, MD

 2004-FW-1009    Mays Property Management,Inc.,                09/17/2004   02/23/2005    Note 2
                 Multifamily Management Agent, Little
                 Rock, AR

 2005-AT-1004    Housing Authority of the City of Durham,      11/19/2004   03/15/2005   03/15/2015
                 NC

 2005-AT-1013    Corporacion Para el Fomento Economico         09/15/2005   01/11/2006    Note 2
                 de la Ciudad Capital Did Not Administer Its
                 Independent Capital Fund in Accordance
                 with HUD Requirements, San Juan, PR

 2005-CH-1020    Housing Authority of the City of Gary,        09/29/2005   01/25/2006   12/31/2009
                 Section 8 Housing Program, Gary, IN

 2006-CH-0001    Real Estate Assessment Center’s Physical      11/30/2005   01/10/2006   12/31/2011
                 Condition Assessment Was Compromised




Appendix 2 - Tables                                                                                167
      Report                  Report title                   Issue       Decision           Final
      number                                                  date        date             action

2006-AT-1004   The Housing Authority of the City of         01/13/2006   04/25/2006      06/30/2010
               Prichard Did Not Ensure Section 8 Subsidy
               Payments Were for Eligible Units, Tenants,
               and Landlords, Prichard, AL
               	
2006-NY-1003   The Housing Authority of the City of         02/14/2006   08/17/2006      01/01/2015
               Newark’s Controls Over Bond Financing
               Activities, Obtaining Supporting
	              Documentation, and Legal Settlements
               Require Improvement, Newark, NJ

2006-CH-1007   Huntington National Bank, Supervised         03/15/2006   09/18/2006        Note 2
               Lender, Generally Complied with
               Requirements Regarding Submission
               of Late Requests for Endorsement and
               Underwriting of Loans, Columbus, OH

2006-NY-0001   HUD’s Controls over the Reporting,           06/08/2006   01/08/2007      01/31/2010
               Oversight, and Monitoring of the Housing
               Counseling Assistance Program Were Not
               Adequate

2006-BO-1009   The Rhode Island Housing and Mortgage        07/06/2006   10/24/2006      11/01/2010
               Finance Corporation Incorrectly Made
               More Than $1.8 Million in Section 8
               Subsidy Payments and Released More
               Than $900,000 from Restricted Residual
               Receipts Accounts, Providence, RI

2006-BO-0001   HUD Incorrectly Approved $42 Million in      07/11/2006   10/13/2006      10/01/2013
               Operating Subsidies for Phase-Down for
               Demolition Add-On Funding

2006-CH-1014   National City Mortgage Company,              07/31/2006   01/31/2007        Note 2
               Nonsupervised Lender, Did Not Comply
               with HUD’s Requirements Regarding
               Underwriting of Loans and Quality Control
               Reviews, Miamisburg, OH

2006-SE-0002   The Office of Single Family Housing          08/16/2006   03/30/2007        Note 1
               Expanded Late Endorsement Eligibility
               Without Studying Associated Risks

2006-KC-1013   The Columbus Housing Authority               08/30/2006   10/17/2006      11/30/2012
               Improperly Expended and Encumbered Its
               Public Housing Funds, Columbus, NE




168                                                                                 Appendix 2 - Tables
    Report                      Report title                  Issue       Decision       Final
    number                                                     date        date         action

 2006-AT-1019    The Municipality of Toa Baja Did Not        09/06/2006   12/11/2006   11/30/2009
                 Administer Its Section 108 Loan Guarantee
                 Assistance Program in Accordance with
                 HUD Requirements, Toa Baja, PR
                 	
 2006-DP-0802    Assessment of HUD’s Compliance with         09/21/2006   11/24/2006   10/01/2009
                 OMB Memorandum M-06-16, “Protection
                 of Sensitive Agency Information”
 	
 2007-AT-1002    Pine State Mortgage Company Did Not         11/03/2006   03/02/2007    Note 2
                 Always Comply with FHA Underwriting
                 and Quality Control Requirements,
                 Atlanta, GA

 2007-LA-0001    Tax Credit Project Owners Are Allowed       11/08/2006   07/05/2007   10/01/2010
                 to Charge Higher Rents for Tenant-Based
                 Section 8 Voucher Households than Non-
                 Voucher Households

 2007-DP-0003    Review of HUD’s Procurement Systems         01/25/2007   05/25/2007   09/30/2010

 2007-KC-0002    HUD Can Improve Its Use of Residual         01/29/2007   01/29/2007   01/31/2011
                 Receipts to Reduce Housing Assistance
                 Payments

 2007-AT-1007    The Municipality of Toa Baja Needs          04/11/2007   07/16/2007   12/31/2009
                 to Improve Its CDBG Program
                 Administration, Toa Baja, PR

 2007-KC-0003    HUD Did Not Recapture Excess Funds          04/30/2007   08/27/2007    Note 2
                 from Assigned Bond-Financed Projects

 2007-BO-0002    HUD Did Not Process Multifamily             05/21/2007   09/07/2007   10/15/2009
                 Accelerated Processing Applications
                 within Established Processing Goals and
                 the Multifamily Accelerated Processing
                 Guide Is Outdated

 2007-LA-1011    Suburban Mortgage Company Did Not           05/29/2007   12/31/2007    Note 2
                 Comply with HUD Requirements in the
                 Origination of FHA-Insured Single-Family
                 Mortgages, Phoenix, AZ

 2007-SE-0001    HUD Did Not Ensure That Payments to         06/07/2007   10/05/2007    Note 2
                 Contract Administrators Were for Work
                 Performed or That Interest Was Earned on
                 Advances and Recovered




Appendix 2 - Tables                                                                              169
      Report                  Report title                  Issue       Decision           Final
      number                                                 date        date             action

2007-FW-1011   Capmark Finance, Inc. Misrepresented        07/02/2007   10/23/2007      10/31/2009
               Asbury Square Apartments’ Financial and
               Physical Condition When Underwriting
               the $9.098 Million Loan, Tulsa, OK
               	
2007-BO-1006   Multifamily Project Deficiencies Resulted   07/25/2007   11/20/2007      07/01/2016
               in More Than $730,000 in Cost Exceptions
               for Moosup Gardens Apartments, 	
	              Moosup, CT

2007-LA-1014   The Housing Authority of the County of      07/27/2007   11/23/2007      11/24/2017
               San Mateo Did Not Use HUD Program
               Funds in Accordance with HUD
               Requirements, San Mateo, CA

2007-CH-1012   The Plymouth Housing Commission             08/03/2007   11/23/2007      03/31/2010
               Needs to Improve Its Section 8 Housing
               Choice Voucher Program Administration,
               Plymouth, MI

2007-AT-1010   The Cathedral Foundation of Jacksonville    08/14/2007   12/03/2007      04/01/2010
               Used More Than $2.65 Million in Project
               Funds for Questioned Costs, Jacksonville,
               FL

2007-PH-0002   HUD’s Oversight of Contractors’ Marketing   08/17/2007   12/12/2007        Note 2
               of Its Real Estate-Owned Properties

2007-DP-0006   Review of HUD’s Personal Identity           08/28/2007   12/20/2007      10/01/2009
               Verification and Privacy Program

2007-NY-1012   The City of Passaic’s Community             09/12/2007   12/17/2007      04/09/2010
               Development Department Has
               Weaknesses in Its HOME Investment
               Partnerships Program, Passaic, NJ

2007-AT-0001   HUD Needs to Improve Controls Over Its      09/19/2007   09/19/2007        Note 2
               Contract Administration Processes

2007-LA-1016   A Community of Friends Did Not Always       09/21/2007   01/18/2008        Note 2
               Administer Its Cash Match in Compliance
               with HUD Requirements, Los Angeles, CA

2007-KC-0801   Lenders Submitted Title II Manufactured     09/24/2007   03/11/2008        Note 2
               Housing Loans for Endorsement without
               the Required Foundation Certifications




170                                                                                Appendix 2 - Tables
    Report                      Report title                  Issue       Decision       Final
    number                                                     date        date         action

 2007-AT-1011    The Wilmington Housing Authority            09/26/2007   01/24/2008   01/01/2011
                 Did Not Follow HUD Requirements for
                 Its Nonprofit Development Activities,
                 Wilmington, NC
                 	
 2007-CH-1015    Cook County Lacked Adequate Controls        09/26/2007   01/24/2008    Note 2
                 over Its HOME Investment Partnerships
                 Program, Chicago, IL
 	
 2007-CH-1016    The Plymouth Housing Commission Failed      09/28/2007   01/24/2008   03/31/2010
                 to Adequately Administer Its Section
                 8 Housing Choice Voucher Program,
                 Plymouth, MI

 2007-CH-1017    The City of Cincinnati Lacked Adequate      09/30/2007   01/28/2008   09/30/2011
                 Controls over Its HOME Investment
                 Partnerships Program, Cincinnati, OH

 2007-CH-1018    The City of Milwaukee Needs to Improve      09/30/2007   03/20/2008   10/30/2009
                 Existing Controls over Its HOME Program
                 Regarding Housing Conditions and
                 Contracting, Milwaukee, WI

 2008-DP-0002    Review of FHA Controls over Its             10/31/2007   02/26/2008   10/30/2009
                 Information Technology Resources

 2008-LA-0001    The Los Angeles Multifamily Hub Did Not     11/05/2007   03/03/2008    Note 2
                 Properly Monitor Its Performance-Based
                 Contract Administrator, Los Angeles
                 LOMOD

 2008-AT-1002    The Municipality of Canovanas Needs         11/15/2007   03/07/2008    Note 2
                 to Improve Administration of Its CDBG
                 Program, Canovanas, PR

 2008-AO-0001    HUD Had a Less Than 1 Percent Error         12/04/2007   04/01/2008   12/31/2009
                 Rate in Housing Ineligible Participants
                 for Katrina Disaster Housing Assistance
                 Program and Disaster Voucher Program
                 Disaster Housing Assistance

 2008-LA-1003    Home for Life Foundation Did Not Properly   12/18/2007   02/26/2008    Note 2
                 Administer Its Supportive Housing
                 Program Grants, Los Angeles, CA

 2008-NY-0001    HUD’s Monitoring Controls and               12/31/2007   03/27/2008    Note 2
                 Procedures Regarding the CDBG Program
                 Were Not Adequate




Appendix 2 - Tables                                                                              171
      Report                  Report title                    Issue       Decision           Final
      number                                                   date        date             action

2008-FW-1005   The Housing Authority of the City of          01/07/2008   04/24/2008      10/16/2009
               McKinney Inappropriately Advanced
               Funds and Transferred Real Estate to Its
               Not-for-Profit Affiliate, McKinney, TX
               	
2008-AT-1004   The City of West Palm Beach Did Not           01/09/2008   05/05/2008      05/01/2012
               Properly Administer Its CDBG Program,
               West Palm Beach, FL
	
2008-AT-1005   The City of Fort Lauderdale Did Not           01/11/2008   05/05/2008      05/01/2012
               Properly Administer Its CDBG Program,
               Fort Lauderdale, FL

2008-KC-0001   HUD’s Quality Assurance Division Did Not      01/14/2008   06/05/2008        Note 2
               Always Resolve Materially Deficient or
               Potentially Fraudulent Loans Consistently

2008-NY-1003   The City of New York’s Department of          01/23/2008   05/21/2008      02/28/2010
               Housing Preservation and Development
               Had Administrative Weaknesses in Its
               HOME Program, New York, NY

2008-AO-1002   State of Louisiana, Road Home Program,        01/30/2008   05/12/2008        Note 2
               Funded 418 Grants Coded Ineligible or
               Lacking an Eligibility Determination, Baton
               Rouge, LA

2008-BO-1004   Multifamily Project Deficiencies Resulted     02/04/2008   05/21/2008      07/01/2016
               in More Than $1.1 Million in Cost
               Exceptions for Mohegan Commons,
               Norwich, CT

2008-BO-1005   Multifamily Project Deficiencies              02/05/2008   05/21/2008      07/01/2016
               Resulted in More Than $2.8 million in
               Cost Exceptions for Windham Heights
               Apartments, Windham, CT

2008-CH-1003   The Highland Park Housing Commission          02/15/2008   03/19/2008      10/31/2009
               Did Not Effectively Administer Its Public
               Housing and Capital Fund Programs,
               Highland Park, MI

2008-AT-1006   Fulton County Lacked Adequate Controls        03/07/2008   06/13/2008      12/31/2009
               Over Its HOME Program, Atlanta, GA




172                                                                                  Appendix 2 - Tables
     Report                     Report title                   Issue       Decision       Final
     number                                                     date        date         action

 2008-DE-1002    The Housing Authority of the City of         03/18/2008   03/18/2008   11/30/2010
                 Brighton Did Not Maintain Proper
                 Inventory Records and Improperly
                 Awarded Contracts, Brighton, CO
                 	
 2008-FW-1006    Dallas Housing Authority Management          03/20/2008   07/07/2008   12/15/2009
                 Failed to Implement Internal Controls
                 over Its Housing Choice Voucher Program,
 	               Dallas, TX

 2008-FW-1008    The Owner of Century Mission Oaks            03/21/2008   06/26/2008   04/01/2010
                 Violated Its Regulatory Agreement with
                 HUD, San Antonio, TX

 2008-KC-0002    HUD Did Not Ensure That Housing              03/24/2008   07/22/2008   10/01/2011
                 Authorities Properly Administered the
                 Community Service and Self-Sufficiency
                 Requirement

 2008-AO-0801    Review of Duplication of Participants        03/28/2008   08/01/2008   12/31/2009
                 Benefits under HUD’s Katrina Disaster
                 Housing Assistance Program and Disaster
                 Voucher Program

 2008-CH-1006    The Indianapolis Housing Agency Did Not      04/15/2008   08/12/2008   12/31/2009
                 Effectively Operate Its Section 8 Housing
                 Choice Voucher Program, Indianapolis, IN

 2008-CH-1007    The Housing Authority of the City of Fort    04/18/2008   08/16/2008   06/30/2029
                 Wayne Needs to Improve Its Section
                 8 Housing Choice Voucher Program
                 Administration, Fort Wayne, IN

 2008-AT-0002    The Miami Dade Housing Agency Did            04/24/2008   08/22/2008   12/31/2009
                 Not Maintain Adequate Controls over Its
                 Capital Fund Program

 2008-CH-1008    The Lansing Housing Commission Failed        04/30/2008   07/30/2008   07/31/2038
                 to Follow HUD’s Requirements for Its
                 Nonprofit Development Activities, Lansing,
                 MI

 2008-LA-1009    The Housing Authority of the City of         05/05/2008   09/26/2008   02/25/2010
                 Eloy Did Not Have Adequate Internal
                 Controls to Safeguard Assets and Ensure
                 Compliance with HUD’s Requirements,
                 Eloy, AZ




Appendix 2 - Tables                                                                               173
      Report                  Report title                 Issue       Decision           Final
      number                                                date        date             action

2008-SE-1004   A Plus Mortgage, Inc., Overcharged         05/07/2008   09/24/2008        Note 2
               Borrowers and Allowed Independent
               Contractors and Unapproved Branches to
               Originate Loans, Tukwila, WA
               	
2008-AT-0003   HUD Lacked Adequate Controls over the      05/14/2008   09/10/2008      10/01/2011
               Physical Condition of Section 8 Voucher
               Program Housing Stock
	
2008-BO-0002   Maintenance of Effort Requirements Are     05/21/2008   10/02/2008        Note 2
               Needed to Ensure Intended Use of CDBG
               Program Funds

2008-NY-1007   The County of Essex Did Not Always         05/29/2008   09/16/2008      02/01/2010
               Administer Its CDBG Program in
               Accordance with HUD Requirements,
               Verona, NJ

2008-CH-1009   Cook County Lacked Adequate Controls       06/07/2008   10/03/2008      10/03/2009
               over Its HOME Investment Partnerships
               Program Income and Administrative
               Costs, Chicago, IL

2008-CH-1010   The City of Cincinnati Lacked Adequate     06/11/2008   10/09/2008      10/08/2009
               Controls over Its System Reporting and
               Rental Rehabilitation Projects for Its
               HOME Investment Partnerships Program,
               Cincinnati, OH

2008-DP-0004   Review of Selected FHA Major               06/12/2008   10/08/2008      12/31/2009
               Applications’ Information Security
               Controls

2008-LA-1012   The Housing Authority of the City of       07/01/2008   10/14/2008      10/14/2009
               Calexico Did Not Comply with Public
               Housing Program Rules and Regulations,
               Calexico, CA

2008-LA-1013   First Magnus Financial Corporation         07/14/2008   11/07/2008        Note 2
               Violated the Real Estate Settlement
               Procedures Act When Paying Incentives
               to Brokers for Generating FHA Mortgages,
               Tucson, AZ

2008-FW-0001   HUD’s CDBG Set-Aside for Colonias Was      07/29/2008   11/24/2008      11/27/2009
               Not Used for Its Intended Purposes




174                                                                               Appendix 2 - Tables
     Report                     Report title                  Issue       Decision       Final
     number                                                    date        date         action

 2008-FW-1011    The Dallas Housing Authority Mismanaged     07/31/2008   10/28/2008   02/27/2010
                 Its Housing Choice Voucher Program,
                 Dallas, TX
                 	
 2008-LA-1014    First Magnus Financial Corporation          08/01/2008   11/17/2008   11/16/2009
                 Violated the Real Estate Settlement
                 Procedures Act When Paying Builders and
 	               Real Estate Companies Marketing Fees
                 and Non-Competition Fees in Exchange
                 for FHA Mortgage Business, Tucson, AZ

 2008-FW-1012    The City of Tulsa Allowed Its Largest       08/04/2008   11/24/2008   11/30/2009
                 Subrecipient to Expend $1.5 Million in
                 Unsupported CDBG Funding, Tulsa, OK

 2008-AO-1005    State of Louisiana, Road Home Program,      08/07/2008   01/13/2009    Note 2
                 Did Not Ensure That All Additional
                 Compensation Grant Applicants Were
                 Eligible, Baton Rouge, LA

 2008-NY-1010    Wells Fargo Bank NA, Rochester, NY,         08/26/2008   01/28/2009   01/16/2010
                 Branch Office, Did Not Always Comply
                 with HUD/FHA Loan Origination
                 Requirements

 2008-BO-1008    The State of Connecticut Department of      09/04/2008   12/01/2008   10/19/2009
                 Social Services Significantly Underleased
                 Its Housing Choice Voucher Program
                 and Did Not Always Comply with Its
                 Annual Contributions Contracts and HUD
                 Regulations, Hartford, CT

 2008-LA-0003    Implementation Weaknesses Existed in All    09/04/2008   12/19/2008    Note 2
                 Major Phases of the FHA Appraiser Review
                 Process

 2008-KC-1006    Heartland Funding Corporation Violated      09/08/2008   01/22/2009   10/15/2009
                 the Real Estate Settlement Procedures
                 Act and Did Not Fully Comply with
                 HUD’s Underwriting, Quality Control, or
                 Employee Compensation Requirements,
                 Springfield, MO

 2008-AT-0004    The Miami-Dade Housing Agency Did Not       09/17/2008   09/17/2008   12/31/2009
                 Maintain Adequate Controls over Capital
                 Fund Program Drawdowns, Miami, FL




Appendix 2 - Tables                                                                              175
      Report                  Report title                  Issue       Decision           Final
      number                                                 date        date             action

2008-LA-1016   The City of Los Angeles Housing             09/18/2008   12/02/2008      12/02/2009
               Department Did Not Comply with HOME
               Affordability Monitoring and Inspection
               Requirements for Its HOME-Assisted
               Rental Housing, Los Angeles, CA
               	
2008-DE-1003   The State of Colorado Did Not Comply        09/23/2008   01/14/2009      09/30/2011
               with CDBG Program Requirements,
               Denver, CO
	
2008-CH-1014   The City of Cincinnati Did Not Adequately   09/26/2008   01/22/2009      02/23/2010
               Manage Its HOME Investment Partnerships
               Program, Cincinnati, OH

2008-CH-1015   The City of Dayton Lacked Adequate          09/26/2008   01/23/2009      10/30/2009
               Controls Regarding Staff Salaries Paid
               From Its CDBG Program, Dayton, OH




176                                                                                Appendix 2 - Tables
                Significant audit reports within the past 12 months that were described in
                        previous semiannual reports on which final action had not
                                been completed as of September 30, 2009

     Report                      Report title                    Issue       Decision          Final
     number                                                       date        date            action

 2009-NY-0001     HUD Did Not Adequately Monitor                10/16/2008   03/06/2009      11/30/2009
                  Its Performance-Based Contract
                  Administrator, New York State Housing
                  Trust Fund Corporation
                  	
 2009-FW-1001     The Fort Smith Housing Authority Made         10/22/2008   02/13/2009      11/16/2009
                  Inappropriate Guarantees, Did Not Follow
                  Procurement Requirements, and Spent
 	                Program Funds on Questionable Activities,
                  Fort Smith, AR

 2009-CH-1001     New Phoenix Assistance Center                 10/24/2008   02/20/2009      02/01/2010
                  Substantially Failed to Manage Its
                  Supportive Housing Program Grant,
                  Chicago, IL

 2009-BO-1002     Orchard Court Multifamily Project Was         11/06/2008   01/16/2009      01/16/2010
                  Not Properly Managed in Accordance with
                  HUD Regulations, Bath, ME

 2009-FO-0001     Audit of Ginnie Mae’s Financial               11/07/2008   02/03/2009       Note 2
                  Statements for Fiscal Years 2008 and 2007

 2009-FO-0002     Audit of the FHA’s Financial Statements for   11/07/2008   03/13/2009      08/31/2010
                  Fiscal Years 2008 and 2007

 2009-NY-1001     The City of Newburgh Needs to Make            11/07/2008   03/06/2009      02/27/2010
                  Improvements in Administering Its Section
                  108 Loan Guarantee Program, Newburgh,
                  NY

 2009-KC-1001     CitiMortgage Did Not Follow HUD               11/13/2008   03/13/2009      11/13/2009
                  Requirements When Underwriting 20
                  Loans and Performing Its Quality Control
                  Program, St. Louis, MO

 2009-FO-0003     Additional Details to Supplement Our          11/14/2008   03/19/2009      12/31/2011
                  Report on HUD’s Fiscal Years 2008 and
                  2007 Financial Statements

 2009-DP-0001     Review of Single-Family Partial Claims        11/20/2008   01/26/2009      11/20/2009
                  Collection Process

 2009-FW-1002     The Owner of Ebony Lake Healthcare            11/25/2008   03/25/2009      04/15/2010
                  Center Violated Its Regulatory Agreement
                  with HUD, Brownsville, TX


Appendix 2 - Tables                                                                                    177
      Report                  Report title                  Issue       Decision           Final
      number                                                 date        date             action

2009-NY-1002   The New York City Housing Authority Had     11/25/2008   04/09/2009      12/31/2009
               Administration Weaknesses in Its Capital
               Fund Program, New York, NY
               	
2009-LA-1004   Alameda County HOME Investment              11/26/2008   07/23/2009      11/01/2009
               Partnership Consortium Did Not Use
               Program Funds in Compliance with HUD
	              Requirements, Hayward, CA

2009-PH-1002   The Delaware County Housing Authority       12/03/2008   02/25/2009      10/30/2009
               Did Not Ensure That Its Section 8 Housing
               Choice Voucher Program Units Met
               Housing Quality Standards, Woodlyn, PA

2009-NY-1003   Lower Manhattan Development                 12/04/2008   05/06/2009      01/12/2011
               Corporation CDBG Disaster Recovery
               Assistance Funds, New York, NY

2009-NY-1004   The Economic Development Corporation        12/08/2008   03/31/2009      12/16/2009
               Did Not Administer Its CDBG Program
               in Accordance with HUD Requirements,
               Newark, NJ

2009-SE-0801   HUD’s Recent Performance-Based              12/08/2008   04/17/2009        Note 2
               Contract Administration Activity
               Was Inconsistent with Agreed-Upon
               Management Decisions between HUD and
               HUD OIG on Audit Report 2007-SE-0001,
               Dated June 7, 2007

2009-KC-1003   CTX Mortgage Did Not Follow HUD’s           12/17/2008   04/16/2009      12/17/2009
               Requirements When Underwriting 12 FHA
               Loans and Developing Its Quality Control
               Plan, Overland Park, KS

2009-LA-1005   The City of San Diego Did Not Administer    12/30/2008   04/23/2009      12/30/2009
               Its CDBG Program in Accordance with
               HUD Requirements When Funding the
               City’s Redevelopment Agency Projects,
               San Diego, CA

2009-BO-1004   The City of Hartford Did Not Always         01/05/2009   04/29/2009      10/31/2009
               Comply with Its Annual Contributions
               Contracts and HUD Regulations in
               Administering Its Housing Choice Voucher
               Program, Hartford, CT

2009-DP-0003   Review of the Centralized HUD Account       01/09/2009   04/30/2009      01/30/2010
               Management Process



178                                                                                Appendix 2 - Tables
     Report                     Report title                   Issue       Decision       Final
     number                                                     date        date         action

 2009-PH-1003    The Housing Authority of the City of         01/15/2009   04/29/2009   04/30/2010
                 Pittsburgh Did Not Ensure That Its Leased
                 Housing Units Met Housing Quality
 	               Standards under Its Moving to Work
                 Program, Pittsburgh, PA

 2009-CH-1002    The Indianapolis Housing Agency Failed       01/23/2009   05/08/2009   05/22/2010
                 to Operate Its Housing Choice Voucher
                 Program According to HUD’s and Its
                 Requirements, Indianapolis, IN

 2009-NY-1006    The City of Rome Did Not Always              01/26/2009   05/27/2009   05/31/2010
                 Administer Its CDBG Program in
                 Accordance with HUD Requirements,
                 Rome, NY

 2009-CH-1003    The Portage Metropolitan Housing             01/28/2009   06/08/2009   11/30/2009
                 Authority Improperly Operated Its Section
                 8 Housing Choice Voucher Program,
                 Ravenna, OH

 2009-AO-0002    HUD’s Receivership Did Not Ensure That       01/29/2009   08/21/2009   01/01/2010
                 the Housing Authority of New Orleans
                 Properly Accounted for Its Fungibility
                 Funding, Monitored and Paid Two of Its
                 Contractors, and Paid Its Accounts Payable
                 Disbursements

 2009-SE-0002    NAHASDA Program Income from 1937 Act         02/06/2009   09/29/2009   09/28/2010
                 Properties

 2009-FW-1005    Allied Home Mortgage Capital Corporation     02/10/2009   06/10/2009   03/24/2010
                 Did Not Fully Follow HUD’s Branch Office
                 Requirements, Houston, TX

 2009-DE-1001    The Adams County Office of Community         02/11/2009   04/29/2009   02/15/2010
                 and Development Did Not Comply with
                 HOME Investment Partnerships Program
                 Regulations, Denver, CO

 2009-CH-1005    The Chicago Housing Authority Did Not        02/19/2009   06/26/2009   12/31/2009
                 Always Ensure That Section 8 Units
                 Met HUD’s Housing Quality Standards,
                 Chicago, IL

 2009-NY-1008    The City of Newburgh Did Not Always          02/24/2009   06/11/2009   11/30/2009
                 Administer Its CDBG Program in
                 Accordance with HUD Requirements,
                 Newburgh, NY



Appendix 2 - Tables                                                                               179
      Report                     Report title                     Issue          Decision           Final
      number                                                       date           date             action

2009-KC-1005       The East St. Louis Housing Authority’s        03/02/2009     06/25/2009       06/25/2010
                   Section 8 Voucher Program Units Did
                   Not Always Meet HUD’s Housing Quality
                   Standards, East St. Louis, IL
                   	
2009-FW-1007       The Owners of Stonebrook Apartments           03/25/2009     06/12/2009       06/09/2010
                   Phase I and Phase II Violated Their
                   Regulatory Agreements with HUD,
	                  Baytown, TX

2009-AT-1004       The City of Durham Did Not Adequately         03/31/2009     06/09/2009       12/16/2009
                   Administer Its CDBG Program, Durham,
                   NC


                                                  



      Audits excluded                                       Notes
      68 audits under repayment plans                       1	     Management did not meet the 		
                                                                   target date. Target date is over
      31 audits under debt claims collection 		
                                                                   1 year old. 	
      processing, formal judicial review, 			
      investigation, or legislative solution                2	     Management did not meet the 		
                                                                   target date. Target date is under
                                                                   1 year old.




180                                                                                         Appendix 2 - Tables
                                                  Table C
                           Inspector General-issued reports with questioned and
                                 unsupported costs at September 30, 2009
                                                (thousands)

                       Audit reports                           Number of          Questioned         Unsupported
                                                              audit reports         costs               costs
  A1 For which no management decision had been                       25              40,485               27,967
     made by the commencement of the reporting
	                                                            			 			 			
     period
	                                                            			 			 			
  A2 For which litigation, legislation, or investigation      7   14,749 11,956
     was pending at the commencement of the
	                                                            			 			 			
     reporting period
	                                                            			 			 			
  A3 For which additional costs were added to reports         -   85,824 84,881
     in beginning inventory
	                                                            			 			 			
  A4 For which costs were added to noncost reports            0    0   0
    B1 Which were issued during the reporting period                 70             174,660               93,508
    B2 Which were reopened during the reporting                      0                  0                   0
       period
                                                             			 		                               		
                                          Subtotals (A+B)     102 315,718                          218,312
	
    C For which a management decision was made                      551             157,739               135,408
      during the reporting period
	                                                            			 			 			
	      (1) Dollar value of disallowed costs:     		          		   		       		
          	    - Due HUD                                       82   14,298   12,484
        	      - Due program participants                      50  136,360  121,639
	
       (2) Dollar value of costs not disallowed                      93               7,081                1,285
  D For which management decision had been               6                            7,520                4,727
    made not to determine costs until completion of
	                                                   		                         			 			
    litigation, legislation, or investigation
	                                                   	                          	            	
  E For which no management decision had been           41                        150,459      78,177
    made by the end of the reporting period           <115>4                     <150,459>4
                                                                                              <78,177>4
	
                                                    		                         		                 		
                                                    	                          	                  	



1
  29 audit reports also contain recommendations with funds be put to better use.
2
  5 audit reports also contain recommendations with funds due program participants.
3
  7 audit reports also contain recommendations with funds agreed to by management.
4
  The figures in brackets represent data at the recommendation level as compared to the report level. 	
See explanations of tables C and D.




Appendix 2 - Tables                                                                                                 181
                                                  Table D
                          Inspector General-issued reports with recommendations
                            that funds be put to better use at September 30, 2009
                                                 (thousands)

                       Audit reports                                Number of                    Questioned
                                                                   audit reports                   costs
  A1 For which no management decision had been                            15                        252,731
     made by the commencement of the reporting
	                                                            				 				
     period
	                                                            				 				
  A2 For which litigation, legislation, or investigation       2    6,517
     was pending at the commencement of the
	                                                            				 				
     reporting period
	                                                            				 				
  A3 For which additional costs were added to reports          -    2,172
     in beginning inventory
	                                                            				 				
  A4 For which costs were added to noncost reports             0    0
    B1 Which were issued during the reporting period                      42                        307,765
    B2 Which were reopened during the reporting                           0                               0
       period
                                                             				 			
                                          Subtotals (A+B)      59   569,185
	
    C For which a management decision was made                           321                        263,452
      during the reporting period
	                                                            				 				
	      (1) Dollar value of disallowed costs:     		          				 				
          	    - Due HUD                                       32    7,394
        	      - Due program participants                      28   40,233
	
       (2) Dollar value of costs not disallowed                           53                        215,825
  D For which management decision had been              1                                            2,957
    made not to determine costs until completion of
	                                                   			                                 			
    litigation, legislation, or investigation
	                                                                                       	
  E For which no management decision had been          26                                  302,776
    made by the end of the reporting period           <37>4                               <302,776>4
	
                                                    			                                 			




1
  29 audit reports also contain recommendations with funds be put to better use.
2
  1 audit report also contains recommendations with funds due program participants.
3
  3 audit reports also contain recommendations with funds agreed to by management.
4
  The figures in brackets represent data at the recommendation level as compared to the report level. 	
See explanations of tables C and D.




182                                                                                               Appendix 2 - Tables
Explanations of Tables C and D
    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
cost data on management decisions and final actions on audit reports. The current method of reporting at
the “report” level rather than at the individual audit “recommendation” level results in misleading reporting
of cost data. Under the Act, an audit “report” does not have a management decision or final action until all
questioned cost items or other recommendations have a management decision or final action. Under these
circumstances, the use of the “report-based” rather than the “recommendation-based” method of reporting
distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
certain cost items or recommendations could have a management decision and repayment (final action) in
a short period of time. Other cost items or nonmonetary recommendation issues in the same audit report
may be more complex, requiring a longer period of time for management’s decision or final action. Although
management may have taken timely action on all but one of many recommendations in an audit report, the
current “all or nothing” reporting format does not take recognition of their efforts.

    The closing inventory for items with no management decision on tables C and D (line E) reflects figures
at the report level as well as the recommendation level.

                                                   




Appendix 2 - Tables                                                                                      183
  State                   Page numbers

 Alabama			               51, 131
 Arizona			               9,38,43, 58, 88, 128, 153
 California			            11, 17, 18, 22, 27, 28, 33, 35, 46, 47, 49, 50, 62, 71, 73, 78, 95, 109, 111, 124, 		
 				                     126, 130, 135, 140, 144
 Colorado			              17, 18, 19, 20, 22, 68, 69, 92, 93, 125, 127, 128, 129, 130, 132, 138, 143, 144
 Connecticut			           41, 58, 63, 80, 89, 110
 Delaware			              10, 28
 District of Columbia		   125, 136, 141, 154
 Florida				              15, 17, 42, 43, 45, 46, 51, 67, 90, 109, 133, 134, 135
 Georgia			               18, 37, 72, 74, 125, 133, 136
 Illinois				             18, 22, 28, 31, 32, 43, 44, 46, 49, 53, 90, 95, 124, 125, 127, 130, 132, 135, 138,	
 				                     139, 140, 143, 144
 Indiana			               36, 37, 48, 124, 126, 139, 143, 152
 Iowa				                 129
 Kansas				               35, 53, 54, 59, 73, 119, 128, 129, 133, 135, 137, 141, 144
 Kentucky			              44, 77, 78, 131
 Louisiana			             17, 41, 42, 51, 61, 62, 101, 102, 105, 106, 107, 108, 111, 125, 129, 134, 137
 Maine				                42, 124, 131, 133, 137, 141
 Maryland			              69, 108, 127, 130, 136, 143
 Massachusetts			         21, 27, 46, 47, 71, 72, 95, 96, 126, 127, 131, 134
 Michigan			              13, 20, 31, 53, 72, 77, 124, 140, 141, 143
 Minnesota			             29, 125, 131
 Mississippi			           43, 47, 51, 61, 105, 106, 107, 108, 109, 111, 142, 144
 Missouri			              10, 41, 44, 50, 52, 53, 54, 74, 126, 130, 136, 137, 144, 145
 Nebraska			              132
 Nevada			                41, 50
 New Hampshire		          77, 126, 129, 134
 New Jersey			            16, 18, 20, 21, 42, 49, 53, 62, 68, 78, 79, 137, 140
 New Mexico			            132
 New York			              16, 20, 32, 34, 45, 46, 48, 50, 61, 62, 63, 64, 68, 69, 79, 89, 103, 127, 136, 137, 	
 				                     139, 141, 142
 North Carolina			        15, 50, 91, 128
 North Dakota			          131



186                                                                                          Appendix 3 - Index
  State              Page numbers

 Ohio				            18, 21, 29, 30, 45, 51, 54, 73, 79, 94, 119, 137, 138, 142, 143
 Oklahoma			         43, 57, 128
 Oregon			           90
 Pennsylvania			     12, 16, 31, 44, 62, 63, 69, 91, 93, 139
 Puerto Rico			      52, 88, 92, 127, 128, 129
 Rhode Island			     124
 Tennessee			        36, 50, 78
 Texas				           16, 17, 19, 22, 34, 44, 52, 74, 77, 78, 90, 91, 109, 110, 112, 127, 131, 134, 135, 	
 				                140, 141, 142
 Utah				            10, 21, 48, 128, 131, 132
 Virginia			         33
 Washington			       10, 11, 58, 134
 West Virginia			    132, 144
 Wisconsin			        36, 38,


                                           




Appendix 3 - Index                                                                                      187
Office of Audit
Headquarters Office of Audit, Washington, DC					       202-708-0364
Region 1			         Boston, MA						                    617-994-8380			
				                Hartford, CT						                  860-240-4800		
Region2			          New York, NY						                  212-264-4174			
				                Albany, NY						                    518-464-4200			
				                Buffalo, NY						                   716-551-5755			
				                Newark, NJ						                    973-622-7900
Region 3			         Philadelphia, PA					               215-656-0500			
				                Baltimore, MD						                 410-962-2520			
				                Pittsburgh, PA						                412-644-6372			
				                Richmond, VA						                  804-771-2100
Region 4			         Atlanta, GA						                   404-331-3369			
				                Miami, FL						                     305-536-5387			
				                Greensboro, NC					                 336-547-4001			
				                Jacksonville, FL					               904-232-1226			
				                Knoxville, TN						                 865-545-4369			
				                San Juan, PR						                  787-766-5202
Region 5			         Chicago, IL						                   312-353-7832			
				                Columbus, OH					                   614-469-5745			
				                Detroit, MI						                   313-226-6190
Region 6			         Fort Worth, TX						                817-978-9309			
				                Houston, TX						                   713-718-3199			
				                Oklahoma City, OK					              405-609-8606			
				                San Antonio, TX					                210-475-6898
Regions 7/8/10			   Kansas City, KS					                913-551-5870			
				                St. Louis, MO						                 314-539-6339			
				                Denver, CO						                    303-672-5452 			
				                Seattle, WA						                   206-220-5360
Regions 9			        Los Angeles, CA					                213-894-8016			
				                Phoenix, AZ						                   602-379-7250			
				                San Francisco, CA					              415-489-6400		
Region 11			        New Orleans, LA					                504-671-3715			
				                Jackson, MS						                   601-965-4700




                                 




190                                        HUD OIG Operations Telephone Directory
Office of Investigation
Headquarters Office of Investigation, Washington, DC				       202-708-0390
Region 1				                     Boston, MA					               617-994-8450			
					                            Hartford, CT					             860-240-4800			
					                            Manchester, NH				            603-666-7988
Region 2				                     New York, NY					             212-264-8062			
					                            Buffalo, NY					              716-551-5755		
Region 3				                     Philadelphia, PA				          215-656-0500			
					                            Newark, NJ					               973-776-7347 			
					                            Pittsburgh, PA					           412-644-6598		
Region 4				                     Atlanta, GA					              404-331-3359			
					                            Birmingham, AL				            205-731-2630			
					                            Columbia, SC					             803-451-4320			
					                            Knoxville, TN					            865-545-4369			
					                            Louisville, KY					           502-618-8127			
					                            Memphis, TN					              901-229-6997			
					                            Nashville, TN					            615-426-6171
Region 5				                     Chicago, IL					              312-353-4196			
					                            Indianapolis, IN				          317-226-5427			
					                            Minneapolis/St. Paul, MN			   612-370-3000
Region 6				                     Arlington, TX					            817-978-5440			
					                            Houston, TX					              713-718-3196			
					                            Little Rock, AR				           501-353-8115			
					                            Oklahoma City, OK				         405-609-8601			
					                            San Antonio, TX				           210-475-6819
Regions 7/8				                  Kansas City, KS				           913-551-5866			
					                            Denver, CO					               303-672-5350			
					                            Salt Lake City, UT				        801-524-6090			
					                            St. Louis, MO					            314-539-6559
Regions 9				                    Los Angeles, CA				           213-894-0219			
					                            Las Vegas, NV					            702-336-2144			
					                            Phoenix, AZ					              602-379-7255
Region 10				                    Seattle, WA					              206-220-5380			
					                            Billings, MT					             406-247-4080			
					                            Sacramento, MT				            916-930-5691			
					                            San Francisco, CA				         415-489-6683
Region 11				                    New Orleans, LA				           504-671-3701			
					                            Hattiesburg, MS				           601-299-4279			
					                            Jackson, MS					              601-965-5772
Region 13				                    Baltimore, MD					            410-962-4502			
					                            Greensboro, NC				            336-547-4000			
					                            Richmond, VA					             804-771-2100




HUD OIG Operations Telephone Directory                                            191
Region 14				   Tampa, FL					              813-228-2026			
					           Jacksonville, FL				        904-208-6126			
					           Miami, FL					              305-536-3087			
					           San Juan, PR					           787-766-5868
Region 15				   Cleveland, OH					          216-522-4421			
					           Columbus, OH				            614-469-6677			
					           Detroit, MI					            313-226-6280
						


                       




192                            HUD OIG Operations Telephone Directory
   Report fraud, waste, and mismanagement in HUD
             programs and operations by

        Calling the OIG hotline: 1-800-347-3735

         Faxing the OIG hotline: 202-708-4829

          Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

    E-mailing the OIG hotline: hotline@hudoig.gov

Internet:http://www.hud.gov/complaints/fraud_waste.cfm

            All information is confidential,
           and you may remain anonymous.
Semiannual Report to Congress
April 1, 2009, through September 30, 2009

www.hud.gov/offices/oig

No. 62	   HUD-2009-02-OIG
